APPENDIX TABLE OF CONTENTS
OPINIONS AND ORDERS
Opinion of the United States Court of Appeals for
the Federal Circuit (December 29, 2020) .......... 1a
Trial Opinion of the United States Court of
Federal Claims (October 12, 2019) .................. 12a
Opinion of the United States Court of Appeals for
the Federal Circuit (April 7, 2014) ................ 218a
REHEARING ORDER
Order of the United States Court of Appeals for
the Federal Circuit Denying Petitions for
Rehearing En Banc (March 17, 2021) ........... 251a
OTHER DOCUMENT
Federal Circuit Disposition of CFC Trial
Verdicts, 2001-20 ............................................ 254a
Federal Circuit Takings Analysis: Awards of
Money to Property Owners Were Affirmed
Only in Caquelin (Rtt) and Lost Tree, the
Other 79 Being Reversed or Remanded ........ 256a
Select Document Excerpts .................................... 263a
Indicative Summary of Terms for Secured Term
Loan Facility (December 19, 2008) ................ 267a

App.1a

OPINION OF THE UNITED STATES COURT OF
APPEALS FOR THE FEDERAL CIRCUIT
(DECEMBER 29, 2020)
UNITED STATES COURT OF APPEALS
FOR THE FEDERAL CIRCUIT
________________________
TAYLOR & SONS, INC., CEDRIC THEEL, INC.,
WHITEY’S, INC., RFJS COMPANY, LLC, JIM
MARSH AMERICAN CORPORATION, LIVONIA
CHRYSLER JEEP, INC., BARRY DODGE INC.,

Plaintiffs-Appellants,
ALLEY’S OF KINGSPORT, INC., ET AL.,

Plaintiffs,
v.
UNITED STATES,

Defendant-Appellee.
________________________
MIKE FINNIN MOTORS, INC.,
GUETTERMAN MOTORS, INC.,

Plaintiffs-Appellants,
ALLEY’S OF KINGSPORT, INC., ET AL.,

Plaintiffs,
v.
UNITED STATES,

App.2a

Defendant-Appellee.
________________________
No. 2020-1185, 2020-1205
On Appeal from the United States Court of Federal
Claims in Nos. 1:10-cv-00647-NBF, 1:11-cv-00100-NBF,
1:12-cv-00900-NBF, Senior Judge Nancy B. Firestone.
Before: DYK, TARANTO, and STOLL, Circuit Judges.
TARANTO, Circuit Judge.
Before mid-2009, the plaintiffs in these cases were
automobile dealers operating as franchisees of Chrysler
LLC. In that year, Chrysler filed a petition for reorganization in bankruptcy, and it rejected the franchise
agreements in the bankruptcy proceeding under 11
U.S.C. § 365. Plaintiffs sued the United States in the
Court of Federal Claims, alleging that the government
played a role in Chrysler’s rejection of the franchise
agreements that constituted a taking of their property,
requiring just compensation under the Takings Clause
of the Fifth Amendment to the United States Constitution. In 2014, agreeing with the Claims Court, we
allowed the case to proceed beyond the pleading stage.
A & D Auto Sales, Inc. v. United States, 748 F.3d
1142 (Fed. Cir. 2014). On remand, the Claims Court,
after a full trial, rejected the claims on two grounds—
first, that the government’s actions did not amount
to coercion of Chrysler’s decision to reject the franchise
agreements and, second, that plaintiffs did not prove
that the franchise agreements would have had value
but for those actions. Colonial Chevrolet Co, Inc. v.
United States, 145 Fed. Cl. 243 (2019) (Trial Opinion).

App.3a
On plaintiffs’ appeal, we now affirm on the latter
ground and do not address the former.
I
A
Taylor & Sons, Inc. (Taylor) and Mike Finnin
Motors, Inc. (Finnin) are two of the nine plaintiffsappellants, all of whom, like many other dealers, had
their franchise agreements with Chrysler rejected in
the 2009 Chrysler bankruptcy proceeding. Taylor and
six other plaintiffs-appellants have been called the
“Alley’s dealers,” and Finnin and one other plaintiffappellant have been called the “Colonial dealers,”
reflecting the names of the first-named plaintiffs in
the actions filed and consolidated in the Claims Court.
In late 2008, Chrysler, which had been experiencing significant difficulties that were exacerbated
by a general market crisis, sought financial assistance
from the federal government. The Department of the
Treasury entered into a Loan and Security Agreement
(Agreement) with Chrysler. The Agreement provided
for an immediate bridge loan (totaling $4 billion) to
Chrysler and also provided for further, more wideranging negotiations—in which the Treasury Department’s new Auto Team Task Force (Auto Team) was
to play a central role—aimed at enabling the Chrysler
business to continue operating over the long term.
J.A. 10460 (§ 7.20(b)). The Auto Team and Chrysler
ultimately agreed on a plan under which Chrysler
would file for reorganization, the government would
supply substantial funding during the bankruptcy
process, and a newly formed entity (to be owned in part
by Italian vehicle manufacturer Fiat) would take over

App.4a
the business. One issue discussed during the negotiations was reducing the number of Chrysler’s dealerfranchisees, which Chrysler had been doing for many
years through its “Project Genesis,” though more
gradually and with a greater role for franchisees’
choice than was now discussed. J.A. 10365–66, 10378–
82.
Chrysler filed for bankruptcy on April 30, 2009.

In re Chrysler LLC, 405 B.R. 84, 87–88 (Bankr.
S.D.N.Y. 2009). Two weeks later, on May 14, 2009,
Chrysler, as debtor-in-possession, invoked its right
under 11 U.S.C. § 365 to “assume or reject any executory contract” by filing a motion to approve rejection
789 franchise agreements, including those of the Alley’s
and Colonial dealers. Id. at 88. The bankruptcy court
approved the rejection on June 9, 2009, effective immediately, with the result that the now-former franchisees
could no longer exercise franchise-agreement rights,
such as holding themselves out as authorized Chrysler
dealers and providing warranty-covered service for
which Chrysler would pay. Order Rejecting Executory
Contracts, In re Chrysler LLC, No. 09-50002, ECF
No. 3802 (Bankr. S.D.N.Y. 2009).
B
Following rejection of their franchise agreements,
plaintiffs filed the present actions, alleging that the
federal government had committed a taking by its
actions that assertedly coerced Chrysler’s rejection of
the franchise agreements in bankruptcy. When the
government moved to dismiss the claims for failure to
state a claim, the Claims Court denied the motion,
Colonial Chevrolet Co., Inc. v. United States, 103 Fed.
Cl. 570 (2012); Alley’s of Kingsport, Inc. v. United

App.5a

States, 103 Fed. Cl. 449 (2012), but granted the government’s motion for interlocutory appeal, Colonial
Chevrolet Co., Inc. v. United States, 106 Fed. Cl. 619
(2012); Alley’s of Kingsport, Inc. v. United States, 106
Fed. Cl. 762 (2012).
On the interlocutory appeal, we affirmed the denial of dismissal and remanded the case. A & D Auto
Sales, 748 F.3d at 1147, 1159. We concluded that
plaintiffs had alleged sufficient facts for the takings
claim to pass muster at the motion-to-dismiss stage,
save for their failure to allege a loss of economic
value because the complaints “d[id] not sufficiently
allege that the economic value of the plaintiffs’
franchises was reduced or eliminated as a result of
the government’s actions.” Id. at 1147. And we
remanded with instructions to grant plaintiffs leave
to amend their complaints to allege economic loss of
“but-for economic use or value” in the absence of government financing. Id. at 1157–58.
On remand, the complaints were amended, then
the case proceeded through discovery and a trial,
after which the Claims Court entered findings of fact
and conclusions of law that rejected the dealers’
takings claims on two grounds, each sufficient for
judgment against the dealers. The court ruled first
that the challenged government actions that led to
Chrysler’s franchise terminations—focused on conditions the government placed on its provision of
funding—did not constitute a taking because those
actions did not rise to the level of “coercion” as the
trial court understood our holding in A&D Auto
Sales. Trial Opinion, 145 Fed. Cl. at 249, 316–22.
The Claims Court also ruled that, in any event, the
taking claim failed on a separate ground: the dealers

App.6a
failed to prove that their franchise agreements would
have had positive value in a “but for world” without
the government’s challenged actions. Id. at 249, 322–
24.
The Claims Court entered final judgment against
the dealers on October 2, 2019. The dealers timely
appealed. We have jurisdiction under 28 U.S.C.
§ 1295(a)(3).
II
Whether government action constitutes a compensable taking is a question of law based on factual
underpinnings. See Wyatt v. United States, 271 F.3d
1090, 1096 (Fed. Cir. 2001). We review the Claims
Court’s legal conclusions de novo and its factual findings for clear error. Reoforce, Inc. v. United States,
853 F.3d 1249, 1265 (Fed. Cir. 2017). Findings of fact
are “clearly erroneous” when “the reviewing court on
the entire evidence is left with the definite and firm
conviction that a mistake has been committed.”
Gadsden Indus. Park, LLC v. United States, 956 F.3d
1362, 1368 (Fed. Cir. 2020) (internal quotation marks
and citations omitted). “‘The fact-finder has broad
discretion in determining credibility’” of witnesses.
J.C. Equip. Corp. v. England, 360 F.3d 1311, 1315
(Fed. Cir. 2004) (quoting Bradley v. Sec’y of Health &
Human Servs., 991 F.2d 1570, 1575 (Fed. Cir. 1993)).
On appeal, plaintiffs challenge both of the Claims
Court’s rulings. We conclude that the Claims Court
committed no reversible error in determining that
the dealers failed to prove a positive value that their
franchise agreements would have had but for the
challenged government actions. That conclusion suffices

App.7a
for affirmance. We do not reach the Claims Court’s
no-coercion ruling.
The Fifth Amendment states: “nor shall private
property be taken for public use, without just compensation.” U.S. Const. amend. V. There is no compensable
taking when the alleged economic impact of the
government action has not resulted in a diminution
in value. See A&D Auto Sales, 748 F.3d at 1157
(collecting cases); see also Love Terminal Partners,
L.P. v. United States, 889 F.3d 1331, 1342 (Fed. Cir.
2018); Cienega Gardens v. United States, 331 F.3d
1319, 1340 (Fed. Cir. 2003).1 “It is the property owner
who bears the burden of proving an actual loss has
occurred”; the property owner must “show actual
damages ‘with reasonable certain[t]y,’ which ‘requires
more than a guess, but less than absolute exactness.’”
Gadsden, 956 F.3d at 1371 (quoting Otay Mesa Prop.,
L.P. v. United States, 779 F.3d 1315, 1323 (Fed. Cir.
2015)) (cleaned up).
The trial court did not clearly err in finding that
the dealers failed to meet their burden. The dealers
have conceded that Chrysler would have petitioned
for bankruptcy, and proceeded to liquidate, in a hypothetical, but-for world without government financial
assistance. Trial Opinion, 145 Fed. Cl. at 247; Alley’s
Op. Br. 44; Colonial Op. Br. 36. The dealers’ but-for1 In their opening brief, the Colonial dealers argue that the government actions at issue were “a per se direct taking, akin to a physical
taking,” Colonial Op. Br. 38–39, but they present no argument
that this characterization, even if correct, modifies their burden
to prove the loss in value of the franchise agreements but for
the challenged government actions. We therefore apply the lossin-value requirement here without regard to other issues about
the proper characterization of the claim for takings analysis.

App.8a
world valuations of the franchise agreements—presented by experts Diane Anderson Murphy and Edward
Stockton—rested on premises about how Chrysler or
a bankruptcy trustee would have treated the franchise agreements in such a liquidation. The Claims
Court rejected those crucial premises about the butforworld franchise treatment as unsupported and
unpersuasive. Trial Opinion, 145 Fed. Cl. at 319, 322–
24. We see no basis for reversing that determination,
which leaves plaintiffs with no reliable proof of the
but-for-world value they must establish.
The Claims Court found that “a trustee in bankruptcy would have rejected all franchise agreements
to protect the assets of the bankruptcy estate.” Trial
Opinion, 145 Fed. Cl. at 323. The evidence supports
that finding. Donald MacKenzie, one of the government’s expert witnesses, testified that “Chrysler
could not have paid its dealers for any warranty service
performed after the [bankruptcy] petition date, nor
could the company have provided assurance of future
performance under the dealer franchise agreements,”
due to the company’s high debt. Testimony of Donald
MacKenzie, Tr. 4076:10–14 (May 3, 2019), No. 1:10cv-00647, ECF No. 480; id. at 4045:15–19; see Trial
Opinion, 145 Fed. Cl. at 319, 323. There was evidence
that Chrysler, in an unassisted liquidation, would
have ceased production and other activities. Trial
Opinion, 145 Fed. Cl. at 294. With context-describing
support from former Bankruptcy Judge Gerber, Mr.
MacKenzie also testified that Chrysler’s obligation
under the franchise agreements to purchase back
unsold vehicles and parts in the event of termination
(triggered by a discontinuance of production, J.A.
10113) was a liability that, consistent with fiduciary

App.9a
and trustee duties, would have been avoided in a
liquidation by a rejection of the franchise agreements.
See Trial Opinion, 145 Fed. Cl. at 307–09, 319, 323–
324. The Claims Court reasonably found that, in a
liquidation (in a but-for world), the franchise agreements of plaintiffs would have been rejected.
That finding amply supports the Claims Court’s
refusal to credit the valuation opinions of the plaintiffs’
experts. The valuation opinion of Ms. Murphy, for the
Alley’s dealers, rested on the contrary assumption—
that the franchise agreements would not have been
rejected in a liquidation, so that the dealerships would
have continued to operate as Chrysler dealerships
and sell Chrysler vehicles. See, e.g., id. at 254–255,
284; Testimony of Diane Anderson Murphy, Tr. 1749:
4–7 (Apr. 15, 2019), No. 1:10-cv-00647, ECF No. 462
(“Q. Your valuation certainly assumes that the
dealers will last more than five years, correct? A. The
dealership would last more than five years, yes.”); id.
at 1750:1–6 (“You write . . . ‘even in the absence of
Government funding and Chrysler having entered
bankruptcy, the franchise agreements of the Chrysler
franchisees would remain in full force and effect.’
Correct? A. Yes.”). The same is true of the valuation
testimony of the Colonial dealers’ valuation expert
Mr. Stockton. See Trial Opinion, 145 Fed. Cl. at 323.
There also were other unpersuasive assumptions
built into the opinions of the dealers’ valuation experts.
For example, the Claims Court found a number of
additional assumptions by Ms. Murphy unsupported
by the evidentiary record, Trial Opinion, 145 Fed. Cl.
at 323 n.46—a finding not challenged on appeal. The
Claims Court, relying on testimony of Mr. MacKenzie
and others, rejected, as well, the assumption embedded

App.10a
in Mr. Stockton’s valuation that the federal government would have chosen to continue to cover Chrysler
warranties after Chrysler began to liquidate. Id. at
303 n.41, 319, 323. Further, based on the fact that
the property at issue here consists of contract rights,
see Taylor v. United States, 959 F.3d 1081, 1087
(Fed. Cir. 2020) (noting Takings Clause precedents
involving contract rights)—specifically, the plaintiffs’
rights under their franchise agreements—the Claims
Court noted that Ms. Murphy testified that her
calculations included tangible property beyond the
rights in the franchise agreements, see J.A. 21797
(Tr. 1542:2–22), yet her opinion “did not separately
analyze how these tangible assets contributed to the
plaintiff’s income stream profits, separate from the
franchise agreement allegedly taken,” Trial Opinion,
145 Fed. Cl. at 322. The same was true of Mr. Stockton’s valuation, which he testified included, beyond
the terms of the franchise agreements, “other elements
of value associated with franchise operations.” Trial
Opinion, 145 Fed. Cl. at 286; see also J.A. 22611
(Tr. 2356:15–16). “[W]hat was important was for the
focus to be on awarding just compensation for exactly
what had been taken in the case.” Otay Mesa Prop.,
L.P., 779 F.3d at 1320. The Claims Court reasonably
found the testimony of the dealers’ experts not
adequately so focused.
We conclude that the record supports the Claims
Court’s rejection of crucial assumptions of the plaintiffs’
experts and finding that the plaintiffs did not provide
a reliable proof that, in the but-for world, the franchise
agreements would have had a positive value. The
Claims Court’s finding is not clearly erroneous. And
contrary to the Colonial dealers’ contention, Colonial

App.11a
Op. Br. 51–52, the finding of no proof of but-for-world
value of the specific property at issue does not rest
on any exclusion by the Claims Court of a legally
legitimate method of proving value. The variations in
methodology discussed by the Colonial dealers are
immaterial given the Claims Court’s well-supported
rejection of the plaintiffs’ experts’ assumption about
the treatment of the franchise agreements in the
liquidation that would concededly have occurred in
the but-for world.
We have considered the dealers’ remaining arguments and find them unpersuasive.
III
For the foregoing reasons, we affirm the trial
court’s judgment.
AFFIRMED

App.12a
TRIAL OPINION OF THE UNITED STATES
COURT OF FEDERAL CLAIMS
(OCTOBER 12, 2019)
IN THE UNITED STATES
COURT OF FEDERAL CLAIMS
________________________
COLONIAL CHEVROLET CO., INC., ET AL.,

Plaintiffs,
v.
THE UNITED STATES,

Defendant.
________________________
ALLEY’S OF KINGSPORT, INC., ET AL.,

Plaintiffs,
v.
THE UNITED STATES,

Defendant.
________________________
UNION DODGE, INC., ET AL.,

Plaintiffs,
v.
THE UNITED STATES,

Defendant.

App.13a
________________________
Nos. 10-647C, 11-100C, and 12-900C
Fifth Amendment Taking; Government
Action Through Coercion; Economic
Value in a “But For World”
Before: Nancy B. FIRESTONE, Senior Judge.
FIRESTONE, Senior Judge.
This action was brought by car dealers that had
their franchise agreements with Chrysler LLC (“Old
Chrysler” or “Chrysler”) rejected when Old Chrysler
went into bankruptcy during the Great Recession in
April 2009.1 These car dealer plaintiffs claim that
the United States Government (“government”) is
liable for taking their franchise agreements without
just compensation in contravention of the Fifth
Amendment. They claim the government is liable
because the government through its actions coerced
Chrysler into filing for bankruptcy under a government
negotiated prepackaged bankruptcy plan, which called
for a reduction in Chrysler’s franchise network. The
reduction was accomplished through the rejection in
the bankruptcy of 789 franchise agreements, including
plaintiffs’ agreements.2 Plaintiffs claim that had the
1 The court’s use of the terms “Old Chrysler” or “Chrysler” in
this opinion refer to Chrysler before it filed for bankruptcy in
2009. The term “New Chrysler” will be used to refer to the
Chrysler that emerged after the 2009 bankruptcy. The court follows
the same approach for Old General Motors, “Old GM” or “GM,”
to refer to the company before it filed for bankruptcy in 2009.

2 Under the Bankruptcy Code, 11 U.S.C. § 365, a debtor or bankruptcy trustee “may assume or reject any executory contract . . .

App.14a
government not gotten involved in the Chrysler bankruptcy their franchise agreements would not have
been rejected by Chrysler in bankruptcy but would
have been assumed by the owner of New Chrysler.
The taking claims addressed in this decision
trace back to three separate lawsuits, Case Nos. 10647, 11-100 and 12-900, filed by three groups of plaintiffs that owned franchise agreements with either
Old Chrysler or Old General Motors and that had
their franchise agreements rejected in the Chrysler
and GM bankruptcies. The first of these three lawsuits,
Colonial Chevrolet Co., was filed on September 27,
2010 and the government moved to dismiss the
lawsuit on January 21, 2011. On February 27, 2012
the government’s motion to dismiss was denied and
the case was certified for interlocutory appeal. Colonial
Chevrolet Co., Inc. v. United States, 103 Fed. Cl. 570
(2012); Colonial Chevrolet Co., Inc. v. United States,
106 Fed. Cl. 619, 622 (2012). During the Federal
Circuit’s interlocutory review, two later filed cases,
Alley’s of Kingsport, Inc. and Union Dodge, Inc.
(Case Nos. 11-100 and 12-900) were stayed pending
the Federal Circuit’s decision in Colonial Chevrolet Co.
On April 7, 2014, the Federal Circuit issued its
decision affirming the denial of the government’s
motion to dismiss. A&D Auto Sales, Inc. v. United
States, 748 F.3d 1142 (Fed. Cir. 2014). The Circuit
held that the plaintiffs had alleged sufficient facts to
support potential Fifth Amendment taking claims
based on a theory of coercion. The Circuit also held,
of the debtor.” The franchise agreements at issue in this case
are executory contracts that were rejected in bankruptcy by the
debtor, Chrysler.

App.15a
however, that the plaintiffs had failed to allege sufficient facts to show that their franchise agreements
would have had economic value in a “but for world”
where the government had not provided financial
assistance to Chrysler or GM.3
Regarding a taking by coercion, the Federal
Circuit indicated that if the plaintiffs could establish
that Chrysler’s decision to enter bankruptcy under
terms negotiated by the government was not voluntary,
a potential taking may be found. Id. at 1154. The
Circuit identified several cases where a party’s actions
affecting the property of third parties was found to
be attributable to government pressure and thus a
possible taking under a theory of government coercion.
Id. at 1154-55. Based on the plaintiffs’ allegations of
Chrysler and GM seeking government assistance
during the Great Recession in late 2008 and early
2009, the Circuit listed several “circumstances” it
deemed potentially relevant to the issue of coercion
including but not limited to (1) whether the government
insisted on the franchise terminations or targeted
franchisees for termination, (2) whether the franchise
terminations would have occurred in any event, (3)
whether government financing was essential to
Chrysler, and (4) whether the government had a role
in creating the economic circumstances alleged to
have given rise to coercion. Id. at 1155. But the
Circuit also noted that if the government was acting
3 The concept of the “but for world” is derived from the Federal

Circuit’s discussion of economic value in A&D Auto Sales. 748
F.3d at 1158-59. As the Circuit explained, in a regulatory
taking case, plaintiffs have the burden of showing what value
their property would have had in the absence of government
action. Id.

App.16a
only as a lender to Chrysler and GM and negotiated
bankruptcy terms necessary to protect the government’s
financial interests, the government might not be
liable for a taking. Id. at 1156-57.
Regarding plaintiffs’ failure to allege that their
franchise agreements had economic value, the Circuit
explained that to prove a taking the plaintiffs would
need to establish that their franchise agreements
would have had value in a hypothetical “but for world”
where the government had not provided financial
assistance to Chrysler or GM. Id. at 1157-59. If
plaintiffs’ franchise agreements would not have had
value in a “but for world” without government assistance, the Circuit explained, the government did not
“take” anything of value and cannot be liable for a
“taking.” Id. The Circuit remanded the case to this
court to allow plaintiffs the opportunity to amend
their complaints to include allegations of value in a
“but for world” without government assistance. Id. at
1158-59.
On September 15, 2014, the plaintiffs in all three
above-captioned cases filed amended complaints in
which they posited that their franchise agreements
would have had value under several “but for world”
scenarios in which the government did not provide
financial assistance to Chrysler or GM. Colonial
Chevrolet Co., Inc. v. United States, 123 Fed. Cl. 134,
140-46 (2015). The government moved to dismiss the
amended complaints claiming that plaintiffs’ “but
for” assumptions were either implausible or barred
by A&D Auto Sales. Id. On September 9, 2015, this
court granted in part and denied in part the government’s motion, holding that certain of plaintiffs’ “but
for world” scenarios were consistent with the Federal

App.17a
Circuit’s decision in A&D Auto Sales. Id. The court
also severed the GM plaintiffs from the Chrysler
plaintiffs and put the GM plaintiffs’ claims on a separate discovery timetable.
Following this court’s decision granting in part
and denying in part the government’s motion to
dismiss, the court, on December 4, 2015, consolidated
the three above-captioned lawsuits for the purposes
of case management, discovery, and for trial on the
merits of the Chrysler plaintiffs’ taking claims. On
April 6, 2016, this court denied the Chrysler plaintiffs’
motion for class certification. Thereafter, the parties
chose 10 representative Chrysler plaintiffs for purposes
of discovery and trial. One of the Chrysler representative plaintiffs withdrew from the litigation prior to
the commencement of trial leaving nine representative plaintiffs.
The nine representative plaintiffs were divided
into two groups: the Alley’s group with seven plaintiffs
including Taylor & Sons, Inc., Cedric Theel, Inc.,
Whitey’s Inc., RFJS Company, Jim Marsh American
Corp., Livonia Chrysler Jeep, Inc., Barry Dodge, Inc.,
and the Colonial group with two plaintiffs including
Guetterman Motors, Inc. and Mike Finnin Motors,
Inc. The two groups of plaintiffs are represented by
different attorneys and sometimes relied on different
evidence to prove their taking claims.
Trial to determine principally whether there
was government action through coercion and whether
plaintiffs’ franchise agreements would have had
economic value in a “but for world” without government
assistance was held in Washington, D.C. between
April 8, 2019 and May 8, 2019. Post-trial arguments
were held on June 19, 2019 and June 20, 2019. During

App.18a
trial the court heard testimony from 36 witnesses
and received 542 exhibits into evidence.
Importantly, at trial the representative plaintiffs
did not focus their coercion evidence on Chrysler
being forced to accept the government’s negotiated
bankruptcy terms (including a reduction in Chrysler
franchises) because Chrysler needed the government’s
financial assistance, as the Federal Circuit had
assumed in A&D Auto Sales. 748 F.3d at 1155. Instead,
plaintiffs presented opinion testimony to the effect
that Chrysler did not need the government’s financial
assistance. Plaintiffs’ experts conceded that Chrysler
would have had to file for bankruptcy in 2009. However, they opined that Chrysler would have had more
options in bankruptcy than the one option negotiated
by the government. According to plaintiffs’ experts,
Chrysler was coerced because Chrysler was left with
no alternative but to accept the government’s assistance after the government took over negotiations
with Chrysler’s creditors and others in early 2009.
Plaintiffs’ evidence to prove coercion by government action was somewhat conflicting at trial. On
the one hand, the plaintiffs introduced evidence to
show that Chrysler did not wish to enter bankruptcy
but instead wanted the government to loan Chrysler
billions of dollars outside of bankruptcy. The plaintiffs
relied on this evidence to show (among other things)
that the government, not Chrysler, wanted to use
bankruptcy to reduce Chrysler’s franchise network
by rejecting plaintiffs’ franchise agreements, rather
than pursuing voluntary franchise terminations consistent with state law.
On the other hand, the plaintiffs conceded that
Chrysler could not have avoided bankruptcy in 2009

App.19a
and built both their coercion and economic value
theories around this concession. The plaintiffs offered
expert opinions to support a coercion theory based on
the assumption that there were many companies
interested in purchasing Chrysler in late 2008 and
early 2009, during the Great Recession. According to
plaintiffs’ experts, these potential purchasers would
have kept Chrysler open during a Chrysler bankruptcy
and would not have had any reason to reject any
franchise agreements. Plaintiffs introduced evidence
to show that the government took over negotiations
with Chrysler’s creditors, worker unions, and suppliers
to accomplish the government’s public policy goals of
saving jobs and pensions. The plaintiffs asserted that
their evidence demonstrated that the decision to
reduce the Chrysler franchise network involuntarily
in bankruptcy was in furtherance of these policy
goals and was never part of Chrysler’s own franchise
reduction plans.
Plaintiffs also claimed that their franchise agreements would have had economic value in a “but for
world” where Chrysler did not accept government
assistance but was able to enter bankruptcy outside
the terms negotiated by the government. Specifically,
plaintiffs presented expert valuation testimony to
show that their franchise agreements would have
had value in a “but for world” without government
assistance because their franchise agreements would
never have been rejected in a bankruptcy.
The Alley’s plaintiffs presented expert opinion
testimony to show that if Chrysler had entered bankruptcy without government assistance the outcome for
Chrysler would have been very similar to the bankruptcy with government assistance, but with all

App.20a
franchisees remaining Chrysler franchisees. According
to the evidence presented by the Alley’s plaintiffs,
franchises had value in a “but for world” because
franchisees would have had retained all their income
streams, including new car sales, used car sales,
warranty and other services. They also presented
expert valuation testimony to the effect that that
their income from these sources would have continued
for years because any new Chrysler owner would have
assumed their franchise agreements in bankruptcy.
The Colonial plaintiffs also presented expert opinion evidence to show that their franchise agreements
would have had value in a “but for world.” The
Colonial expert also opined that franchisees would
have been able to generate profits from various
income streams during a Chrysler bankruptcy without
government assistance. The Colonial plaintiffs, however, did not claim that their franchise agreements
had a “fair market value,” as the Alley’s plaintiffs’
claimed. Rather, the Colonial plaintiffs’ expert set
forth various “but for world” values based on the
anticipated profits those plaintiffs would have received
from being able to sell their remaining Chrysler
inventory and used cars, and from performing warranty
and other service work.
The government presented fact and expert evidence to refute the Alley’s and Colonial plaintiffs’
claims of government liability based on coercion and
on economic value. The government presented evidence
to show that the government did not force Chrysler
into bankruptcy or into rejecting any of the plaintiffs’
franchise agreements. The government presented
undisputed evidence to show that Chrysler had been
working to reduce its franchise network for years

App.21a
and that Chrysler, not the government, identified the
number and names of the franchise agreements to be
rejected in bankruptcy.
The government also presented evidence from
government and Chrysler witnesses to show that
Chrysler’s decision to enter bankruptcy under government negotiated bankruptcy terms was based on
Chrysler’s best business judgment after consideration
of its options. The government presented undisputed
testimony from Chrysler and government witnesses
to confirm that the government did not directly
threaten or force Chrysler to accept the government’s
bankruptcy plan. The undisputed evidence established
that the government was willing to allow Chrysler to
pursue bankruptcy with limited government assistance
if it wished to proceed in bankruptcy on its own. In
fact, the government offered Chrysler $750 million to
help finance a wind-down if Chrysler wished to
pursue other bankruptcy options. The undisputed
evidence also made clear that if all of Chrysler’s
creditors had agreed to the government’s terms, the
government would have given Chrysler financial
assistance outside of bankruptcy.
The government also presented undisputed testimony from Chrysler witnesses to show that Chrysler’s
financial problems pre-dated the Great Recession.
The undisputed evidence established that Chrysler
had started to look for a partner or alliance in 2007
because Chrysler knew it was not viable without an
alliance with a company having a small car fleet. The
testimony established that no car manufacturer was
interested in joining forces with Chrysler in 2007
other than Fiat, and that Fiat made clear that it was

App.22a
not willing to offer Chrysler the financial assistance
Chrysler needed.
The government further presented expert opinion
evidence to show that the assumptions the Alley’s
and Colonial plaintiffs’ experts relied on to establish
that Chrysler could have remained open during a
bankruptcy without government assistance and would
not have rejected any franchise agreements were not
supported by facts. The government presented expert
evidence to establish that there were no potential
purchasers of Chrysler in 2009. The government also
presented expert evidence to confirm that, without
government funding, Chrysler would not have been able
to remain operational during a bankruptcy. According
to the government’s expert witnesses, Chrysler would
have faced immediate liquidation under Chapter 7 of
the Bankruptcy Code if it had not received government assistance and would have had to immediately
close its factories and reject all of its franchise
agreements. Based on this evidence the government
asserted that Chrysler’s decision to accept the government’s bankruptcy plan was made voluntarily and
was not coerced.
Regarding economic value, the government’s
experts opined that, in the “but for world” without
government assistance, all of Chrysler’s factories and
parts depots would have closed. The experts opined
that in the “but for world” there would have been no
new cars to sell, paid warranty work or Chrysler parts.
According to the government’s experts, in the “but for
world” without government assistance, Chrysler would
have been forced into liquidation and the bankruptcy
trustee would have rejected all Chrysler franchises.
As such, the government’s experts concluded, none

App.23a
of Chrysler’s franchise agreements would have had
economic value.
As discussed in the opinion that follows, the court
finds, after considering all of the fact and expert
evidence, that the plaintiffs failed to establish by a
preponderance of the evidence that the United States
by its actions coerced Chrysler into filing for bankruptcy under the government’s negotiated bankruptcy
terms or into rejecting any of the plaintiffs’ Chrysler
franchise agreements in the Chrysler bankruptcy.4
The evidence established that the government did not
force Chrysler to accept its bankruptcy terms. The
evidence established that the government was willing
to give $750 million to Chrysler if Chrysler wished to
proceed to bankruptcy alone.
The government’s evidence also established that
the government through its actions did not interfere
with potential acquirers from coming forward to
purchase Chrysler in bankruptcy. The evidence
established that none of the potential acquirers the
plaintiffs’ identified were interested or capable of
purchasing Chrysler in April 2009. The evidence
established that Chrysler accepted the government’s
prepackaged bankruptcy plan based on Chrysler’s
best business judgment after consideration of its
options. The evidence further established that had
the government not provided financial assistance to
Chrysler, Chrysler would have been forced into liquida4 The plaintiffs conceded that Chrysler was not acting as the
government’s agent in this case. Tr.4821:25-4822:5. Thus their
entire case hinged on their proving the government by its
actions coerced Chrysler into entering bankruptcy under prepackaged terms negotiated by the government.

App.24a
tion under Chapter 7 of the Bankruptcy Code and
that, in that circumstance, all of plaintiffs’ franchise
agreements would have been rejected by the bankruptcy trustee. The evidence thus established that
Chrysler’s decision to accept the government’s
prepackaged bankruptcy terms was a voluntary
decision and not coerced.
Because the evidence established that Chrysler
would have faced immediate liquidation in a Chapter
7 bankruptcy without government assistance, the
court also finds that plaintiffs failed to prove their
franchise agreements would have had value in a “but
for world” without government assistance. The evidence
established that in a Chapter 7 bankruptcy all of
Chrysler’s franchise agreements would have been
rejected by the bankruptcy trustee to preserve the
assets of the bankruptcy estate and that plaintiffs’
franchise agreements would have had no economic
value in that circumstance. Thus, plaintiffs failed to
prove that any property of value was “taken” from
them.5
In reaching these conclusions, as discussed in
the opinion, the court is mindful of the testimony it
heard from the owners of each representative franchise
and appreciates the sense of betrayal they felt when
they learned that Chrysler had decided to reject their
franchise agreements in the April 2009 Chrysler
bankruptcy. The court sympathizes with many of
5 Because the court reaches these conclusions, the court does
not discuss in this opinion other issues presented at trial as to
whether the taking alleged by the plaintiffs was a per se taking
or should be evaluated under the Penn Central factors. See
A&D Auto Sales, 748 F.3d at 1151, 1159.

App.25a
these owners who testified as to how the loss of their
franchise agreements devastated not only their businesses but their lives. Nonetheless, the court was
tasked with deciding whether the plaintiffs proved
that the United States coerced Chrysler into rejecting
their franchise agreements and whether their franchise
agreements would have had any value during the
Great Recession in a “but for world” without the government’s financial assistance. For the reasons
discussed below, the court was compelled to find that
the plaintiffs did not meet their burden and it is for
those reasons that plaintiffs’ taking claims have been
rejected.
The court’s opinion begins with a lengthy summary
of the evidence presented followed by detailed findings
of fact and conclusions of law as follows: (I) Summary
of the Individual Plaintiffs’ Testimony and Claims,
(II) Summary of the Plaintiffs’ Evidence, (III) Summary
of the Government’s Evidence, and, finally, (IV)
Findings of Fact and Conclusions of Law.
I.

Summary of Individual Plaintiffs’ Testimony and
Claims

Based on the evidence summarized below, the
court has made the following findings regarding the
terms of the plaintiffs’ franchise agreements, the
profitability of their franchises before their Chrysler
franchise agreements were rejected in the Chrysler
bankruptcy, Chrysler’s justification for rejecting their
franchise agreements in bankruptcy, and their participation or decision not to participate in an arbitration program established by Congress after the Chrysler bankruptcy to allow Chrysler franchisees to seek
reinstatement as New Chrysler franchisees. The court

App.26a
also summarizes the amount each plaintiff claims as
just compensation based on their experts’ valuations.
A. Taylor & Sons Inc.
Gregory Taylor testified on behalf of the Taylor
& Sons, Inc. (“Taylor”) dealership, which for the years
at issue was located at 300 Cedar Street in Sandpoint,
Idaho. Taylor was incorporated under Idaho state
law. The dealership included Chrysler, Dodge, and
Jeep franchises at the time of the alleged taking.
Taylor also had a GM franchise allowing it to sell
Chevrolet vehicles at the time of the alleged taking of
its Chrysler franchises. Taylor operated its
Chrysler/Dodge/Jeep and Chevrolet dealership under
the same roof from 1988 until 2009. Taylor continues
to sell Chevrolet vehicles under its franchise agreement
with New GM.
Taylor was formed in August 1988 and when it
purchased a majority interest in an existing Chevrolet,
Oldsmobile, Chrysler, Dodge, and Plymouth dealership.
In September 1988, Taylor was awarded a new
Chrysler franchise agreement, a new Plymouth franchise agreement,6 and a new Dodge franchise agreement. PX162 (Chrysler, Plymouth, and Dodge Agree6 Chrysler stopped producing Plymouth cars in 2001 and
terminated all Plymouth franchises, including the Taylor franchise,
on September 30, 2001. Taylor, along with all other Plymouth
franchise holders, received a letter from Chrysler on September
19, 2000, a year before the termination, informing them that
the Plymouth line would end with the 2001 model year. In
these letters, Chrysler agreed, consistent with the terms of the
Plymouth franchise agreements, to buy back all new vehicles,
parts, accessories, and signs from terminated Plymouth franchise
holders.

App.27a
ments). In June 1998, Taylor was awarded a Jeep
franchise which was subject to the same terms as the
Chrysler, Plymouth, and Dodge franchise agreements. DX39 (Jeep Agreement).
The Chrysler, Dodge, and Jeep franchise agreements Taylor entered into with Chrysler were virtually
identical. Entitled “Sales and Service Agreements,”
the franchise agreements provided Taylor with the
“right to order and purchase from [Chrysler] and to
sell at retail . . . those specific models of [Chrysler]
vehicles . . . listed on the Motor Vehicle Addendum[.]”
PX162 (Chrysler and Dodge Agreements), DX39 (Jeep
Agreement). The Motor Vehicle Addendum (“MVA”)
to Taylor’s Chrysler franchise agreement allowed it to
sell “[a]ll passenger cars of the Chrysler line-make.”
PX162. The MVA to the Dodge franchise agreement
allowed it to sell “[a]ll passenger cars of the Dodge
line-make” and “[a]ll trucks of the Dodge line-make.”
PX162. The MVA for the Jeep dealership allowed
Taylor to sell “all trucks in the Jeep Line-make.” DX39.
In addition to allowing Taylor to sell the abovementioned Chrysler vehicles, the agreement also
contained a “Sales Locality” provision which identified
the “territory of DEALER’s responsibility for the sale
of [Chrysler, Dodge or Jeep] vehicles, vehicle parts
and accessories.” PX162; DX39. Taylor’s sales locality
ranged from twenty-five to seventy-five miles from
its dealership depending on the direction and county
boundaries. In the same Sales and Service Agreement,
Taylor agreed to build a facility in a specific area
meeting the requirements set forth by Chrysler for
“new and used vehicle display areas, salesrooms,
service areas, parts and accessories areas, building
exterior and grounds [that would be] satisfactory to

App.28a
[Chrysler] as to appearance and layout, and [that
would] be maintained and used as set forth in the
Dealership Facilities and Location Addendum.”
DX1424.
Taylor’s franchise agreements with Chrysler also
required that it agree to “service [Chrysler] vehicles
actively and effectively and provide and maintain, for
servicing [Chrysler] vehicles, adequate facilities
equipped with the basic tools common to the trade
and with special tools and equipment peculiar to
[Chrysler] products and necessary for servicing and
repairing specified [Chrysler] vehicles proper, efficiently, and competitively.” Id. As part of its service
obligation to Chrysler, Taylor was further required to
“cause its service personnel to receive such training
from time to time required by [Chrysler] to maintain
their technical expertise to render competent customer
service, including the use of improved methods of
repair, or the repair of new parts or systems, developed
by [Chrysler].” Id. Furthermore, the franchise agreements required Taylor to “at all times keep on hand
. . . the number and assortment of [ ] parts that in
[Chrysler’s] judgment is necessary to meet the service
requirements and to meet all of [the] obligations” under
the franchise agreement. Taylor’s franchise agreements
also required franchisees to “submit to [Chrysler], in
such manner, in such form, and at such times as
[Chrysler] may reasonably request, complete and accurate reports of sales and stocks of new and used
vehicles on hand and other reports, including monthly
financial statements and operating reports.” Id. These
reports were admitted into evidence as exhibits
PX181, PX187, PX188, PX189, PX182, PX184 for the
years between 2004 and 2009 and included informa-

App.29a
tion on each of the following income streams: (1) new
car sales, (2) used car sales, (3) warranty service
work, (4) customer pay service work, (5) miscellaneous
(body shop, finance and insurance, etc.).
Finally, each of Taylor’s franchise agreements
identified standardized additional terms regarding
Chrysler and Taylor’s rights in the event of termination.
Paragraph 28 describes the various ways in which
Chrysler and a dealer can terminate the franchise:
(a) DEALER may terminate this Agreement
on not less than thirty (30) days written
notice. (b) [Chrysler] may terminate this
Agreement on not less than (60) days written
notice for the following reasons: . . . failure
of DEALER to meet its minimum service
satisfaction requirements . . . failure of DEALER to perform fully any of DEALER’s
undertakings or obligations as set forth in
this Agreement . . . the conviction of DEALER
. . . of any crime . . . impairment of the reputation or financial standing of DEALER
. . . (c) Notwithstanding the provision above
this Agreement will terminate automatically
without notice from either party on: . . . (v)
the discontinuance by [Chrysler] of the
production or distribution of all [Chrysler]
vehicles listed on the Motor Vehicle Addendum[.]
DX1424.
Under the agreements, if Chrysler terminates a
franchise pursuant to Paragraph 28, Chrysler agreed
to buy and DEALER agrees to sell, free and
clear of any liens and encumbrances, within

App.30a
ninety (90) days after the effective date of
any termination under Paragraph 28: (a) All
new, unused and unsold specified [Chrysler]
vehicles . . . (b) All new, unused and undamaged [Chrysler] parts that are priced and
identified as eligible for return . . . (c) All
new, unused and undamaged [Chrysler]
accessories or accessories packages for the
yearly model current at the effective date of
termination . . . (d) All signs of a type required
by [Chrysler] belonging to DEALER, showing
the name ‘Chrysler Corporation’ or one of
the designated trade names applicable only
to [Chrysler] products or [Chrysler’s] affiliated
companies . . . (e) Special tools (in complete
sets), of a type recommended by [Chrysler],
adapted only to the servicing of [CHRYSLER]
vehicles and purchased by DEALER during
the thirty-six (36) months immediately
preceding the effective date of termination
at a price and under terms and conditions to
be agreed upon by [Chrysler] and DEALER.

Id.
Mr. Taylor and each of the other plaintiffs who
testified explained that they understood that, regardless
of the above-cited termination provisions in the
franchise agreements, each of their franchise agreements were also subject to state laws precluding the
termination of dealerships under state law unless
certain criteria were met.7
7 Idaho state law provides that “a manufacturer shall not
cancel, terminate or fail to renew any franchise agreement with
a dealer unless the manufacturer has satisfied the notice re-

App.31a
On May 13, 2009, after Chrysler had filed for bankruptcy on April 30, 2009, Taylor received a letter
from Chrysler stating that all three of its Chrysler
franchise agreements would be rejected in bankruptcy.
The letter stated in full:
As you know, we are in the process of seeking
approval of the sale of our primary operating
assets to a new company. The unprecedented
decline in the industry has had a significant
impact upon sales and requires the new
company to reduce production levels to better
match ongoing demand. With the downsizing
quirement of subsection (2) of this section and has good cause
for cancellation, termination or nonrenewal.” Idaho Code Ann.
§ 49-1614(1) (West 2009). Specifically, Idaho law provides that
“[n]otwithstanding the terms, provisions or conditions of any
franchise agreement or of any waiver, good cause shall exist for
the purposes of termination, cancellation or nonrenewal when
there is a failure by the dealer to comply with a provision of the
franchise agreement, where the provision is both reasonable
and of material significance to the franchise agreement relationship, and provided that the dealer has been notified in
writing of the failure within one hundred eighty (180) days
prior to termination, cancellation or nonrenewal. A protest may
be filed in accordance with the provision of section 49-1617,
Idaho Code.” Idaho Code Ann. § 49-1614(4). However, the Idaho
Code provides that a franchise agreement cannot be terminated
because its owner has a franchise agreement with another
automobile manufacturer. Idaho Code Ann. § 49-1614(5). Furthermore, Idaho law provides that “[t]he manufacturer shall
have the burden of proof under this section concerning the issue
of good cause, which shall include, but not be limited to, termination, nonrenewal or cancellation of any franchise agreement
by the manufacturer for insolvency, license revocation, conviction of a felony, fraud by a dealer or failure by a dealer to
comply with a provision of the franchise agreement, where the
provision is both reasonable and of material significance to the
franchise agreement relationship.” Idaho Code Ann. § 49-1614(6).

App.32a
of operations following the sale and reduction
of plants and production, similar reductions
must be made in the size of the dealer body.
With regret, this letter is to inform you that
on May 14th, 2009, we are filing a motion in
bankruptcy court rejecting the Sales and
Service Agreement(s) between Chrysler
Motors LLC and the dealership listed above.
Upon approval from the court, your agreement
will be rejected on or about June 9, 2009.
We intend to maintain “business as usual”
with you until the rejection takes place. We
intend to honor warranty and incentive payments, during the period that you remain an
active dealer subject to available financing. It
is necessary to work together to make this
transition as seamless as possible to your
customers. After rejection, we want to work
with you to assist in the redistribution of
new vehicles and parts to ease the burden
on you. Attached to this letter, please find
further details regarding the transition period.
Your business center will be in touch to
offer assistance.
These are extraordinary times, and they call
for extraordinary efforts. It is with a sense
of profound sadness that we must take this
step and reject some of our dealer Sales and
Service Agreement(s), but it’s a necessary step
in the process of pursuing and completing
the sale of our assets to the new company. We
wish there was a better way, but there isn’t.

App.33a
We are grateful for the support you and
your company have provided Chrysler over
the years and we wish you the best under
these circumstances.
PX178.
The justification for rejecting Taylor’s Chrysler
franchises in bankruptcy were explained by Peter
Grady, Chrysler’s Director of Dealer Operations at
the time of the Chrysler bankruptcy. In his testimony,
Mr. Grady explained that Chrysler examined several
criteria in selecting which franchisees to reject in
bankruptcy. These criteria, he further explained,
grew out of an earlier voluntary effort by Chrysler to
rationalize or reduce its dealership network under a
program called “Project Genesis.” Project Genesis,
which is discussed in greater detail later in the opinion,
identified several criteria which Chrysler employed
in an effort to get all of its dealers to sell all Chrysler
brands under one roof and to ensure that each such
dealer would have sufficient market share to maximize
profitability. The Project Genesis criteria were modified
in the month leading up to the Chrysler bankruptcy
when the option of rejecting franchise agreements in
bankruptcy without regard to state law became more
likely.
As discussed in more detail infra by the plaintiffs’
bankruptcy expert Judge Fitzgerald and the government’s bankruptcy expert Judge Gerber, under the
Bankruptcy Code, executory contracts can be rejected
in bankruptcy without regard to state law in order to
preserve estate assets. Judge Fitzgerald and Judge
Gerber also explained that rejecting a franchise agreement in bankruptcy is legally distinct from terminating
a franchise agreement. Rejection excuses the party

App.34a
filing for bankruptcy from having to continue performance under the contract. To the extent the contracting party has a breach of contract claim arising
from the rejection of the agreement, the contracting
party, here the franchisee, has an unsecured claim in
the bankruptcy.
According to Mr. Grady, Chrysler consulted with
Fiat, the New Chrysler owner, to determine which
franchisees out of the total number of 3100 should
have their franchise agreements rejected in bankruptcy.
Eventually Chrysler selected 789 franchisees for
rejection. In determining which 789 franchisees to
reject in bankruptcy, Mr. Grady testified that Chrysler
examined the following: (1) whether the franchise
was meeting its Minimum Sale Responsibility
(“MSR”)8, (2) the franchise’s Scorecard for Sales,9
Share, Shipments, Warranty, etc., (3) whether the
8 Each franchise agreement required franchisees to meet MSR.
Steven Landry, Chrysler’s Executive Vice President of sales and
marketing, explained that the MSR was calculated by taking
the number of new Chrysler vehicles registered in a state and
comparing that number to the number of total new vehicles
registered in that state to determine the market share for Chrysler vehicles in that location. Tr.3471:14-3472:19. An MSR was
then set based on the number of new vehicles the franchisee
would need to sell for Chrysler to maintain its market share. Id.
Put another way, the MSR was used to determine if a dealership
held the same market share in its sales locality as Chrysler
held either on the state or national level. Id.
9 Mr. Grady explained that each dealer received a scorecard which
was “made up of a total of 1000 points, and the detail within the
scorecard mainly focused on sales versus targets, market share
within the dealer’s geographic area, shipments versus targets,
and then customer profile targets,” customer satisfaction, and
warranty work. Tr.3599:7-3600:2.

App.35a
franchise facility had adequate capacity and met
Chrysler’s standards, (4) the franchise location, (5)
the franchise’s financial strength, (6) the franchise’s
management, (7) whether the franchise had a “dual”
or competitor’s dealership under the same roof, and
(8) whether it was a single point franchise, meaning
it did not have all three Chrysler brands under one
roof. Tr.3598:8-3602:21.
Mr. Grady explained that Taylor’s three franchises
were rejected by Chrysler in bankruptcy because
together they had only met 36% of its MSR, sold less
than 100 new Chrysler vehicles the previous year,
and were co-located under one roof with a Chevrolet
franchise. Tr.3809:23-3810:23; DX1315.
After Taylor received the May 13, 2009 letter
informing it that all of its Chrysler franchise agreements would be rejected, Taylor sold its remaining new
Chrysler brand vehicles either “a few thousand
dollars over net . . . [but] for far less than [Taylor]
paid Chrysler to purchase them[,]” “for net cost,
meaning that [Taylor] made no profit on them despite
housing and advertising the vehicles for months[,]”
or by “trad[ing] [the] remaining Chrysler new inventory,
Chrysler for GM, with another dealer who had been
notified that his GM franchise would be terminated.”
Tr.294:13-25. Regarding the Chrysler parts Taylor
had in stock, Taylor explained that the dealership
“traded some parts to the same terminated General
Motors dealer, to the extent [it] could, and used some
of the parts on Chrysler vehicles that [it] continued
to service. [Taylor] eventually threw the remaining
parts in the dumpster.” Tr.295:4-8. Finally, Taylor
disposed of Chrysler specialized tools and equipment

App.36a
in an auction “but could only earn pennies on the
dollar.” Tr.295:11-13.
In December 2009, eight months after Chrysler
had filed for bankruptcy, Congress enacted Section
747 of the Consolidated Appropriations Act of 2010,
Pub. L. 111-117 (“Section 747”) to allow dealerships
to seek a franchise with New Chrysler under an arbitration program. If a dealer won in arbitration it
would receive a customary and usual letter of intent
to enter into a franchise agreement with New Chrysler.
Taylor elected not to participate in the arbitration
program “because there was nothing left and [Taylor]
would have had to buy something [it] previously owned,
and it would have cost a lot of money.” Tr.326:14-17.
Taylor’s 2010 financial statement for its Chevrolet
franchise showed that Taylor received a net income
of $94,122 from that dealership. DX614. As noted,
Taylor continues to operate as a Chevrolet dealer to
the present day. Tr.299:10-13.
Taylor claims that the rejection of its three
Chrysler franchise agreements in the Chrysler bankruptcy amounts to a taking because the government
coerced Chrysler into bankruptcy with a plan that
included the rejection of its franchise agreements.
Taylor claims it is entitled to just compensation. Plaintiffs’ valuation expert Diane Anderson Murphy,10 based
on instructions she received from the Alley’s plain10 As will be described in further detail infra, Ms. Murphy is a
Director with the Valuation Services Group of Moss Adams
LLP. She is the coauthor of several versions of the National
Automobile Dealers Association’s dealership valuation guide and
she has managed or staffed well over 1,500 dealership appraisal
projects.

App.37a
tiffs’ counsel, provided valuation opinions for two
dates: December 2008 and April 2009. During closing
argument, counsel for the Alley’s plaintiffs stated
that April 30, 2009 was the date of any “taking” by
the government and that the compensation the Alley’s
plaintiffs are seeking is based on the value of their
franchise, as determined by Ms. Murphy, on that
date. See Tr.5097:23-5098:14, Tr.5109:22-5110:5. In
addition to Ms. Murphy’s valuation opinions, plaintiffs relied on the opinion testimony of the plaintiffs’
three other experts: David Berliner,11 Judge Judith
Fitzgerald,12 and Maryann Keller.13

11 As will be described in further detail infra, Mr. Berliner is
the partner in charge of BDO’s Business Restructuring Services
Group with advisory and consulting experience in the areas of
business restructuring, reorganizations, Section 363 sales, and
debtor-in-possession financing. He has worked on bankruptcy
cases involving the liquidation of large corporations such as
Sports Authority Holdings, Malibu Lighting Corporation, Furniture
Brands International, American Home Mortgage, and Pillowtex
Corporation.
12 As will be described in further detail infra, Judge Fitzgerald
is a former United States Bankruptcy Judge who sat in the
Western District of Pennsylvania for over twenty-five years, the
District of Delaware for twenty years, the Eastern District of
Pennsylvania for eight years and in the District of the United
States Virgin Islands for nine years. During her tenure as a
Bankruptcy Judge she presided over hundreds of Chapter 11
bankruptcies, including cases that involved the assumption or
rejection of executory contracts such as franchise agreements
and licenses.
13 As will be described in further detail infra, Ms. Keller is the
Principle at Maryann Keller & Associates who provides
automotive-related advisory services to companies, investors,
and professional firms. She has advised clients on issues across

App.38a
As discussed in greater detail infra, Ms. Murphy
opined that the economic loss Taylor sustained from
the rejection of its franchise agreements on either
date of taking she examined is equal to Taylor’s entire
Chrysler dealership as an ongoing business. According to Ms. Murphy, although the franchise agreement is an intangible asset, its value is equal to all
the net income generated by the dealership as well
as the physical assets associated with those income
streams. Thus, in valuing the franchise agreements
on the dates selected, she considered the income
streams from not only new car sales and warranty
work, which are expressly derived from Chrysler’s
obligations under the franchise agreements, but also
the net income from used car sales and non-warranty
service work.
In valuing Taylor’s franchise, Ms. Murphy also
made several assumptions regarding the fate of Chrysler in a “but for world” without government financial
assistance. Ms. Murphy assumed that all of Chrysler’s
assets would have been sold in bankruptcy to a third
party. She also assumed that the new Chrysler
would either (1) continue indefinitely to produce all
of Chrysler’s product lines or (2) continue indefinitely
with production of only the Chrysler trucks. She
assumed production under either scenario would not
have been interrupted during the bankruptcy and that
the franchisees would have continued to receive new
cars and/or trucks to sell without significant interruption. Ms. Murphy further assumed that Taylor (and
all the other Alley’s plaintiff franchiseeships she valued)
would have had their franchise agreements assumed
the automotive supply chain, from component companies to
retail sales.

App.39a
by any new Chrysler owner and thus would have
been able to continue as Chrysler franchisees without
interruption. Ms. Murphy further testified that the
terms of the franchise agreements assumed by Chrysler’s new owner would not be altered by the new
owner. Finally, she assumed that the economy on
both dates was recovering and would grow at a
healthy rate.14
Ms. Murphy based her valuations for Taylor on
financial statements Taylor submitted to Chrysler
for 2004, 2005, 2006, 2007, 2008, and from January
to May 2009. PX181, PX187, PX188, PX189, PX182,
PX184. These financial statements reported income
on Taylor’s three major income streams: new car
sales, used car sales, and fixed services (warranty
service, customer pay service, and parts). In addition,
for plaintiffs, like Taylor, with franchise agreements
with another automobile manufacturer, Ms. Murphy
applied a “used to new formula” to determine the proportion of new car sales, used car sales, service, and
parts that should be attributed to only to the Chrysler franchise. Based on this “used to new formula,”
Ms. Murphy calculated that Taylor’s Chrysler franchises gave Taylor a net income of $117,514 in 2004,
$75,901 in 2005, $89,634 in 2006, $103,287 in 2007,
$83,555 in 2008, and $24,200 from January to May
2009. See PX244.1B.
Using the above-cited income amounts and the
assumptions she made about Chrysler and the econo14 Much of Ms. Murphy’s testimony was devoted to explaining
the local economy of each of the Alley’s plaintiffs’ market and
how those economic conditions were improving during the early
portion of 2009.

App.40a
my, Ms. Murphy opined that the value of Taylor’s franchise agreements, in a “but for world” without government assistance, would have been worth: (1)
$686,000 where Chrysler enters bankruptcy but
continues to produce cars and trucks or (2) $558,000
for where Chrysler enters bankruptcy but continues
to produce only trucks. Tr.1406:6-7.
B. Cedric Theel Inc.
Cedric Theel testified on behalf of the Cedric
Theel Inc. (“Theel”) dealership which for the years at
issue was located at 3955 Trenton Drive Bismarck,
North Dakota. Theel was incorporated under the laws
of North Dakota. The dealership included a Dodge
franchise at the time of the alleged taking. Theel also
had a Toyota franchise at the time of the alleged
taking.
Theel was incorporated in 1983 and in 1985 Theel
purchased a Dodge dealership in Bismarck, North
Dakota. Tr.408:4-24. The Dodge franchise agreement
that was eventually rejected in bankruptcy was
awarded to Theel on February 1, 2000. In 1990 Theel
obtained the right to sell Mitsubishi. Tr.409:14-15. In
1992 Mr. Theel and his wife purchased the Toyota
and Hyundai dealership that was next door to the
Theel Dodge dealership and placed ownership of that
dealership under a new company, Cedric Theel Ltd.
In 1995, the Dodge and Toyota dealerships were
consolidated under one roof and under the ownership
of Theel. Tr.408:4-409:21.
The Dodge franchise agreement that Theel entered
into in February 2000 is identical in form and substance
to the Dodge franchise agreement described and
quoted in the preceding section describing the Taylor

App.41a
franchise agreements and is not repeated here. See
PX191 (Dodge Agreement). Mr. Theel explained that
he understood regardless of the above-quoted termination provisions in his franchise agreement that his
Dodge franchise agreement was also subject to state
law protection.15 Tr.417:7-13.
On May 13, 2009, Theel received a letter from
Chrysler stating that its Dodge franchise agreement
would be rejected in bankruptcy. The letter is identical
to that received by Taylor and the other representative
plaintiffs in this case. DX449. Mr. Grady, Director of
Dealer Operations, explained that Theel’s Dodge
franchise agreement was rejected by Chrysler in
bankruptcy because Theel’s MSR was only 70%, it
was a single Dodge franchise dealer, and it had a
dual dealership with Toyota. Tr.3801:4-3803:14;
DX1315.
After Theel received the May 13, 2009 letter
informing it that its Dodge franchise agreement
would be rejected, Theel had “about 60 new Dodge
vehicles on hand at the time.” Tr.421:15. Theel sold
“most of the new Dodge cars to customers at fire sale
prices . . . [and] [s]ome [other dealers] bought the
remainder of [its] new Dodge inventory” all at a loss.
Tr.421:22-24. Theel also had “approximately $200,000
15 North Dakota law provides that a manufacturer may not
“[a]ttempt or threaten to terminate, cancel, or fail to renew or
substantially change the competitive circumstances of the
dealership contracts for any reason other than failure of the
automobile or truck retailer to comply with the terms of the
contract between the parties, if the attempt or threat is based
on the results of a circumstance beyond the retailer’s control,
including a natural disaster in the dealership market area or a
labor dispute.” N.D. Cent. Code Ann. § 51-07-02.3(5) (West 2009).

App.42a
in Dodge parts” which it sold “to a warehouse for 25
to 75 percent less than what [it] paid for them.”
Tr.422:2-6. Additionally, Theel “tried to convert [the]
servicing area for Toyota servicing, but a lot of the
equipment was not suited for Toyotas, including all
of the diesel engine service equipment, which was for
Dodge vehicles only.” Tr.422:20-23. Theel also sold a
$30,000 sign that it had purchased shortly before its
Dodge franchise was rejected to another Chrysler
dealer for only $16,000. Tr.423:10-13. Mr. Theel testified that he elected not to participate in the Section
747 arbitration process because he never got an
answer as to why his Dodge franchise was terminated.
Tr.452:4-8. Theel’s 2010 financial statement for its
Toyota franchise showed that Theel earned a net
income of $606,447 from that dealership. DX621.
Theel’s 2011 financial statement shows that its Toyota
dealership earned a net income of $674,499. DX653.
Theel continues to operate as a Toyota dealer to the
present day.
Theel claims that the rejection of its Dodge franchise agreement in the Chrysler bankruptcy amounts
to a taking and, for the same reasons as relied on by
Taylor, seeks just compensation. As with Taylor,
Theel relies on Ms. Murphy to establish the value of
the franchise agreement at the time of the alleged
taking. After reviewing Theel’s 2004, 2005, 2006,
2007, 2008 and January to May 2009 financial statements, DX77, DX107, DX139, DX197, DX312, Ms.
Murphy calculated that Theel’s Dodge franchise agreement generated a net income of $130,323 in 2004,
$175,006 in 2005, $97,377 in 2006, $142,333 in 2007,
and $69,279 in 2008. See PX244.1E.

App.43a
Using these values and her assumptions, Ms.
Murphy calculated the amount of just compensation
Theel is seeking for the claimed taking of its Dodge
franchise agreement. Under Ms. Murphy’s income
valuation approach, the amount of just compensation
Theel is seeking for the claimed taking of the franchise
agreement on April 30, 2009 is either (1) $709,000
where Chrysler enters bankruptcy but continues to
produce cars and trucks or (2) $621,000 for where
Chrysler enters bankruptcy but continues to produce
only trucks. Tr.1406:12-13.
C. Mansfield Motor Group/Whitey’s Auto Group
Dirk Schluter testified on behalf of Mansfield
Motor Group, d/b/a Whitey’s Auto Group (“Whitey’s”)
which for the years at issue was located at 1493 Park
Avenue West, Mansfield, Ohio. Whitey’s was incorporated under the laws of Ohio. The dealership included
a Chrysler franchise at the time of the alleged
taking. Tr.817:12-13. Whitey’s also had a LincolnMercury franchise under the same roof as the Chrysler
franchise at the time of the alleged taking. Whitey’s
was incorporated in 1947 and received its first Chrysler franchise agreement in the mid-1960s. Tr.818:1417, 819:16-18.
In August 2001, Whitey’s was awarded a new
Chrysler agreement when Mr. Schluter and his brother
became the new owners of Whitey’s. Tr.820:5-15. The
2001 franchise agreement is the agreement that was
rejected in the Chrysler bankruptcy. The Chrysler
franchise agreement that Whitey’s entered into in
August 2001 is identical in form and substance to the
Chrysler franchise agreement described in the
preceding section regarding Taylor & Sons. PX224.

App.44a
Mr. Schluter explained that he understood that regardless of the above-cited termination provisions that his
franchise agreement was also subject to state laws
precluding the termination of franchise agreements
under state law.16 Tr.824:15-21.
On May 13, 2009 Whitey’s received a letter from
Chrysler stating that its Chrysler franchise agreement
would be rejected in bankruptcy. The letter is identical
to the ones received by other representative plaintiffs
in this case. PX239. Mr. Grady, Director of Dealer
16 Ohio law provides that “no franchisor shall terminate or fail
to continue or renew a franchise except for good cause.” Ohio
Rev. Code Ann. § 4517.54(A) (West 2009). Ohio law also provides
that “[i]n determining whether good cause has been established
by the franchisor for terminating or failing to continue to renew
a franchise, the motor vehicle dealers board shall take into
consideration the existing circumstances, including, but not
limited to: (1) The amount of retail sales transacted by the
franchisee during a five-year period immediately preceding such
notice as compared to the business available to the franchisee;
(2) the investment necessarily made and obligations incurred by
the franchisee to perform its part of the franchise; (3) the
permanency of the franchisee’s investment; . . . (7) the extent
and materiality of the franchisee’s failure to comply with the
terms of the franchise and the reasonableness and fairness of
the franchise terms. . . . ” Ohio Rev. Code Ann. § 4517.55(A)
(West 2009). Ohio law also specified that “[n]otwithstanding the
terms, conditions, or provisions of any franchise or waiver, the
following do not constitute good cause for terminating or failing
to continue or renew a franchise: (1) Refusal by the franchisee
to purchase or accept delivery of any new motor vehicle, parts,
accessories, or any other commodity or service not ordered by
the franchisee; (2) The fact that the franchisee or the owner of
any interest therein, owns, has an investment in, participates
in the management of, or holds a license for the sale of the same
or any other line-make of new motor vehicle; . . . (5) Failure of the
franchisee to achieve any unreasonable or discriminatory performance criteria.” Ohio Rev. Code Ann. § 4517.55(B) (West 2009).

App.45a
Operations, explained that Whitey’s Chrysler franchise
was rejected by Chrysler in bankruptcy because it
only met 45% of its MSR, was a dual dealership with
a Lincoln franchise, and was only a single Chrysler
franchise dealer. Tr.3806:21-3803:13; DX1315.
After Whitey’s received the May 13, 2009, it was
able to “place[ ] [its] [new] inventory with another
dealer, [although it] lost money on the vehicles.” Tr.
831:15-17. Whitey’s also lost money on its “inventory of
used Chrysler vehicles because [it] could no longer
sell them with a certified status of used cars and
with the manufacturer warranty,” and sold them
often at a loss. Tr.831:18-22. Whitey’s lost money on
the inventory of Chrysler-specific parts although it
was able to use some of the parts in customer-pay
service. Tr.832:14-18. Whitey’s also “threw out the
remaining Chrysler signage, as well as the Chrysler
brochures and other advertising material.” Tr.832:2023. Whitey’s filed a request for arbitration and received
$10,000 in settlement from New Chrysler. Tr.833:1521.
In August of 2008 Whitey’s acquired franchise
agreements to sell Volvo and Mercedes-Benz vehicles.
Whitey’s financial statement for its Lincoln, Volvo,
and Mercedes-Benz franchises showed that Whitey’s
earned a net income of $157,562 in 2010, the first
full year without the Chrysler franchise. Tr.891:1719; DX1493.
Whitey’s claims that the rejection of its Chrysler
franchise agreement in the Chrysler bankruptcy
amounts to a taking for the same reasons as relied
on for plaintiffs Taylor and Theel. Whitey’s relies on
Ms. Murphy for the valuation of the franchise agreement. Ms. Murphy, after reviewing Whitey’s 2005,

App.46a
2006, 2007, 2008, and January to May 2009 financial
statements, PX223, PX233, calculated that Whitey’s
Dodge franchise agreement resulted in a net income
of $195,853 in 2004, $127,940 in 2005, $159,309 in
2006, $120,535 in 2007, $61,415 in 2008 and $30,292
between January and May 2009. PX244.1D.
Using these values and her assumptions, Ms.
Murphy calculated the amount of just compensation
Whitey’s is seeking for the claimed taking of the
franchise agreement. Under Ms. Murphy’s income
valuation approach, the amount of just compensation
Whitey’s is seeking for the April 30, 2009 taking date
is either (1) $524,000 where Chrysler enters bankruptcy
but continues to produce cars and trucks, or (2)
$292,000 for where Chrysler enters bankruptcy but
continues to produce trucks. Tr.1406:10-11.
D. RFJS Company, LLC
Robert L. Frederick II and John Scotford Jr. testified on behalf of RFJS Company, LLC (“RFJS”), which
for the years at issue was located at 7871 Market
Street Boardman, Ohio. RFJS was incorporated under
Ohio state law. Tr.967:13. The dealership at the time
of the rejection of the franchise agreements included
Chrysler, Dodge, and Jeep franchises. Tr.972:14-15.
RFJS did not have any franchise agreements with
other auto manufacturers at that time. RFJS was
formed in 2006. Mr. Fredrick contributed the Dodge
franchise agreement that he owned to RFJS and Mr.
Scotford contributed the cash that was used to
purchase a Chrysler/Jeep dealership. Tr.966:34-967:8.
The Dodge franchise agreement that Mr. Fredrick
contributed was awarded to RFJS in October 2006.
DX130. This Dodge franchise agreement was identical

App.47a
in form and substance to the franchise agreements
described above.
RFJS’s Chrysler and Jeep franchise agreements,
however, were different from those described above.
RFJS’s “Sales and Service Agreement[s]” contained
different terms. DX131; DX132. Instead of having an
indefinite franchise agreement that could only be
terminated upon specified events, RFJS’s Chrysler
and Jeep franchise agreements provided that they
only continued “in effect until the expiration of 24
months after the execution date at which time this
Term Agreement will terminate automatically without
notice to or by either party.” Id. The agreements
went on to state that “[i]f this Term Agreement is not
terminated as provided herein or in Paragraph 28 of
said Terms and Provisions, and thus continue in
effect for the period set forth in the immediately
forgoing Paragraph, [Chrysler], at the expiration of
such period, will enter into the Standard Chrysler
Corporation Sales and Service Agreement current at
the date of said expiration, for such specified [Chrysler]
vehicles with DEALER, provided that DEALER has
fulfilled each and every condition set forth in [the
Agreement].” Id. RFJS received its Term Sales and
Service Agreements for its Chrysler and Jeep franchises
on October 27, 2006. Id. As part of the term franchise
agreements RFJS had to build a satisfactory dealership
facility at 7870 Market Street, Boardman, Ohio within
twelve months of the execution of the Chrysler and
Jeep franchise agreements. Id.
As of October 2007, RFJS had not met its obligation to build a facility at 7871 Market Street to
Chrysler’s standards. On May 20, 2008, RFJS got a
one-year extension of its Chrysler and Jeep franchise

App.48a
agreements in order to complete the construction of a
facility at 7871 Market Street. DX253.
Mr. Fredrick and Mr. Scotford testified that they
understood that, despite the above-cited termination
provisions, their Chrysler, Dodge, and Jeep franchise
agreements were subject to state laws and could not
be terminated or not renewed unless certain criteria
were met.17
17 Ohio law provides that “no franchisor shall terminate or fail
to continue or renew a franchise except for good cause.” Ohio
Rev. Code Ann. § 4517.54(A) (West 2009). Ohio law also provides that “[i]n determining whether good cause has been established by the franchisor for terminating or failing to continue to
renew a franchise, the motor vehicle dealers board shall take
into consideration the existing circumstances, including, but
not limited to: (1) The amount of retail sales transacted by the
franchisee during a five-year period immediately preceding such
notice as compared to the business available to the franchisee;
(2) the investment necessarily made and obligations incurred by
the franchisee to perform this part of the franchise; (3) the
permanency of the franchisee’s investment; . . . (7) the extent
and materiality of the franchisee’s failure to comply with the
terms of the franchise and the reasonableness and fairness of
the franchise terms. . . . ” Ohio Rev. Code Ann. § 4517.55(A)
(West 2009). Ohio law also specified that “[n]otwithstanding the
terms, conditions, or provisions of any franchise or waiver, the
following do not constitute good cause for terminating or failing
to continue or renew a franchise: (1) Refusal by the franchisee
to purchase or accept delivery of any new motor vehicle, parts,
accessories, or any other commodity or service not ordered by
the franchisee; (2) The fact that the franchisee or the owner of
any interest therein, owns, has an investment in, participates
in the management of, or holds a license for the sale of the same
or any other line-make of new motor vehicle; . . . (5) Failure of
the franchisee to achieve any unreasonable or discriminatory
performance criteria.” Ohio Rev. Code Ann. § 4517.55(B) (West
2009).

App.49a
On May 13, 2009, RFJS received a letter from
Chrysler stating that its Chrysler, Dodge, and Jeep
franchise agreements would be rejected in bankruptcy.
The letter is identical to that received by the other
representative plaintiffs in this case. Tr.970:17-19.
Mr. Grady, Director of Dealer Operations, explained
that RFJS’s Chrysler, Dodge, and Jeep franchise
agreements were rejected by Chrysler in bankruptcy
because RFJS dealership was an excess point, i.e. a
location that Chrysler determined was no longer
valuable and because the dealership was operating
at a loss and had been placed on a finance hold by
Chrysler Financial.18 DX1315.
After RFJS received the May 13, 2009 letter
informing it that its Chrysler, Dodge, and Jeep franchise agreements would be rejected, “all of [its] new
cars either ended up being retailed or wholesaled to
18 Leland Wilson, the Chief Financial Officer of Chrysler
Financial between 2007 and 2010, explained the significance of
a dealer being placed on a financial hold and not being able to
obtain floor plan financing to finance their purchase of new and
used cars. He explained that floor plan financing involved
dealers “order[ing] cars through Chrysler, Chrysler would ship
those cars to the dealers. Each of those dealers that [Chrysler
Financial] financed would have a dealer . . . credit line” that
would be used to finance the purchase. Tr.3855:9-11. He went
on to explain that “the first lien collateral [for the loan] was the
vehicle” and that when the car was sold the proceeds were used
to pay off the loan the dealer incurred to purchase the car and
allowed the dealer to continue purchasing new vehicles.
Tr.3855:17-23. RFJS was one of the Chrysler franchisees that
relied on Chrysler Financial for floor plan financing. “Financial
hold” meant that Chrysler Financial was no longer willing to
extend floor plan financing to RFJS and thus it could not obtain
new inventory through its Chrysler Financial credit line. Tr.
3806:3-8.

App.50a
other dealers [it] had good relationships with,” but
“that really didn’t help[.]” Tr.972: 7-10. RFJS “made
the best deal [it could for] parts. [Its] tools and
equipment were sold at an auction,” but it got “virtually
nothing.” Tr.972:20-25. Ultimately, RFJS “shut down
the dealership” and “did not consider staying open as
a service and used car dealership because [its] business
ran on the new car franchise.” Tr.973:1-11. After its
Chrysler, Dodge, and Jeep franchise agreements were
rejected, RFJS pursued arbitration under Section
747 and settled with New Chrysler for $200,000.
Tr.1029:13-25. Because RFJS did not continue as
either a new car dealership or used car and service
dealership there are no financial statements for RFJS
past June 2009.
RFJS claims that the rejection of its Chrysler,
Dodge, and Jeep franchise agreements in the Chrysler
bankruptcy amounts to a taking of its franchises for
the same reasons relied on by Taylor, Theel, and
Whitey’s. RFJS relies on Ms. Murphy’s valuation as
the basis for the just compensation it is seeking. Ms.
Murphy, after reviewing RFJS’s 2006, 2007, 2008,
and January to May 2009 financial statements, PX153,
calculated that RFJS’s Chrysler, Dodge, and Jeep franchise agreements resulted in a net income of $104,940
in 2006, $331,375 in 2007, lost $45,125 in 2008, and
earned $24,065 from January to May 2009. PX244.1F.
Using these values and her assumptions, Ms.
Murphy calculated the amount of just compensation
RFJS is seeking for the claimed taking of the franchise
agreements. Under Ms. Murphy’s income valuation
approach, the amount of just compensation RFJS
seeks for the claimed taking for the April 30, 2009 date
is (1) $1,766,000 where Chrysler enters bankruptcy but

App.51a
continues to produce cars and trucks, or (2) $1,329,000
for where Chrysler enters bankruptcy but continues
to produce only trucks. Tr.1406:14-15.
E. Jim Marsh American Corporation
Jim Marsh testified on behalf of Jim Marsh American Corporation (“Marsh”) which for the years at
issue was located 8555 West Centennial Parkway,
Las Vegas, Nevada. Tr.367:7. Marsh is incorporated
under the laws of Nevada. The dealership included a
Chrysler and Jeep franchise at the time of the
alleged taking. In early 2009, Marsh purchased a
Kia, Suzuki, and Mitsubishi dealership. Tr.379:9-12.
The Suzuki dealership closed in 2014 when Suzuki
filed for bankruptcy and Marsh sold the Mitsubishi
dealership in 2017. Tr.378:23-25. Marsh still operates
a Kia dealership. The Chrysler and Jeep franchise
agreements that were rejected by Chrysler in the
Chrysler bankruptcy were awarded to Marsh on
December 21, 2000. Tr.367:21-25. Prior to receiving
these franchise agreements, Marsh had other Chrysler
and Jeep franchise agreements dating back to 1995
and 1971. Tr.366:17-367:20. Marsh’s 2000 Chrysler
and Jeep franchise agreements were identical in
form and substance to those of the other representative
plaintiffs in this case. DX44.
Mr. Marsh explained that he knew that state
laws protected his franchise agreements from unjust
termination and testified that throughout his several
decades of experience as a new vehicle franchise owner
he had never heard of an involuntary termination of
a franchise agreement other than when an owner

App.52a
was convicted of a felony or some form of fraud.19
Tr.369:21-370:2.
On May 13, 2009, Marsh received a letter from
Chrysler stating that its Chrysler and Jeep franchise
agreements would be rejected in bankruptcy. The
letter is identical to that received by the other representative plaintiffs in this case. PX147. Mr. Grady,
Director of Dealer Operations, explained that Marsh’s
Chrysler and Jeep franchise agreements were rejected
by Chrysler in bankruptcy because Marsh had only
met 38% of its MSR, it lacked a Dodge franchise
agreement, and because Chrysler wanted a thirdparty candidate to run a Chrysler, Dodge, and Jeep
dealership in a different part of Las Vegas. DX1315.
19 Nevada state laws provide that “[n]otwithstanding the terms
of the franchise, a manufacturer or distributor shall not terminate or refuse to continue any franchise unless it has received
the written consent of the dealer or: (a) It has given written
notice of its intention to the dealer and the Director; and (b)
Either the following conditions occurs: (1) The dealer does not
file a protect with the Director within the time allowed by this
section; or (2) After the dealer has filed a protest and the
Director has conducted a hearing on the matter, the Director
issues an order authorizing the manufacturer or distributor to
terminate the franchise or permit it to lapse.” Nev. Rev. Stat.
Ann. § 482.36352(1) (West 2009). Furthermore, Nevada state
law states that “[i]n determining whether good cause has been
established for permitting a manufacturer or distributor to
terminate, refuse to continue, modify or replace a franchise, the
Director shall consider without limitation: (1) The amount of
business transacted by the dealer, as compared to the business
available to the dealer . . . (2) The investment necessarily made
and obligations incurred by the dealer to perform its part of the
franchise . . . (6) The extent of the dealer’s failure, if any, to
comply with the terms of the franchise.” Nev. Rev. Stat. Ann.
§ 482.36355 (West 2009).

App.53a
After Marsh received the May 13, 2009 letter
informing it that its Chrysler and Jeep franchise
agreements would be rejected, it had to “liquidate
[its] inventory of new cars, leaving [it] with an
inventory of Chrysler-specific tools that [it[could no
longer use for warranty service and which [it] could
no long use to access the manufacturer’s computer to
perform new car service.” Tr.373:8-12. Also, Marsh
“obtained most of [its] used car inventory from tradeins associated with the purchase of new cars [and]
[l]osing new car sales meant [it] had fewer used cars
to sell.” Tr.373:13-16. Marsh also “lost the after-sale
income and the after-market warranties and service
contracts that [it] could no longer sell in connection
with the sale of Chrysler-Jeep projects.” Tr.373:1619. Marsh participated in the Section 747 arbitration
process and won a letter of intent from New Chrysler.
In January 2017, Marsh opened a new Chrysler-Jeep
dealership but was required to spend significant
amounts of money to open this new dealership.
Tr.374:11-18.
Marsh claims that the rejection of its Chrysler
and Jeep franchise agreements in the Chrysler bankruptcy amounts to a taking for the same reasons
relied on by plaintiffs Taylor, Theel, Whitey, and
RFJS. Marsh relies on Ms. Murphy’s valuations of
his franchise agreements to support a claim for just
compensation. Ms. Murphy, relying on the same
income streams and same calculation methods as
described above, and after reviewing Marsh’s 2004,
2005 2006, 2007, 2008, and January to May 2009
financial statements, PX145, calculated that Marsh’s
Chrysler and Jeep franchise agreements resulted in
a net income of $860,020 in 2004, $1,032,818 in 2005,

App.54a
$1,396,370 in 2006, $932,272 in 2007, $816,019 in
2008, and earned $746,431 from January to May 2009.
PX244.1G.
Using these values and her assumptions, Ms.
Murphy calculated the amount of just compensation
Marsh is seeking for the claimed taking of the franchise agreement. Under Ms. Murphy’s income
valuation approach, the amount of just compensation
Marsh seeks for the claimed taking of the franchise
agreement for the April 30, 2009 date is (1) $8,972,000
where Chrysler enters bankruptcy but continues to
produce cars and trucks or (2) $7,037,000 for where
Chrysler enters bankruptcy but continues to produce
only trucks. Tr.1406:14-15.
F. Livonia Chrysler-Jeep
Collen and David MacDonald testified on behalf
of Livonia Chrysler-Jeep (“Livonia”) which for the
years at issue was located at 30777 Plymouth Road,
Livonia, Michigan. Livonia is incorporated under the
laws of Michigan. The dealership included a Chrysler
and Jeep franchise at the time of the alleged taking.
Tr.1290:5-9.
The Chrysler and Jeep franchise agreements
that were rejected in the Chrysler bankruptcy were
awarded to Livonia on April 24, 1998. These Chrysler
and Jeep franchise agreements were identical in
form and substance to the franchise agreements that
the other representative plaintiffs had with Chrysler.
PX136. Both Mr. and Mrs. MacDonald explained that
they understood that, regardless of the termination
terms in those agreements, the agreements could

App.55a
only be terminated consistent with the franchise
laws in Michigan.20 Tr.1293:5-14.
On May 13, 2009, Livonia received a letter from
Chrysler stating that its Chrysler and Jeep franchise
agreements would be rejected in bankruptcy. The
letter is identical to that received by the other representative plaintiffs in this case. PX139. Mr. Grady,
Director of Dealer Operations, testified that Livonia’s
Chrysler and Jeep franchise agreements were rejected
by Chrysler in bankruptcy because Chrysler did not
like the location of the dealership and thought that it
would be more profitable to move the Chrysler and
Jeep franchises to a Dodge dealership a few miles away.
DX1315.
After it received the May 13, 2009 letter informing
it that its Chrysler and Jeep franchise agreements
would be rejected, Livonia had to “sell [its] parts
inventory and new car inventory at a substantial
loss.” Tr.1295:21-23. Additionally, Livonia was unable
to get out of contracts, such as an advertising contract,
and “had to continue to pay them, though [it] no
longer needed their services.” Tr.1295:23-1296:1.
Livonia participated in the Section 747 arbitration
process and was ultimately awarded a letter of intent
from New Chrysler and has since signed new Chrysler
20 Michigan law provides that an automobile manufacturer can
only terminate or not renew a franchise agreement if they have
acted in good faith and have good cause. Mich. Comp. Laws
Ann. § 445.1567. Michigan law provided that the following
alone did not constitute good cause for termination: a change in
ownership of the dealership, refusal of the dealership to purchase
or accept delivery of any automobile parts; or if the owner of the
dealership has a franchise with another auto manufacturer.
Mich. Comp. Laws Ann. § 445.1568.

App.56a
and Jeep franchise agreements with New Chrysler.
Tr.1362:5-25.
Livonia claims that the rejection of its Chrysler
and Jeep franchise agreements in the Chrysler bankruptcy amounts to a taking for the same reasons
relied on by the other Alley’s plaintiffs. Livonia relies
on Ms. Murphy’s valuation to support the amount of
just compensation seeks. Ms. Murphy, relying on the
same income streams and same calculation methods
as described above, and after reviewing Livonia’s
2006, 2007, 2008, and January to May 2009 financial
statements, calculated that Livonia’s Chrysler and
Jeep franchise agreements resulted in a net income
of $659,903 in 2006, $595,052 in 2007, $718,631 in
2008, and $130,224 from January to May 2009.
PX244.1A.
Using these values and her assumptions, Ms.
Murphy calculated the amount of just compensation
Livonia is seeking for the claimed taking of the franchise agreement. Under Ms. Murphy’s income
valuation approach, the amount of just compensation
Livonia is seeking for the claimed taking of the franchise agreement on the April 30, 2009 taking date is
(1) $4,464,000 where Chrysler enters bankruptcy but
continues to produce cars and trucks or (2) $3,705,000
for where Chrysler enters bankruptcy but continues
to produce only trucks. Tr.1406:4-5.
G. Barry Dodge Inc.
Andrew Riexinger testified on behalf of Barry
Dodge Inc. (“Barry”), which for the years at issue was
located at 4579 South Main Street, Brockport, New
York. Barry was incorporated under the laws of New

App.57a
York. Barry’s dealership included Chrysler, Dodge,
and Jeep franchises at the time of the alleged taking.
The Chrysler and Dodge franchise agreements
that were rejected in the Chrysler bankruptcy were
awarded to Barry on August 9, 1993. The Jeep franchise agreement that was rejected in the Chrysler
bankruptcy was awarded to Barry on December 19,
1997. Barry’s Chrysler, Dodge, and Jeep franchise
agreements are identical in form and substance to
the other franchise agreements owned by the other
representative plaintiffs. PX2. Mr. Riexinger also
testified that he understood that, regardless of the
termination provisions in these franchise agreements,
state law precluded the termination of dealerships
for unjust reasons.21 Tr.1218:23-1219:1.
On May 13, 2009, Barry received a letter from
Chrysler stating that its Chrysler, Dodge, and Jeep
franchise agreements would be rejected in bankruptcy.
The letter is identical to that received by the other
representative plaintiffs in this case. PX4. Mr. Grady,
Director of Dealer Operations, explained that Barry’s
Chrysler, Dodge, and Jeep franchise agreements were
rejected by Chrysler in bankruptcy because it only
21 New York state law provides that a franchisor cannot terminate
or refuse to renew a franchise “except for due cause, regardless
of the terms of the franchise.” N.Y. Vehicle and Traffic Law
§ 463.2(d)(1). New York state law specifies that “[i]f the termination is based upon performance of the dealer in sales and
services there shall be no due cause if the dealer substantially
complies with the reasonable performance provisions of the
franchise during such cure period and no due cause if the failure to demonstrate such substantial compliance was due to
factors which were beyond the control of such dealer.” N.Y.
Vehicle and Traffic Law § 463.2(e)(3).

App.58a
met 42% of its MSR and because it was considered
an excess point because Chrysler wanted to reduce
the number of dealers in the Brockport area. DX1315.
After Barry received the May 13, 2009 letter
informing it that its franchise agreements would be
rejected it had to “salvage what money [it] could from
[its] existing inventory.” Tr.1220:14-16. Barry “sold
[its] inventory of vehicles to other [dealers] and parts
to one of [its] former competitors . . . for 50 grand.”
Tr.1220:16-18. Barry also “sold some of [its] specialized
tools to former competitors, which [it] could no longer
use since [it] no longer provided warranty services
for new vehicles.” Tr.1220:18-21. Barry continued to
operate under the name “Barry’s Auto Center” as a
used car dealership that also sells campers and cargo
trailers. Tr.1221:7, Tr.1221:16-17. Barry’s 2010
financial statement for its used car dealership showed
that it earned a net income of $239,417. DX618.
Barry chose not to file for arbitration under Section
747. Tr.1269:13-16.
Barry claims that the rejection of its Chrysler,
Dodge, and Jeep franchise agreements amounts to a
taking for the same reasons as relied on by the other
Alley’s plaintiffs. Barry relies on Ms. Murphy’s
valuations to support the amount of just compensation
it seeks. Ms. Murphy, relying on the same income
streams and same calculation methods as described
above, and after reviewing Barry’s 2004, 2005, 2006,
2007, 2008, and January to May 2009 financial statements, calculated that Barry’s Chrysler, Dodge, and
Jeep franchise agreements resulted in a net income
of $172,181 in 2004, $68,367 in 2005, $55,878 in 2006,
$186,534 in 2007, $163,704 in 2008, and earned $124,
052 from January to May 2009. PX244.1C.

App.59a
Using these values and her assumptions, Ms.
Murphy calculated the amount of just compensation
Barry is seeking for the claimed taking of the franchise
agreement. Under Ms. Murphy’s income valuation
approach, the amount of just compensation Barry is
seeking for the April 30, 2009 taking date is (1)
$1,124,000 where Chrysler enters bankruptcy but
continues to produce cars and trucks, or (2) $859,000
for where Chrysler enters bankruptcy but continues
to produce trucks. Tr.1406:8-9.
H. Guetterman Motors
Jack Guetterman testified on behalf of Guetterman
Motors (“Guetterman”), one of the two representative
Colonial plaintiffs, which for the years at issue was
located at 2210 Sycamore Street, Cairo, Illinois.
Guetterman was incorporated under the laws of
Illinois. Guetterman’s dealership included Chrysler,
Dodge and Jeep franchises as well as a Ford franchise
at the time of the alleged taking.
The Chrysler, Dodge and Jeep franchise agreements that were rejected in the Chrysler bankruptcy
were awarded to Guetterman on February 11, 1993.
Guetterman’s Chrysler, Dodge, and Jeep franchise
agreements are identical in form and substance to
the other franchise agreements owned by other
representative plaintiffs. DX16 (Chrysler Agreement),
DX21 (Dodge Agreement), DX22 (Jeep Agreement).
Mr. Guetterman also testified that he understood
that, regardless of the termination provisions in
these franchise agreements, state law precluded the

App.60a
termination of dealerships for unjust reasons.22 Tr.
2179:6-10.
On May 13, 2009, Guetterman received a letter
from Chrysler stating that its Chrysler, Dodge, and
Jeep franchise agreements would be rejected in
bankruptcy. The letter is identical to that received by
the other representative plaintiffs in this case. Mr.
Grady, Director of Dealer Operations, explained that
the Guetterman Chrysler, Dodge and Jeep franchise
agreements were rejected by Chrysler in bankruptcy
because the dealership only met 53% of its MSR, was
considered an excess point in the Cairo area, was
placed on a financial hold by Chrysler Financial, and
had a competitive dual Ford dealership attached to
the Chrysler showroom. DX1315.
22 Illinois state law provides that an automobile manufacturer
cannot terminate or fail to renew a franchise agreement without
good cause and without giving sufficient notice as outline in
Illinois state law. 815 Ill. Comp. Stat. Ann. § 710/4(d)(6). The
Illinois Board of Motor Vehicles determines if there is sufficient
good cause not to renew or cancel a franchise and Illinois law
provides that it shall consider, but is not limited to, the
following factors: “(1) The amount of retail sales transacted by
the franchise during a 5-year period immediately before the
date of the notice of proposed actions as compared to the business available to the franchisee. (2) The investment necessarily
made and obligations incurred by the franchisee to perform its
part of the franchise. (3) The permanency of the franchisee’s
investment. . . . (5) Whether the franchisee has adequate moto
vehicle sales and service facilities, equipment, vehicle parts,
and service personnel to reasonably provide for the need of the
customers of the same line make of motor vehicles handled by
the franchisee. . . . (7) The extent and materiality of the franchisee’s
failure to comply with the terms of the franchise and the reasonableness and fairness of those terms. . . . ” 815 Ill. Comp. Stat.
Ann. § 710/12(d).

App.61a
After Guetterman received the May 13, 2009
letter, Mr. Guetterman testified that Chrysler only
bought “back $18,754 of parts for 68 cents on the
dollar” and that the dealership was unable to sell its
remaining Chrysler parts. Tr.2180:2-10. Mr. Guetterman explained that the “cost of the remaining parts is
over $100,000.” Tr.2180:6-7. Mr. Guetterman also
testified that he “attempted to negotiate with the
New Chrysler through [the] St. Louis dealer
placement manager . . . but [it] was turned down.”
Tr.2176:15-19. Mr. Guetterman further testified that
he “paid the initial fee and got a date to proceed”
under the Section 747 arbitration process, but that
before the arbitration date, New Chrysler offered
Guetterman a letter of intent for a new franchise
agreement. Tr.2176:21 25. Mr. Guetterman explained
that he did not accept the letter of intent because it
imposed new requirements which have required
between $1 million and $2 million in new investments.
Tr.2177:12-15.
Guetterman’s 2010 financial statement for its
Ford franchise, which it expanded into space previously
dedicated for Chrysler vehicles, showed that Guetterman received a net income of $120,920 from that
dealership. DX613. Guetterman’s 2011 financial
statement for its Ford franchise showed that Guetterman received a net income of $82,813 from that
dealership. DX648. Guetterman continues to operate
as a Ford dealer to the present day.
Guetterman claims that the rejection of its three
Chrysler franchise agreements in the Chrysler bankruptcy amounts to a taking based on the same theory
of coercion relied on by the Alley’s plaintiffs and
discussed infra. Guetterman is seeking just compen-

App.62a
sation in various amounts based on two different
“but for” Chrysler Chapter 11 liquidation scenarios.
Unlike, the Alley’s plaintiffs, discussed above, Guetterman relies on the testimony of Ted Stockton23 as its
valuation expert. As will be explained in greater
detail later in the opinion, Mr. Stockton’s valuation
approach is very different from the one employed by
Ms. Murphy. For example, while Ms. Murphy assumes
that at least some Chrysler cars or trucks will
continue to be produced in her “but for world,” Mr.
Stockton assumes that Chrysler would have been
liquidated in a Chapter 11 bankruptcy and that
Chrysler vehicles would no longer have been produced.
He assumes that there would be no new vehicles
manufactured once Chrysler entered into bankruptcy.
He assumed, however, that Chrysler parts would
continue to be produced by entities that would have
licensed Chrysler’s name and would have offered those
parts to the dealers for a price.
Ms. Murphy and Mr. Stockton also used different
methods to calculate just compensation. Ms. Murphy
calculated the amount of just compensation based on
the income valuation approach assuming each of the
Alley’s plaintiffs would have continued as franchisees
with a new Chrysler car manufacturer. Mr. Stockton
calculated just compensation based largely on a “lost
profits” method.

23 As will be described in further detail infra, Mr. Stockton is
the Vice President of Economics Services at the Fontana Group
Inc. During his employment at Fontana he has worked 30,000
hours, focused on issues related to the automotive retail industry,
and has conducted studies of hundreds of franchise operations
that sell a wide array of branded vehicles.

App.63a
Specifically, Mr. Stockton posited two “but for
worlds” where Chrysler liquidates in bankruptcy at
some point in April 2009. The two “but for worlds”
are as follows (1) a Chapter 11 bankruptcy where
there is an orderly wind-down of Chrysler’s operations
and Guetterman continues to operate under its existing
franchise agreements either for (i) three years or (ii)
seventeen months, depending on how long the winddown takes to complete, and (2) immediate liquidation
of Chrysler in which Guetterman’s Chrysler dealership
continues to operate indefinitely as a “branded” Chrysler dealer, under a licensing agreement with third
party. Mr. Stockton testified that these “but for
worlds” were provided to him by counsel. Tr.2544:17-21.
Under the orderly wind-down scenarios that either
last for three years or seventeen months, Mr. Stockton
made the following assumptions. He assumed that
the franchise agreements were not terminated in
bankruptcy and are kept in effect for the period of
the wind-down. He further assumed that the United
States would have guaranteed the warranty obligations for the incumbent Chrysler customers. As part
of this scenario, Mr. Stockton assumed that Chrysler
would attempt to sell off-lease vehicle returns to the
Chrysler franchisees which would provide the plaintiffs with additional used cars to sell during the
wind-down period.
Under the second scenario, immediate liquidation,
Mr. Stockton testified that he assumed that the
United States would have again guaranteed the warranty obligations for the incumbent Chrysler
customers. He further assumed that a consortium of
Chrysler dealerships would have acquired the rights
to certain propriety parts and intellectual property,

App.64a
i.e. the Chrysler brand, in the Chrysler bankruptcy
and that the plaintiffs would have been able to
operate as Chrysler branded dealerships for the purposes of serving and selling used Chrysler vehicles, although not with any franchise agreement.24 Under
this second scenario, there is no “Chrysler” and thus
no continuing franchise agreement between Chrysler
and the plaintiffs. Further, under this second scenario,
the plaintiffs would continue as “branded” dealers for
between seven to ten years.
To set a value for what was “taken” by the government in Mr. Stockton’s “but for world,” Mr. Stockton
calculated how much net profit Guetterman lost
under these two liquidation scenarios by using
Guetterman’s 2006, 2007 and 2008 financial statements. DX138, DX196, DX311. Under Mr. Stockton’s
approach, the amount of just compensation Guetterman is seeking varies depending on the scenario, as
follows: (1) $122,761 for the immediate liquidation
scenario; (2) $112,942 for a Chapter 11 three-year
orderly wind-down scenario; and (3) $61,047 for a
Chapter 11 17-month orderly wind-down scenario.
Tr.2456:11-19.
I. Mike Finnin Motors
Mike Finnin testified on behalf of Mike Finnin
Motors (“Finnin”), the second Colonial plaintiff, which
24 Mr. Stockton also testified on cross examination that if a
consortium of dealers did not purchase the proprietary parts
and intellectual property from Chrysler during the Chrysler
bankruptcy, some unidentified third party would have and then
would have licensed these parts and the brand to the Chrysler
plaintiffs, who would thus have been able to continue as Chryslerbranded dealers. Tr.2446:5-10.

App.65a
for the years at issue was located at 4355 Dodge Street,
Dubuque, Iowa. Finnin was incorporated under the
laws of Iowa. Finnin’s dealership included Chrysler and
Jeep franchises as well as a Kia franchise acquired
in 2007.
The Chrysler and Jeep franchise agreements
that were rejected in the Chrysler bankruptcy were
awarded to Finnin on November 21, 1994. Finnin’s
Chrysler and Jeep franchise agreements are identical
in form and substance to the other franchise agreements owned by the other representative plaintiffs.
DX29 (Jeep Agreement), DX32 (Chrysler Agreement).
Mr. Finnin also testified that he understood that,
regardless of the termination provisions in these
franchise agreements, state law precluded the termination of dealerships for unjust reasons.25
On May 13, 2009, Finnin received a letter from
Chrysler stating that its Chrysler and Jeep franchise
25 Iowa state law provides that a “franchiser shall not terminate or refuse to continue any franchise unless the franchiser
has first established, in a hearing held under the provisions of
this chapter, that both of the following apply: a. The franchiser
has good cause for termination or noncontinuance. b. Upon
termination or noncontinuance, another franchise in the same
line-make will become effective in the same community, without
diminution of the motor vehicle service formerly provided, or
that the community cannot be reasonably expected to support
such a dealership.” Iowa Code Ann. § 322A.2(1) (West 2009).
Iowa state law further provides that “[u]pon hearing, the
franchiser shall have the burden of proof to establish that
under the provisions of this chapter the franchiser should be
granted permission to terminate or not continue the franchise,
or to enter into a franchise establishing an additional motor
vehicle dealership, or to alter a franchisee’s community.” Iowa
Code Ann. § 322A.9 (West 2009).

App.66a
agreements would be rejected in bankruptcy. The
letter is identical to that received by the other representative plaintiffs in this case. DX446. Mr. Grady,
Director of Dealer Operations, explained that Finnin’s
Chrysler and Jeep franchise agreements were rejected
by Chrysler in bankruptcy because the dealership
only met 66% of its MSR and because Chrysler believed
that a nearby Dodge dealer was a better dealer and
wanted that dealer to have the Finnin Chrysler and
Jeep franchises. DX1315.
After Finnin received the May 13, 2009 letter,
Finnin lost use of half of a “10,000 new square foot
showroom at [its] main facility” that was dedicated to
its Chrysler and Jeep franchises. Tr.2244:19-21. Finnin
also lost the income it could have derived from
“selling the Jeep-Chrysler products, not selling those
trade [ins], not performing warranty work on the
Chrysler-Jeep vehicles, not selling parts to our individual clients and our wholesale accounts, and . . . the
blue-sky value for the franchise.” Tr.2249:1-8. Finnin
“sought to get [its] Chrysler franchise back through
747 arbitration [and] spent over $180,000 trying to
get it back, but it was denied by the arbitrator.”
TR2249:9-12. Finnin’s 2010 financial statement from
the Kia franchise that had been co-located with its
Chrysler franchises showed that Finnin received an
annual net profit of $291,742 from that dealership.
DX620. Finnin’s 2011 financial statement from its
Kia franchise showed that it received an annual net
profit of $473,108 from that dealership. DX650.
Finnin claims that the rejection of its Chrysler
and Jeep franchise agreements in the Chrysler bankruptcy amounts to a taking of its two franchises
based on a theory of coercion that is the same as that

App.67a
relied on by the Alley’s plaintiffs. Finnin is seeking
just compensation in various amounts depending on
two different “but for” liquidation scenarios posited
by its valuation expert Mr. Stockton. As explained
above regarding Guetterman, Mr. Stockton posits
two “but for worlds” where Chrysler liquidates in
bankruptcy to establish the value of Finnin’s franchise
agreements. Mr. Stockton calculated the profit Finnin
allegedly lost based on these two liquidation scenarios
by using Finnin’s 2006, 2007 and 2008 financial
statements. DX137, DX195, and DX310. Under Mr.
Stockton’s valuation approach, the amount of just
compensation Finnin is seeking is as follows: (1)
$1,591,912 for the immediate liquidation scenario;
(2) $1,391,138 for the three-year orderly wind-down
scenario; (3) $775,040 for the 17-month orderly winddown scenario. Tr.2453:15-19.
II.

Summary of Plaintiffs’ Fact and Expert Evidence
A. Plaintiffs’ Fact Witnesses
i. Steven Rattner

Steven Rattner testified for both the plaintiffs
and the United States at trial. He explained that he
was appointed by Timothy Geithner, President Obama’s
Secretary of Treasury, at the end of February 2009 to
head a newly formed Auto Team Task Force (“Auto
Team”) at the United States Department of Treasury.26
26 Mr. Rattner came to the Auto Team with a journalism and
finance background. Mr. Rattner was a reporter for the New
York Times for over eight years and had been an investment
banker for both Lehman Brothers and Lazard Freres before
cofounding a private equity firm, the Quadrangle Group.
Tr.1606:15-1607:4. After leaving the Auto Team, Mr. Rattner

App.68a
According to Mr. Rattner, his role was to assemble
and oversee “a team of people who were going to
address the growing crisis in the automobile industry
[in 2008-09] and . . . come up with some policies to
ameliorate the situation.” Tr.1607:7-10. He remained
in this position from February 2009 until July 2009.
Tr.1607:12-15.
Mr. Rattner testified that he understood that his
job on the Auto Team “was a restructuring exercise
in that the Government had put some bridge loans
into [Chrysler] at the end of 2008 . . . [and] it would
be the [Obama] Administration that would have to
figure out what, if anything, the Government should
do, could do by the way of permanent financing to
make [Chrysler] viable.” Tr.1623:8-18. Mr. Rattner
explained that in carrying out the goals of the Auto
Team there was a principle called “shared sacrifice”
which meant they “felt that all the stakeholders in
[Chrysler] . . . were going to have to make sacrifices
and share in them.” Tr.1626:11-16. These sacrifices,
Mr. Rattner testified, would come from “the lenders,
the shareholders, the employees, the workers, the
suppliers, and the dealers.” Tr.1627:7-9. Mr. Rattner
explained that, for the lenders, this meant that they
would not be able to recover the entirety of the
outstanding debt that Chrysler owed to them.
Tr.1628:3-12. Mr. Rattner testified that, for the
employees, shared sacrifice was that their contracts
would be renegotiated and that Chrysler’s obligations
to them would be restructured or reduced. Tr.1628:15returned to his earlier work in finance and today he is
chairman and chief executive officer of Willett Advisors, which
manages the personal and philanthropic assets of former New
York City Mayor Michael Bloomberg. Tr.1607:16-23.

App.69a
17. At that time, the shared sacrifice of the auto
dealers was not discussed.
Mr. Rattner explained that prior to Obama
taking office, Chrysler had received a bridge loan
from the Trouble Asset Relief Fund (“TARP”) from
the Bush Administration in the amount of $4 billion
on December 31, 2008, and that under the terms of
the bridge loan Chrysler was required to submit a
“Viability Plan” to the U.S. Department of Treasury
by February 17, 2009. DX996. Mr. Rattner explained
that Chrysler was required to produce “a plan showing
how, in their judgment, with whatever tools and
adjustments or financial support or whatever it was
that they thought they needed, a plan that would
allow them to become profitable again and remain
viable or profitable . . . for the indefinite future.”
Tr.1630:5-12.
Chrysler’s Viability Plan was prepared by
Chrysler, with the help of Robert Manzo, a restructuring specialist from the Capstone consulting firm
who was retained by Chrysler starting in 2008.
Tr.3928:18-24; DX1056. In its plan, Chrysler offered
the following three options: (1) a stand-alone plan, in
which Chrysler would continue with the same
management but with an additional $5 billion from
Treasury and $6 billion from the Department of
Energy for a total of $11 billion in additional government funding, (2) an alliance with Fiat plan, under
which the two companies would work together to
rebuild Chrysler with lighter and more fuel efficient
vehicles and also would receive $11 billion in additional
government funding, and (3) an orderly wind-down of
Chrysler in bankruptcy plan, which would require
$24 billion in debtor-in-possession or “DIP” financing

App.70a
for a two-year wind-down of operations to allow for
the continued production of cars and trucks. Tr.1720:925; DX1056. Upon receiving Chrysler’s Viability Plan,
members of the Auto Team and their experts, including
Mr. Mosquet,27 were asked to review Chrysler’s plan.
Mr. Ronald Bloom,28 Mr. Rattner’s deputy who later
testified for the government, was primarily responsible
for reviewing Chrysler’s Viability Plan along with
other members of the Auto Team including Brian
Osias and Clay Calhoon.29 After reviewing Chrysler’s
Viability Plan, the Auto Team determined that Chrysler
could not survive under the terms proposed. On
March 30, 2009 President Obama announced that
Chrysler’s Viability Plan was rejected, and that Chrysler would be given until the end of April to revise its
Viability Plan. DX1133.
Mr. Rattner testified that the Auto Team gave
serious consideration to allowing Chrysler to liquidate
in bankruptcy without government involvement but
27 As discussed infra, Mr. Mosquet is a senior partner and
managing director in the Detroit office of Boston Consulting
Group. Since 2005, Mr. Mosquet has worked mainly in the
automotive industry. Tr.1858:7-1859:14.
28 As discussed infra, Mr. Bloom was the deputy to Mr. Rattner
and later became the head of the Auto Team. Tr.2685:7-15. Mr.
Bloom, prior to joining the Auto Team, had worked for the
United Steelworkers Union from 1996 to 2008, where he
negotiated their collective bargaining contracts and managed
their relationship with Wall Street firms interested in investing
in steel companies that are unionized. Tr.2682:25-2683:7.
29 Brian Oasis testified, as discussed in greater detail infra,
that he was an analyst who worked alongside with Mr. Calhoon
and by March 2009 was focused exclusively on Chrysler. Tr.3138:
21-3139:2.

App.71a
came to understand that Chrysler needed to survive
in some form so that its suppliers would also survive.
Specifically, Mr. Rattner testified that if Chrysler
was no longer making cars and trucks and instead
was liquidated “many of those suppliers would have
also been forced into some form of liquidation, and
the problem was not just those jobs that were lost,
but suppliers in this industry typically do not supply
just one manufacturer. They supply multiple, maybe
all of them. And so you have Ford, you would have
GM, you would have Toyota, and all the people who
operate in the south, potentially not being able to get
parts they needed to make their cars, and it was not
inconceivable-and I don’t think we were being doomsday
folks to say this-that we thought the whole industry
could shut down, at least for a bit, in a Chrysler
liquidation.” Tr.1725:9-22. Mr. Rattner also explained
that the Obama Administration was concerned about
unemployment, particularly in the auto industry,
and therefore concluded that keeping Chrysler alive
was important for this reason as well. Tr.1725:8-22.
After Chrysler’s initial Viability Plan was rejected
by the Auto Team, but before another plan was submitted, Mr. Rattner explained that the Auto Team
largely took control of Chrysler’s viability planning
and began meeting with Chrysler’s stakeholders,
including its creditors, represented by JP Morgan
(the administrative agent for the nearly $7 billion in
debt owned by Chrysler’s first lien lenders), Fiat
(Chrysler’s prospective purchaser), the United Auto
Workers (“UAW”), and suppliers. The evidence established that many of these meetings took place without

App.72a
Chrysler management present.30 As Mr. Rattner testified, “between March 30th and the end of April,
[the Auto Team], Chrysler, ultimately the banks, the
UAW, various interested parties, attempted and ultimately succeeded in negotiating a set of go-forward
arrangements that each party could live with and
that [the Auto Team] determined would allow Chrysler to achieve viability.” Tr.1636:10-15.
Mr. Rattner testified that in his role as leader of
the Auto Team he negotiated with Chrysler’s first
lien lenders, represented by JP Morgan. Tr.1650:41651:16. Mr. Rattner testified in detail how the Auto
Team set the terms and pace of the negotiations with
JP Morgan, where he understood that his “first offer
was not going to be [his] last offer, so [he] deliberately
started low[.]” Tr.1652:15-18. He explained that he
“spent a good bit of time-many hours in a short
period of time negotiating with [JP Morgan] and [JP
Morgan] negotiating with [the] other [lenders]” to try
and modify the terms of the $7 billion in loans so
that Chrysler would not have to file for bankruptcy,
but that those negotiations failed. Tr.1653:21-1654:11.
Eventually, the first lien lenders received $2 billion
in an agreement approved by the Bankruptcy Court.
Tr.1653:8-11.31
30 The evidence established that Chrysler, without the Auto
Team’s support, continued to work on an alternative Viability
Plan that required government assistance, but which Chrysler
hoped would meet the government’s requirements without
Chrysler having to enter bankruptcy. As described in more
detail in the discussion of Mr. Nardelli and Mr. Bloom’s testimony, this effort by Chrysler failed.
31 As discussed infra, JP Morgan’s advisor John Haeckel testified that after reviewing Chrysler’s Viability Plan, he came to

App.73a
Mr. Rattner testified that his deputy, Mr. Bloom,
was charged with negotiating an arrangement with
UAW. Tr.1637:4-15. Mr. Rattner testified that the
Auto Team “[sat] down with UAW and attempted to
negotiate some restructuring of the [employee’s] contract and of Chrysler’s obligation to [its employees].”
Tr.1628:15-17. These negotiations eventually led to
UAW pension funds receiving shares in New Chrysler.
Specifically, under the prepackaged bankruptcy plan,
negotiated by the government’s Auto Team, in exchange
for forgiving $8 billion in fixed obligations owed by
Chrysler to the UAW’s Voluntary Employees’ Beneficiary Association Plan or “VEBA,” UAW agreed to
accept a $4.6 billion unsecured note and stock in
New Chrysler. Tr.2720:7-13.
Mr. Rattner explained that the Auto Team also
took charge of the negotiations with Fiat regarding a
potential merger with Chrysler. Mr. Rattner described
it as “a kind of three-way negotiation in which
Chrysler, Fiat, and the U.S. Government all participated.” Tr.1636:16-24. The evidence established that
under the final negotiated prepackaged bankruptcy
plan, Fiat would take over management of New
Chrysler and receive stock in new Chrysler. Fiat
would not, however, have to pay Chrysler for its
interest in New Chrysler. Mr. Rattner stated that
consistent with its financing role, the government
had to approve the deal with Fiat. Tr.1636:25-1637:3.
Mr. Rattner acknowledged that the government’s
believe that the first lien lenders would never get more than $2
billion from Chrysler if Chrysler entered bankruptcy without
government assistance. He thus advised JP Morgan to accept
the government’s proposal to relinquish the debt held by first
lien lenders for the government’s $2 billion. Tr.2865:25-2866:3.

App.74a
power in this circumstance is known as the “Golden
Rule,” meaning “he who has the gold makes the
rules.” Tr.1683:9-12.
Mr. Rattner explained that reducing the number
of Chrysler franchises was in Chrysler’s proposed
Viability Plan before the government got involved
and thus was always a part of Chrysler’s viability
planning. Tr.1665:13-20. Known in the auto industry
as “dealership rationalization,” the government
understood from Chrysler’s submissions that Chrysler
planned to reduce the total number of franchisees
and wanted to combine all brands under one roof to
make Chrysler viable. Id. For this reason, “dealer
rationalization,” which was initiated by Chrysler
well before the financial crisis, was always going to
be part of a final Chrysler Viability Plan. Tr.1665:1320, Tr.1641:12-21, Tr.16380:14-17. Mr. Rattner,
explained however, that the Auto Team “never got
into the question of which dealers, how, or anything
of that sort” but rather was looking at it from a
macro level of how many. Tr.1664:20-1665:12. He
also agreed that one of the positives of moving forward
with a Chrysler bankruptcy was that it would allow
Chrysler to reduce its dealership network without
having to comply with state franchise laws, which, as
identified in the footnotes for each representative
plaintiff, provide significant protections to car
franchisees and limit the circumstances under which
dealerships can be terminated. Put another way,
bankruptcy would allow Chrysler to reject franchise
agreements without having to first comply with state
laws. Tr.1642:13-25.
Mr. Rattner further explained that the government
had hoped that Chrysler would not have to file for

App.75a
bankruptcy and testified that up to the last minute
the government was willing to provide funding under
the terms the government negotiated with Chrysler’s
lenders and others. Tr.1653:24-25, Tr.1654:9-11.
However, he also testified that everyone understood
from the beginning of the Auto Team’s review of
Chrysler’s Viability Plan that bankruptcy was an
option. Tr.1640:6-22, Tr.1642:4-11. When JP Morgan
was not able to get an agreement from all of Chrysler’s
lenders, the government concluded that if Chrysler,
in some form, was going to continue to manufacture
cars and trucks, Chrysler would have to file for bankruptcy under the terms the Auto Team negotiated.
Tr.1661:12-18.
Per the court’s pre-trial order, the government
also elicited testimony and evidence from Mr. Rattner
during the plaintiffs’ case-in-chief. In his testimony
for the government, Mr. Rattner explained that
Chrysler understood that “it could not be viable
unless it had significant sacrifice” from all interested
parties including dealers, shareholders, suppliers,
the UAW, and credit groups. Tr.1719:12-16. He
explained that he understood at the time that JP
Morgan and the other first lien lenders would not
provide Chrysler with any financing in order to allow
Chrysler to continue to operate as an ongoing concern
while in bankruptcy. Without this debtor-in-possession
or “DIP” financing, Chrysler could not continue to
manufacture new cars and trucks. Thus, if Chrysler
was to continue to make cars and trucks during
bankruptcy, Mr. Rattner explained that Chrysler
needed the federal government’s assistance. Tr.1722:
13-1723:5. Mr. Rattner also made clear in his testi-

App.76a
mony that the Auto Team never targeted specific
dealers for rejection. Tr.1737:1-6.
ii. Xavier Mosquet
The plaintiffs also presented the testimony of
Xavier Mosquet to support their coercion claim. Mr.
Mosquet is a senior partner and managing directing
for Boston Consulting Group (“BCG”) in its Detroit
office, and was an advisor to the Auto Team. Tr.1858:720. Mr. Mosquet explained that BCG is a “managing
consulting firm present in several countries around
the world” that gives advice to corporations about
operation issues. Tr.1858:21-1859:14. He explained
that he is an expert in the automotive industry and
further explained that BCG was retained by the Auto
Team in 2009, with Mr. Mosquet as the team leader,
to analyze the Viability Plans submitted by GM and
Chrysler in February 2009. Tr.1859:24-1860:12.
Regarding the Chrysler Viability Plan, Mr. Mosquet explained that Chrysler’s plan was not viable.
The plaintiffs, however, focused Mr. Mosquet’s testimony on his understanding of Chrysler’s “Project
Genesis” plan, which, as described above in connection
with the testimony of the individual plaintiffs, was a
voluntary Chrysler program designed to reduce or
“rationalize” Chrysler’s dealership network without
forced dealership closures. Tr.1873:3-6, Tr.1874:3-8,
Tr.1885:19-23. Mr. Mosquet testified that neither he
nor anyone else at BCG criticized Project Genesis.
Tr.1909:17-1910:8. He also testified that, in comparison
to GM, which had not begun to rationalize its dealership
network, BCG had concluded that Chrysler had already
done significant dealership closures and was thus
ahead of GM. PX704; Tr.1892:13-20. Mr. Mosquet

App.77a
testified that BCG concluded that Chrysler had
“already gone through a significant number of low
performing consolidations.” Tr.1936:15-20; PX704. Mr.
Mosquet further testified that BCG concluded that
any further reduction in the dealership network
could result in eliminating additional good dealers
with “limited upside potential.” Tr.1894:11-17; PX704.
Mr. Mosquet explained that in evaluating Chrysler’s Viability Plan, BCG had not done any analysis
concerning whether further reducing the number of
Chrysler dealers would positively impact Chrysler’s
sales or increase its profitability. He also testified
that no one at BCG had analyzed the health of the
overall dealership network. Tr.1900:11-1901:5,
Tr.1901:15-18. He testified that he understood that
Fiat’s plan for the Chrysler dealerships was the same
as Project Genesis. Tr.1882:1-4. Mr. Mosquet concluded
by stating that only Chrysler was in the position to
determine the appropriate size of its dealership network. Tr.1962:12-23, Tr.1963:4-6.
iii. Alfredo Altavilla
In accordance with the court’s pre-trial order,
the court allowed the parties to introduce the video
deposition of Alfredo Altavilla, Fiat’s Head of Business
Development and CEO of Fiat Powertrain Technology,
in lieu of his attendance at trial. In his deposition,
Mr. Altavilla testified regarding the negotiations
between the government and Fiat and regarding
Fiat’s interest in the size and composition of Chrysler’s
dealership network.
Mr. Altavilla explained that there had been an
initial term sheet negotiated between Fiat and Chrysler
regarding an “alliance” before the Auto Team got

App.78a
involved. He testified that the second term sheet
between Fiat and Chrysler was significantly renegotiated by the Auto Team. Depo. 60:8-25. Specifically, Mr. Altavilla explained that during his first
meeting with Mr. Bloom from the Auto Team, Mr.
Altavilla learned that the government would be
Fiat’s “main counterpart for executing the alliance[.]”
Depo. 67:20-68:5. He went on to explain that the
second term sheet had no provisions that were
promoted or suggested by Chrysler and that in negotiating the second term sheet it was understood that
the Auto Team expected additional concessions from
both sides. Depo. 177:15-178:3. Mr. Altavilla
explained, however, that neither in the first or second
term sheet executed between Chrysler and Fiat was
there any mention of reducing the dealership network
by a specific number of dealers. Depo. 154:4-22,
Depo. 152:23-153:4. Mr. Altavilla testified that part
of the reason that Fiat was interested in Chrysler
was because Chrysler had an extensive dealership
network. Depo. 140:20-25. He testified that Fiat
eventually came to understand from Chrysler why a
reduction in the size of the dealership network made
sense and deferred to Chrysler’s judgment when
Chrysler proposed accelerating Project Genesis with
the more ambitious “Project Tiger.” Ultimately, Project
Tiger became the basis for Chrysler deciding which
franchise agreements to reject in the bankruptcy.32
Depo. 146:4-147:11.

32 As will be discussed in greater detail infra, Project Tiger was
a plan proposed by Chrysler in April 2009 just before it entered
bankruptcy. DX1167.

App.79a
B. The Plaintiffs’ Experts
i. Dr. Donald Marron
The plaintiffs presented the testimony of Dr.
Donald Marron, Ph.D., an economist and Institute
Fellow and Director of Economic Policy Initiatives at
the Urban Institute in Washington D.C. and president
of Marron Economics, LLC, an economic consulting
firm. Tr.2047:1-6. Dr. Marron was called to explain
why, in his view, the terms the Auto Team negotiated
in its prepackaged bankruptcy plan did more than
protect the government’s financial interests. Dr. Marron
opined that the government’s negotiated terms were
designed to achieve valid public policy goals including
saving jobs and pensions.
Dr. Marron holds an A.B. in mathematics from
Harvard University and a Ph.D. in economics from
the Massachusetts Institute of Technology and is an
expert in the fields of public finance and industrial
organization. Tr.2047:7-11. From 2002 through early
2009, Dr. Marron served in senior economic policy
positions in the United States Congress and the
White House. Tr.2047:19-21. His positions included
being the Executive Director of the Joint Economic
Committee, Acting Director of the Congressional
Budget Office (“CBO”), and Senate-confirmed member
of the Council of Economic Advisors. Tr.2047:21-25.
In his role at CBO he “directed a staff of about 230
employees that were charged with working on a broad
range of economic and budget issues.” Tr.2047:252048:2. From August 2007 until January 2009 he
served at the White House Council of Economic
Advisors as a consultant, then senior economic advisor,
and then as member where he was “actively engaged

App.80a
in responding to the financial crisis, including the
creation and use of the Troubled Asset Relief Program.”
Tr.2048:5-11. He has published numerous articles
and papers on the economics of public policy and has
provided testimony to committees of the U.S. Congress on more than twenty occasions. Tr.2048:19-24.
Dr. Marron offered several opinions relevant to
the government’s motivation in providing Chrysler
with financial support during the economic crisis and
opined that the government, in providing funding
and in requiring certain actions in exchange for government financing, was acting in its governmental
capacity and not simply as a private lender. Dr.
Marron’s opinions are summarized as follows.
First, Dr. Marron opined that “[t]he United States
experienced a remarkably severe financial crisis and
economic downturn starting in 2007. The main causes
include[d] excesses in mortgage lending and fragility
of a highly leveraged financial system reliant on ample
liquidity.” He further testified that “[g]overnment
policy errors contributed to the financial crisis and
the severity of the economic downturn.” Tr.2055:232056:4.
Second, Dr. Marron opined that “[t]he government
had unique power to combat the financial crises and
was correct to use it. Many companies directly benefited
from that support, but the purpose was not to help
individual companies. Instead, the goal was to support
essential parts of the economy, and, in so doing, stem
job losses and avoid an even more severe economic
downturn. The Chrysler . . . bailout[], for example, [was]
intended to support the domestic auto industry as a
whole, including suppliers and other auto manufacturers[.]” Tr.2058:25-2059:10. Dr. Marron explained

App.81a
that having learned its lesson from inaction during
the Great Depression, the government acted in order
“to support the economy as a whole and [to] avoid a
downturn as severe or worse than in the Great
Depression.” Tr.2061:17-19.
Third, Dr. Marron testified that it was his opinion
that “[t]he government did not act in a commercial
manner in rescuing Chrysler. The government did
not have a commercial motive. It sought to protect
the broader economy, not earn a commercial return.
The government did not seek commercial returns.
Instead, it gave Chrysler substantial subsidies.”
Tr.2062:24-2063:4. Dr. Marron explained that during
the financial crisis the “government did not have a
commercial motivation in enacting TARP” but rather
aimed to support the American economy and prevent
job loss. Tr.2063:10-14. Dr. Marron noted that the
government’s concern of “shared sacrifice” is not
something a private lender would have considered
but is a public policy consideration made by the government when acting in its governmental capacity.
Tr.2065:5-9. Additionally, Dr. Marron opined that
the “government knowingly subsidized Chrysler,
offering financial terms much more generous than
private investors would accept” and that this was
further evidence that the government was not acting
as a private lender. Tr.2065:9-11. Dr. Marron acknowledged that “[s]ome of the government’s actions
did parallel those a commercial lender or financier
might take” but that ultimately “[t]he Chrysler bailout
as a whole was decidedly non-commercial.” Tr.2065:1013, Tr.2065:24-25.
Fourth, Dr. Marron testified that it was his opinion that the government was not acting as a private

App.82a
lender because the loans to Chrysler were highly
subsidized. Tr.2066:1-6. Specifically, Dr. Marron
explained that “the government did not invest in the
companies on commercial terms” but rather “expected
to lose money.” Tr.2066:6-8. In support of his opinion,
Dr. Marron relied on contemporaneous reports by the
Office of Financial Stability (“OFS”), the CBO, and
the Office of Management and Budget (“OMB”). He
noted that OFS in 2009 published three estimates of
the Automotive Industry Financing Program,33 with
subsidy rates ranging from 43% to 60%, meaning
that the government understood that it would not
likely receive repayment. PX257. For example, Dr.
Marron explained that in its first estimate OFS
calculated that the government had made $75.9
billion in loans and equity investments to auto
companies but that the securities it received were
worth only $30.5 billion. Tr.2068:8-15. Dr. Marron
noted that this meant the $45.4 billion difference
was a subsidy to the auto companies, which was
about 60% of the overall investment. Id. Dr. Marron
explained that for the other two estimates calculated
by OFS, the subsidization rate was consistent with
the first estimate. Dr. Marron went on to explain
that the CBO and OMB reported similar numbers
and subsidization rates. Based on these rates, Dr.
Marron concluded that the government acted in its
governmental capacity and not as a private lender
when it bailed out Chrysler. Tr.2076:9-15.

33 This program provided capital to both Chrysler and GM as
well as their captive finance companies, Chrysler Financial and
General Motors Acceptance Corporation, and auto part suppliers.
Tr.2117:18-25.

App.83a
Dr. Marron acknowledged on cross examination
that all the reports that he relied on included figures
that encompassed all or nearly all of the government’s
loans to the auto industry and not just to Chrysler.
Tr.2126:8-2129:20. Additionally, on cross examination,
Dr. Marron acknowledged that New Chrysler repaid
all its federal loans to the United States. He explained,
however, “when the loans were first made, the analysts
would have assumed there was some probability of
default and that would have been built into their
estimated subsidy rate . . . [a]nd by the end, where it
turned out after the fact that this loan didn’t default,
that adjustment goes away.” Tr.2138:12-24.
ii. David Berliner
David Berliner, who received a B.A. degree in economics from Lafayette College and an M.B.A. from
the University of Michigan, also testified for the
plaintiffs. He is a licensed Certified Public Accountant
as well as a Certified Insolvency and Restructuring
Advisor and a Certified Turnaround Professional.
Tr.100:3-7. Mr. Berliner is currently a partner at
BDO, an international accounting, tax and consulting
firm, where he oversees business restructuring and
turnaround services. Tr.99:21-100:8. He has been
involved in several bankruptcy cases involving the
liquidation of “large corporations including Sports
Authority Holdings, Malibu Lighting, Furniture Brands
International, American Home Mortgage, and
Pillowtex Corporation.” Tr.101:7-11. He also “served
as the financial advisor to the official committee of
unsecured creditors in the bankruptcy of Daewoo
Motor America, Inc.” Tr.101:18-20.

App.84a
Mr. Berliner offered his opinion that “the Chrysler
dealers whose franchises were terminated and made
worthless in June 2009 would have fared better and
their franchises would have retained significant value
if the U.S. Government had not acted as it did in
2009.” Tr.102:3-7. Specifically, Mr. Berliner testified
that “absent the financial assistance from the Government, Chrysler would have filed for an ordinary
liquidation in bankruptcy and would not have
terminated existing dealer franchises as it did in
2009” and “under this but for scenario . . . the rejected
dealers would have generated revenues and earnings
for a period of at least 20 months or longer during a
Chrysler 2009 liquidation, and therefore, the rejected
dealership franchises would have had substantial
value.” Tr.102:8-19. Mr. Berliner posits that had the
government not gotten involved in providing financial
assistance to Chrysler, Chrysler would have begun a
Chapter 11 liquidation bankruptcy with debtor-inpossession or DIP financing so that Chrysler could
continue manufacturing at least some of Chrysler’s
vehicle lines with valid warranties. He further opined
that Chrysler would not have rejected any franchise
agreements if Chrysler had entered Chapter 11 without
government assistance. Tr.131:5-18.
Mr. Berliner explained that, in his view, had the
government not provided assistance to Chrysler,
Chrysler would have sold its assets in a Section 363
bankruptcy sale. Although described in more detail
by former Bankruptcy Judge Judith Fitzgerald,
plaintiffs’ bankruptcy expert, Mr. Berliner explained
that “Section 363 sales are any sale of a debtor’s assets
conducted under the authority of the Bankruptcy
Court . . . and may include individual assets belonging

App.85a
to the debtor, a combination of assets, or substantially, all of the debtor’s assets.” Tr.131:20-25. Mr.
Berliner explained that in his opinion Chrysler “would
have begun a Section 363 asset sale process to
attempt to sell its valuable vehicle lines, such as
Jeep, Dodge Ram Truck, and Town & Country/Dodge
Minivan[.]” Tr.132:7-11. Mr. Berliner testified that
“more than one potential bidder would have submitted a qualifying bid . . . and Chrysler would have held
an auction in order to select the highest and best
bid.” Tr.135:20-24. Mr. Berliner explained that he
based his conclusion on the assumption that “[b]idding
would have been competitive, in part due to the
interest in obtaining the valuable Chrysler brands
and also in part, out of concern that a competitor
might win one of these or more of these iconic brands
at too low a price,” and because through bankruptcy
the assets would be taken free and clear of all liens
and claims. Tr.135:24-136:6.
Mr. Berliner further explained why he believed
that Chrysler would have likely received DIP financing.
Tr.137:5-6. Mr. Berliner stated that “[i]f the debtor
does not have sufficient cash to conduct the asset
sales and to cover the costs of the liquidation process,
the debtor will seek Bankruptcy Court permission to
obtain debtor-in-possession or DIP financing to provide
the necessary funds.” Tr.137:20-24. Mr. Berliner
reasoned that a debtor would seek DIP financing because “[i]f the debtor has only limited funds to
conduct a sale process, then the liquidation sales
must be done in an accelerated time frame which
generally results in lower prices than an orderly sale
process.” Tr.137:8-12. Mr. Berliner opined that Chrysler
would have sought and would have obtained some

App.86a
DIP financing from “its secured lenders, Cerberus
[the then-owner of Chrysler], a stalking horse bidder
for the Chrysler brands, or a state government [where]
a plant producing Chrysler’s valuable brands was
located.” Tr.138:10-14. Mr. Berliner testified that
these entities would have been incentivized to provide
DIP financing in order “to ensure the liquidation
process and sale of assets was done over a reasonable
time frame and in an orderly manner” to maximize
the value of the assets. Tr.138:19-24. Mr. Berliner
went on to state that “even if no DIP financing was
provided to Chrysler . . . one or two brands would have
still been sold, maybe at a lower sales price” and the
“Chrysler dealers would still have been able to continue
providing service and parts and selling used vehicles
to their customers and still may have received some
new vehicles to sell in the future from the acquirer of
the brands.” Tr.129:11-23.
Mr. Berliner next opined that warranty work
would continue at all the plaintiffs’ franchises because,
in his view, the government would have put into place
some type of warranty program to guarantee the
outstanding warranties of Chrysler car owners. Mr.
Berliner explained that he believed that “[i]f nothing
else, the government would likely have insisted that
there was a warranty program to ensure public safety,
consumer protection, and prevent the collapse of the
U.S. automotive industry. Tr.140:7-11. Specifically,
Mr. Berliner testified that “given the large number of
Chrysler vehicles on the roads in early 2009 . . . a
recall warranty program would have been put in
place in a Chrysler 2009 liquidation.” Tr.141:2-6.
Regarding the plaintiffs’ franchises, Mr. Berliner
opined that “no Chrysler dealers would have been

App.87a
immediately terminated in a Chrysler 2009 liquidation.” Tr.141:7-9. Mr. Berliner testified that “there
was no short-term benefit to Chrysler rejecting
dealership agreements” and that Chrysler would not
have rejected any agreements in bankruptcy.
Tr.144:15-17, Tr.144:23-145:2.
Mr. Berliner testified that he supported his opinions based on evidence he examined from three other
automobile bankruptcies in the United States: Daewoo
Motors America, Saab America, and American Suzuki
Motor Company. Mr. Berliner explained that Daewoo
Motors America (“DMA”) was the U.S. import and
distribution arm of Daewoo Motor Company, which
in 2002 had a network of 525 dealerships. Tr.145:1419. He explained that DMA was forced to file for
Chapter 11 bankruptcy in the United States in 2002
after its parent company was placed into reorganization status in South Korea. Tr.145:20-24. Mr. Berliner
testified that “[a]s part of the DMA bankruptcy, the
company entered into long-term agreements with the
buyer of Daewoo to provide service, warranty repairs
and Daewoo parts to the U.S. market through the
DMA dealership network” and that “approximately
450 of the DMA dealers entered into agreements
with the buyer and remained in business for many
months, providing service and warranty repair work
and selling used cars.” Tr.145:24-146:8.
Next, Mr. Berliner testified regarding the fate of
Saab America after Saab Automobiles went into
bankruptcy. He testified that, following that bankruptcy, the 188 dealers in the dealership network
stayed open for a period of time to service cars and
sell used vehicles. Tr.146:13-22. Finally, Mr. Berliner
testified about the American Suzuki Motor Corporation

App.88a
(“Suzuki”) bankruptcy in 2012. Mr. Berliner explained
that at the time Suzuki filed for bankruptcy, it had
“220 automobile dealerships, 900 motorcycle/ATV
dealerships, and over 780 outboard marine dealerships.” Tr.146:24-147:2. Mr. Berliner explained that
Suzuki undertook an orderly liquidation process where
it entered into a Service and Parts Agreement with
its dealers where Suzuki would honor all warranties
and allow the dealers to continue to provide warranty service and sell the remaining new automobiles.
Tr.147:8-22.
Mr. Berliner testified these historic examples of
prior auto bankruptcies together with his expert
opinions supported his conclusion that “Chrysler dealers
would have continued in business, earning profits by
performing a range of services for a period of time” if
Chrysler had filed for Chapter 11 bankruptcy without
government assistance. Tr.149:10-13. He testified
that “[s]ome of the valuable Chrysler brands, such as
Jeep, Dodge RAM trucks, and minivans, would be
sold to an acquirer in a 363 sale” and that the
“acquirer would seek to restart production as soon as
possible, likely sometime in late 2009 or 2010.”
Tr.149:13-17. Mr. Berliner concluded that if the 363
purchaser did not have an existing dealership network,
the Chrysler dealers could potentially continue in
business indefinitely and have their franchise agreements assumed by the new manufacturer. Tr.149:1823. Mr. Berliner acknowledged that even if the
Section 363 acquirer in bankruptcy had a dealership
network, “there would be some transition period of
one to two years after the Section 363 sale where it
would be necessary for the acquirer to utilize the
existing Chrysler dealers to sell new vehicles and pro-

App.89a
vide service and warranty repairs until the acquirer’s
dealer network was ready.” Tr.149:24-150:5. Mr.
Berliner explained that during this transition period,
the Chrysler dealers would be able to continue to
provide service and warranty work and sell some
new Chrysler vehicles as well as used vehicles, and,
at the end of the transition period, would either
remain dealers or would wind-down their operations.
Tr.150:6-13. Mr. Berliner reiterated that dealers would
have had a “minimum of 20 months and potentially
longer” from the date of the filing of a Chrysler bankruptcy in a “but for world” without government
funding, and that the plaintiffs would have been able
to derive profits from their operations for this period.
Tr.151:1-7.
On cross examination, Mr. Berliner admitted that
it is not uncommon for a debtor in bankruptcy to
reject executory contracts, like franchise agreements,
as Chrysler did in its bankruptcy, based on its business judgment. Tr.194:5-15, Tr.195:5-6. Mr. Berliner
also admitted on cross examination that he had no
opinion as to who would have acquired Chrysler’s
assets in a 363 sale. Tr.197:10-14. He explained that
he “believed” that there would be an acquirer, that
the sale would occur within four to six months, and
that, as a result, the plaintiffs would have had
sixteen to twenty months to perform service and warranty work. Tr.201:8-17, Tr.153:12-20. Mr. Berliner
further admitted on cross examination that some of
the Chrysler franchisees would likely have had their
agreements rejected in the bankruptcy and that only
some would have been given new franchise agreements with the Section 363 purchaser. Tr.203:19204:25. In this connection, Mr. Berliner explained

App.90a
that he assumed that Chrysler franchisees would
have access to financing to purchase new cars from
Chrysler (known as floor plan financing) and that
there would be DIP financing in place to allow Chrysler to orderly wind-down in a bankruptcy. Tr.230:16, Tr.233:16-24.
Finally, regarding the other auto bankruptcies
he relied on, Mr. Berliner admitted on cross examination that there were some important distinctions
between those bankruptcies and what would have happened to Chrysler had the government not intervened.
First, he acknowledged that franchise agreements were
rejected in the Saab bankruptcy. Tr.262:22-263:10,
Tr.153:12-20. Next, he acknowledged that the Suzuki
bankruptcy involved an auto distributor going bankrupt, and not the manufacturer. Finally, in the case
of Suzuki, he acknowledged that the manufacturer
continued to provide financial assistance that would
not have been available to Chrysler in a “but for
world” bankruptcy. Tr.263:23-265:10.
iii. Maryann Keller
The plaintiffs presented the testimony of Ms.
Maryann Keller, an automotive industry expert with
decades of experience conducting automotive industry
financial research and analysis. She is currently the
principle of Maryann Keller & Associates, a position
she has held since January 2001. Tr.1070:17-22. She
holds a bachelor’s degree in chemistry from Rutgers
University and a master’s degree from Bernard Baruch
School at the City University of New York. Tr.1073:1417. She has “advised clients on issues across the
automotive supply chain, from component companies
to retail sales area.” Tr.1071:11-14. Ms. Keller has

App.91a
been “qualified as an automotive expert in three proceedings, the first in the International Court of Arbitration in Hong Kong; a second in the State of
Virginia; and, finally, in the Bankruptcy Court in
New York City.” Tr.1071:18-22. She has lectured
about the automotive industry at Columbia University,
Harvard, NYU, MIT, and the Economic Club of Detroit.
Tr.1072:19-21. Ms. Keller has also authored two
books on the automotive industry and written columns
on the automotive industry for the Christian Science
Monitor, Motor Trend Magazine, and Automotive
Industries. Tr.1072:23-1073:1.
Ms. Keller testified that she was asked to opine
on what would have happened if “the federal government had not provided financial assistance to Chrysler
LLC in 2009 [and] the company would have restructured in a bankruptcy proceeding.” Tr.1073:18-22.
She testified that in her opinion Chrysler’s assets
that would have attracted multiple buyers and that
Chrysler would have continued to manufacture vehicles
during the bankruptcy. She also opined that plaintiffs would have been able to continue to sell Chrysler
vehicles and would not have rejected any franchise
agreements in a bankruptcy without government
involvement. Tr.1074:11-1075:1.
Ms. Keller testified that the most prized assets
of Chrysler would have been the Jeep brand, the
Dodge RAM truck brand, and the Chrysler family of
minivans. Tr.1076:2-14. Ms. Keller testified that there
would likely have been at least 12 companies interested
in purchasing Chrysler’s assets and continuing to
manufacture Chrysler vehicles. She explained that
without having to abide by UAW contracts and pay
union wages she believed Chryslers’ assets would

App.92a
become more valuable and would have attracted
more interest from potential purchasers. Tr.1086:1221. She identified the following entities as potential
purchasers of Chrysler’s assets: The Blackstone Group;
The Fiat Group, Ford Motor Company, Geely, General
Motors, Magna International, Inc., Mahindra &
Mahindra Limited, PSA Peugeot Citroen, Renault,
Tata Motors, Tracinda Corp., and Volkswagen Group.
Ms. Murphy testified as to why each of these entities
was in a position financially to purchase Chrysler’s
vehicle lines in a Section 363 sale and why it would
have made financial sense for them to do so. Tr.1086:
22-1102:23.
First, Ms. Keller testified that in her opinion the
Blackstone Group would “have targeted Chrysler’s
physical assets in addition to its brands and intellectual
property.” Tr.1087:7-9. Ms. Keller explained that she
believed the Blackstone Group would be a potential
Section 363 purchaser in part because it was a large
private equity firm with “$31.8 billion in assets
under management with $821.3 million in revenues”
during 2007 and that it had attempted to acquire
“Chrysler in the spring of 2007 from Daimler” but
had lost to Cerberus. Tr.1087:1-6.
Second, Ms. Keller testified that Fiat also would
have been a potential Section 363 purchaser because
“the combination of these two companies was ideal
. . . Fiat’s expertise was small fuel-efficient cars while
Chrysler’s expertise was trucks and sport utility
vehicles” and because “Fiat had the ability to make
Jeep a major international brand and to add Italian
designed cars to the North American portfolio.” Tr.
1089:8-19. She explained that Fiat, which paid nothing
for Chrysler under the government’s prepackaged bank-

App.93a
ruptcy plan, was in a financial position to purchase
Chrysler’s assets because in 2007 it had earned €2.1
billion on €59 billion in revenue. Tr.1088:2-7.
Third, Ms. Keller opined that Ford would have
been a potential bidder because its financial conditions
were “impressive” in 2007, with $13 billion in cash
on hand and access to more than $10 billion in credit
in 2008. Tr.1090:1-3. Ms. Murphy testified that she
believed “Ford had the wherewithal to have been a
bidder for select Chrysler assets that complemented
its . . . portfolio including the Jeep brand.” Tr.1090:3-6.
Fourth, Ms. Keller opined that Geely, a Chinese
automotive manufacturing company headquartered
in Hangzhou, Zejiang would have been a potential
Section 363 purchaser. Ms. Keller explained that
“[b]y the end of 2007, Geely recorded, in Hong Kong
dollars, 11.3 billion in revenues and recorded . . . record
breaking profits of Hong Kong dollars [of] 320 million
before taxes.” Tr.1090:7-10. She explained that she
believes that at the time of a Chrysler bankruptcy,
Geely was “well capitalized for both domestic and
international growth.” Tr.1090:15-16. Ms. Keller further
testified that Geely’s subsequent “acquisition of Lotus
and its subsequent acquisition of Volvo demonstrated
its ability and willingness to acquire international
automotive assets that would add to its brand portfolio
and its technical expertise.” Tr.1090:17-21. Ms. Keller
also noted that Geely “actually attempted to purchase
some or all of Fiat Chrysler in 2018” to further support her opinion that Geely would have been an
interested bidder in Chrysler’s assets if there had
been an open Section 363 sale. Tr.1091:11-14.
Fifth, Ms. Keller opined that General Motors
could have been a potential buyer of “select Chrysler

App.94a
brands that complemented its own product portfolio,
especially Jeep after it discontinued the Hummer
brand,” after GM emerged from bankruptcy at some
point in 2008. Tr.1092:8-13.
Sixth, Ms. Keller testified that Magna International, a Canadian global automotive part supplier,
could have been a prospective bidder on Chrysler’s
assets in the event of an open Section 363 auction.
Ms. Keller explained that Magna in 2007 “had over
25 billion in revenue and over 68 million in net
income.” Tr.1092:16-17. Ms. Keller testified that
“Magna was financially tied to Chrysler as a major
supplier of components for all Chrysler vehicles” and
thus would have had an interest in bidding for Chrysler’s assets. Tr.1092:19-21. She went on to explain
that in 2007, when Chrysler was for sale, Magna had
made a bid of $4.7 billion and that Magna would
likely attempt to purchase Chrysler’s assets again in
a Section 363 sale. Tr.1092:22-1093:1.
Seventh, Ms. Keller testified that Mahindra &
Mahindra Limited (“Mahindra”), an automotive and
farm equipment manufacturer based in Mumbai,
India, would have been another potential purchaser
of Chrysler’s assets in a Chrysler bankruptcy. Ms.
Keller explained that by “the end of fiscal year 2008,
ending March 31, 2008, Mahindra had produced
more than 2 million vehicles . . . [and had a] gross
income . . . [of] $3.05 billion.” Tr.1093:18-25. Ms. Keller
testified that she believed that Mahindra would have
been interested in purchasing Chrysler’s assets because
“it would have benefited from entering the global
light vehicle segment on a major scale” and “would
have targeted Chrysler’s Jeep and Dodge truck brands.”
Tr.1094:1-9. Ms. Keller also noted that her opinion

App.95a
was supported by the fact that Mahindra representatives met with Chrysler in early 2008 to discuss the
possible acquisition of certain Chrysler assets. Tr.
1094:5-7.
Eighth, Ms. Keller testified that PSA Peugeot
Citroen (“PSA”), a French automobile company, would
be another likely bidder on Chrysler’s assets in a
bankruptcy. She explained that in 2007, PSA had
earned a profit of €1.8 billion and had sold over 3.4
million vehicles. Tr.1094:15-18. She opined that “PSA
had been seeking to return to the United States
. . . [and] the French Government had guaranteed
financial assistance to PSA during the financial
crisis.” Tr.1094:15-24. Ms. Keller stated that PSA’s
interest in Chrysler’s assets would have stemmed
from the fact that “the Chrysler product portfolio
would fill gaps, especially for light trucks in [PSA’s]
portfolio . . . and the Chrysler acquisition would have
provided a [United States] dealer body . . . that would
have granted [PSA] franchises to those dealers without
the burden of having dealers make additional facilities
investments.” Tr.1094:24-1095:8.
Ninth, Ms. Keller testified that Renault, the second
largest auto manufacturing company in France, would
have also been an interested bidder. Ms. Keller
explained that in 2007 Renault generated €40.6 billion
in revenue and earned 2.7 billion in profit, and that
it would have likely been interested in returning to
the United States market through an acquisition of
Chrysler assets. Tr.1095:18-25.
Tenth, Ms. Keller testified that Tata Motors
(“Tata”), an automobile manufacturer based in Mumbai,
India, would have also been a potential bidder on
Chrysler’s assets in order to expand its international

App.96a
market share. Ms. Keller explained that “Tata wanted
to become an international automaker” which is evidenced by its 2008 acquisition of Jaguar Land Rover
from Ford and the fact that in early 2008 Tata was in
talks with Chrysler about selling the Jeep brand in
India. Tr.1096:17-1097:18.
Eleventh, Ms. Keller opined that Tracinda Corp,
a privately-owned investment company based in
Beverly Hills, California, would have been another
potential purchaser. Ms. Keller explained that “on
April 5th, 2007, Tracinda made a $4.5 billion cash
offer to DaimlerChrysler for its U.S.-based unit” and
that it would have likely made similar efforts to
purchase Chrysler’s assets in bankruptcy in 2009.
Tr.1098:3-6. Ms. Keller also explained that Tracinda
would have been a likely 363 purchaser because it
had made other forays into the automotive industry
by purchasing large amounts of shares in GM and
Ford. Tr.1098:9-19.
Finally, Ms. Keller opined that the Volkswagen
Group (“VW”) would have been a potential purchaser
of Chrysler’s assets in a Section 363 sale. She explained
that in 2007 VW had earned €6.5 billion in pre-tax
profit and “was a financially strong company and had
previously acquired auto companies and successfully
integrated them into its business.” Tr.1098:24-1099:3.
Ms. Keller testified that although VW had success in
many global markets, “its presence in the North
American market lagged because the company did
not have what are called crossover sport utility
vehicles [and] pickup trucks,” which a purchase of
Chrysler’s assets in a 363 sale would have provided.
Tr.1099:3-7.

App.97a
Ms. Keller went on to explain, after listing the
12 different potential Section 363 purchasers, that
her conclusion that some company would have
purchased Chrysler’s assets and made use of its
vehicle lines is supported by historical examples in
the automotive industry. She explained that “[t]he
modern auto industry is notable for the willingness
of buyers to purchase the assets of financially
distressed, even bankrupt automakers.” Tr.1100:5-7.
She further testified that Chrysler brands like Jeep
would have attracted a number of buyers both for the
name recognition and the distribution network. For
example, Ms. Keller noted that the Jeep brand was
purchased by Chrysler in 1987 when it bought American Motors. Tr.1101:25:1102:18. She explained that
Chrysler made this purchase even though American
Motors was in financial distress and that Chrysler
decided to preserve the dealership network in order
to preserve an expertise in Jeep service and a
distribution network. Tr.1102:24-1103:11.
Ms. Keller also pointed to the sales of MG Rover,
Lotus, Saturn, Hummer, and Saab, including some
while the brand was in bankruptcy. She explained
that each of these brands attracted potential buyers
despite less than ideal financial conditions, which, in
her opinion, demonstrated that automakers have an
appetite for purchasing brands with name recognition
in order to revitalize them. Tr.1104:15-1105:16 (MG
Rover), Tr.1105:17-1106:10 (Lotus), Tr.1106:11-1109:8
(Saturn), Tr.1109:9-1110:7 (Hummer), Tr.1110:81111:19 (Saab). She went on to explain that economic
indicators predicted a rebound in auto sales which
would have made Chrysler’s assets even more valuable.
Specifically, Ms. Keller relied on the fact that S&P

App.98a
500 was up 25% between March and May 2009, the
Consumer Confidence as measured by the University
of Michigan was up 20% in the same time period,
and gas prices were on the decline. Tr.1112:7-1113:9.
She also noted that used vehicle values are a “effective
predictor of future auto demand” and that used
vehicle prices were steadily increasing though the
first half of 2009. Tr.1114:25-1115:3.
Ms. Keller testified that all these factors indicated
that there would have been a strong market for
Chrysler’s assets with many potential bidders, which
would have resulted in higher value for Chrysler and
in turn its creditors had the government not intervened.
She opined that it was because the government
intervened that other willing purchasers did not come
forward. Tr.1121:3-25. Ms. Keller further explained
that “Chrysler would have been a highly desirable
partner for a number of the world’s automakers
because of its brand recognition, its desirable truck
portfolio, and other vehicle offerings. And the company
coming out of bankruptcy would have been freed of
those debt obligations and labor costs that were
really [Chrysler’s] major liabilities.” Tr.1121:11-17.
On cross examination, Ms. Keller admitted that
she was not offering an opinion as to which of the
companies discussed would have purchased Chrysler’s
assets in a Section 363 sale or how much those
companies would have had to pay for Chrysler’s
assets. Tr.1123:11-23, Tr.1124:2-14. She also admitted
that in preparing her testimony she did not conduct
an analysis of how profitable any of Chrysler’s products
lines were at the time. Tr.1151:23-1152:9. Additionally,
throughout her cross examination she admitted that
for the 12 companies she proffered as potential Section

App.99a
363 buyers, she did not consider such factors as
whether those companies had ever expressed an
interest in buying Chrysler, or had the financial
ability to pay for Chrysler’s assets in an amount sufficient to meet its debt, at the time of the Chrysler
bankruptcy in April 2009. Tr.1155:21-24, Tr.1159:2225, Tr.1160:15-16.
Ms. Keller was confronted on cross examination
with an article from May 31, 2009 in the New York
Times in which she was quoted as saying that she
believed that Chrysler as well as GM had too many
dealer showrooms to be profitable and that there was
an advantage in reducing these dealers in bankruptcy.34 Tr.1148:1-1149:11. Government counsel also
asked Ms. Keller about an April 30, 2009 article she
authored, published in the Detroit News, where she
espoused the belief that Chrysler was a failing auto
manufacturer that had been written off by its owner
Cerberus, that no entity would step in to provide
Chrysler with sufficient money to keep Chrysler going,
and that the best result that could be hoped for the
Chrysler-Fiat alliance was that not too much money
was lost.35 Tr.1180:19-22, Tr.1182:25-1184:15; DX1602.
34 In her May 31, 2009 New York Times article Ms. Keller is
quoted as saying that “GM and Chrysler bore costs associated
with their huge dealer networks, which they can now streamline
[and] [o]nly through bankruptcy could this be accomplished
without huge expenses and litigation with individual dealers.”
Tr.1148:3-8.
35 In the Detroit News article Ms. Keller wrote “Daimler and
Cerberus have written off their investment in [Chrysler].” She
explained that Cerberus “seemed to know [it was] acquiring a
hollow auto business since [it] immediately spoke about forming
partnerships and affiliations to compensate for the lack of

App.100a
iv. Judge Judith Fitzgerald
The plaintiffs also offered the opinion testimony
of the Judith Fitzgerald, a retired federal bankruptcy
judge. Judge Fitzgerald was “sworn into the Western
District of Pennsylvania [as a bankruptcy judge] on
October 30, 1987, [and] sat for nearly twenty-six
years before [her] retirement in May 2013.” Tr.521:711. She was also “designated to sit in the District of
Delaware for twenty years, the Eastern District of
Pennsylvania for eight, and the District of the United
States Virgin Islands for nine.” Tr.521:12-16. Prior to
serving as a bankruptcy judge, she served for “12
years as an Assistant United States Attorney in the
Western District of Pennsylvania.” Tr.521:17-19. She
has taught numerous law classes on commercial
transactions, bankruptcy, and contracts. Tr.521:25
522:2. She is currently “a shareholder, member of the
board, and vice president of the law firm of Tucker
Arensberg, PC, which is based primarily in Pittsburgh,
Pennsylvania.” Tr.520:21-24. Judge Fitzgerald testified
that she was retained by the plaintiffs “to look at but
for scenarios that would address what Chrysler may
have been able to do . . . in the absence of government
action, and to compare that with the real world franchise terminations that occurred in the actual Chrysler bankruptcy case.” Tr.522:11-17. Judge Fitzgerald
explained that she arrived at three opinions: (1) Chrysler could not have survived outside of bankruptcy
without government assistance, (2) plaintiffs’ dealerships would have retained value as part of Chrysler’s
homegrown models.” She explained that she believed that Chrysler would need more than $6 billion to continue and that she
could not “imagine any lender stepping up with new loans.”
DX1602.

App.101a
sale of assets, restructuring, or merger with another
entity in a bankruptcy proceeding, and (3) plaintiffs’
franchises would have had value during an orderly
wind-down of Chrysler regardless of whether there
was a sale of Chrysler assets. Tr.562:20-563:22.
Judge Fitzgerald began her opinion testimony
by describing the bankruptcy process and how the
Chapter 11 bankruptcy was applied to Chrysler.
Tr.574:10. She explained that United States bankruptcy
law serves several basic purposes including (1) a
means by which a debtor can process creditor claims
as a collective rather than on an individual basis, (2)
providing a fresh start for a debtor, (3) preserving
going concern values, (4) strengthening a company’s
balance sheets, and (5) offering a liquidation alternative
to entities that would not be able to reorganize
without the bankruptcy process. Tr.574:11-24. Judge
Fitzgerald explained that when a debtor files for
bankruptcy it must provide the court with schedules
and statements of its financial affairs which includes
a list of known claims against the debtor. Tr.575:1024. Judge Fitzgerald testified that a corporation
would choose a Chapter 11 bankruptcy because it “is
designed to keep the company’s management operation[al] . . . during its bankruptcy” while it attempts
to negotiate how the claims of its creditors are
handled and how to reorganize. Tr.577:7-18.
Judge Fitzgerald explained that when a company
files a voluntary petition for bankruptcy it creates an
estate that “is comprised of all the property and
property interests of the debtor . . . in order to
maximize[e] its value to pay creditors.” Tr.578:20579:4. In a Chapter 11 bankruptcy, “the debtor
remains in possession and has the status of a trustee

App.102a
for most purposes.” Tr.579:7-9. She went on to explain
that “creditors” are prioritized with secured creditors
having the highest priority followed by unsecured
creditors. Tr.579:25-580:15.
Next, Judge Fitzgerald explained the role of the
Section 363 asset sale. She explained that Section
363 sales are used to dispose of a debtor’s assets
while it determines its longer-term needs. Tr.587:3-7.
Judge Fitzgerald testified that “[d]ebtors frequently
prosecute motions to sell assets during their bankruptcies . . . [because they] are typically brought as
‘free and clear’ proceedings, so that the purchaser
can acquire the assets without the debtor’s liabilities,
including contingent and unliquidated claims.” Tr.
588:24-589:5. She further explained that “[g]enerally, a
debtor will retain professional advisors with skill in
selling the particular assets available to provide an
estimate of their value and/or to market them
through a private sale or at auction.” Tr.589:17-20.
“When a debtor proposes to sell valuable assets, it is
customary to file a motion to establish bid procedures that set out . . . the time frame and terms on
which due diligence can be conducted, identifies the
assets to be sold, how to qualify a purchaser, and any
required deposit.” Tr.589:24-590:4.
Judge Fitzgerald also testified about the executory
contracts, i.e., the franchise agreements held by the
plaintiffs with Chrysler. Tr.591:4-10. Judge Fitzgerald
explained that a debtor can either assume the executory
contract, assign it to a third party, or reject the
executory contract pursuant to Section 365 of the
Bankruptcy Code. Tr.591:11-16. “Rejection of an
executory contract such as a franchise agreement is
merely a breach that indicates that the debtor will no

App.103a
longer perform.” Tr.592:5-7. Judge Fitzgerald testified
that bankruptcy judges “are aware that rejection is
not the same as termination and the consequences of
rejection are governed by applicable nonbankruptcy
law.” Tr.592:7-10. She explained that rejection of an
executory contract only frees the debtor from an obligation to perform and that the other party to the
executory contract can recover damages by filing an
unsecured debt claim in the bankruptcy. Tr.592:5593:11. Judge Fitzgerald explained that, based on
her experience with the rejection of executory contracts
in bankruptcy proceedings, the rejection order in the
Chrysler bankruptcy was not typical because it
contained provisions enjoining the plaintiffs from
holding themselves out as authorized dealers or performing services or maintenance on Chrysler vehicles,
which effectively terminated the franchise agreements
rather than just announcing, through rejection,
Chrysler’s intent not to perform its obligations under
the franchise agreement. Tr.595:4-10.
Next, Judge Fitzgerald explained that collective
bargaining agreements and pension obligations, although executory contracts, are treated differently
from other executory contracts in bankruptcy.
Tr.597:17-23. Judge Fitzgerald opined that the government “had a strong motivation in driving the sale
to Fiat that included Fiat’s assumption of much of
Chrysler’s debt” because “[h]ad Chrysler gone out of
business and terminated the pension plans, the Government would have had a substantial outlay of
funds from the Pension Benefit Guaranty Corporation,
called the PBGC, to the retirees.” Tr.598:24-599:5.
Judge Fitzgerald opined that without government
involvement, the new Chrysler entity would have

App.104a
entered negotiations about having to assume the
employer’s obligations. Tr.600:17-25.
Judge Fitzgerald testified about the use of cash
collateral in a Chapter 11 bankruptcy. She explained
that cash collateral is defined by Section 363(a) of
the Bankruptcy Code as cash, deposit accounts, and
other cash equivalents. Tr.601:10-18. Judge Fitzgerald
went on to explain that a debtor in bankruptcy can
only use cash collateral with the creditor’s consent or
a court order. Tr.601:18-20. Judge Fitzgerald testified
that, in her experience, “the debtor and lender will
negotiate the terms of a cash collateral order and
stipulate to the terms of the use of cash collateral
and the form of adequate protection” for the creditor.
Tr.602:5-8.
The final element of a Chapter 11 bankruptcy
about which Judge Fitzgerald testified concerned DIP
financing. She explained that during a bankruptcy a
debtor can obtain and incur normal unsecured debt
that it would normally incur during the course of
operating its business. Tr.602:22-25. However, Judge
Fitzgerald explained that in order to incur secured or
DIP debt, the debtor needs the bankruptcy court’s
approval. Tr.603:6 7. She explained that DIP financing
has “superpriority” status and gets paid ahead of all
other claims, including the secured debt that was
previously incurred. Tr.603:24-604:2. She explained
that secure creditors have a right to and often object
to the proposed DIP financing. Tr.603:20-23. Judge
Fitzgerald explained that few creditors will provide
DIP financing as a secondary lien and that a secured
lender often will provide the DIP financing to avoid
further deterioration of its collateral and to maximize

App.105a
the recovery it can receive from the bankruptcy.
Tr.606:16-22.
It is against this backdrop that she offered the
following three opinions about the differences between
the government’s negotiated bankruptcy plan and
what she opined would have occurred if Chrysler had
filed for a Chapter 11 bankruptcy without the government’s terms. First, Judge Fitzgerald opined that
during an orderly wind-down in a Chapter 11 bankruptcy, “Chrysler would carry out its obligation to
maximize value,” which would involve hiring experts,
analyzing the value of its assets, marketing and selling
those assets, assuming or rejecting supplier contracts
in accordance with the sale of viable lines, rejecting
unnecessary executory contracts, and distributing the
proceeds of sales to creditors. Tr.630:8-23. Judge
Fitzgerald explained that, in her opinion, based on
the Viability Plan that Chrysler submitted to the
government, Chrysler would have had over $1 billion
in cash at the time of the bankruptcy filing and that
she believed the bankruptcy court would have authorized the use of the cash collateral to maximize Chrysler’s value for Chrysler’s creditors. Tr.632:10-15.
Judge Fitzgerald opined that the Chrysler winddown would have played out in the same manner as
the bankruptcies of Hostess and American Suzuki
Motors Corporation (“AMSC”). Tr.649:12-652:12. Judge
Fitzgerald testified that both the Hostess and AMSC
bankruptcies are indicative of how the Chrysler bankruptcy would have proceeded because they involved
an orderly wind-down and asset sale of a large corporation which retained its stores and dealers during
the bankruptcy. Id. Judge Fitzgerald explained that
as part of the wind-down in bankruptcy, plaintiffs’

App.106a
franchises would have been retained because the
dealers would have preserved the economic value of
Chrysler’s assets. In support of this contention, Judge
Fitzgerald also relied on the bankruptcies of Daewoo
Motor America and Saab Cars North America, where
the respective companies’ dealers remained functioning through the course of the bankruptcy to maximize
value for creditors. Tr.657:2-658:1. She explained
that “[d]ealerships were not liabilities of Chrysler,
and as a liquidating entity, Chrysler would not have
received any direct benefit in the form of cash or
liquid assets from an expedited termination of
dealerships.” Tr.661:12-16. Thus, Judge Fitzgerald
concluded that in an “orderly wind-down, Chrysler
likely would have made every effort to support the
franchises, to keep them in operation while going out
of business sales are undertaken and the bankruptcy
was administered. Chrysler dealerships would have
remained in business, servicing and maintaining
vehicles and providing parts for as long as there were
Chrysler cars, minivans and trucks on the highway.”
Tr.662:1-8.
Second, Judge Fitzgerald opined that if Chrysler
were sold in a Section 363 bankruptcy sale, the
plaintiffs’ franchise agreements would have been
assumed and would have continued to have value.
Tr.681:24-682:7. She explained that she believed that
to “minimize their losses and maximize their recoveries,
the first lien lenders likely would have worked with
Chrysler through a Chapter 11 to effectuate a sale of
Chrysler’s core business as a going concern” which
would have included providing “defensive” DIP
financing. Tr.682:22-683:1. Judge Fitzgerald explained
that at the time of a Chrysler bankruptcy, lenders

App.107a
were beginning to provide DIP financing at record
levels. Tr.694:3-7. She further explained that in “the
context of a 363 sale for the core business to a
strategic buyer, it is improbable that the buyer would
have agreed to have been bound by the existing terms
of the UAW collective bargaining agreement[.]”
Tr.699:1-5. Judge Fitzgerald further stated that “as
part of a sale of assets to a strategic buyer, the buyer
. . . would have analyzed each one of the executory
contracts . . . to determine whether the contracts should
be assumed and assigned to the buyer or rejected by
the estate.” Tr.703:24-704:4. Judge Fitzgerald concluded that in her 363 sale scenario, Chrysler would not
have benefited from the rejection of its franchise
agreements, and Chrysler’s dealers would have been
able to continue their business operations and preserve
their value during the bankruptcy and potentially for
as long as there were new cars and used cars that
needed service and maintenance. Tr.705:18-23.
Finally, Judge Fitzgerald opined that, regardless
of whether Chrysler pursued an orderly wind-down
or was sold in a 363 sale, she believed that the
dealerships would not have had their franchise agreements rejected and thus could have continued in
operation servicing cars and selling used cards during
the course of any bankruptcy for at least several
months. Tr.710:7-20.
On cross examination, Judge Fitzgerald clarified
several of the assumptions underlying her opinions.
First, she admitted that she assumed that the government would provide a warranty program to cover
Chrysler’s outstanding warranties. Tr.742:5-16.
Second, she assumed that in absence of government
financial assistance, dealers would have helped fund

App.108a
Chrysler’s bankruptcy or would have purchased
Chrysler’s assets. Tr.743:22-744:7.
On cross examination, Judge Fitzgerald conceded
that Chrysler would have required between $12 to
$20 billion dollars in DIP financing in order to stay
operational. She further conceded that her reliance
on the Hostess bankruptcy, which only required $75
million in DIP financing, and the Daewoo bankruptcy,
which required only $1.65 million in DIP financing,
were not analogous to Chrysler’s situation. Tr.785:17786:2, Tr.799:20-800:17. Similarly, she conceded that
the because American Suzuki received DIP financing
from its parent company, it was also very different
from the circumstances Chrysler faced. Tr.789:20794:4.
v. Diane Anderson Murphy
The Alley’s plaintiffs, as noted above, presented
Diane Anderson Murphy as their valuation expert.
Ms. Murphy was tasked with valuing each of the
Alley’s plaintiffs’ franchise agreements for purposes
of determining lost economic value in a “but for
world” without government financial assistance to
Chrysler. Ms. Murphy is the director of the valuation
services group of Moss Adams LLP. Tr.1398:19-22.
She began working at Moss Adams in 1994 and currently leads Moss Adams’ “business appraisal practice within the firm’s automotive and dealer service
practice, which focuses on automobile, heavy equipment, commercial truck, RV, motorcycle, and power
sports dealers.” Tr.1398:23-1399:3. She is an accredited
senior appraiser in business valuation with the
American Society of Appraisers and has been active
in business appraising for over thirty years. Tr.1399:4-

App.109a
8. As a member of Moss Adams’ automotive and dealer
services practice, she has provided valuation and
value-related consulting services to well over 1,500
dealership appraisal projects that range from singlepoint dealerships to groups of dealerships. Tr.1399:1319. She has “served as coauthor for several versions
of the National Automobile Dealers Associations’
dealership valuation guide.” Tr.1400:9-14. She is also
an associate member of the of the National Association
of Dealer Counsel, a member of the American Society
of Appraisers, and a member of the Washington
State Auto Dealers Association. Tr.1400:24-1401:3.
She explained that she was “engaged to provide a
valuation opinion as of two dates, December 31, 2008
and April 30, 2009 . . . under two scenarios, continued
production of Chrysler cars and trucks and continued
production of only Chrysler trucks[.]” Tr.1401:9-15.
Ms. Murphy explained that she was tasked with
determining the economic value of the Alley’s plaintiffs’
franchise agreements in a “but for world” without
government financial assistance. She testified that
she employed the “standard fair market value, which
is the price, expressed in terms of cash equivalents,
at which property, here the Chrysler franchise, would
change hands between a hypothetical willing and
able buyer and a hypothetical willing and able seller.”
Tr.1403:1-6. Specifically, she explained that she used
the income approach to determine the value of the
plaintiffs’ franchises at these two times. Tr.1404:1619. Ms. Murphy testified that she considered numerous
factors including those related to the national economic
outlook, the local economic outlook, and the historical
sales and profitability of the franchises in formulating
her values for each franchise. Ms. Murphy explained

App.110a
that her assumptions were that the government would
provide no financial assistance, that Chrysler entered
bankruptcy on the date of the valuation, and that the
franchise agreements were in full force and effect on
the valuation date.36 Tr.1407:4-23.
Ms. Murphy then testified about her valuation
methodology. First, she explained that in valuing the
franchise agreements held by the plaintiffs she
“considered only the Chrysler franchise-related assets”
owned by the plaintiffs, which included all intangible
assets/income streams including used car sale and
customer pay work. Tr.1410:18-1411:16. She explained
that in her many years of experience in valuing
dealerships she “cannot recall a single instance where
a purchaser of a franchised dealership sought to pay
only for the revenue streams associated with the new
car department, OEM [original equipment manufacturer—here, Chrysler] parts and sales and warranty repairs and not for the additional departments
of the dealership franchise, including used car sales,
customer pay and other parts and service.” Tr.
1411:17-1412:2. Ms. Murphy opined that the franchise agreement, although only enumerating specific
rights of the franchisee, is always valued as both the
rights guaranteed, such as new car sales, but also
other income streams that are clearly derived from
those rights. Tr.1412:3-12. She explained that this is
further supported by the terms of the franchise
agreement, which require that the franchisees have
facilities to handle new and used vehicle sales as well
36 As discussed Supra, the Alley’s plaintiffs are no longer relying
on the December 31, 2008 date and thus Ms. Murphy’s calculations
for that date are not evaluated in this opinion.

App.111a
as have sufficient parts stocked for both warranty and
customer pay work. Tr.1415:7-15; DX1224. Additionally,
Ms. Murphy explained that Chrysler also “required
its franchised dealers to report all departmental
operations in monthly financial reports submitted to
[Chrysler].” Tr.1416:5-7.
Next, Ms. Murphy explained how she was able
to separate the used cars for “dual” dealer plaintiffs,
i.e. dealers with franchise agreements with two
different manufacturers or OEMs, when the financial
statements provided by the plaintiffs only identified
total used car sales and did not break them down by
the OEM. Tr.1417:4-14. She explained that “[u]nder
the used-to-new formula, one assumes that the sale
of used cars follows the same rate of sales as branded
cars, both Chrysler and non-Chrysler.” Tr.1417:1417. She explained that she also used the used-to-new
formula to estimate the proportion of service and
parts income streams, which on the income statements
are also not separated by manufacturer. Tr.1417:231418:2.
Ms. Murphy explained that she considered three
different valuation approaches before deciding on the
income approach: the income approach, market
approach, and asset-based approach. Tr.1418:13-1419:1.
Under the income approach, “estimated future returns
are discounted to present value at an appropriate
rate of return for the investment.” Tr.1418:15-17.
Under the market approach, “market transactions
involving companies that are similar to the subject
business” are used to set the price of a franchise.
Tr.1418:18-22. Finally, the asset-based approach values
the assets minus the liabilities of the business.
Tr.1418-23-1419:1. Ms. Murphy explained that she

App.112a
chose to value the plaintiffs’ franchises using the
income approach “because it represents the amount a
prudent investor would pay for the franchisee’s expected
future cash flows based on market rates of return
and the franchise’s specific risks.” Tr.1419:2-6.
Ms. Murphy explained that in applying the income
approach, “expected future returns from an investment
in the form of cash flows are discounted to present
value at an appropriate rate of return for the
investment.” Tr.1425:22-25. She explained that “[t]he
selected discount rate . . . should reflect the degree of
uncertainty or risk associated with returns and returns
available from alternative investments,” and that the
higher the uncertainty, the higher expected rate of
return, which results in a lower value for investment.
Tr.1425:25-1426:5. She explained that in her income
approach she used a discounted cash flow analysis,
where “future cash flows are discounted to present
value using an appropriate discount rate or rate of
return.” Tr.1427:23-1428:4. Cash flows are forecasted
for a discrete period; Ms. Murphy explained that she
used a period of five years and then projected growth
at a constant rate in perpetuity. Id. Ms. Murphy further
explained that she “applied a discounted cash flow
analysis whereby cash flow is defined as earnings
before interest and taxes, commonly referred to as
EBIT, minus income taxes on EBIT, plus noncash
expenses, plus or minus adjusted working capital
changes, minus capital expenditures, equals free cash
flow, which we call debt free, and all of this cash flow
is before any non-flooring interest expense [i.e. the
cost of borrowing to buy cars from the manufacturer].”
Tr.1428:11-18.

App.113a
She explained that “the first step in valuing a
company is typically an examination of the dealership’s
historical cash flow and an investigation into the
history, location, and general background of the
dealership to provide a context for the business and
its financial results.” Tr.1433:11-15. Ms. Murphy
explained that she used a historical trend over approximately five years preceding the valuation dates.
Tr.1433:22-23. Ms. Murphy then made adjustments
to the earnings that she believed would be representative of normalized results in income flow by
identifying atypical expenses or sales and removing
them from the trend. Tr.1433:24-1434:3. She also took
into consideration the industry’s financial health, local
area economic expectations, and other factors that
may affect potential cash flow. Tr.1434:16-22. Based
on this valuation method, Ms. Murphy calculated
what she believed each of the Alley’s plaintiffs’ franchise agreements were worth on the two valuation
dates she was given by counsel.
Set forth below are the franchise valuations and
amount of just compensation she calculated for each
of the Alley’s plaintiffs based on the assumptions she
was given for the April 30, 2009 taking date:

App.114a
Plaintiff

Cars & Trucks
Continue
Production

Trucks
Continue
Production

Livonia Chrysler
Jeep, Inc.

$4,464,000

$3,705,000

Taylor-Parker
Motor Co.

$686,000

$558,000

Barry Dodge, Inc.

$1,124,000

$859,000

Whitey’s Inc.

$524,000

$292,000

Cedric Theel, Inc.

$709,000

$621,000

RFJS Company, LLC $1,766,000

$1,329,000

Jim Marsh
American Corp.

$6,512,000

$8,302,000

Tr.1406:2-20.
On cross examination, Ms. Murphy clarified that
her valuations of the franchise agreements included
not only discounted cash flow but also tangible assets
such as equipment, parts, land, and cash that would
be included in a sale. Tr.1542:2-22. Additionally, she
clarified that all her valuations assumed that the
dealerships were ongoing businesses. Tr.1548:9-11.
She admitted on cross examination that it would
have been difficult for vehicle customers and for auto
dealers to finance their inventory through borrowings
on the valuation dates she was given, but that she
did not consider how those issues would have impacted
the value of the franchise agreements. Tr.1563:12-19.
She further admitted that she assumed that there
would be no disruption in the plaintiffs’ ability to sell
new cars at any time and that if there were a disrup-

App.115a
tion it would change her income assumptions and
thus would change her valuation. Tr.1747:9-14.
vi. Dr. John Nevin
Dr. John R. Nevin, Ph.D., an Emeritus Professor
at the University of Wisconsin, Madison, School of
Business, testified on behalf of the Colonial plaintiffs.
Tr.1965:16-19. He holds a B.S. in Marketing from
Southern Illinois University (1965) and a Master of
Science degree in Marketing (1968) and Doctor of
Philosophy in Marketing (1972) from the University
of Illinois. Tr.1965:19-23. He has over “40 years of
experience in analyzing, research[ing], and teaching
in the field of channel distribution and distribution
supply chain management.” Tr.1968:3-5. In 1970, Dr.
Nevin was appointed to an assistant professorship at
the School of Business at the University of Wisconsin,
Madison, became an associate professor in 1977, a
full professor in 1983, and an emeritus professor in
2012. Tr.1966:4-8. He was the executive director of
the Granger Center for Supply Chain Management
from 1992 to 2016 as well as the Executive Director
for the Center for Brand and Product Management
from 2003 to 2007 and 2010 to 2013. Tr.1966:13-18.
Dr. Nevin has served as a member of the Editorial
Board for the Journal of Marketing, the Journal of
Retailing, the International Marketing Review,
Advances in Distribution Channel Research, and the
Journal of Marketing Channels. Tr.1967:8-12.
Dr. Nevin explained that he was retained by the
Colonial plaintiffs to explain the nature of franchise
agreements, the underlying rational for the franchise
business model, the history of auto dealership
franchising and its regulatory environment, and how

App.116a
market value of an auto dealership is determined.
Tr.1967:15-1968:1. He was not asked and did not
present a valuation of the franchise agreements for
the two Colonial plaintiffs.
Dr. Nevin explained that “[i]n the most general
sense, a franchise is a legal agreement between two
independent parties whereby one of those parties,
the franchisor, grants a license to the other party,
the franchisee, to sell the trademarked product or
service, and, in return, receives a payment or royalty
and conformance to quality standards.” Tr.1968:1722. Dr. Nevin testified that “the strategic essence of
the franchise business model can be accurately
explained by identifying three critical components of
the franchise system: the brand, the operating system,
and the ongoing support provided by the franchisor
to the franchisee.” Tr.1970:12-16. He went on to
explain that “the brand creates the demand, allowing
the franchisee to initially obtain customers,” “the
operating system essentially delivers the promise,
thereby allowing the franchisee to maintain customer
relationships and to build loyalty,” and finally, “the
ongoing support and training provides the impetus
for growth, offering the franchisee the tools and tips
to expand its customer base and build its market
share.” Tr.1970:17-1971:2.
Dr. Nevin explained that there were “two different
types of franchises, a product distribution or traditional
franchise and a business format franchise.” Tr.1971:38. Dr. Nevin explained that the plaintiffs’ franchise
agreements with Chrysler were product distribution
or traditional franchises where “the franchisor provides
relatively little in the way of management and marketing assistance to the franchisees.” Tr.1971:9-11. He

App.117a
explained that auto companies choose to distribute
their product through franchisees because it allows for
expansion with limited capital and human resources,
reduction in distribution costs, and access to individuals who are highly motivated and know the local
market. Tr.1972:15-20.
Dr. Nevin then went on to explain the history of
auto dealer franchise agreements in the United States.
Specifically, he noted that there were, beginning in
the 1950s, federal and state laws “passed to address
the perceived inequality in the power relationship
between the auto manufacturer and auto dealers and
the concern over the large capital investments in
acquiring or building dealerships and sustaining
their operations.” Tr.1976:14-18. Dr. Nevin explained
that state laws protect franchisees from being terminated, protect a franchisee’s business territory, and
provide several other protections. Tr.1977:8-1980:1.
He explained that “a franchised automobile dealer’s
exclusive territory is a valuable property right.” Tr.
1980:4-5.
Dr. Nevin testified how automobile franchises
are typically valued, including the concept of “blue
sky” value in a dealership. He explained that dealerships are valued by adding the market value of the
franchisee’s tangible assets—real estate, inventory,
furniture, fixtures, equipment, etc.—to the franchise’s
intangible value, which in the auto dealership industry
is known as “blue sky,” or good will. Tr.1982:3-8;
PX284. Dr. Nevin went on to explain that “[t]he lower
the perceived risk associated with a franchisee’s
expected pre-tax earnings, the higher the blue sky
multiple in the resulting franchise valuation.” Tr.1982:
24-1983:2. Dr. Nevin testified that a number of com-

App.118a
mercial services accurately estimate blue sky value
for auto brand franchises by considering such things
as “earning growth expectation of the franchise, buyer
demand for the products in the franchise, real estate,
market vehicle preferences in the market, market
representation, other dealers, and customer relations,”
and that the “blue sky” multiple usually ranges
between two and eight times net profits from all
income streams of the dealership. Tr.1984:14-1985:3.
Importantly, in the same article that Dr. Nevin
relied on to explain “blue sky” value, the authors
explained that a dealership may not have any “blue
sky” or intangible value when there are extreme
economic circumstances. The article “Auto Dealership
Valuation: A Discussion of Applicable Methods, Part
1” stated “[t]here are rare instances when the net
asset value is appropriate, such as when a dealership
is valued in a liquidation setting, or during severe
economic uncertainty, such as the Great Recession of
2008 and 2009. During the recession there were few
dealership transactions, and it was not uncommon
for the dealerships that did sell, particularly domestic
dealerships (General Motors, Ford, and Chrysler), to
sell at or near net asset value.” PX295.
vii. Edward Stockton
Edward Stockton testified as the Colonial plaintiffs’
valuation expert. Mr. Stockton has a bachelor’s degree
in economics for Western Michigan University and a
master’s degree from the Department of Agriculture
in resource economics at the University of Arizona,
where his concentration was applied econometrics. Tr.
2337:7-11. Mr. Stockton is currently the Vice President
of Fontana, a company that “provides highly focused

App.119a
economic consulting services and expert testimony
regarding the retail motor vehicle industry and other
industries throughout the United States.” Tr.2337:1217. Mr. Stockton testified that during his time at
Fontana he has performed 30,000 hours of work
focused on issues related to the retail automotive
industry, which includes studies on franchised operations that have sold various vehicle lines. Tr.2338:113. Mr. Stockton has provided expert testimony on
behalf of the consumer class in the Volkswagen
diesel emissions lawsuit and a lawsuit against Wells
Fargo concerning the opening of unauthorized
accounts, where he consulted on issues related to
compensation and economic loss. Tr.2339:19-2340:20.
Mr. Stockton testified that he was retained to
“calculate value associated with the Finnin and Guetterman dealerships under two families of scenarios.
The first is . . . call[ed] the historical scenario, and this
is not based on a hypothetical world. This is based on
an estimate of the value of their franchises historically
at the time of the taking. The second is, in a liquidation scenario, . . . the question whether Finnin and
Guetterman could demonstrate value to continuing
operations or have incremental value generated from
their franchises within liquidation.” Tr.2342:4-15. He
went on to explain that he “wasn’t asked to consider
whether there would be a successor OEM [another
car manufacturer] or a continuation of new vehicles.
I don’t have an opinion that there would or would not
be.” Tr.2342:15-18.
Before explaining his assumptions and calculations,
Mr. Stockton explained his overall understanding about
how a businesses’ economic value is determined. Mr.
Stockton explained that he understands the economic

App.120a
value of a business to be “equal to the discounted
present value of the expected benefits provided by
the firm to its owner.” Tr.2348:15-19. Mr. Stockton
further explained that a “discounted present value is
the point of indifference between the acquisition or
sale of a certain current amount of profit or benefit
and an uncertain future amount.” Tr.2348:24-2349:3.
Mr. Stockton ultimately explained that “the economic
value of the firm reflects the sum of current and
expected future earnings after accounting for present
judgments of risk, uncertainty, relative return, and
liquidity.” Tr.2350:17-20.
Mr. Stockton also testified that he believed that
the “the property allegedly taken from Plaintiffs
consisted of their Chrysler brands’ franchises; namely,
Chrysler and Jeep from Finnin and Chrysler-JeepDodge RAM from Guetterman. Used here, the franchise
includes items of value such as rights to use and
display trademarks, contractual protections, territorial
distinction, limited right to territorial exclusivity,
access to training and marketing materials, opportunities associated with new products, statutory protections applied to franchisees, rights to purchase
proprietary parts, products, tools, repair codes, market
information, access to residual product demand in
the market, and other elements of value associated
with franchise operations.” Tr.2356:3-16. He went on
to explain that both Finnin and Guetterman were
dual dealers which required a valuation based on the
removal of economic value of capacity of their overall
dealership operations. Tr.2357:5-14. However, he noted
that “[t]he sale of a firm is not generally or necessarily
equal to the economic value of the firm to its owners.”
Tr.2358:3-5.

App.121a
Mr. Stockton testified that fair value “is an unbiased price at which a firm would change hands
under an orderly exchange, in the absence of compulsion, where both parties enter the transaction with
relevant and symmetrical knowledge.” Tr.2358:18-21.
However, Mr. Stockton testified that he was unable
to calculate fair value for either the Guetterman or
Finnin franchises because “[t]he factual circumstances
surrounding the valuation of the Plaintiffs’ dealerships
at the time of the alleged taking creates a fissure
between the prices at which the Plaintiffs’ property
might have sold and the concept of just compensation
for the property taken.” Tr.2359:4-9, Tr.2590:12-16
(explaining that fair market value “didn’t exist at that
time”). Instead he explained that “it is possible to
form reasonable and reliable estimates of the economic
value of property allegedly taken from plaintiffs by
evaluating the profit stream that franchises would
have generated.” Tr.2360:16-20. He further explained
that he calculated two sets of values: (1) historical
values, i.e., the value of plaintiffs’ franchise agreements if Chrysler had continued, and (2) “but for”
values, i.e., the profits that plaintiffs would have
earned if Chrysler had liquidated. He explained that
in creating his calculations he only looked at financial
data through December 2008. Tr.2363:23-24. He went
on to explain that in his “but for world” he looked at “the
incremental value that ongoing franchise affiliation
would have conveyed to Plaintiffs in a liquidation
environment versus what actually occurred.” Tr.2365:912.
For his “but for world” scenario, Mr. Stockton
testified that he “selected an effective date of May
2009 to assess incremental profitability but considered

App.122a
dealership data only through December 2008,” which
he maintained employed data that was highly conservative in calculating lost profit. Tr.2365:22-24. He
further explained that in his liquidation analysis he
did not assume a purchase of Chrysler or any value
flowing from the production of new vehicles; he did,
however, assume that Chrysler retains a minimum
infrastructure throughout the bankruptcy and that
its warranties would still be honored. Tr. 2366:5-20.
Mr. Stockton then detailed his assessment of the
risk factors in his historical and “but for” scenarios.
He explained that in “the historical scenario, the
Government agrees to support ongoing Chrysler
operations, but in connection with this agreement,
mandates the rationalization of the dealer network,
which ultimately results in a reduction in the count
of Chrysler dealerships by approximately 25 percent.”
Tr.2413:16-21. Mr. Stockton explained that for Finnin
he posited four fair value valuations and two profit
contribution valuations in order to show that Finnin
had value in his historical scenario. Mr. Stockton
explained that in his four fair value valuations, he
assumes that Finnin sells its Chrysler and Jeep
franchises to a purchaser that “already holds the
facility capacity to incorporate those lines” and who
has some underutilized personnel capacity so that it
can do so by adding non-facility fixed expenses equal
to 66.7-75%. Tr.2424:15-21. Then he either gave a
terminal multiple of either four or five. He further
explained that he analyzed Finnin’s profit contribution
analysis for 2006 to 2008, financial statements from
2006 through 2008, Finnin’s new and used vehicle
and parts and service sales volume from 2006 to 2008,
the sale volume forecast for the Chrysler group, and

App.123a
the Dealer Cut Discount Factor. Tr.2434:17-2437:18.
As a result, Mr. Stockton concluded, based on the
following historical scenarios, that Finnin would have
had the following values:
Fair Value Based on 2/17/2009 Chrysler Viability Plan, One-Fourth
reduction in Projected Non-Building
Related Fixed Expenses and Terminal
Value Calculated Using Multiple of 4
Fair Value Based on 2/17/2009 Chrysler Viability Plan, One-Fourth
reduction in Projected Non-Building
Related Fixed Expenses and Terminal
Value Calculated Using Multiple of 5
Fair Value Based on 2/17/2009 Chrysler Viability Plan, One-Third
reduction in Projected Non-Building
Related Fixed Expenses and Terminal
Value Calculated Using Multiple of 4
Fair Value Based on 2/17/2009 Chrysler Viability Plan, One-Third
reduction in Projected Non-Building
Related Fixed Expenses and Terminal
Value Calculated Using Multiple of 5

$1,242,192

$1,358,928

$1,465,048

$1,602,843

Tr.2452:9-2453:1.
Mr. Stockton went on to explain that for his historical scenario he also proffered two valuations based
on a profit contribution analysis. He explained that
he estimated the sales volume of the business based on
the 2006-08 averages for Finnin, taking into consideration Chrysler’s forecasts in its February 2009
Viability Plan. Tr.2438:17-24. He further explained
that “[t]he baseline figures also do not incorporate

App.124a
any benefit from restructure or the fact that survival
would have occurred in a market with fewer intrabrand
competitors.” Tr.2439:9-12. Furthermore, Mr. Stockton
noted that he spoke with Finnin’s banker and was
told that “Finnin regularly left its credit lines untapped
and had extensive credit available,” and thus would
have been able to properly finance the dealership in
the future. Tr.2440:23-2441:1. Mr. Stockton next
explained that he applied a discount rate of 25% to
Finnin, which means that for every dollar that Finnin
could be expected to earn he would only count 75
cents. Tr.2442:7-10. Based on these assumptions, Mr.
Stockton posited two different profit contribution
values based on different terminal value multiples:
Profit Contribution Value Based on
2/17/2009 Chrysler Viability Plan
and Terminal Value Calculated
using Multiple of 4
Profit Contribution Value Based on
2/17/2009 Chrysler Viability Plan
and Terminal Value Calculated
using Multiple of 5

$3,247,903

$3,554,167

Tr.2453:5-10.
It was against this background (which was based
on the government having given assistance to Chrysler but where the franchise agreements were not
rejected) that Mr. Stockton offered his final opinions
on value for each of the franchises in the “but for
world” where the government did not provide Chrysler with financial assistance and the franchise agreements were not rejected. He explained that he had
several alternative valuations, the first being “an
immediate liquidation of Chrysler in which dealerships

App.125a
continue operation indefinitely. The second is a Chapter
11 scenario in which Chrysler’s dealer network
continues to operate for three years. The third
contemplates an orderly wind-down of operations
over a 17-month period.” Tr.2442:19-24. He explained
that he did not consider scenarios where the purchaser
of Chrysler’s assets continues the manufacture and
sale of new vehicles, and that he did not attempt to
calculate the fair value for these scenarios because
there were too many complications. Tr.2442:24-2443:10.
For the first Chapter 11 scenario, Mr. Stockton
assumed that the government would guarantee warranty obligations for incumbent customers and that
the dealerships would acquire the rights to certain
proprietary parts and would continue to be able to
operate as branded Chrysler dealers. Tr.2446:5-10. For
the second Chapter 11 scenario, Mr. Stockton assumed
that the Chrysler dealership network would survive
for another three years, and he discounted any value
of operations for longer than three years and allowed
for the ongoing service of existing customers to include
used vehicles, parts, and customer pay and warranty
service. Tr.2445:8-17, Tr.2446:21-25. Finally, he testified regarding his third scenario—an orderly-winddown scenario in which, using the same assumptions
as in the Chapter 11 scenario, he examined if the
dealerships would continue for only seventeen months.
Tr.2445:18-22. Mr. Stockton explained that for each of
these scenarios he calculated the used car sale volume
based on new sales volume between 2006 and 2008
and that he calculated warranty work based on three
prior years of new vehicles sales, while customer pay
was based on seven years of prior sales of new
vehicles. Tr.2450:8-2451:16.

App.126a
Based on these assumptions and calculations,
Mr. Stockton came to the following conclusions as the
Finnin’s value in a “but for world” without government
financing:
Chrysler Liquidation Scenario

$1,591,921

Chrysler Chapter 11 Scenario

$1,391,138

Chrysler Orderly Wind-Down Scenario

$775,040

Tr.2456:15-19.
Next, Mr. Stockton explained how he applied the
valuation scenarios he used to value Finnin to value
Guetterman’s franchise agreements. Mr. Stockton
acknowledged that he could not demonstrate that
Guetterman would have had fair value had Chrysler
not rejected his franchise agreements in the Chrysler
bankruptcy because “it is not clearly demonstrable
that Guetterman’s value would have intersected with
those of a hypothetical buyer such that an exchange
could be developed.” Tr.2454:20-23. Rather, Mr.
Stockton explained that the profit contribution was
the best way to determine Guetterman’s historical
value and that he employed a 40% discount rate to
account for the risk of possible termination. Tr.2455:232456:3. The valuations were as follows:
Profit Contribution Value Based on
$114,106
2/17/2009 Chrysler Viability Plan
and Terminal Value Calculated using
Multiple of 4
Profit Contribution Value Based on
$124,434
2/17/2009 Chrysler Viability Plan
and Terminal Value Calculated using
Multiple of 5

App.127a
Tr.2456:11-16.
Finally applying the same methodology and
assumptions as outlined in his Finnin testimony, Mr.
Stockton posited the following “but for” valuations for
Guetterman:
Chrysler Liquidation Scenario

$122,761

Chrysler Chapter 11 Scenario

$112,942

Chrysler Orderly Wind-Down Scenario

$61,047

Tr.2456:16-19.
On cross examination, Mr. Stockton admitted
that he was neither a certified public accountant,
accredited in business valuation, or a bankruptcy
expert. Tr.2474:12-2475:1. Mr. Stockton also clarified
that he had “valued the suite of benefits associated
with the franchise” and that he has not valued any
other benefits. Tr.2479:25-2480:2.
III. The Government’s Fact and Expert Evidence
A. The Government’s Fact Witnesses
i. Robert Nardelli
Robert Nardelli was the CEO of Chrysler from
late 2007 until early 2009. Mr. Nardelli explained
that as CEO of Chrysler his job was to “provide
oversight to [his] direct-reports, to lay out a strategic
plan and provide . . . day-to-day operational inputs.”
Tr.3332:4-10. He explained that under Chrysler’s
corporate structure, Chrysler had a board of managers
responsible for providing “oversight to the business,
capital allocation, and strategic direction.” Tr.3332:1921. He explained that at the time he became CEO of

App.128a
Chrysler in 2007, Chrysler was doing well but that it
began experiencing financial difficulty in early 2008.
Tr.3333:24-3334:24. Mr. Nardelli testified that prior
to his going to Congress in November 2008 for a
bridge loan from the federal government, Chrysler had
sought other loans “but it was kind of for naught.”
Tr.3337:8-10.
Mr. Nardelli testified that he thought Chrysler
would run out of cash early in 2009 if it did not get a
loan from the government, and that without government financing Chrysler would have to entered into
bankruptcy at that time. Tr.3345:5-7, Tr.3345:1-14.
Mr. Nardelli explained that Chrysler provided a
Viability Plan to Congress in December 2008 which
estimated that in order to wind-down Chrysler and
provide its dealers with support and floor plan financing
Chrysler would need between $17 to $20 billion.
Tr.3348:16-3349:11; DX956. He testified that Chrysler
had gone to its first lien lenders and was told that they
would not provide Chrysler with the DIP financing it
would need for an orderly wind-down of its operations.
Tr.3358:4-22. He explained that during the financial
meltdown in 2008-09, dealers were having a difficult
time obtaining the floor plan financing needed to
keep buying Chrysler’s cars and trucks. Tr.3356:73358:3.
Mr. Nardelli testified that Chrysler’s board of
managers voluntarily approved the terms of the $4
billion bridge loan Chrysler received from the federal
government under TARP on January 2, 2009. DX1000;
Tr.3367:24-3370:22. Mr. Nardelli went on to testify
that after securing the government bridge loan,
Chrysler “had been trying vigorously to get the First
Lien Lenders to agree to a debt restructuring acceptable

App.129a
to the U.S. Treasury Department but that no progress
had been made.” Tr.3372:12-15; DX1263.
He testified that eventually Chrysler was
presented with the prepackaged bankruptcy plan
negotiated by the Auto Team. Tr.3373:6-11. He further
testified that Chrysler understood that if it decided
not to accept the prepackaged bankruptcy terms and
instead decided to enter Chapter 11 on its own, the
government would provide $750 million to Chrysler
to facilitate an orderly liquidation. Id. He explained
that when Chrysler voted in favor of the government’s
prepackaged Chapter 11 bankruptcy plan, including
the 363 sale to Fiat, he did not feel that he was being
“forced” to vote in favor of bankruptcy. He testified
that every member of the board used “good business
judgment” when voting in favor of bankruptcy.
Tr.3382:21-3383:17, Tr.3384:3-17.
In deciding to accept the prepackaged bankruptcy
terms presented by the government, Mr. Nardelli
testified that he considered that if Chrysler did not
accept the prepackaged plan, Chrysler would have to
cancel its warranties, stop new car production, and
force significant job losses. Tr.3384:21-3385:16. Mr.
Nardelli explained that Chrysler had spent months
trying to reach an agreement with key stakeholders
on concessions that would allow Chrysler to reorganize
outside of bankruptcy, but was unable to achieve the
needed concessions. He thus concluded that the government’s prepackaged bankruptcy plan was the
only option available to keep the Chrysler brand
alive in some form. Tr.3387:13-3389:4.
On cross examination, Mr. Nardelli testified that
when he went to Congress in November and December 2008, he had hoped that Chrysler would remain

App.130a
a stand-alone company and would be able to avoid
bankruptcy. Tr.3403:13-21; DX956 (“Chrysler believes
that participating in the restoration of [Chrysler’s]
long-term viability without a bankruptcy filing significantly improves the outcome for all constituents.”).
Mr. Nardelli testified on cross examination that Chrysler’s proposed stand-alone plan had the support of
Chrysler’s entire board. Tr.3414:3-7. Mr. Nardelli did
not recall Project Genesis or any Chrysler dealership
reduction plans. Tr.3412:14-22. Mr. Nardelli testified
that he disagreed with the government’s decision to
reject Chrysler’s Viability Plan and that when Mr.
Rattner and Mr. Bloom informed him on March 9,
2009 that the government was rejecting the February 2009 plan, he wrote a letter reaffirming Chrysler’s position. Tr.3424:7-3427:17, Tr.3428:7-18; PX637.
He emphasized, in his letter, that Chrysler’s viability
would be enhanced by a strategic partnership with
another car manufacturer but that an alliance was
not critical to Chrysler’s long-term viability. PX637;
Tr.3428:19 3429:4. Finally, he reinforced in his March
10, 2009 letter Chrysler’s desire to not go through a
bankruptcy. PX637; Tr.3429:13-22.
Mr. Nardelli testified that, up until Chrysler’s
board voted to go into bankruptcy, Chrysler was
continuing to work on a stand-alone plan. Tr.3441:233443:13; DX1203. Mr. Nardelli explained that with
the April 17, 2009 re-engineered plan Chrysler submitted to the Auto Team he still hoped that Chrysler
would be able to secure $11 billion in government
financing. Tr.3441:4-13; DX1203. Mr. Nardelli testified that his re-engineered April 2009 plan still
proposed the voluntary consolidation of dealerships and
did not call for the forced termination of any franchises.

App.131a
Tr.3444:1-19. Mr. Nardelli testified further on cross
examination that after the Auto Team rejected his
April 2009 re-engineered plan, Chrysler had “no
more alternatives as far as going forward as a standalone business.” Tr.3452:24-3453:7.
ii. Steven Landry
Steven Landry, the Executive Vice President of
sales and marketing for North America and parts
and service globally for Chrysler in 2008 and 2009
was called by the government to explain Chrysler’s
dealership rationalization, i.e., reduction programs.
Tr.3458:5-6. Mr. Landry explained that he was in
charge of the field organization that oversaw the
dealership network. Tr.3460:2-16. He testified that
he reported to Jim Press and that Peter Grady,
Director of Dealer Operations, reported to him.
Tr.3460:17-3461:9.
Mr. Landry testified about the history of the
Chrysler dealership network and how beginning in
1998 Chrysler had been trying to reduce the number
of Chrysler dealers. Tr.3463:24-3464:9. He explained
that at first, Chrysler formulated “Project 2000” to
try “to determine what is the right number of Chrysler
dealers . . . [and] the best way to manage [Chrysler’s]
dealer network[.]” Tr.3464:10-15. Mr. Landry went
on to explain that in 2003 Chrysler began “Project
Alpha” to reduce the number of dealers. Tr.3465:9
14. He explained that Project Alpha “was designed to
get three brands under one roof, give the dealer some
elbow room,” which grew in 2008 into Project Genesis,
designed to reach the same goals as Project Alpha
but at a faster rate. Tr.3479:14-3480:4. Mr. Landry
further explained that in 2007 and 2008, Chrysler

App.132a
incurred some costs associated with the dealership
network, including providing material and salaried
individuals to run the field organization to assist the
dealers. Tr.3467:18-3468:9. Mr. Landry testified that
in 2008 he believed that there were too many dealerships in Chrysler’s dealership network. Tr.3479:1021.
Mr. Landry explained that he helped prepare
the “Washington Plan,” which was part of the Viability
Plan, and that the Washington Plan had included a
reduction in the dealership network. Tr.3517:2-3519:7;
PX548. Mr. Landry then testified that Project Genesis
grew into Project Tiger within the framework of a
Chrysler bankruptcy. Tr.3561:23-3562:5. He explained
that Project Tiger grew out of Chrysler realizing that
it could achieve the goals set forth in Project Genesis
at a much faster rate through the rejection of franchises
in bankruptcy. Tr.3564:11-13, Tr.3573:17-25.
Mr. Landry further explained that he had a role
in setting the criteria to determine what dealers
would have their franchises rejected in the April
2009 bankruptcy. Tr.3575:9-15. Mr. Landry explained
throughout his testimony that Chrysler attempted to
judge dealers based on a variety of factors including
Minimum Sale Responsibility (“MSR”),37 facilities,
37 Each franchise agreement required franchisees to meet MSR.
Mr. Landry explained that the MSR was calculated by taking
the number of new Chrysler vehicles registered in a state and
comparing that number to the number of total new vehicles
registered in that state to determine the market share for Chrysler vehicles in that location. An MSR was then set based on
the number of new vehicles the franchisee would need to sell for
Chrysler to maintain its market share. Put another way, the
MSR was used to determine if a dealership held the same

App.133a
sales, etc., in order to retain the best dealers to preserve
the Chrysler brand. Mr. Landry testified that the
decision to reject the dealers in bankruptcy was
necessary for Chrysler’s survival. Tr.3611:23-3612:4.
On cross examination, Mr. Landry admitted that
when Chrysler presented the Washington Plan, Chrysler believed that Project Genesis was a successful
means for rationalizing its dealership network. PX548;
Tr.3642:17-3643:16. He also admitted that it was
Chrysler’s position that the best way to rationalize
the dealership network was through encouraging
dealers to combine or sell to one another on a
voluntary basis. Tr.3654:20-3655:7, Tr.3673:9-11. Mr.
Landry admitted that he was opposed to a Chrysler
bankruptcy and acknowledged that he sent an email
to others within Chrysler stating to “Fight against
363” because they could “do it cheaper outside BK”
and that he could move 650 dealers cheaper than
bankruptcy would cost. PX646; Tr.3679:15-23.
iii. Peter Grady
As discussed above, Peter Grady, Director of
Dealer Operations for Chrysler beginning in January
2009 until June 2009, also testified on behalf of the
government. Tr.3758:15-17, Tr.3759:3-5. Mr. Grady
explained that as the Director of Dealer Operations
he oversaw the management of Chrysler’s U.S.
dealership network. Tr.3758:20-3759:2. He explained
that Chrysler was trying to combine all of its brands
under one roof in order to strengthen the profitability
of its dealerships. Tr.3762:1-10. Mr. Grady testified
market share in its sales locality as Chrysler held either on the
state or national level.

App.134a
that when Chrysler learned that bankruptcy was
likely, Chrysler “viewed that as an opportunity to
accelerate the rationalization of the dealer network.”
Tr.3763:20-24. He explained that he believed that
dealer rationalization by rejecting franchise agreements
in bankruptcy would increase Chrysler’s profitability
in the long term because it would allow for a leaner
and more efficient dealership network, which would
help maximize sales. Tr.3764:15-3765:11. He explained
that in creating the criteria for those franchise agreements to reject in bankruptcy, Chrysler relied on
assessments of the dealers from the various regional
business centers. Tr.3766:8-23. Mr. Grady testified
that the government played no role in selecting the
criteria for rejecting the 789 franchise agreements in
bankruptcy, or in deciding which specific franchise
agreements to reject. Tr.3766:25-3767:11.
Mr. Grady went on to explain that Fiat supported
Chrysler’s decision to reject 789 franchise agreements.
Tr.3768:4-6. He explained that Chrysler worked with
Fiat to determine the best dealership network for
Chrysler after it emerged from bankruptcy. Tr.3768:818; DX1038. Mr. Grady testified that he worked with
Piertro Gurlier, the head of network development for
Fiat, and another Fiat executive in developing the
final post-bankruptcy Chrysler dealership network.
Tr.3768:19-3769:13.
As discussed above, Mr. Grady explained that
789 dealers were rejected based on an evaluation of
eight criteria: (1) whether the franchise was meeting
its MSR, (2) the franchise’s Scorecard for Sales,38 (3)
38 Mr. Landry explained that each year a dealer received a
scorecard for its performance where the dealers’ “service and

App.135a
whether the franchise facility had adequate capacity
and met Chrysler’s standards, (4) the franchise location,
(5) the franchise’s financial strength, (6) the franchise’s
management, (7) whether the franchise had a “dual”
or competitor’s dealership under the same roof, and
(8) whether it was a single point franchise, meaning
it did not have all three Chrysler brands under one
roof. Tr.3598:18-3602:21.
As discussed above, Mr. Grady then went through
the criteria for each of the representative plaintiffs
and explained why each was rejected. Mr. Grady
explained that Taylor’s three franchises were rejected
because together they had only met 36% of its MSR,
sold less than 100 new Chrysler vehicles the previous
year, and were co-located under one roof with a
Chevrolet franchise. DX1315. Mr. Grady testified that
Theel’s Dodge franchise agreement was rejected because Theel’s MSR was only 70%, it was a single
Dodge franchise dealer, and it had a dual dealership
with Toyota. DX1315. Mr. Grady explained that
Whitey’s Chrysler franchise was rejected because it
only met 45% of its MSR, was a dual dealership with
a Lincoln franchise, and was only a single Chrysler
franchise dealer. DX1315. Mr. Grady explained that
RFJS’s Chrysler, Dodge, and Jeep franchise agreements
were rejected because the RFJS dealership was an
excess point, i.e., a location that Chrysler determined
was no longer valuable and because the dealership
was operating at a loss and was placed on a finance

parts operations, their profitability, their ability to go forward
with working capital, [and] things of this nature, which are
typical OEM dealer placement metrics.” Tr.3766:14-19.

App.136a
hold by Chrysler Financial.39 DX1315. Mr. Grady
explained that Marsh’s Chrysler and Jeep franchise
agreements were rejected because Marsh had only
met 38% of its MSR, it lacked a Dodge franchise
agreement, and because Chrysler wanted a thirdparty candidate to run a Chrysler, Dodge, and Jeep
dealership in a different part of Las Vegas. DX1315.
Mr. Grady explained that Livonia’s Chrysler and
Jeep franchise agreements were rejected in the Chrysler bankruptcy because Chrysler did not like the
location of the dealership and thought that it would
be more profitable to move the Chrysler and Jeep
franchises to a Dodge dealership a few miles away.
DX1315. Mr. Grady explained that Barry’s Chrysler,
Dodge, and Jeep franchise agreements were rejected
because it only met 42% of its MSR and because it
was considered an excess point and Chrysler wanted
to reduce the number of dealers in the Brockport
area. DX1315. Mr. Grady explained that the Guetterman Chrysler, Dodge, and Jeep franchise agreements
39 Leland Wilson, the Chief Financial Officer of Chrysler Financial
between 2007 and 2010 explained that “floor plan” financing
involved dealers “order[ing] cars through Chrysler, Chrysler
would ship those cars to the dealers. Each of those dealers that
[Chrysler Financial] financed would have a dealer credit line”
that would be used to finance the purchase. Tr.3855:9-11. He
went on to explain that “the first lien collateral [for the loan]
was the vehicle” and that when the car was sold the proceeds
were used to pay off the loan the dealer incurred to purchase
the car and allowed the dealer to continue purchasing more new
vehicles. Tr.3855:17-23. RFJS was one of the Chrysler franchisees
to which Chrysler Financial provided floor plan financing.
“Financial hold” meant that Chrysler Financial was no longer
willing to extend floor plan financing to RFJS and thus they
could not obtain new inventory through their Chrysler Financial
credit line.

App.137a
were rejected because the dealership only met 53% of
its MSR, was considered an excess point in the Cairo
area where Chrysler wanted to reduce its number of
franchisees, was placed on a financial hold by Chrysler
Financial, and had a competitive dual Ford dealership
attached to the Chrysler showroom. DX1315. Finally,
Mr. Grady explained that Finnin’s Chrysler and Jeep
franchise agreements were rejected because the
dealership only met 66% of its MSR and because
Chrysler believed that a nearby Dodge dealer was a
better dealer and wanted that dealer to have the
Finnin Chrysler and Jeep franchises so that this
other dealer could have all three under one roof.
DX1315.
On cross examination, Mr. Grady stated that he
did not have any discussions with the United States
government until May 11, 2009 regarding dealer
rationalization but would not necessarily have been
aware if there had been any conversations about
dealership rationalization with other Chrysler officials
and Treasury. Tr.3818:1-3819:10. Mr. Grady also
acknowledged that the February 17, 2009 Viability
Plan envisioned the continuation of Project Genesis,
not involuntary dealership terminations. Tr.3824:1215.
iv. Thomas LaSorda
The government called Thomas LaSorda, who
was the CEO of Chrysler from September 2005 until
August 2007 to testify. Tr.4342:21-23. Mr. LaSorda
became the Vice Chairman and President of Chrysler
when Cerberus bought Chrysler in 2007 until he
retired on April 30, 2009. Tr.4343:2-24. Mr. LaSorda
explained that during his tenure as CEO he consistently

App.138a
sought alliances and partnerships with other auto
manufacturers from around the world. He testified
that he wasn’t, however, able to accomplish such an
alliance by the time that Chrysler was purchased by
Cerberus in 2007. Tr.4357:24 4358:22. He testified
that he attempted to form an alliance with Nissan
Renault, but nothing came of it. Tr.4359:6-9. He
went on to explain that the purpose of seeking an
alliance was to combine product lines and to attempt
to get additional cash investment into Chrysler.
Tr.4360:2-4361:23. He explained that he went to
Honda, Kia, and Hyundai during this time frame but
“[t]hey were not interested in doing any joint programs
at all” and that Toyota also expressed no interest in
an alliance with Chrysler. Tr.4365:11-22. He went on
to explain that he also reached out to Volkswagen,
various Chinese manufacturers, and Tata Motors,
but he was rejected each time. Tr.4366:1-4368:3. He
explained that he had no interest in forming an
alliance with GM because such an alliance would
essentially wipe Chrysler out and destroy all of its
jobs and factories because of the extensive overlap in
product lines between the two companies. Tr.4373:1725. Mr. LaSorda testified that the only company that
expressed any real interest in forming an alliance
with Chrysler was Fiat, but that Fiat was not interest
in injecting any cash into the alliance to help sustain
Chrysler. Tr.4365:21-22, Tr.4379:10-20. He explained
that Fiat’s interest was because Chrysler and Fiat
had different product lines and that their markets
did not overlap. Tr.4375:2-4377:17.
Mr. LaSorda testified that during the 2008-09
financial crisis he recognized the huge impact a Chrysler bankruptcy would have had, not only on Chrysler’s

App.139a
employees and its dealers, but also on the companies
that supplied Chrysler with auto parts. Tr.4382:114383:19. He explained that he supported the strategic
partnership path that was outlined in Chrysler’s
February 17, 2009 Viability Plan because he knew
that an alliance would be important to the long-term
survival of Chrysler. Tr.4384:23-4385:5. He explained
that at no time did he feel that the government was
forcing an alliance with Fiat. Tr.4385:16-25. He further explained that he did not feel like the government had forced Chrysler into bankruptcy. Tr.4389:254390:3.
v. Robert Manzo
The government called Robert Manzo to testify.
Mr. Manzo was the restructuring consultant from
Capstone, hired by Chrysler in 2008 to address Chrysler’s financial difficulties. He served “as the lead
financial advisor to help lead [Chrysler] through the
series of challenges that [it] faced regarding
retaining their viability in terms of a standalone
company.” Tr.3928:18-24. Mr. Manzo explained that
he worked on a daily basis with Chrysler management
including CEO Bob Nardelli and CFO Ron Kolka.
Tr.3930:8 12. He explained that when he was first
contacted by Mr. Nardelli and Mr. Kolka, Chrysler
was in financial straits due to the decline in its sales
volume and its high cash burn rate of $2 billion.
Chrysler’s cash burn rate meant that Chrysler had
three to four months to address its problems in
before it ran out of cash. Tr.3931:18-3932:9.
Mr. Manzo explained that he was involved in
Chrysler’s plan to seek financial assistance from the
government beginning in late 2008. Tr.3932:13-24.

App.140a
As part of that process, he explained he created a
hypothetical liquidation analysis Tr.3936:10-23. He
explained that as part of this analysis he assumed
that all of Chrysler’s manufacturing would cease and
that Chrysler would have twenty-four to thirty months
to complete an orderly liquidation. Tr.3937:13-20;
DX1029. He testified that during that time frame
there “are a number of operational, financial, and
legal activities that are occurring” such as selling
equipment off either directly or through auction and
taking care of several outstanding issues. Tr.3939:1324. He also explained that his liquidation analysis
assumed Chrysler was the only auto manufacturer
liquidating at the time and that if there were other
liquidations it would lower the range Chrysler could
recover for its assets. Tr.3940:5-15. Mr. Manzo
explained that if any auto part suppliers went bankrupt
during this period, those bankruptcies would have a
negative effect on Chrysler’s potential recovery.
Tr.3940:21-3941:5. Mr. Manzo noted that if Chrysler
filed for bankruptcy and received no government
assistance, it would immediately cease operating as
an ongoing concern. This would mean that Chrysler
would have to shut down vehicle production during
the bankruptcy process. Tr.3941:6-21.
Mr. Manzo discussed in detail his views on which
Chrysler lines would likely be sold in a Section 363
bankruptcy sale. Initially, he determined that the
Dodge Ram Truck, Jeep Wrangler, Dodge Challenger/Chrysler 3000, and Dodge Viper vehicle lines
would be able to have likely been sold to a third-party
purchaser. DX1029. He explained that these were
the only profitable Chrysler lines in 2008. Tr.3941:253942:19. He further explained that due to the Great

App.141a
Recession, the proceeds from Chrysler’s sale of the
assets in a liquidation would be depressed. Tr.3943:163944:23. Mr. Manzo ultimately concluded that in a
liquidation of Chrysler’s assets in bankruptcy, the
first lien lenders would likely recover between $654
million to $2.6 billion on a total debt of nearly $7
billion. DX1029.
Mr. Manzo went on to explain that, in his liquidation analysis, he assumed that the relaunch of any
of the Chrysler product lines purchased by a third
party would take between twelve to twenty-four
months. Tr.3944:24-3946:1. He also explained that in
his liquidation analysis he assumed that there would
be no DIP financing, because he understood that the
first lien lenders were unwilling to loan Chrysler any
more money. Tr.3946:2-3947:18. He further explained
that he assumed in his liquidation analysis that no
more warranty coverage would be provided by
Chrysler. Tr.3954:4-9. Mr. Manzo also talked about
his meetings with John Haeckel, the restructuring
advisor hired by JP Morgan on behalf of the first lien
lenders. Tr.3964:1-3. He explained that his conversations with Mr. Haeckel were part of the back and
forth a company conducts with its creditors in order
to fully understand the fiscal picture of the company
facing liquidation. Tr.3965:3-21.
Mr. Manzo testified that he was intimately
involved in preparing many aspects of Chrysler’s
February 2009 Viability Plan. Tr.3958:15-18. He
explained that in a typical commercial transaction
companies will provide lenders with different alternatives as Chrysler did in its February 2009 Viability
Plan. Tr.3960:2-15. He went on to explain that throughout the Viability Plan review process he participated

App.142a
in the negotiations with the government, as is typical
for a restructuring professional dealing with a company’s lenders. Tr.3968:3-17. He further explained that
throughout this process he was constantly briefing
Mr. Nardelli on the Auto Team’s negotiations. Tr.3969:
22-3970:2. This included preparing a presentation
about what Chrysler could expect if it had to go
through a Chapter 11 bankruptcy. DX1083. Mr. Manzo
testified that Fiat was very involved with the
negotiations. Tr.3972:7-10. Mr. Manzo explained that
he was part of the April 30, 2009 Chrysler board
meeting where the board voted in favor of filing for
bankruptcy under the prepackaged terms the Auto
Team helped negotiate. Tr.3998:2-21.
On cross examination, Mr. Manzo admitted that
when Chrysler filed its Viability Plan it clearly did
not want to file for bankruptcy. Tr.4002:1-7. He further explained that up until the last minute Chrysler
did not want to file for bankruptcy, but that the government brought the negotiations to an end. Tr.4002
:1-4003:25. Specifically, he recounted an email that
the Auto Team’s bankruptcy lawyer, Matthew
Feldman, sent on the early morning of April 30,
2009, the day Chrysler was to file for bankruptcy,
which explained that the Auto Team was not willing
to negotiate any longer with the first lien lenders or
any other interested party. PX538; Tr.4012:1-4013:10.
vi. Leland Wilson
The government also called Leland Wilson, the
CFO of Chrysler Financial from 2007 until 2011, to
testify. Tr.3851:1-9. Mr. Wilson explained that as
CFO of Chrysler Financial he was responsible for
“the traditional finance activities, accounting, financing,

App.143a
financial planning . . . treasury, capital markets . . . risk
management . . . [and] insurance.” Tr.3851:15-19. He
explained that when Cerberus bought Chrysler it
made Chrysler Financial a sister company that reported
to the same holding company as Chrysler, rather
than being a subsidiary of Chrysler. Tr.3852:7-10.
Mr. Wilson testified that Chrysler Financial was the
captive finance company for Chrysler and provided
both dealer floor plan financing to 75 to 80 percent of
the dealers and retail financing to the customers.
Tr.3852:25-3853:10. He went on to explain that
Chrysler Financial provided financing for leasing
Chrysler vehicles, which amounted to approximately
twenty percent of Chrysler’s business. Tr.3854:9-14.
Mr. Wilson explained that Chrysler Financial also
offered services to dealers such as capital and real
estate loans and various insurance products. Tr.3854:
24-3855:11.
Mr. Wilson explained how floor plan financing
with Chrysler Financial worked for dealers. He testified
that dealers would take out loans to purchase new
cars from Chrysler, they would use those new cars as
collateral for the loans, and when dealers sold the
cars they would use the profits in order to pay off the
loan and free up their credit line to purchase new
cars and begin the cycle again. Tr.3855:12-23.
Mr. Wilson also testified about how Chrysler
Financial operated. He explained that before 2008,
Chrysler Financial had $30 billion to conduct its
business with funding from a syndicate of banks.
Tr.3857:3-18. The $30 billion was available for 364
days. Id. He explained that if Chrysler Financial
went through the $30 billion it would then securitize
its loans and sell them to investment firms in order

App.144a
to raise more money, which it would then loan out.
Tr.3858:9-19. He testified that when the security
market collapsed in 2008, Chrysler Financial could
not sell asset-backed securities any longer and its
creditors became less willing to offer financing.
Tr.3860:1-8. He explained that when Chrysler Financial
went to renew its financing in August of 2008, it
could only get $23 billion. Tr.3862:17-20. He went on
to explain that, because of its reduced financing
capacity, Chrysler Financial had to become more
conservative in its loaning practices and, as a result,
Chrysler was not able to sell as many cars to its
dealers or customers. Tr.3869:18-21.
Mr. Wilson testified that Chrysler Financials’
relationship with Chrysler was terminated at the end
of April 2009 when Chrysler filed for bankruptcy.
Tr.3903:1-4. Afterward, he explained that Chrysler
Financial redirected itself to become a used car lender.
Ultimately, Chrysler Financial was sold to TD bank
in 2011. Tr.3905:10-3906:11.
On cross examination, Mr. Wilson admitted that
his opinions about dealer’s accessibility to floor plan
financing and the health of the credit market were
only his own. He stated that his conclusions about
floor plan financing would not apply to the representative plaintiffs that did not have floor plan financing.
Tr.3910:14-3911:21.
vii. John Haeckel
The government also called John Haeckel, a
restructuring representative from Chilmark Partners,
to testify. Tr.2846:5-2847-9. Mr. Haeckel was hired
by JP Morgan and explained that JP Morgan was the
lead agent that negotiated with Chrysler on behalf of

App.145a
the first lien lenders. Tr.2848:9-23. He explained
that Chilmark was brought in to “advise JP Morgan
and the bank group more broadly with respect to the
loan that they had made to Chrysler.” Tr.2850:13-15.
He explained that he examined the prospects for the
first lien lenders to recover the debt owned by Chrysler in a Chrysler bankruptcy. See Tr.2852:252853:9. He determined that the first lien lenders, as
of April 30, 2009, would likely receive only $680
million on their $6.9 billion in debt if Chrysler did
not receive government assistance. Tr.2865:25-2866:9.
He testified that, based his review, he advised JP
Morgan and the first lien lenders that the $2 billion
buyout offered by the government was more than
they would recover if Chrysler filed for bankruptcy
without government financing. Tr.2868:22-2869:8.
On cross examination, Mr. Haeckel testified that
his analysis was based on a variety of assumptions
that influenced his valuation and that a change to
any of those assumptions could have had an impact
on the value of Chrysler. Tr.2879:20-2880:25. He also
testified that he did not come to any conclusions
about Chrysler’s plan to rationalize its dealership
network or the appropriate size of the dealership
network. Tr.2892:2-10. He also admitted that he did
not personally know if any of the first lien lenders
other than JP Morgan, which had refused to provide
DIP financing, would have provided Chrysler with
DIP financing or other funding if government financing
was not available. Tr.2899:4-15.
viii.

Ronald Bloom

The government called Ronald Bloom, Mr.
Rattner’s first Auto Team hire. Mr. Bloom was put in

App.146a
charge of hiring the rest of the Auto Team. Tr.2685:715. He described his position as Mr. Rattner’s deputy
and that after Mr. Rattner’s departure in July 2009
he became the head of the Auto Team. Tr.2685:7-15.
Mr. Bloom explained that while Mr. Rattner primarily
focused on GM, he was the leader of the Chrysler
team and was assigned to review Chrysler’s Viability
Plan. Tr.2685:16-21. He explained that Mr. Osias and
Mr. Calhoon were on the Chrysler team and that
others, including Mr. Wilson, Mr. Markowitz, and
Mr. Malik, were on the GM team. Tr.2686:1-4.
Mr. Bloom testified that “[f]rom the start, the
Auto Team followed two clear directives by Secretary
Geithner and Director Summers regarding our
approach to Chrysler and GM. The first directive was
to behave in a commercial manner, ensuring all
stakeholders were treated in accordance with business,
not political considerations. The second was to refrain
from intervening in the day-to-day management of
these companies.” Tr.2686:12-19. He explained that
“[a]lthough [the Auto Team] engaged in dialogue and
discussion with company management about the
companies’ approaches, we were not to substitute our
judgment about specific decisions for theirs.” Tr.2686:
22-25.
He testified regarding the long-term Viability Plan
Chrysler submitted to Treasury on February 17, 2009.
Tr.2687:1-19; DX1056. He explained that Chrysler
made clear in its plan that it was “critical that each
of Chrysler’s constituents make significant sacrifices
to accomplish our restructuring plan, including our
creditor groups, shareholders, suppliers, dealers, the
United Automobile Workers, and, of course, our own
employees.” Tr.2688:3-8. He testified that this was a

App.147a
sentiment that he also shared. Tr.2688:12-21. He
went on to describe the three different paths Chrysler
proposed. He noted that each required billions of
dollars in additional government financial assistance
beyond the $4 billion TARP loan. Tr.2689:1-3. He
also noted that Chrysler represented that all its
plans included a commitment to continue working
“with its dealer body to rationalize the number of
dealerships” to enhance Chrysler’s long-term viability.
Tr.2691:11-12; DX1058.
Mr. Bloom testified that upon receipt of the February 17, 2009 Viability Plan, he reviewed it to determine
if restructuring Chrysler was viable and if Chrysler
would be able to survive in the long term. Tr.2692:319. Mr. Bloom explained that in addition to the February 17, 2009 Viability Plan, Chrysler sent a confidential submission supporting its reasoning on February 18, 2009. Tr.2691:13-15; DX1058. As part of
that submission, Chrysler offered an accelerated
Project Genesis, whereby it proposed to reduce the
number of dealers from 3298 to 2005 over the course
of four years. Tr.2822:1-10; DX1058. Mr. Bloom
explained that “[t]he Auto Team spent hundreds of
hours studying the Chrysler plan, analyzing it, testing
its assumptions, and critiquing it, all to determine
whether the plan was likely to lead to Chrysler’s
long-term viability.” Tr.2693:8-12. Mr. Bloom further
testified that “[a]mong other things, we analyzed
whether a reduction in Chrysler’s deal-in Chrysler’s
dealership network would improve its chances at
viability.” Tr.2695:25-2696:3. Mr. Bloom went on to
explain that “[a]fter studying the issue, we ultimately
agreed with Chrysler, that their dealer network was

App.148a
too large, and we supported their plans to reduce the
size of their dealer network.” Tr.2696:14-18.
During the Auto Team’s evaluation process, Mr.
Bloom testified that he and other members of the
Auto Team met with Mr. Nardelli at Chrysler’s Warren
Michigan truck plant on March 9, 2009. Tr.2697:1522. He testified that after the meeting Mr. Nardelli
wrote a letter to him and Mr. Rattner advocating for
a Chrysler stand-alone plan. Tr.2697:23-2698:13.
Mr. Bloom testified that he and the Auto Team
came to understand that if Chrysler was to remain a
viable company, the government would have to support
the auto part suppliers. This led to the Auto Supplier
Support Program announced on March 19, 2009.
Tr.2700:11-24; DX1095. He testified that the Supplier
Support Program “was designed to provide suppliers
with access to up to $5 billion in government-backed
protection.” Tr.2701:1-2.
Mr. Bloom explained that on March 30, 2009 the
Auto Team concluded that “even though Chrysler had
made meaningful changes to its cost structure in the
years prior to 2009, a combination of a fundamentally
disadvantaged operating structure and a limited set
of desirable products made stand-alone viability for
Chrysler unlikely.” Tr.2706:18 24. Mr. Bloom explained
that on March 30, 2009 President Obama announced
that the government had rejected Chrysler’s Viability
Plan, but that Chrysler would have thirty more days
to form an alliance with Fiat that was acceptable,
and that the government would provide up to $6
billion to help the plan succeed. Tr.2709:4-24; DX1137.
Mr. Bloom explained that on that same day, President
Obama announced a Warranty Commitment Program,
“to give confidence to GM and Chrysler’s customers”

App.149a
that the warranty for newly purchased cars would be
honored. Tr.2711:17-2712:1; DX1137.
Having concluded that Chrysler would need to
partner with Fiat to survive, Mr. Bloom testified that
he “served as the principle negotiator during the
Auto Team’s negotiation of the term sheet with Fiat.”
Tr.2703:7-8. As a result of the negotiations, Chrysler
and Fiat signed a new term sheet, in which “Fiat would
contribute among other things, technology, management, and consolidated purchasing power in exchange
for twenty percent of the equity in Chrysler, with the
opportunity to receive an additional fifteen percent if
certain performance targets were met.” Tr.2704:232705:3. Additionally, the term sheet was conditioned
on $6 billion in government loans, a restructuring of
Chrysler debt, and an industrial restructuring of
Chrysler, including its dealership network. Tr.2705:4-9.
Mr. Bloom testified that from March 31, 2009
until April 30, 2009 there were a series of meetings
between members of the Auto Team and stakeholders
in Chrysler, including Chrysler, Fiat, UAW, and JP
Morgan. Tr.2712:23-2713:13. Mr. Bloom explained
that although every party “worked hard to find a
path to viability without bankruptcy, all parties,
including Chrysler and Fiat, came to the conclusion
in late April 2009 that the Fiat-Chrysler alliance
could only be accomplished through a restructuring
in bankruptcy.” Tr.2715:11-15. Mr. Bloom stressed
that “[u]ltimately, it was Chrysler’s decision to accept
the Government’s financial assistance, to file for
bankruptcy in April 2009, and to execute a master
transaction agreement with Fiat on April 30th, 2009.”
Tr.2715:16-19. Mr. Bloom testified that the Auto
Team “informed Chrysler that Treasury and the Gov-

App.150a
ernment of Canada would provide up to $4.5 billion
in debtor-in-possession financing to support Chrysler
in bankruptcy if Chrysler elected to move forward
with the Fiat alliance memorialized in the master
transaction agreement.” Tr.2716:4-9; DX1277, DX1287.
He went on to explain “the Auto Team, including
myself, talked with multiple banks in an effort to
raise debtor-in-possession financing from private
sources instead of the Government. Although we
would have welcomed a private entity providing
financing, no private entity was interested, therefore
leaving the Government as the lender of last resort.”
Tr.2716:20-2717:1. Mr. Bloom maintained “[a]lthough
the sacrifices made by Chrysler and its stakeholders
were difficult, the alternative to Chrysler’s successful
restructuring was liquidation, which would have been
worse for everyone concerned.” Tr.2719:11-14.
Mr. Bloom testified regarding the dealerships,
“Early on in our evaluation process, Chrysler explained
to us that the objective of Project Genesis was to
realign its dealership network so that its dealerships
sold all three Chrysler brands, Chrysler, Jeep, and
Dodge, and that the number of dealers was better
aligned with the sales volume of Chrysler dealers.
Under its then-current network structure, many dealers
were selling only one or two brands, and many
dealers sold a relatively small number of vehicles.
We understood from Chrysler that, in its judgment,
having too many dealers placed a burden on its
prospects for achieving long-term viability and success.
This was because, according to Chrysler, too many
dealers eroded the brand equity and Chrysler’s ability
to get a fair price for its products. Chrysler also
advised us that having too many dealers forced the

App.151a
dealers to compete against each other, which led to
price-cutting and lower dealer profits, reducing the
ability of the dealers to re-invest in their facilities.”
Tr.2721:4-23. He went on to explain that “[C]hrysler
also advised the Auto Team that a more aggressive
dealer rationalization effort would further enhance
the prospects for achieving long-term viability, a
judgment we supported.” Tr.2722:2-5. However, he
made clear that “[a]s part of the Auto Team’s due diligence responsibilities, we continued to have some
general discussions with Chrysler during the month
of May regarding the status of its dealership network
plans. I did not request and Chrysler did not provide
any update to either the number of dealers Chrysler
was considering rejecting or the names of any potential
dealers the company would put forward for rejection.”
Tr.2723:15-21. He explained that the Auto Team “did
not get into the details of management decisions
behind Chrysler’s selection of individual dealers to
reject.” Tr.2724:15-18. He stated that the only requirement placed on Chrysler was that the dealer
rationalization plan be “based on objective criteria
and be fair and impartial.” Tr.2724:23-2725:3. Mr.
Bloom explained he recalled learning that Chrysler
would reject 789 dealership agreements during a May
11, 2009 presentation made by Chrysler. Tr.2725:4-15;
DX1309.
On cross examination, Mr. Bloom admitted that
prior to working for the government, he had spent
twelve years working for the steelworkers’ union negotiating collective bargaining agreements. Tr.2737:710. Mr. Bloom also acknowledged that the February
2009 Viability Plan only included an accelerated Project
Genesis that would reduce the dealership count through

App.152a
voluntary consolidation. Tr.2741:1-15; DX1056, DX1058. He agreed that the Chrysler stand-alone plan
was off the table because the Auto Team had determined that Chrysler could not survive long term as a
stand-alone entity. He also agreed that in 2008, he
had believed that bankruptcy was the likely outcome
for Chrysler, before he joined the Auto Team.
Tr.2770:6-10.
Mr. Bloom further admitted that the government’s
idea of shared sacrifice came to include dealer terminations. Tr.2775:4-14. He also admitted that when the
Auto Team rejected the Viability Plan in March 2009,
it required a more aggressive dealer rationalization
approach from Chrysler along with other concessions.
Tr.2755:2-14. As part of that more aggressive
rationalization approach, Mr. Bloom understood that
Chrysler had proposed Project Tiger and termination
of franchise agreements in bankruptcy. Tr.2778:8-21.
Mr. Bloom received the first draft of Project Tiger on
April 7, 2009, one week after President Obama had
announced that he was rejecting Chrysler’s February
2009 Viability Plan. Tr.2820:18-23; DX1167.
Mr. Bloom admitted that Chrysler was not really
involved in the negotiations concerning the Voluntary
Employee Beneficiary Association Plan (“VEBA”) and
union benefits, and that during April 2009 the government facilitated negotiations between Fiat and
UAW. Tr.2783:1-5. He also admitted that the VEBA
claims would most likely not have recovered in a
Chrysler bankruptcy without government assistance
because they were unsecured debts, and there was a
substantial amount of secured debt that had a higher
priority in a bankruptcy. Tr.2792:14-24. Mr. Bloom
testified that the bankruptcy was structured in a

App.153a
manner to give value to the unsecured creditors such
as the VEBA and key auto part suppliers, that would
have presumably not recovered anything if Chrysler
had filed for bankruptcy without government assistance. Tr.2792:14-24.
Mr. Bloom testified that he understood that, under
the government’s negotiated prepackaged bankruptcy
plan, Fiat would take over the management of
Chrysler. Tr.2799:14-17. Mr. Bloom also admitted
that the Auto Team viewed providing assistance to
Chrysler and GM as a “multiplier” because there were
dozens of companies that might have gone bankrupt
if Chrysler and GM liquidated. Tr.2812:2-9; see also
PX635.
ix. Brian Osias
Mr. Osias also testified as a former member of
the Auto Team. Prior to serving on the Auto Team,
Mr. Osias worked on President Obama’s transition
team “focusing on tracking and evaluating the Bush
Administration’s efforts to support the auto industry.”
Tr.3138:7-10. He explained that he began working at
Treasury in January 2009 and quickly gravitated to
the Auto Team. Tr.3138:11-16. He testified that when
he became a member of the Auto Team, he “was
brought in as an analyst with skills in research,
forecasting, and analyzing companies’ financials and
viability[.]” Tr.3138:21-25.
Mr. Osias explained that he was tasked with
analyzing Chrysler’s February 17, 2009 Viability
Plan. Tr.3139:14-25. To perform this analysis, he
familiarized himself with the auto industry including
“Chrysler’s operational framework, . . . its manufacturing footprint, dealer network, capital equipment

App.154a
efficiency, power train technology, and a long list of
other important variables.” Tr.3140:9-14. Mr. Osias
explained that “[i]f an investment could not be justified on the basis of the submitted Viability Plan, we
sought to understand what changes Chrysler might
need to ensure that if further taxpayer support were
provided to the company, the taxpayers had a strong
chance of repayment.” Tr.3144:8-13. He explained
that “to accomplish these tasks we attempted to make
every transaction and interaction as commercial as
possible.” Tr.3144:18-20.
He testified “[t]he task force definition of viability
had three parts. First, to be viable, a business must be
able to generate positive cash flow and earn an
adequate return on capital over the course of a
normal business cycle. Second, the positive cash flow
must account for spending on research and development and capital expenditures necessary to maintain
and enhance the company’s competitive position. Third,
a viable company must have a balance sheet consistent with the cash flow dynamics of the business and
must be capable of weathering typical industry
downturns.” Tr.3145:1-12. He explained that part of
the problem with the Chrysler Viability Plan was
that Chrysler had made too many positive assumptions
about the auto market to justify its stand-alone plan.
Tr.3150:12-23. He stated that the Auto Team concluded
that “[e]ven under generous assumptions, Chrysler
was not viable under its stand-alone viability plan. It
was not close. In all but the most favorable macroeconomic and company-specific cases, some of which
defied logic and history, Chrysler was destined to suffer
or fail in the medium term, and any taxpayer support provided by Treasury would quickly be spent by

App.155a
the company with little hope of recovery.” Tr.3153:1219.
Mr. Osias went on to discuss the Auto Team’s
examination of a potential merger between Fiat and
Chrysler. Tr.3154:11-17. He explained that Fiat made
a powerful argument for the viability of a merger
using more conservative assumptions. Tr.3154:18
3155:4. Mr. Osias explained that after President
Obama stated that the government had rejected Chrysler’s Viability Plan, he began “analyzing whether
the alliance between Fiat and Chrysler was feasible
and would result in a viable company.” Tr.3162:233163:1. He explained he “continued to perform due
diligence on the potential Chrysler-Fiat alliance to
determine if the proposed alliance would result in a
viable company, one with positive cash flow the
Treasury would feel comfortable underwriting with
taxpayer money.” Tr.3163:7-13. He went on to explain
that during the viability review process “Chrysler
recognized that one benefit to a bankruptcy process
is that it would allow them to accelerate their dealer
rationalization process, . . . at a substantially lower cost
than could be achieved outside of bankruptcy.”
Tr.3167:16-20. He further explained “[a]s with other
aspects of the Chrysler-Fiat alliance, Treasury did
not have a specific strategy with regard to the
dealers, other than that the company’s dealer network
plan must contribute to the company’s overall
viability.” Tr.3168:5-9.
Mr. Osias noted that he understood that “Treasury
obviously was not a purely commercial actor. No
wholly commercial actor would have agreed to give
Chrysler money at this point because its prospects
were so bleak. We understood that the potential for

App.156a
return in a structure that actually made sense for
Chrysler was very low. Treasury had other priorities
beyond earning a fair return for taxpayers, including
preserving jobs and limiting damages to auto-related
communities.” Tr.3170:5-13. Mr. Osias testified that
the Auto Team was “performing this diligence to ensure
that if the company was going to be restructured
through a 363 sale, that such a sale was the most
efficient option.” Tr.3176:7-10. The Auto Team, he
testified, “had neither the interest nor the ability nor
the mandate to play any specific part in determining
which dealers Chrysler and Fiat wanted to cut” but
wanted to ensure that any franchise rejections were
based on a reasonable and fair methodology. Tr.3182:319.
On cross examination, Mr. Osias admitted that
he evaluated all three viability scenarios equally
despite Chrysler advocating for a stand-alone plan.
Tr.3195:16-3196:17. Mr. Osias also admitted that he
did not continuously work for the Auto Team; he did
not work for the Auto Team from late February 2009
until March 20, 2009. Tr.3261:19-3262:8. He reemphasized that his role was to look at the financial
practicability of Chrysler’s viability rather than the
political consequences of Chrysler potentially failing.
Tr.3271:5-21. He also explained that the Auto Team
only evaluated whether the franchise rejection criteria
were fair and reasonable and was never involved in
identifying any of the franchise agreements to be
rejected. Tr.3324:9-3325:11. According to Mr. Osias,
Fiat was not concerned with Chrysler’s dealer
rationalization plans. Tr.3308:15-24.

App.157a
x. Brian Stern
In addition to Mr. Rattner, Mr. Bloom, and Mr.
Osias, the government also called Brian Stern from
the Auto Team to testify. He was with the Auto Team
from March 2009 until August 2009. Tr.4308:23-25.
Mr. Stern explained that he was recruited by Mr.
Rattner based on his experience as a member of the
private equity group at Bank of America Merrill
Lynch Global Private Equity. Tr.4309:4-8. Mr. Stern
testified that he “worked on issues related to Chrysler
Financial and General Motors Acceptance Corp.,
GMAC, the financial companies affiliated with Chrysler
and General Motors.” Tr.4309:15-19. He testified
that he was on “what was known as the finance
companies or FinCos team because our work focused
on Chrysler Financial and GMAC, which were
collectively known as the FinCos.” Tr.4310:16-21.
Mr. Stern explained that the “Auto Team worked
with Chrysler Financial and GMAC because Chrysler’s
viability depended on financing being available for
Chrysler’s dealers and customers.” Tr.4311:1-2. He
went on to explain that this was “[b]ecause Chrysler
was wholly dependent on dealers to sell its automobiles,
Chrysler would not be viable if the dealer network
was incapable of financing the purchase of new cars
that would then be offered to consumers to purchase
off the dealer’s lot.” Tr.4311:17-21. Mr. Stern testified
that leading up to the financial crisis, Chrysler
Financial was the main financier for Chrysler dealers.
Tr.4311:22-24.
Mr. Stern then testified that during the financial
crisis, Chrysler Financial experienced “an extreme
liquidity crisis” and that in an email on April 17,
2009, Chrysler Financials’ CEO Tom Gilman stated

App.158a
that in the event of a Chrysler bankruptcy, Chrysler
Financial would cease lending to Chrysler dealers and
retail customers. Tr.4312:1-19; DX1202. He went on
to explain that by late 2008, Chrysler Financial had
to shrink the amount of outstanding retail loans in
order to not be in default, which negatively impacted
Chrysler. Tr.4313:2-17; DX1182. Mr. Stern testified
that the Auto Team concluded that Chrysler Financial
would require too much assistance to continue as the
financier for Chrysler and that the recapitalized
GMAC was the most prudent and effective deployment
of taxpayer capital to ensure that there was sufficient lending capacity in floor plan and retail auto
loan markets. Tr.4314:15-22. He explained that
“[u]ltimately, on April 30, 2009, the day that Chrysler
filed for bankruptcy, Chrysler and GMAC executed a
master financial services agreement term sheet”
under which GMAC would provide the financial
services to Chrysler dealers and customers. Tr.4316:1824; DX1375. This required that Treasury provide
$7.5 billion to GMAC and that the FDIC provide
assistance to GMAC through its Temporary Liquidity
Guarantee Program. Tr.4317:20-4318:9; DX1336a.
On cross examination, Mr. Stern admitted that
he did not consider whether Chrysler dealers could
have obtained floor plan financing from other sources.
Tr.4321:3-11. He also admitted that on April 18,
2009, Chrysler Financial expressed its desire to
continue to provide retail and floor plan financing in
the event of a Chrysler Chapter 11 bankruptcy.
Tr.4323:8-22. Mr. Stern further acknowledged that
Treasury told Congress in 2011 that the reason it
provided GMAC with financing was not because it
was the most prudent investment but because of its

App.159a
importance in the auto industry. Tr.4330:11-15; PX485.
He also stated that he had not had any conversations
with Chrysler regarding the best path forward for
Chrysler Financial. Tr.4336:9-14.
xi. James Lambright
The government also called James Lambright to
testify. Mr. Lambright, from October 2008 until June
2009, served as the interim chief investment officer
for TARP. Tr.3711:5-10. He explained that “[t]he
overarching objective of TARP transactions was to
protect the financial system; however, in structuring
individual transactions with particular companies,
our goal was to provide the necessary financial assistance, while at the same time protecting taxpayers
whose funds were being put at risk.” Tr.3713:6-11.
He explained that President Bush took the action of
providing loans to Chrysler and GM from TARP in
January 2009 because “Chrysler and GM were on the
brink of financial collapse but had not taken measures
to prepare themselves for an orderly restructuring.
Thus, our goal at the time was to provide sufficient
financing to keep Chrysler, GM, and their associated
financing companies alive, giving them some time
and an incentive to develop paths towards long-term
viability, and also give the incoming Obama Administration flexibility in deciding how and whether to provide further assistance to these companies.” Tr.3714:
1-10.
He went on to explain that “[t]he bridge loans [to
Chrysler and GM] were designed to provide the
manufacturers sufficient capital to continue operations
for a period of time, long enough to develop a plan for
long-term viability that could be presented to the

App.160a
new administration.” Tr.3714:16-20. Mr. Lambright
further explained that “[t]he concept of a viability
plan and the bridge loan was derived from the legislation that had passed the House on December 10th,
2008 [but was never enacted].” Tr.3717:19-21. He
explained that his “understanding was that this
provision called for Chrysler to include in its viability
plan an explanation of the steps it would take to
improve its operating efficiency in a manner that
would allow it to continue manufacturing and selling
cars for the long term.” Tr.3725:20-25.
B. Government’s Expert Witnesses
i. Dr. Andrew Carron
Dr. Andrew Carron, Ph.D., is an expert in financial
economics, damages, and valuation. His testimony
addressed plaintiff experts’ opinions regarding the
value of plaintiffs’ franchise agreements in a “but for
world” where Chrysler entered bankruptcy without
government assistance. He holds a B.A. in economics
from Harvard University and a Ph.D. in economics
from Yale University with a concentration in industrial
organization. Tr.2912:21-2913:5. Dr. Carron is currently an affiliated consultant at National Economic
Research Associates (“NERA”) Economic Consulting.
Tr.2910:2-3. From 2013 to 2017, Dr. Carron was the
chairman of NERA and from 2006 to 2012, he was
NERA’s president. Tr.2910:3-5. He has authored
texts, book chapters, and articles on fixed-income
securities. Tr.2912:11-13.
Dr. Carron was retained by the government to
opine on two issues. First, Dr. Carron was asked to
opine on “whether Plaintiffs’ Chrysler franchise agree-

App.161a
ments would have had value had Chrysler foregone
government financial assistance and conducted an
orderly wind-down and liquidation in bankruptcy.”
Tr.2913:14-20. As discussed in detail below, Dr. Carron
opined that the franchise agreements at issue would
have been valueless in the plaintiffs’ proposed “but
for world”—where Chrysler was acquired in a Section
363 sale—because a willing buyer in an arms’ length
transaction would not have paid more than zero for
their franchise agreements. Tr.2913:23-2914:13.
Second, Dr. Carron was asked to opine on
“whether Plaintiffs’ dealerships in the actual world
had substantial value absent those franchise
agreements.” Tr.2914:14-16. As discussed in detail
below, Dr. Carron opined that eight out of the nine
plaintiffs’ dealerships without franchise agreements
with Chrysler retained substantial value in the actual
world, both during and after the Chrysler bankruptcy.
Tr.2914:21-24.
Dr. Carron began his testimony by discussing
the difference between the income-producing activities
plaintiffs received by having a franchise agreement
with Chrysler and the income-producing activities that
were not directly dependent on the franchise agreements. He explained that the franchise agreements
allowed a franchise holder to sell the manufacturer’s
new cars and trucks, purchase new cars and trucks
from the manufacturer, and provide warranty repair
and maintenance work on those cars and trucks that
is paid for by the manufacturer at a negotiated rate.
Tr.2915:10-16. He went on to explain that other income
streams are not franchise dependent. He testified
that a “franchise agreement is not required for the
sale of used cars[,] the sale of finance and insurance

App.162a
products[,] customer pay . . . repair service and parts[,
and] physical assets, such as land, buildings, and
general tools.” Tr.2915:15-23.
Dr. Carron challenged the opinions of the plaintiffs’
experts that evaluated the lost value of the plaintiffs’
franchise agreements by not distinguishing between
franchise dependent and non-franchise dependent
income streams. Tr.2915:23-2916:2. As a result, he
asserted, the plaintiffs’ experts were “unable and . . . do
not, in fact, isolate, identify, or estimate the value
brought to a dealership by the Chrysler franchise
agreement.”40 Tr.2916:3-2916:5.
Dr. Carron testified that for purposes of his
valuation analysis he assumed a “but for world”
where “Chrysler would have declared bankruptcy on
December 31, 2008 or April 30, 2009 and subsequently
40 As discussed above, Ms. Murphy testified on behalf of the
Alley’s plaintiffs that she did not separately value the “franchise
agreement” because, in her opinion, there is no distinction
between valuing a franchise and a dealership. Dr. Nevin, in his
testimony on behalf of the Colonial plaintiffs, explained that in
the auto dealership industry there is a unique method of
measuring the value of the intangible benefit of having a franchise agreement with a specific manufacturer using what is
called a “blue sky” multiple. This multiple is applied to the
value of the assets of the franchise to determine how the
“brand” franchise agreement increases the value of franchise to
a potential buyer. As discussed above, the references Dr. Nevin
relied upon in his testimony regarding blue sky indicated that
in 2009, there was no “blue sky” value for Chrysler dealerships
and thus a buyer wanting to purchase a Chrysler franchise
would not have paid a multiple above “asset” value. Finally, Mr.
Stockton, also on behalf of the Colonial plaintiffs, valued the
Finnin and Guetterman franchises in his “but for world” to
include income streams not directly related to what the manufacturer is obligated to provide under the franchise agreements.

App.163a
liquidated its assets through an orderly wind-down
without financial support from the Government.”
Tr.2916:12-16, Tr.2917:1-5. Dr. Carron explained that,
for purposes of his analysis, Chrysler would have
ceased manufacturing new vehicles during this winddown period and would have stopped shipping parts
to the dealers. Tr.2917:5-11. He further explained
that he assumed plaintiffs would have been able to
continue as Chrysler, Jeep and/or Dodge dealers
during the wind-down. Tr.2916:16-24. He also assumed
that the plaintiffs would generate income from their
directly-related franchise activities, such as used car
sales and customer pay service. Id.
Using the above-noted assumptions, Dr. Carron
opined on the value of plaintiffs’ franchise agreements.
He focused on the income streams tied directly to the
plaintiffs’ franchise agreements: the right to sell new
cars, the right to purchase new cars, and the right to
be paid for warranty work. Dr. Carron concluded
that with the assumptions he used, none of plaintiffs’
franchise agreements would have had any value.
Each of Dr. Carron’s opinions will be discussed in turn.
Dr. Carron started by explaining why, in his opinion, plaintiffs would not see any value in being able
to sell new Chrysler cars or trucks. Dr. Carron testified
that “new car sales are typically the least profitable
of a dealer’s major activities and can often even lead
to losses.” Tr.2919:17-20. He explained that this
least-profitable aspect of plaintiffs’ dealerships would
have become worse in a “but for world” where the
new cars in the plaintiffs’ inventory might be
discontinued. Tr.2920:1-11. He stated that “[t]he cost
of the vehicles purchased [by the franchisees] prior to
the bankruptcy would have been significantly higher

App.164a
than the price customers would have been willing to
pay for them after bankruptcy.” Tr.2920:24-2921:2.
Dr. Carron reasoned that “[b]uyers tend to be adverse
to discontinued brands due to the lack of warranty
coverage, ceased production of parts, among other
reasons.” Tr.2922:3-6. Dr. Carron thus concluded
that no value to the franchise agreements could be
attributed to the sale of existing vehicles on the
plaintiffs’ lots. See Tr.2922:17-19.
Dr. Carron also explained that the cars on plaintiffs’ lots would have resulted in losses for plaintiffs
because, contrary to plaintiffs’ experts’ opinions, without “government financial assistance, there would have
been no manufacturer warranty coverage.” Tr.2922:2122. Dr. Carron testified that he rejected the notion,
advocated by plaintiffs’ experts, that the federal government would have paid for warranty work in a “but
for world.” He testified that “[p]laintiffs’ experts did
not provide support for their opinions that a program
would have been established to provide warranty
coverage during a hypothetical Chrysler liquidation.”
Tr.2923:13-16, Tr.2923:17-2924:16.41 Dr. Carron opined
that cars without a manufacturer’s warranty would
“signal a lower level of product quality to customers,
lowering the price they would be willing to pay.”
Tr.2925:19-12. Dr. Carron further opined that even if
41 Dr. Carron dismissed the notion that the limited warranty
program offered by the government for March 2009 was evidence of a government commitment to a continued warranty
program. He explained that the March warranty program was
designed to encourage the sale of Chrysler cars and trucks but
that without a government commitment to keep the Chrysler
brand, there would have been no reason to continue the warranty.
Tr.2923:19-2924:22.

App.165a
dealers purchased third-party warranty coverage for
their new vehicles, they would have discounted them
by the amount of the cost of the warranty, around
$2,000. Tr.2926:3-19.
In further support of his opinion that franchisees
would not see any value associated with a franchisee’s
ability to sell new cars in the “but for world,” Dr.
Carron testified regarding the lack of retail financing.
Dr. Carron testified that retail financing at the time
of the “but for world” was hard to come by, and that
all plaintiffs relied to some extent on Chrysler Financial
to provide retail financing for their customers.
Tr.2928:1-4. He explained that by 2008, Chrysler
Financial was facing its own liquidity crisis and that,
by the time that Chrysler would have filed for bankruptcy in a “but for world,” Chrysler Financial would
not have been in the position, without government
assistance, to provide retail financing to customers.
Tr.2932:8-18. Dr. Carron explained that even for
those dealers who did not overly rely on financing
from Chrysler Financial, obtaining retail financing
would have been difficult during the year or two in
question. He testified that the “overall volume of
outstanding auto loans and leases in the US
decreased eighteen percent between April 2008 and
April 2009, as consumers paid down outstanding
loans and fewer new loans were being made.” Tr.2933:
21-25.
Dr. Carron testified based on the data from the
plaintiffs’ financial statements that “[a]n average
price decline of a little more than 3% would reduce
the profits of new car sales to zero.” Tr.2938:5-7. The
plaintiffs’ financial statements showed an average
mark up in May 2009 of 3.18%. See Tr.2938:4-14. Dr.

App.166a
Carron further opined that plaintiffs would have lost
money on their inventory in a “but for world” without
government assistance. Relying on data from other
manufacturers with discontinued lines, including
Mazda Tribute, Suzuki, and Saab, Dr. Carron opined
that the new cars on plaintiffs’ lots would have
declined in value by at least 15% and up to 25%.
Tr.2948:19-23.
Specifically, Dr. Carron explained that when Mazda discontinued the production of its Mazda Tribute
SUV in 2011, the value declined by 4.5% during the
six months following the announcement, while a
similar SUV like the 2011 Ford Escape rose by 1.5%
leading to an overall 6% decline of relative price of
the Mazda Tribute. See Tr.2937:10-Tr.2946:1. Regarding the decline in the value of Suzuki cars during its
bankruptcy, Dr. Carron noted that news reports
during the Suzuki bankruptcy indicated that dealers
were offering discounts ranging from twenty to twentyfive percent for their new vehicle inventory. Tr.2943:1516.
Dr. Carron explained that he thought that the
Saab bankruptcy provided the most reliable comparison
to what would have happened in the “but for” without
government financing world because like Chrysler,
Saab as the manufacturer went bankrupt.42 Dr. Carron
explained that, where the manufacturer no longer
manufactures cars and is not able to offer a warranty,
42 Dr. Carron explained that plaintiffs’ reliance on the Daewoo
bankruptcy was misplaced because the Daewoo involved only
the distributor and DIP financing was available, which Dr.
Carron concluded would not have been available in a “but for”
Chrysler bankruptcy. Tr.2943:20-2944:25.

App.167a
it is very difficult for a dealer to sell its remaining
new car inventory. In Saab’s case, the new cars on
dealer lots declined by an average of 42%. Tr.2945:162947:8. Dr. Carron further supported his opinion
with the analysis done by Chrysler’s first lien lenders
who had estimated that new Chrysler cars and trucks
would be discounted between 50% to 75%. Tr.2948:5-12.
Dr. Carron next explained why he believed that
the franchisees would not see any value in the second
right provided in franchise agreements, the right to
purchase additional new cars from Chrysler. He challenged Mr. Berliner’s contention that, in a “but for
world,” plaintiffs would have derived a benefit from
having access to the 9,580 new cars Chrysler had not
yet sold at the time of its bankruptcy. Dr. Carron
opined that Chrysler would have likely sold these
vehicles at a bulk auction open to both Chrysler
dealers and non-Chrysler dealers to obtain maximum
value for the cars. Tr.2953:16-21. Dr. Carron further
opined that even if Chrysler were acquired by another
manufacturer in a 363 sale, there “[was] no
indication . . . at the time that an acquirer would have
resumed production of any, much less of most or all,
of Chrysler’s existing brands.” Tr.2956:3-6. Relying
on the work of Mr. Manzo, Dr. Carron questioned
whether any lines but for the Jeep Wrangler line
would have been acquired and stated that he saw no
evidence to suggest that production of all Chrysler
lines would have resumed in bankruptcy without
interruption. He also opined that the lack of floor
plan financing for most dealers would have made the
ability to purchase new cars difficult even if Chrysler
continued to manufacture cars. It was for all of these
reasons that Dr. Carron concluded that the right pro-

App.168a
vided in the franchise agreement to buy and then sell
additional Chrysler vehicles in the “but for world”
would not have had any value. Tr.2957:20-22.
Regarding the value derived from the right to
perform warranty work, the third value Dr. Carron
attributed to a franchise agreement, Dr. Carron opined
that this right was also valueless in a “but for world”
without government financing. Dr. Carron testified
that if Chrysler filed for bankruptcy without government assistance, all the outstanding warranty claims,
which for these plaintiffs totaled $198,741 by the end
of April 2009, would have gone unpaid. Tr.2961:212962:6. Dr. Carron explained, as noted above, that he
believed it was unreasonable to assume that there
would have been a program to honor outstanding
warranties in a “but for world.” He thus concluded
that plaintiffs would have received no value for their
franchise agreement based on their ability to perform warranty work. Instead, he opined that the
plaintiffs would have lost the money due to them by
Chrysler for warranty work they performed but for
which they had not have been paid. Tr.2962:7-12.
Dr. Carron concluded his testimony regarding
his first opinion by stating that, had the dealerships
chosen to sell their Chrysler franchise agreements
immediately before a Chrysler bankruptcy or during
the bankruptcy, a willing buyer would not have paid
anything for the franchise agreements because none
of the express rights provided for in the intangible
franchise agreements—the right to sell Chrysler cars
and trucks, the right to purchase Chrysler cars and
trucks directly from Chrysler, and the right to perform
warranty work—would have produced any profit in a

App.169a
“but for world” where Chrysler went into bankruptcy
without government assistance. See Tr.2963:7-12.
Dr. Carron did not consider any loss attributable
to the plaintiffs’ other income streams, which Ms.
Murphy and Mr. Stockton asserted were also attributable to the franchise agreement, including customer
pay work, used car sales, and the sale of insurance
and other commercial products. He did, however,
provide an analysis in his second opinion to show
that, for most of the plaintiffs, there was no evidence
that profits from these income streams diminished in
the period that would have coincided with a bankruptcy
wind-down of Chrysler in a “but for world.”
Dr. Carron focused his second opinion on the value
of the plaintiffs’ dealerships in the actual world, after
their franchise agreements were rejected in bankruptcy. Dr. Carron explained that in valuing the
plaintiffs’ dealerships without a Chrysler franchise
agreement, he took into account the goodwill, expertise,
and revenues the plaintiffs derived from their other
business lines, such as new car sales and warranty
repairs under their non-Chrysler franchise agreements,
used car sales, and customer-pay repairs. Tr.2989:1418. Dr. Carron explained that, in the actual world,
several of the plaintiffs were able to retain much of
the value associated with Chrysler-related work
because, by virtue of the government’s contribution,
Chrysler continued as a brand. Thus, they were able
to obtain Chrysler parts for repairs and sell their
remaining Chrysler vehicles with warranties. 43
Tr.2990:20-2991:5.
43 Aspects of Dr. Carron’s opinion were confirmed by the fact
that certain plaintiffs, as discussed infra, were able to sell their

App.170a
For the six representative plaintiffs that continued
in business as car dealerships under other franchise
agreements (Theel, Marsh, Guetterman, Finnin, Taylor,
and Whitey), Dr. Carron explained that, in the actual
world, the termination of their Chrysler franchise
agreements did not result in any discernible loss of
income or net profits. Tr.2994:2-3002:3. Dr. Carron
testified that he came to the same conclusion for
Barry Dodge, the only dealership to continue as a
used car dealership. Barry’s net profits either remained
stable or grew in the three years after the rejection of
its Chrysler franchise agreements as compared to the
three years before the rejection of the Chrysler franchise
agreements. Tr.3002:4-3003:11.
For the two remaining plaintiffs, Livonia and
RFJS, which did not continue their operations, he
could not reach a conclusion about the value of the
dealerships in the actual world. Tr.3003:12-3005:24.
Dr. Carron explained that Livonia transferred its
unsold used vehicles to another company owned by
the same owner as Livonia, Century Sales, which
also sold Mitsubishi vehicles and used vehicles.
Tr.3003:12-22. He noted that although Livonia did
not continue to operate after the rejection of its Chrysler franchise agreements, Livonia eventually was
awarded Chrysler franchises in 2015 and is currently
selling Chrysler and Jeep vehicles. Tr.3003:23-3004:12.
Regarding RFJS, because it did not have a permanent
franchise agreement it was not like the other plaintiffs and, therefore, Dr. Carron explained that he
new car Chrysler inventory to other Chrysler dealerships without
sustaining a loss, and were also able to sell or use much of their
remaining Chrysler parts and service equipment without taking
a loss.

App.171a
could not come up with a valuation. Tr.3004:13-23.
The RFJS franchise agreement was set to expire in
October 2009 and RFJS never turned a profit in the
actual world. Tr.3004:24-3005:6.
On cross examination, Dr. Carron admitted that
he did not consider the impact that the financial
recovery had on the revenues of the plaintiffs’ dealerships after the 2008-09 recession. Thus, he could not
say if the steady profits or increased profits he
examined in the actual world were attributable to
the recovery or the value of the dealerships themselves.
Tr.3014:2-3016:15. Dr. Carron also admitted that he
did not consider what dealership profits would have
been after 2009 if the plaintiffs had retained their
Chrysler franchise agreements. Tr.3023:1-15. Dr.
Carron further admitted that if the plaintiffs were
required to purchase a third-party warranty in order
to sell the new vehicles on their lots it was possible
that they would see a profit (not a loss). Tr.3084:73085:11.
ii. Donald MacKenzie
The government called Donald MacKenzie, the
“founder and CEO of Conway MacKenzie, Inc. . . . a
global financial consulting and advisory firm,” as its
second expert. Tr.4022:24-4023:2. Mr. MacKenzie is
a “certified turnaround professional, certified public
accountant, and [has] a Bachelor of Science in accounting from Michigan State University.” Tr.4023:5-7. Mr.
MacKenzie is “frequently engaged to provide advice
and counsel by auto-related entities, including original
equipment manufacturers [OEMs,] . . . suppliers who
manufacture and sell vehicle parts and systems
directly to OEMS, which are commonly referred to as

App.172a
tier one suppliers; other suppliers further down the
supply chain; which include tier two, tier three, and
raw materials suppliers; and also, financial institutions
and investors.” Tr.4023:5-14. Mr. MacKenzie has
also served as a Chief Restructuring Officer (“CRO”)
for numerous middle market companies, as well as
for automotive companies including large tier one
automotive parts suppliers. Tr.4024:23-4025:4.
Mr. MacKenzie offered two opinions on behalf of
the government based on his experience with the
auto industry. First, he opined that “without financing
from the U.S. Treasury, Chrysler would have immediately liquidated in bankruptcy.” Tr.4027:18-20.
Second, he opined that “had Chrysler immediately
liquidated in bankruptcy, all of Chrysler’s dealer
franchise agreements, including the Plaintiffs’, would
have been rejected and had no value.” Tr.4027:21-24.
In support of his opinion that Chrysler would
have been forced to liquidate in a “but for world”
without government assistance, Mr. MacKenzie began
by explaining the financial history leading up to the
Chrysler bankruptcy, including Chrysler’s 1979
financial difficulties, its sale to Daimler in 1998, and
its sale to Cerberus in 2007. Tr.4029:8-4030:25. He
testified about the $4 billion bridge loan Chrysler
received from the government in December 2009, the
credit crunches effecting the auto market, the actual
world bankruptcy, and Fiat’s purchase of Chrysler.
He explained that in developing his “opinions . . . [he]
assumed that Chrysler had received the $4 billion of
bridge financing that was approved by the U.S.
Treasury on December 31st, 2008 but did not receive
any additional government financing and filed for

App.173a
bankruptcy protection on April 30th, 2009.” Tr.4039:1621.
Mr. MacKenzie explained that in the actual world
on April 30th, 2009, Chrysler had $407 million in
usable cash but was burning through tens of millions
of dollars per day while it continued to manufacture
cars. Tr.4046:12-18. He opined that Chrysler would
have been forced to liquidate without government
financing because no financial institution would have
been willing to provide DIP financing or any other
financial assistance to Chrysler in April 2009.
Tr.4047:7-17. He explained that because Chrysler
had a high cash burn rate and a low amount of cash
on hand it could be insolvent, which would result in
the Chapter 11 bankruptcy being converted into a
Chapter 7 bankruptcy. Tr.4045:8-10.
Mr. MacKenzie explained that there would have
been a significant negative impact on Chrysler’s
lenders, dealers, suppliers, employees, and consumers
if it had been forced to liquidate. Tr.4050:19-23. Mr.
MacKenzie further explained that in December 2008,
Chrysler’s warranty obligations totaled $3.75 billion,
and that given the low amount of cash Chrysler had
on hand it would not have had funds available to
finance a warranty program during a liquidation.
Tr. 4060:22-4063:24. He also testified that at the
time Chrysler would have filed for bankruptcy all of
Chrysler’s vehicle lines were unprofitable. For example,
in 2008 the Jeep brand had a negative $88 million
worth, Dodge Ram Truck was worth a negative $111
million, and Chrysler Town & Country was worth a
negative $25 million. Tr.4064:19-4065:2.
Mr. MacKenzie testified that, because Chrysler’s
manufacturing operations were all interconnected,

App.174a
the sale of any individual Chrysler vehicle line would
have been difficult and that this would have reduced
the value of Chrysler’s lines in liquidation. Tr.4065:244067:9. Ultimately, Mr. MacKenzie concluded that
under a liquidation of Chrysler, there would have
been no recovery for any creditors beyond the secured
lenders. Tr.4071:21-4072:4.
In his second opinion, Mr. MacKenzie opined that
in a Chrysler liquidation, all of the Chrysler franchise
agreements, including those of the plaintiffs, would
have been rejected. He explained that franchise agreements are executory contracts that can be rejected in a
Chapter 11 bankruptcy and if they are not rejected
must be assumed by another entity. Tr.4073:5-20. In a
Chapter 7 liquidation, Mr. MacKenzie explained that
“if a contract is not explicitly assumed by the trustee,
the contract is automatically deemed to be rejected.”
Tr.4073:21-23. Mr. MacKenzie further explained that
if Chrysler entered bankruptcy and was no longer
manufacturing new cars, or shipping new cars, or
reimbursing warranty work, all of which Chrysler
was obligated to do under its franchise agreements,
the CRO would have had a fiduciary duty to reject
the franchise agreements because they imposed obligations on Chrysler that Chrysler would not be able
to fulfill. He explained that where the franchise
agreements would not generate any profits but
potentially subject Chrysler to financial claims from
the franchisees, the franchise agreements would be
rejected in bankruptcy as soon as possible. Tr.4075:184077:2.
Finally, Mr. MacKenzie explained how and why
his opinions about a Chrysler bankruptcy without
government financing differed from plaintiffs’ experts.

App.175a
Mr. MacKenzie testified that he could not find support
for plaintiffs’ assumption that Chrysler would have
had $2 billion on hand rather than the $400 million
he identified. According to Mr. MacKenzie, because
some of that extra $1.6 billion was held by foreign
entities and $846 million of that total was held as
collateral by Chrysler’s secured lenders, the extra
dollars plaintiffs’ experts identified would not have
been available to help Chrysler get through a winddown without the consent of Chrysler’s creditors.
Tr.4078:25-4079:18. Next, Mr. MacKenzie testified
that Mr. Berliner’s assumption that there would have
been DIP financing was not supported. Mr. MacKenzie
explained that in the actual world, it was understood
that neither Cerberus nor JP Morgan, first lien
creditors, were willing to provide DIP financing to
keep Chrysler continuing as an ongoing concern.
Tr.4079:19-4081:10. Mr. MacKenzie testified that if
there would have been other sources of DIP financing
Chrysler would not have needed the $4 billion bridge
loan it sought from the government. See Tr.4081:8-10.
Mr. MacKenzie explained why he believed that
Mr. Berliner’s assumption that the government would
have funded a warranty program was not supported.
Mr. MacKenzie testified that there is no evidence
that the government would have funded a warranty
program if it had decided not to otherwise provide
Chrysler with financial support. Tr.4084:23-4085:1.
Mr. MacKenzie testified that Mr. Berliner’s opinion
that in the first few months of an unassisted Chrysler
bankruptcy it would have been business as usual for
the dealers was not supported. According to Mr.
MacKenzie, Mr. Berliner failed to acknowledge that
business as usual would not have been possible if no

App.176a
new vehicles were being produced and Chrysler was
not able to meet its warranty obligations or supply
franchisees with Chrysler parts. Tr.4087:13-4092:15.
Finally, Mr. MacKenzie testified that Mr.
Berliner’s reliance on the Daewoo, Saab, and Suzuki
bankruptcies was misplaced. He explained several of
the major differences between those bankruptcies
and a Chrysler bankruptcy without government
assistance. Specifically, he testified that in those
bankruptcies there was no economic crisis, there was
a parent company not going through bankruptcy,
and there was continued production of supplies and
service during the bankruptcy. Tr.4094:2-4104:8.
iii. Judge Robert Gerber
The government called Robert E. Gerber, a
retired United States Bankruptcy Judge, who served
for more than fifteen years in the United States
Bankruptcy Court for the Southern District of New
York to address the opinions offered by Judge
Fitzgerald. Tr.4162:23-4163:2. Judge Gerber is currently Of Counsel to the law firm of Joseph Hage
Aaronson LLC where he provides fiduciary, alternative
dispute resolution, and consulting and expert testimony
services. He is also an Adjunct Professor of Law at
Columbia University Law School, a contributing author
to Collier on Bankruptcy, and a Fellow of the American
College of Bankruptcy. Tr.4170:11-22. During his
judicial tenure, Judge Gerber oversaw many bankruptcy cases, including the GM bankruptcy which
followed the Chrysler bankruptcy. Tr.4171:21-4172:3.
Judge Gerber broke his testimony into three parts
(1) bankruptcy law and practice, (2) the real-world
facts, and (3) a discussion of the bankruptcy cases

App.177a
that Judge Fitzgerald relied on. Judge Gerber first
testified about bankruptcy law and practice. Tr.
4172:10-14. He explained that liquidity in a Chapter 11
bankruptcy is “paramount.” Tr.4172:25. Judge Gerber
stated that “Chapter 11 cases live, or die, based on
their available liquidity, the cash they need to operate
every day.” Tr.4173:14-16. He also stated that when
all the assets of a debtor are subject to liens, the lien
holders have “substantial . . . influence over the Chapter 11 case.” Tr.4174:16-25. Judge Gerber explained
that when Section 363 sales are used in a Chapter 11
bankruptcy, “bankruptcy judges approve 363 sales,
if, but only if, the debtors lack the liquidity to allow
the Chapter 11 case to proceed by . . . confirmation of
a reorganization plan.” Tr.4175:15-21.
Judge Gerber testified about DIP financing and
how approval of DIP financing is secured. Tr.4184:1013. He explained that DIP financing differs from the
use of cash collateral which is subject to a lien. He
testified that “DIP financing is required . . . when use
of cash collateral alone will not do.” Tr.4186:7-9.
Judge Gerber explained that “[s]ources of DIP financing
will vary with the amount of cash that’s required[.]”
Tr.4186:18-20. He explained that “[p]re[-bankruptcy
petition secured lenders are, indeed, a fairly common
source of DIP financing, but where the debtor’s
assets are already entirely subject to prepetition
liens, and . . . the prepetition lenders are already
underwater, generalizations as to prepetition lenders’
willingness to lend more, based on observations of the
broader universe of financing transactions, are of
little or no value.” Tr.4187:15-23. Judge Gerber thus
took issue with Judge Fitzgerald’s characterization of
the government’s control of the bankruptcy process

App.178a
as “unusual.” He opined that because the government
was providing billions of dollars in DIP financing
that the government’s involvement in shaping the
bankruptcy terms was not unusual. Tr.4189:15-20.
He explained that DIP lenders normally “exert
significant influence over their borrowers as a condition
to their providing DIP financing loans.” Tr.4190:4-6.
Judge Gerber testified that he also disagreed with
Judge Fitzgerald’s contention that the speed with
which the Chrysler 363 sale took place was unusual.
Tr.4193:14-17. Judge Gerber testified that in large
bankruptcies 363 sales have become the norm so that
the bankruptcy estate can survive long enough to
pay back its creditors. Tr.4193:18 4199:9.
Judge Gerber also testified about why the actual
world facts needed to be considered in formulating a
“but for world” bankruptcy without government
assistance. Judge Gerber testified that he reviewed
the declarations that Robert Manzo, Thomas LaSorda,
and Robert Nardelli filed with the bankruptcy court,
and that these declarations confirmed that there
would not have been any DIP financing available to
Chrysler. Tr.4208:4-4211:11. Judge Gerber thus found
Judge Fitzgerald’s opinion that someone would have
provided DIP financing to Chrysler in the “but for
world” to be unsupported. He explained this was because her opinion rested solely on “what lenders
sometimes do, and what the first lien lenders might
theoretically have been motivated to do,” and not on
real-world facts. Tr.4211:12-16. Judge Gerber further
explained that the declarations filed in the actual
Chrysler bankruptcy also would have ruled out
financing by Fiat or from the dealers, as Judge
Fitzgerald opined. Tr.4211:24-4212:8.

App.179a
Judge Gerber next challenged Judge Fitzgerald’s
assertion that there would have been multiple bidders
for Chrysler’s assets if there had been an open 363
sale in a “but for world.” Judge Gerber testified that
Thomas LaSorda filed a declaration with the bankruptcy court in which LaSorda, consistent with his
testimony in this court, stated that the government
was the last hope because no other auto company
was willing to form an alliance with Chrysler despite
his extensive efforts. Tr.4217:4-23.
Finally, Judge Gerber took issue with Judge Fitzgerald’s opinion that the Suzuki and Hostess bankruptcies were appropriate comparisons for what a
Chrysler bankruptcy would have looked like without
government financing. Tr.4233:8-20. Judge Gerber
testified that American Suzuki “was a distributor but
not a manufacturer,” which distributed vehicles manufactured by its Japanese parent company Suzuki.
Tr.4233:21 4234:4. Therefore, Judge Gerber explained,
American Suzuki did not face the same financing
and liquidity problems that Chrysler would have
faced in its “but for world.” Tr.4234:4-11. Judge
Gerber further noted that American Suzuki had sufficient liquidity from its parent and thus would have
enough cash to complete the Chapter 11 bankruptcy.
Judge Gerber testified that Judge Fitzgerald “fail[ed]
to note the essential role played by the Japanese
parent in the American Suzuki bankruptcy and the
absence of any such benefactor in Chrysler.” Tr.4236:
18-21.
Judge Gerber next explained that the Hostess
bankruptcy was much smaller than that of Chrysler,
Hostess was in a more stable financial position, and
Hostess had the funding it needed to remain in busi-

App.180a
ness during its bankruptcy. Tr.4237:22-25. He also
noted that the Hostess stores were owned and
operated by Hostess, which meant that Hostess had
the responsibility of exacting extra value from them.
The Chrysler franchise agreements, in contrast, were
not assets of Chrysler but liabilities. Tr.4239:13-24.
On cross examination, Judge Gerber acknowledged
that the government’s decision to become the DIP
financing lender was not consistent with traditional
lending practices because the government agreed to
take a priority lower than preexisting creditors who
already were not likely to be paid in full. Tr.4244:17-21,
Tr.4246:4-9. Judge Gerber also acknowledged that
the 363 sale in the actual Chrysler bankruptcy was
different from a typical 363 sale in that any party
wanting to bid for Chrysler’s assets had to agree to
honor the collective bargaining agreements and the
UAW Retiree Settlement Agreement the government
had negotiated. Tr.4282:3-25. He also agreed that
Chrysler, as an entity, would not have had any
interest in what would happen to its contracts with
third parties once its assets were acquired by another
entity. Tr.4281:21-24.
iv. Joseph T. Gardemal
The government presented the testimony of Joseph
T. Gardemal III, a managing director with the firm
Alvarez & Maral, an international consulting firm, to
respond to the valuations performed by Ms. Murphy
and Mr. Stockton. Tr.4417:9-22. Mr. Gardemal is a
certified public accountant, a certified valuation analyst
and a certified fraud examiner. He holds a certification in distress business valuation and is accredited
in business valuation by the American Institute of

App.181a
Certified Public Accountants. Tr.4418:2-7. He has been
an auditor, forensic accountant, and valuation professional for over thirty years. Tr.4418:11-12. He testified that for the past twenty years he has served as
an auditor, valuation professional, and financial
consultant to the automotive retail industry and has
valued over 100 dealerships. Tr.4418:13-19.
Mr. Gardemal offered the following five opinions
regarding Ms. Murphy’s expert report: (1) Ms. Murphy
appropriately assumed that without government
financing Chrysler would have had to enter bankruptcy,
(2) Ms. Murphy erred in valuing the entire dealership
and not just the franchise agreement, (3) Ms. Murphy’s
assumptions about the “but for world” were unreasonable and contradicted by the facts, (4) Ms. Murphy’s
assumption that a Section 363 purchaser would have
assumed the franchise agreements of the entire
Chrysler dealership network was unreasonable, and (5)
Ms. Murphy’s valuation opinions were faulty because
her growth rate, discount rate, and the terminal value
she selected were incorrect and unsupported.
Tr.4422:3-4423:10.
Mr. Gardemal offered the following three opinions
regarding Mr. Stockton’s valuation analysis: (1) that
Mr. Stockton appropriately assumed Chrysler would
enter bankruptcy in his fair value and lost profit
analysis, (2) that some of Mr. Stockton’s assumptions
were contradicted by the facts, and (3) Mr. Stockton’s
valuation and lost-profit scenarios were fundamentally
flawed because he failed to provide guidance on which
of his multiple (seventeen months, three years or ten
years) liquidation scenarios was the appropriate
measure, and because he ignored or under-allocated

App.182a
fixed expenses in reaching his profit contribution
calculations. Tr.4423:13-4425:4.
Mr. Gardemal testified that, had Ms. Murphy and
Mr. Stockton made the correct assumptions, they
would have reached the same conclusion he reached:
That at the time of the valuation dates of December
2008 or April 2009, the plaintiffs’ franchise agreements
would have had zero value. Tr.4426:4-9.
Turning first to Mr. Gardemal’s disagreements
with Ms. Murphy’s valuation opinions, Mr. Gardemal
testified that Ms. Murphy made a fundamental error
by conflating the value of the plaintiffs’ franchise
agreements with the value of their dealerships.
According to Mr. Gardemal, Ms. Murphy “inappropriately includes assets and profits unrelated to the
Chrysler franchise agreement, and she therefore
doesn’t value the franchise agreement.” Tr.4428:1720. Specifically, Mr. Gardemal stated that Ms. Murphy
failed to acknowledge that some of the plaintiffs’
income streams were not dependent upon the plaintiff
having a Chrysler franchise agreement. Tr.4428:244429:3. Mr. Gardemal testified, consistent with Dr.
Carron’s testimony, that Ms. Murphy should have
limited her calculations to the income streams derived
solely from new Chrysler vehicle sales, Chrysler warranty work, and discounted sales of Chrysler parts,
the three sources of income provided by Chrysler to
franchisees. Tr.4429:15-20.
Mr. Gardemal also testified that Ms. Murphy’s
various assumptions regarding the “but for world”
were unreasonable and unsupported. Mr. Gardemal
stated that Ms. Murphy’s “assumption that the
Chrysler franchise agreements continue on indefinitely
is unreasonable and renders her analysis unreliable.”

App.183a
Tr.4436:18-20. Mr. Gardemal explained that Chrysler
in the “but for world” would have immediately
liquidated and terminated production of all of its
vehicle lines upon entering bankruptcy. Tr.4437:84438:2. Mr. Gardemal thus determined that Ms.
Murphy’s conclusion that plaintiffs’ franchise agreements should have been valued as ongoing Chrysler
franchises was not supported. He noted that not only
was her conclusion inconsistent with the reality of
Chrysler’s circumstances, but that plaintiffs’ expert,
Mr. Berliner, conceded that in the event of a bankruptcy Chrysler would have had to shut down all of
its manufacturing facilities and part depots for a
period. Tr.4439:24-4440:7.
Mr. Gardemal testified that Ms. Murphy’s assumption that a Section 363 purchaser would have maintained or assumed the entire Chrysler dealership
network was also unreasonable. Tr.4443:25-4444:4.
He noted that Ms. Murphy’s assumption was contradicted by the plaintiffs’ expert, Mr. Berliner, who
testified that some plaintiffs would likely have been
eliminated during or right after the bankruptcy.
Tr.4445:3-12. Mr. Gardemal noted that Ms. Murphy
failed to consider the “risk that a new entity would
choose to retain none or only some of Chrysler’s
prebankruptcy franchises.” Tr.4446:15 17. He explained
that she did not consider the fact that several of the
plaintiffs had failed to meet the MSR over the course
of four to five years and thus ran the risk of being
rejected in a Chrysler bankruptcy as low-performing
franchisees. Tr.4446:23-4447:12. He testified that “[i]n
this case, with Chrysler in bankruptcy, and evaluating
which dealership contracts to reject, dealers not
meeting their MSR would necessarily be at a higher

App.184a
risk of rejection than dealerships meeting their contractual obligations.” Tr.4448:18-22.
Mr. Gardemal concluded his critique of Ms.
Murphy’s valuation by discussing three methodological
flaws. First, Mr. Gardemal challenged Ms. Murphy’s
“expected growth rate projections.” He stated that
the growth rate projections, “do not appear to be supported by the historical performance of the Model
Plaintiffs and are not supported by automotive industry
data known at the valuation dates.” Tr.4449:21-25.
Mr. Gardemal noted that Ms. Murphy assumed that
during a Chrysler bankruptcy not only would Chrysler
not lose any market share, but that Chrysler’s annual
sales would grow by 11 percent. Mr. Gardemal testified
that this assumption ran counter to the data of what
happened during the 2008-09 financial crisis.
Tr.4450:13-22. Mr. Gardemal testified that even
Chrysler, in its Viability Plan, estimated retail sales
to increase only by 5.2 percent from 2009 to 2010, 4.4
percent from 2010 to 2011, and 4.5 percent from 2011
to 2012, with government assistance. Tr.4450:23-4451:2.
Mr. Gardemal also challenged Ms. Murphy’s discount and capitalization rates. He testified that they
were “understated and inconsistent with the economic
facts,” resulting in overstated values for the representative plaintiffs. Tr.4453:3-8. Specifically, Mr.
Gardemal testified that her discount rate on future
profits failed to capture the high risk associated with
a potential purchase of the plaintiffs’ Chrysler franchise
agreements. Mr. Gardemal explained that Ms. Murphy
used a small company risk premium ranging between
7.2 and 8.7 percent but should have used a 9.7 risk
percentage premium. Tr.4457:1-8. Mr. Gardemal also
testified that Ms. Murphy’s discount rate was too low

App.185a
for individual franchises because she did not consider
specific factors related to their businesses, such as
which Chrysler brands they offered or their past performance. Tr.4457:12-4449:20.
Finally, Mr. Gardemal challenged Ms. Murphy’s
terminal value calculation because it failed to account
for the distress faced by Chrysler and “the significant
volatility to which the Model Plaintiffs were subject.”
Tr.4459:21-4460:1. Mr. Gardemal testified that Ms.
Murphy’s annual growth rate of 5%, was improper
because the plaintiffs never saw such a high annual
growth. Mr. Gardemal noted that Barry’s Auto was
the best performing dealer with an annual growth
rate of 4% while Jim Marsh saw an annual decline of
22% between 2006 and April 2009. Tr.4461:10-15.
Mr. Gardemal testified that the “perpetual growth rate
of 5 percent is also in contrast to Chrysler’s projections
at February 2009 that the [Seasonally Adjusted
Annual Rate (“SAAR”)] would increase at an
annualized rate of 4.5 percent—that’s the SAAR for
the industry, not specific—assuming receipt of government funding.” Tr.4461:16-20. Thus, Mr. Gardemal
concluded that Ms. Murphy’s terminal rate was
unfounded and thus unreliable.
Next, Mr. Gardemal disputed Mr. Stockton’s
valuation on two grounds. First, he opined that Mr.
Stockton’s “assumptions are unreasonable, inappropriate, and contradicted by the economic evidence”
and thus his valuations are unreliable. Tr.4464:1-5.
Specifically, Mr. Gardemal explained that Mr. Stockton
assumed for his fair value and profit contribution
value that the government would be providing some
financial assistance. Tr.4465:16-18.

App.186a
Second, Mr. Gardemal testified that “Mr. Stockton’s profit contribution calculations for Finnin and
Guetterman are flawed and, as I understand it,
irrelevant to a taking case. But even if they were
relevant, by either ignoring or underallocating fixed
expenses, Mr. Stockton has overstated any hypothetical
lost profits for these two Model Plaintiffs.” Tr.4470:1824. Mr. Gardemal explained that Mr. Stockton’s
profit contribution is flawed because he makes
aggressive future sale volume projections for the
income streams he valued and because he includes
profits from income streams that were not associated
with the franchise agreement. Tr.4472:1-5. Mr.
Gardemal opined that these errors in Mr. Stockton’s
assumptions made Mr. Stockton’s valuations based
on lost net profits in a “but for world” unreliable.
v. Professor Daniel R. Fischel
The government’s last expert was Daniel R.
Fischel, the “president of Compass Lexecon, a
consulting firm that specializes in the application of
economics to a variety of legal and regulatory issues.”
Tr.4645:23-4646:1. Professor Fischel is also the Lee
and Brena Freeman Professor of Law and Business
Emeritus at the University of Chicago Law School.
He previously served as the Dean of the University of
Chicago Law School, the Director of the Law and
Economics Program at the University of Chicago, and
as Professor of Law and Business at the University of
Chicago Graduate School of Business, the Kellogg
School of Management at Northwestern University,
and the Northwestern University Law School. Tr.
4646:2-10. He has “served as a consultant or advisor
on economic issues to, among others, the United States
Department of Justice, the United States Securities

App.187a
and Exchange Commission, the National Association
of Securities Dealers, the New York Stock Exchange,
the Chicago Board of Trade, the Chicago Mercantile
Exchange, the New York Mercantile Exchange, the
United States Department of Labor, the Federal
Deposit Insurance Corporation, the Resolution Trust
Corporation, the Federal Housing Finance Agency, and
the Federal Trade Commission.” Tr.4646:20-4647:5.
He is also “a member of the American Economic
Association and the American Finance Association.”
Tr.4647:6-7. Professor Fischel has testified in over 50
proceedings in federal and state courts as an expert
in valuation, financial institutions, regulation of
financial markets, the economic analysis of damage
claims, and the economics of government contracts
and public and private markets. Tr.4647:15-25.
Professor Fischel offered five opinions, as follows:
(1) Chrysler would have needed to liquidate in
December 2008 or April 2009, (2) Fiat would not have
entered into a business combination with Chrysler
absent government funding, (3) the $24 billion that
Chrysler needed in DIP financing was unavailable in
the private lending market, (4) the terms of the government’s assistance were consistent with a commercial desire to protect capital, and (5) plaintiffs’ claims
are speculative and contradicted by the relevant
economic evidence. Tr.4649:11-4650:4.
Professor Fischel testified that Chrysler was
insolvent by December 2008 and that without government financial assistance Chrysler would have
immediately liquidated. Tr.4655:16-4656:1. He stated
that “Chrysler’s liabilities exceeded its assets” and
that “Chrysler’s financial statements show that the fair
value of its financial liabilities was only 59 percent of

App.188a
the book value of those same liabilities as of December 31st, 2008.” Tr.4656:4-11. Professor Fischel further testified that the value of Chrysler’s debt declined
from sixty-three cents on the dollar in April 2008 to
only twelve cents on the dollar in April 2009.
Tr.4656:18-24. Professor Fischel noted that even
with the $4 billion bridge loan, Chrysler would have
been insolvent in April 2009. Tr.4659:22-4660:15. He
explained that the value of Chrysler’s assets declined
substantially during this time, that Chrysler incurred
more debt during this period, and that the value of
that debt continued to decline. Tr.4660:8-4662:4.
Next, Professor Fischel opined that the economic
evidence demonstrated that Fiat would not have
entered into a business combination with Chrysler
absent government funding. Tr.4665:2-8. Professor
Fischel noted that in the actual world, Fiat and
Chrysler signed a non-binding term sheet in January
2009 that was conditioned on Fiat not providing any
cash and Chrysler receiving $7 billion more from the
government. Tr.4665:17-4666:1. Professor Fischel noted
that even the March 30, 2009 amended term sheet
was conditioned on Chrysler receiving $6 billion in
government funds. Tr.4666:10 13. Professor Fischel
testified that Fiat’s financial condition during 2008
and early 2009 was deteriorating and that Fiat
expected to have a negative cash flow for portions of
2009. Tr.4666:13-4667:5. Additionally, Professor Fischel
noted that Daimler was not interested in saving
Chrysler, having just sold 80% of its stake in Chrysler
in 2007 and wanting to offload its remaining 20%
interest in late 2008. Tr.4667:17-4669:7.
Professor Fischel testified that the DIP financing
Chrysler needed for an orderly bankruptcy would not

App.189a
have been available in the private lending market.
Tr.4669:8-12. Professor Fischel explained that in
December 2008, Chrysler estimated that it would
need $12 to $15 billion for a short one-year bankruptcy
and would need up to $17 to $20 billion if there was a
lack of financing for its dealers. Tr.4669:13-20; DX956;
Tr.4670:4 9; DX1056. Professor Fischel explained the
absence of private lending was evident from the fact
that no private DIP funding of the size required by
Chrysler was provided to any company in 2008 or
2009. Tr.4670:10-16; DX1609. Professor Fischel also
noted that plaintiffs did not identify any “plausible
source of private DIP financing for Chrysler” and
that their suggestion that the first lien lenders would
have provided DIP financing is inconsistent with the
economic evidence that shows that Chrysler’s debt
was continuously being devalued. Tr.4671:2-3, Tr.4671:
12-4672:2.
Professor Fischel opined that the conditions placed
on Chrysler by the government were consistent with
a lender that “seek[s] to reduce the ability of the borrowers to take on excessive risk” in order to ensure
that the loan will be repaid. Tr.4676:7-11. However,
on cross examination Professor Fischel conceded that
the government had public policy goals in mind as
well in providing financing to Chrysler. Tr.4766:1116.
Professor Fischel testified at length about his
disagreement with Ms. Keller’s opinion that any of
the companies identified by Ms. Keller would have
been potential buyers of all Chrysler assets at a
Section 363 sale. He testified that Blackstone would
not have been a potential purchaser because it had
experienced financial losses in late 2008 and lacked

App.190a
liquidity, and that Blackstone had stated in the first
quarter of 2009 that “lenders continued to severely
restrict commitments to new debt [which] limit[ed]
industry-wide leveraged acquisition activity levels in
both corporate and real estate markets.” Tr.4696:2-24.
Next, Professor Fischel explained why Geely or
any other Chinese automobile manufacturer would
not have been potential purchasers of Chrysler. He
explained that in Geely’s 2008 annual report, Geely
stated that it was not interested in investing in
deteriorating automobile markets, and that the
president of Shanghai Automotive Industry Corporation
said in early 2009 said that there were no acquisition
targets in 2009 and that Geely had no plans for
acquisitions in the immediate future. Tr.4697:2-17.
Professor Fischel continued to explain that Magna,
an Indian automobile manufacturer, would also not
have been a potential 363 purchaser. Its credit rating
was downgraded in late 2008 and early 2009 and it
was reducing discretionary spending and deferring
capital spending given the decline in auto sales.
Tr.4697:18-4698:5. Professor Fischel testified that
Mahindra & Mahindra, another Indian automotive
company, would not have been a potential 363
purchaser because it had stated in January 2009 that
it was not “interested in buying nonenvironmentally
friendly vehicles, which likely would have limited its
interest in Chrysler, and Mahindra planned to enter
the U.S. market with its own fuel-efficient SUV.”
Tr.4698:6-11.
Professor Fischel then discussed Peugeot (“PSA”)
and Renault and explained why they also would not
have been potential 363 purchasers of Chrysler’s
assets. He explained that PSA had been downgraded

App.191a
by Standard & Poor’s and Moody’s in late 2008 and
early 2009 because of negative cash flow and a
material deterioration in PSA’s financial flexibility
as a result of the reduction in global demand for cars.
Tr.4698:12-20. Additionally, Professor Fischel explained
that Renault’s credit had also been downgraded by
Standard & Poor’s in late 2008 and early 2009 because of the global economic recession, which would
have meant that Renault also would have been in no
position to purchase Chrysler’s assets. Tr.4698:21-25.
Professor Fischel explained that Tata Motors
would not have been in a financial position to purchase
Chrysler’s assets because its credit had been downgraded by both Standard & Poor’s and Moody’s twice
between November 2008 and March 2009, and Tata
was facing a decreased amount of sales through 2008
and early 2009. Tr.4699:10 24. Professor Fischel also
noted that by March 2009 “Tata faced imminent
refinancing needs, tight liquidity position, weak capital
structure, and challenging market conditions.” Tr.
4699:21-24.
Professor Fischel next explained that Tracinda
also would not have been a potential 363 purchaser
given that it had sold 7.3 million shares of its common
stock in Ford and intended to reduce its holdings in
Ford by selling all of its remaining shares. He further
explained that Tracinda had announced in October
2008 that it was shifting its investment strategy to
gaming, hospitality, and energy. Tr.4699:25-4700:15.
Finally, Professor Fischel explained that neither
GM or Ford would have been in a position to purchase
Chrysler’s assets because they were facing a liquidity
and financial crisis of their own and both had their
credit scores downgraded several times by the credit

App.192a
rating agencies between 2008 and 2009. Tr.4700:164701:15.
Professor Fischel also disputed Ms. Keller’s claims
that the economy was improving in early 2009.
Professor Fischel testified that it was irrelevant that
the economy in early 2009 was slightly better than in
later 2008 because “[t]he economy was terrible in
both periods, and the market for M&A was consequently very poor in both periods.” Tr.4701:25-4702:3.
Professor Fischel explained that Ms. Keller ignored
broad evidence about the economy and instead cherrypicked four data series to suggest that there was a
favorable climate for investors to purchase Chrysler’s
assets. Tr.4702:11-18. He testified that “[e]ven if these
were the relevant economic indicators, it is well
known that economic recovery does not mean an
immediately favorable M&A environment.” Tr.4702:1921. Professor Fischel noted that Ms. Keller ignored
other important measurements of economic activity
such as unemployment claims, new manufacturing
orders, and the sale of light duty vehicles. Tr.4704:154705:3.
Finally, Professor Fischel explained why Ms. Keller
had not established that a 363 purchaser would have
retained the entire dealership network, which Chrysler
had on multiple occasions stated was over-dealered.
Tr.4706:14-19. Professor Fischel explained that even
if the examples that Ms. Keller relied on were
relevant, “Ms. Keller appears to recognize that franchise agreements are often terminated in such situations . . . [i]n particular, she notes that in the cases of
Saturn, Hummer, and Saab, the buyers sought to or
did terminate many or all of the dealership franchises.”
Tr.4707:21-4708:1.

App.193a
Professor Fischel testified that Judge Fitzgerald’s
assertions regarding a potential 363 purchaser were
also speculative and unsupported. Professor Fischel
testified that Judge Fitzgerald overlooked the economic
facts known at the time, including the fact that several of the potential purchasers she identified were
known to have no interest or were not in a financial
position to make an offer. Tr.4708:10-4710:1. Professor
Fischel noted that Judge Fitzgerald’s assertion that
DIP financing would have been available to Chrysler
absent government assistance was also unsupported
and inconsistent with known economic evidence. Specifically, Professor Fischel noted that despite stating
that first lien lenders would have provided some DIP
financing in the “but for world,” it was known that no
such financing was offered by the first lien lenders or
anyone, which is why Chrysler had to approach the
government as a lender of last resort. Tr.4710:24712:17. Professor Fischel noted the fact that there
was some DIP financing available for other bankruptcies “provides no reliable evidence about what
they would have done for Chrysler.” Tr.4714:6-11.
Professor Fischel testified that Judge Fitzgerald
also failed to establish how the plaintiffs’ franchise
agreements would have had value in a liquidation.
He explained that Judge Fitzgerald did not have any
support for her opinion that a hypothetical 363
purchaser would not have rejected the plaintiffs’
franchise agreements just as Chrysler did. Tr.4714:1525. Professor Fischel testified that he also found Mr.
Berliner’s opinions about a hypothetical Chrysler
liquidation under Chapter 11 speculative and unsupported by the economic evidence. Tr.4718:5-10.

App.194a
On cross examination, as noted above, Professor
Fischel agreed that Treasury’s investment in Chrysler
was not made purely for the purposes of seeing a
return on any prior investment. Tr.4765:1-25. Professor
Fischel agreed that part of the government’s motivation
in aiding Chrysler was to save the American auto
industry and economy. Tr.4736:5-8, Tr.4738:10-13,
Tr.4766:11-16. Professor Fischel also acknowledged
that he agreed with Judge Gerber’s assessment that
no rational lender would have provided DIP financing
at a lower priority of repayment than preexisting
creditors who were already unlikely to be paid in full.
Tr.4738:24-4739:23.
IV. Findings of Fact and Conclusions of Law
A. Legal Framework
In A&D Auto Sales, the Federal Circuit held
that there may be circumstances where the government
is liable for a Fifth Amendment taking based on
actions taken by a third party at the direction of the
government or on the government’s behalf. 748 F.3d
at 1154. The Circuit in A&D Auto Sales distinguished
between government actions that have unintended or
collateral effects on third parties and do not give rise
to a taking, citing Omnia Comm. Co. v. United States,
261 U.S. 502, 510-11 (1923), and government actions
involving third parties that may give rise to a taking.
A&D Auto Sales, 748 F.3d at 1153-54. The Circuit
explained that there are two paths through which
government action involving a third party may result
in takings liability. First, the Circuit stated, “the
government may be liable [for a taking] if a third
party is acting as the government’s agent.” Id. at
1154. Here, the plaintiffs concede that Chrysler was

App.195a
not acting as the government’s agent when it filed for
bankruptcy in April 2009 and thus this avenue for
liability outlined by the Circuit has been foreclosed.
See Supra n.4. Second, the Circuit explained that
plaintiffs may be able to establish a taking if “the
government’s influence over the third party [(here,
Chrysler)] was coercive rather than merely persuasive.”
A&D Auto Sales, 748 F.3d at 1154 (citations omitted).
The plaintiffs maintained throughout the course of
this trial that the government’s actions rose to the
level of coercion.
The Circuit acknowledged in A&D Auto Sales
that the “question of coercion is . . . complex.” Id. The
Circuit went on to discuss a case where the government’s actions were deemed coercive enough to give
rise to a taking, as well as cases where the government action at issue was not sufficiently coercive. Id. at
1154-56 (citing Turney v. United States, 125 Ct. Cl.
202, 207-08, 214 (1953); Langenegger v. United
States, 756 F.2d 1565, 1572 (Fed. Cir. 1985); B&G
Enters. v. United States, 220 F.3d. 1318, 1318-25
(Fed. Cir. 2000)). All the above-cited cases dealt with
the federal government endeavoring to assert control
over a foreign state or state government, situations
that are very different from this case. See Turney,
125 Ct. Cl. at 208-08, 214 (finding that the government
exercised unusual influence over the Philippines when
it induced the Philippines to forbid the exportation of
certain military equipment that the United States
had sold in a surplus action to private parties after
World War II); Langenegger, 756 F.2d at 1572 (finding
that the United States’ influence over an expropriation
by the El Salvadoran government was not coercion
but “friendly persuasion” because, in part, diplomatic

App.196a
persuasion among allies is a common occurrence and
cannot be deemed sufficiently irresistible to be coercive
for takings purposes); B&G Enters., 220 F.3d at
1318-25 (finding that California was not coerced into
passing a law banning cigarette vending machines in
order to receive a federal grant and that the federal
government was not liable for a taking to those who
owned cigarette vending machines). These cases do,
however, demonstrate that to prove coercion by government action there must be evidence that the
coerced did not act voluntarily.
To assist the court in deciding whether Chrysler
did not act voluntarily and was coerced into filing for
bankruptcy and rejecting plaintiffs’ franchise agreements, the Circuit identified several issues it deemed
relevant. As noted at the outset of this decision, the
Circuit stated that the trial court should examine
“whether the government insisted on the [franchise]
terminations, whether the terminations would have
occurred in any event absent government action,
whether the government financing was essential to the
companies, whether the government had any role in
creating the economic circumstances alleged to give
rise to coercion, and whether the government targeted
the dealers for termination.” A&D Auto Sales, 748
F.3d at 1155. The Circuit’s list is consistent with the
plain meaning of coercion. See Coercion, Black’s Law
Dictionary (11th ed. 2019) (“Compulsion of a free
agent by physical, moral, or economic force or threat
of physical force [or] . . . [c]onduct that constitutes the
improper use of economic power to compel another to
submit to the wishes of one who wields it.”); Coerce,
Merriam Webster Online Dictionary (“[T]o compel to
an act or choice[,] to achieve by force or threat[.]”).

App.197a
Importantly, the plaintiffs did not focus their
coercion evidence on Chrysler’s need for government
financing. Instead, the plaintiffs focused their evidence
on the government’s insistence on certain terms.
Plaintiffs presented expert opinion testimony to the
effect that the government’s involvement limited the
options that would have been available to Chrysler in
a bankruptcy without government assistance. Specifically, plaintiffs presented expert opinion testimony
which claimed that Chrysler would have remained
operational during a bankruptcy without government assistance and that none of plaintiffs’ franchise
agreements would have been rejected.
To meet their burden of proving that the government by its actions forced the involuntary reduction
of Chrysler franchises by rejection of the franchise
agreements in the Chrysler bankruptcy, the court
finds that the plaintiffs needed to establish that the government either expressly directed Chrysler to accept
the government’s negotiated prepackaged bankruptcy
plan or took away other options available to Chrysler
at the time in question. In this connection, it is
important to note that Chrysler came to the federal
government voluntarily for financial assistance—outside of any formal federal government grant or lending
program with specific requirements—and voluntarily
agreed to submit a Viability Plan, in which Chrysler
proposed a significant reduction in the number of its
franchises. It is plaintiffs, not Chrysler, that claim
they would have been better off had the government
not gotten involved by providing assistance to Chrysler.
The court finds that the government’s evidence
overwhelmingly established that Chrysler’s decision
to accept the government’s prepackaged bankruptcy

App.198a
plan was not forced on Chrysler by the government.
The evidence established that Chrysler’s decision to
accept the government’s terms for financial assistance
through bankruptcy was voluntary and not coerced.
The evidence established that Chrysler’s decision to
accept the government’s prepackaged bankruptcy plan
was based on Chrysler’s best business judgment.
Indeed, the evidence established that, without the
government’s financial assistance, Chrysler would
have been liquidated under Chapter 7, which would
have resulted in a worse outcome for not only the
Chrysler brand but for all plaintiffs.
B. The Government’s Prepackaged Bankruptcy
Plan Was Negotiated for a Public Purpose,
but the Government Did Not Force Chrysler
to Accept Its Prepackaged Bankruptcy Plan,
Was Not Responsible for Causing Chrysler’s
Financial Difficulties, and Did Not Interfere
with Chrysler Pursuing Any Other Options
To begin, the court finds that the government’s
prepackaged bankruptcy plan included terms and
conditions that would not have been required by traditional lenders and were included for various public
purposes, including saving manufacturing jobs in
Michigan and supporting the UAW’s pension plan.
The court finds that in negotiating certain terms in
its prepackaged bankruptcy plan, the government was
acting, at least in part, in its governmental capacity.
To establish coercion, however, plaintiffs had to
prove that the government by its actions forced Chrysler into bankruptcy to achieve the government’s
goals. This the plaintiffs failed to do.

App.199a
i. Fact Witnesses Established That Chrysler
Was Not Forced to Accept the Government’s
Terms but Did So Based on Its “Best
Business Judgment,” and That Chrysler’s
Financial Problems Pre-Dated the Great
Recession and Were Not Caused by the
Government.
The testimony of Chrysler’s executives Mr. Nardelli, Mr. Landry, Mr. LaSorda, Mr. Grady, and the
Auto Team leaders, Mr. Rattner and Mr. Bloom,
established that the government never threatened
Chrysler’s management in order to secure acceptance
of the government’s prepackaged bankruptcy plan.
While it was not disputed that Chrysler would have
preferred for the government to have given Chrysler
billions of dollars outside of bankruptcy, there was
no evidence to show that Chrysler was directly forced
into accepting the government’s assistance when
bankruptcy became Chrysler’s only option. Each
witness with personal knowledge testified that the
government never forced Chrysler to take any action.
See, e.g., Tr.3383:14-17, Tr.3384:3-17. In this regard,
it is important to note that the evidence established
that Chrysler’s bankruptcy was triggered when certain
first lien holders refused to sign onto the government’s
negotiated deal outside of bankruptcy. Tr.1653:141654:11. Mr. Rattner testified that the government
would have accepted Chrysler’s negotiated plan outside
of bankruptcy had an agreement been reached.
Tr.1653:24-25 (“Nobody wanted to be in bankruptcy
if we could avoid it.”), Tr.1654:9-11 (“[T]here was some
chance right up until the end of April that bankruptcy
could have been avoided.”); see also Tr.1642:4-11 (Mr.
Rattner’s testimony that the Auto Team considered a

App.200a
“variety of options . . . some of which didn’t include
bankruptcy”), Tr.2715:11-15 (Mr. Bloom’s testimony
that “we worked hard to find a path to viability
without bankruptcy”).
The evidence of the government’s fact and expert
witnesses also established that the government did
not act to keep Chrysler from making any other deal
outside of the government’s prepackaged plan in
order to achieve viability. The evidence established
that Chrysler was always free to reject the government’s prepackaged bankruptcy plan and go it alone
in bankruptcy. Indeed, the government offered Chrysler $750 million to add to Chrysler’s remaining cash
in order to wind-down Chrysler in a bankruptcy outside of the government’s prepackaged bankruptcy plan.
DX1263 (“[E]ven if the Company were to liquidate . . .
[Treasury] would provide additional funds to the Company so that it had $750 million to facilitate an
orderly liquidation.”); Tr.3373:6-11, Tr.3377:6-23.
The evidence further established that Chrysler
accepted the government’s prepackaged bankruptcy
plan because Chrysler decided the plan was Chrysler’s
best business option. Mr. Manzo’s testimony established, based on Chrysler’s financial statements and
contemporaneous economic data, that Chrysler would
have been forced to liquidate without government assistance because it could not get any more money from any
other source in late 2008. Specifically, Mr. Manzo
explained that when Chrysler approached the government in 2008, it was experiencing a rapid cash
burn rate of $2 billion a month, which meant that the
company had only three to four months left before
Chrysler would have to close down. Tr.3931:18-3932:9.
Mr. Manzo’s testimony also established that the first

App.201a
lien lenders (the lien holders represented by JP
Morgan) were not willing to provide any more money
to Chrysler either in or outside of bankruptcy.
Tr.3946:2-3947:18. (“[The first lien lenders] rejected
the invitation to lend more money.”). Mr. Manzo further
explained that due to the Great Recession and the
financial problems potential purchasers were facing,
the proceeds from Chrysler’s sale of its assets in a
liquidation would be depressed. Tr.3943:16-3944:23.
Mr. Manzo estimated that in a liquidation the $7
billion lien holders would likely recover only between
$654 million to $2.6 billion. DX1029.
The government’s fact witnesses also established
and the court finds that Chrysler had a history of
financial problems that pre-dated the 2008-09 financial
crisis and that these financial problems were not
created by the government. The government’s evidence
established that Chrysler began exploring the possibility of an alliance with another automaker in 2007,
well before the recession, after the merger with
Daimler had proven unsuccessful. Mr. LaSorda, Chrysler’s CEO from 2005 until 2007, testified at length
about Chrysler needing to find an alliance with another
car company to remain competitive. Tr.4342:20-23,
Tr.4357:10-4358:22, Tr.4361:11-12 (“We needed the
cash to survive and stay out of the ultimate case of
bankruptcy.”). Mr. LaSorda’s undisputed testimony
confirmed that Chrysler would not be viable without
an alliance or partnership with a small car
manufacturer. Id. Mr. LaSorda explained that during
2007 he attempted to form an alliance with Nissan
Renault, Honda, Kia, Hyundai, Toyota, Volkswagen,
Tata Motors, and various Chinese manufacturers,
but none of these companies expressed any interest

App.202a
in forming an alliance with Chrysler, sharing vehicle
platforms and technology, or in injecting any capital
into Chrysler. Tr.4359:6-9, Tr.4360:2-4361:25, Tr.
4365:11-22, Tr.4366:1-4368:3. Mr. LaSorda specifically noted that the only company that expressed any
interest in forming an alliance with Chrysler was
Fiat, but that Fiat was not interested in injecting any
cash into the alliance to help sustain Chrysler.
Tr.4375:2-4377:17, Tr.4379:10-20 (“It was absolutely
clear that [Fiat] would put no capital up, zero.”). Mr.
LaSorda’s testimony, together with the testimony of
Professor Fischel, discussed infra, convincingly refuted
Ms. Keller’s opinion, offered on behalf of the plaintiffs,
that many companies were and would have been
interested in purchasing or forming a partnership
with Chrysler in 2009, but were likely dissuaded
from approaching Chrysler because of the government’s
involvement. The court finds that Ms. Keller’s opinion
was unsupported and wholly speculative on this point.
Finally, Mr. Nardelli, Chrysler’s CEO from 2007
until April 30, 2009, established through his testimony
that the government did not force its prepackaged
plan on Chrysler but that Chrysler’s decision to
accept the prepackaged bankruptcy terms negotiated
by the government was voluntary on the part of
Chrysler’s board and dictated by Chrysler’s “best
business judgment.” He explained that he believed
that the government’s prepackaged bankruptcy plan
was the only way to ensure the continuation of the
Chrysler brand. Tr.3382:21-3383:17, Tr.3384:9-3385:16.

App.203a
ii. The Government’s Expert Witnesses
Confirmed That Acceptance of the Government’s Plan Was Consistent with Chrysler’s
“Best Business Judgment” and Thus Was
a Voluntary Decision and Not Coerced.
The government’s expert witnesses confirmed for
the court that accepting the government’s prepackaged
bankruptcy plan was in Chrysler’s best business
interest and thus was a voluntary decision and not
coerced. The government’s experts also confirmed
that the government never interfered with Chrysler
pursuing, on its own, any other option in 2009. The
court finds that the testimony of Mr. MacKenzie,
former Bankruptcy Judge Gerber, and Professor Fischel
established that Chrysler would have been forced into
immediate liquidation without government assistance
and that, under that scenario, the plaintiffs would
have suffered a worse fate than they experienced
under the government’s negotiated bankruptcy plan.
As explained below, the evidence established that if
Chrysler had immediately closed all its factories and
parts depots, plaintiffs would not have had any
ability to, among other things, do warranty and other
service work requiring Chrysler parts while they
closed their franchises.
Mr. MacKenzie, a certified turnaround professional
with extensive auto industry experience, persuasively
testified that Chrysler faced immediate liquidation
in a bankruptcy without government assistance and
that all of Chrysler’s franchisees, in that circumstance,
would have faced immediate rejection of their franchise
agreements. Tr.4027:18-24. Mr. MacKenzie explained
that in April 2009, at the time of the alleged taking,
Chrysler had only $407 million left in useable cash

App.204a
and was burning through tens of millions a day. Tr.
4046:12-18. He persuasively explained why he rejected
Mr. Berliner’s contention that Chrysler had adequate
resources for an orderly wind-down based on Chrysler’s access to an additional $1 billion. Specifically,
Mr. MacKenzie persuasively explained that Chrysler
would not have been able to easily access the amounts
of money it had outside the United States and that
the $400 million was simply not enough to allow for
an orderly wind-down in Chapter 11. Tr.4078:254079:18, Tr.4075:7-17.
Mr. MacKenzie also convincingly opined that
there was no entity willing to offer debtor-in-possession
or DIP financing to Chrysler in 2009. Tr.4079:194081:10. For this reason, Chrysler would have faced
immediate liquidation under Chapter 7. He explained
that in that circumstance all of Chrysler’s factories
would have had to have been closed and that Chrysler
parts also would not have been available. Tr.4075:74076:3. He also claimed that suggestions that Chrysler
would have been an attractive purchase to other auto
manufacturers or private equity firms was without
support because each of Chrysler’s major brands was
worth a negative amount. Tr.4064:11-4065:2.
He further testified that, contrary to the testimony
of plaintiffs’ witnesses, Chrysler franchisees would
have put a significant potential drain on Chrysler’s
resources and thus would have had their franchise
agreements rejected in bankruptcy. He testified that
Chrysler owed $3.75 billion in warranty obligations
to its franchisees. Tr.4060:22-23. This was money
Chrysler did not have. Mr. MacKenzie explained that
in a Chapter 7 liquidation, because Chrysler would
have stopped making cars and trucks, the franchisees

App.205a
would no longer be needed to buy cars and trucks from
Chrysler. Tr.4075:7-4076:16. Rather, the franchisees
would have become Chrysler creditors. Chrysler would
have continued to incur warranty debts from its
franchisees as well as other expenses. Tr.4076:17-23
(“[I]f any warranty work was completed by the dealers,
this would have generated new post-petition liabilities
for Chrysler.”). For these reasons, Mr. MacKenzie
persuasively established that a bankruptcy trustee
would have rejected the franchise agreements as
soon as possible after the bankruptcy filing to avoid
any additional franchisee drain on the bankruptcy
estate. Tr.4076:24-4077:2 (“Considering all of this,
the CRO would have had a fiduciary duty to reject
each of the over 3100 dealer franchise agreements,
including the Plaintiffs’, as soon after the bankruptcy
filing as possible.”). In this connection, Mr. MacKenzie
also persuasively explained that he saw no basis for
plaintiffs’ assumption that the government would
have elected to continue to cover Chrysler warranties,
once Chrysler began to liquidate. Tr.4084:23-4085:1.
The court agrees with Mr. MacKenzie and finds that
Mr. Berliner and Judge Fitzgerald’s assumption
regarding the government paying for warranties was
not supported.
Mr. MacKenzie’s opinions were confirmed by
former Bankruptcy Judge Gerber. The court is mindful
that Judge Gerber was the bankruptcy judge in the
GM bankruptcy and thus came to this case with
some inside knowledge of certain issues and a stake
in supporting the approach taken by the bankruptcy
judge in the Chrysler bankruptcy case. Nonetheless,
the court found Judge Gerber to be a highly credible

App.206a
witness and was persuaded by his opinions, which
were confirmed by facts.
First, Judge Gerber opined that Chrysler had no
source of DIP financing if the government were not
available and thus Chrysler would not have been
able to continue as an ongoing business during a
Chrysler bankruptcy without government funding,
as plaintiffs’ experts assumed. Tr.4211:12-4212:20.
He persuasively opined that the many billions of
dollars needed to keep Chrysler operational during a
wind-down pending a potential Section 363 sale was
not available from private parties during the Great
Recession. Tr.4212:21-4213:4 (“Thus, we see the refusal
to provide the necessary funding by the secured
lenders and Chrysler’s inability to get the funding
from anyone else.”). In this regard, he persuasively
testified that the other bankruptcies Judge Fitzgerald
relied on to support her opinion that DIP financing
would have been available from the private sector
were not comparable and thus not relevant to understanding the challenges Chrysler would have faced in
bankruptcy without government assistance. Tr.4233:
8-20 (“I can’t see how Suzuki and Hostess . . . are in
any meaningful way analogous to Chrysler.”). Judge
Gerber opined that for these reasons Chrysler would
have been quickly forced into a Chapter 7 bankruptcy which would have been a disaster for Chrysler
and for all the plaintiffs.44 Tr.4213:24-25 (noting the
only other alternative is immediate liquidation).
44 The court understands that Mr. Rattner testified that the
government decided it could not let Chrysler fail because it
would adversely affect the auto suppliers. How this would have
played out had Chrysler not accepted the government’s
prepackaged bankruptcy was not, however, discussed at trial by

App.207a
Professor Fischel, with his extensive expertise,
provided persuasive testimony which confirmed to
the court that Ms. Keller’s opinions were based on
pure speculation. Professor Fischel, who is an expert
on a broad range of economic issues, explained that
Chrysler’s debt was selling for twelve cents on the
dollar in April 2009, a clear indication of the market’s
lack of confidence. Tr.4656:18-4657:24. He explained
that Chrysler would have needed $12 to $15 billion
for a short one-year unplanned bankruptcy and the
lack of private DIP financing was evident from the
fact that the total amount of private DIP financing
provided to all companies together was $12.5 billion
in 2008 and $21.6 billion in 2009. Tr.4669:13-20;
DX956; Tr.4670:4-9; DX1056.
In his testimony regarding each of the 12 potential
buyers identified by Ms. Keller, Professor Fischel
systematically and convincingly explained why none
of the potential buyers identified by Ms. Keller either
had the interest or the wherewithal to buy all of
Chrysler’s assets in a 363 sale. Tr.4696:2-4701:15.
His testimony regarding potential Chrysler purchasers
was well-supported and, based on his testimony and
Mr. LaSorda’s, the court finds that there was no
purchaser for Chrysler among the 12 entities Ms.
Keller identified. This evidence again confirmed for
the court why Chrysler’s decision to accept the government’s prepackaged bankruptcy plan, which allowed
the Chrysler brand to survive, was voluntary.

either party. There was no evidence introduced to suggest that
in finding some way to save suppliers, the plaintiffs would have
fared any better than they did in the actual world.

App.208a
iii. Plaintiffs’ Experts’ Opinions Regarding
Chrysler and Franchisees in a Bankruptcy
Without Government Action Were Unsupported.
As noted at the outset of this opinion, plaintiffs
concede that Chrysler would have had to enter bankruptcy if the government had not provided financial
assistance in 2009. They contend, however, that Chrysler did not need government assistance and that
Chrysler’s fate in a bankruptcy without the government’s aid would have allowed plaintiffs to have
experienced a better outcome. Plaintiffs supported their
position with expert testimony, which, as discussed
above, was not supported by facts. None of the plaintiffs’ experts presented facts to show that Chrysler
had a viable option of going it alone in bankruptcy
and surviving in a reorganization or with a purchaser
as an ongoing business with all brands continuing to
be manufactured. There was no evidence to support
Mr. Berliner’s or Judge Fitzgerald’s opinions that Chrysler would have been able to obtain the more than
the $10 billion in DIP financing Chrysler would have
needed for a twelve- to twenty-four month period
while waiting for a new purchaser to take over the
manufacture of Chrysler’s lines. See Tr.138:10-14,
Tr.694:3-7. Mr. Berliner and Judge Fitzgerald failed
to provide any economic data or facts from late 2008
and early 2009 to support their opinions that, despite
economic conditions at that time, Chrysler would
have been able to obtain billions in private DIP
financing to continue manufacturing cars and trucks

App.209a
without disruption and thus Chrysler would have had
a reason to keep all of its franchise agreements.45
As discussed above, Professor Fischel’s testimony
established that plaintiffs’ claims of a successful Chapter 11 bankruptcy in which Chrysler would have been
able to continue operations while interested purchasers
bid for Chrysler was not supported. Indeed, Ms. Keller
could not identify which of any of the 12 potential
buyers she discussed had an actual interest in buying
Chrysler in a 2009 bankruptcy. Nor could she estimate
how much any Section 363 buyer would have been
willing to pay for Chrysler in a Chrysler bankruptcy
without government assistance. Tr.1123:11-23, Tr.
1124:2-14.
Ms. Keller also opined, without reference to any
corroborating evidence, that the Auto Team’s involvement in preparing Chrysler’s Viability Plan discouraged interested buyers from coming forward to buy
Chrysler in 2009. Tr.1086:22-1087:9, Tr.1155:21-24,
Tr.1159:22-25, Tr.1160:15-16. She testified that in
bankruptcy she believed Chrysler would have been
attractive to many buyers. Tr.1121:11-17. This is not
true. As discussed above, Mr. LaSorda testified that
he had spoken to many of the potential buyers she
identified, and none were interested, save for Fiat.
Professor Fischel went through each of her proposed
prospects and credibly explained based on facts why
45 Importantly, Mr. Berliner testified that it was possible that
some franchise agreements would have eventually been rejected
in a Chrysler bankruptcy without government assistance.
Tr.203:19-204:25. Ms. Keller also was confronted on cross examination with an article in which she stated that Chrysler had
too many dealers. Tr.1148:1-1149:11.

App.210a
none would have been interested or able to acquire
Chrysler in April 2009. Ms. Keller’s entire testimony
was credibly refuted by Mr. LaSorda and Professor
Fischel.
Without any source of DIP financing, and with
only $400 million of cash in hand, the court finds
that Chrysler would have been forced to liquidate
under Chapter 7 without government assistance, which
would have resulted in Chrysler stopping all car and
truck production and would have resulted in all
franchisees losing their franchise agreements in a
Chapter 7 bankruptcy.
C. Plaintiffs Failed to Establish that the
Government Coerced Chrysler to Reject Any
of the Plaintiffs’ Franchise Agreements in
Bankruptcy
The court finds that plaintiffs also failed to establish that the government coerced Chrysler into using
the bankruptcy as a means of ending plaintiffs’ franchise agreements through the involuntary method of
bankruptcy rejections. The evidence established that
Chrysler had been working on reducing its franchise
network for years. The fact that rejecting franchise
agreements in bankruptcy would make the reduction
of its franchise network easier was obvious to Chrysler
while it was considering options during the viability
planning process in 2009. Tr.3611:23-3612:4 (Mr.
Landry’s testimony that a reduction in the dealership
network was necessary “for Chrysler’s survival”); see
also Tr.3463:25-3480:4 (Mr. Landry’s testimony describing history of Chrysler’s dealership network).
The evidence also established—and plaintiffs do
not dispute—that the government did not have any

App.211a
hand in deciding the number of franchise agreements
to reject or in identifying any individual franchise
agreements to reject. See, e.g., Tr.2724:15-18 (Mr.
Bloom testified that the government “did not get into
the details of management decisions behind Chrysler’s
selection of individual dealers to reject.”). Rather, the
decisions regarding which franchise agreements to
reject were made by Chrysler based on a series of
objective criteria developed by Chrysler. See Tr.3463:253480:4 (Mr. Landry’s testimony describing history of
Chrysler’s dealership network), Tr.3598:8-3602:11 (Mr.
Grady’s testimony describing the criteria). At no time
did any Chrysler witness testify that franchise
reduction did not make good business sense and was
only advanced to meet a government goal of “shared
sacrifice,” as plaintiffs contended. The Chrysler bankruptcy afforded Chrysler an opportunity to reduce its
franchise network more expeditiously and Chrysler
took advantage of that opportunity. See Tr.3564:1113 (Mr. Landry’s testimony that “after we were in
bankruptcy . . . we were able to be more aggressive
with Project Genesis, which created Project Tiger.”).
The government accepted Chrysler’s judgment
that its franchise network needed to be reduced and
Chrysler decided how many franchise agreements to
keep and which ones to reject. See Tr.2686:22-25 (Mr.
Bloom testified that “[a]lthough [the government]
engaged in dialogue and discussion with company
management about the companies’ approaches, we were
not to substitute our judgment about specific decisions for theirs.”), Tr.1664:20-1665:12 (Mr. Rattner
testified that the government “never got into the
question of which dealers, how, or anything of that
sort” but rather was looking at it from a macro level of

App.212a
how many.). The plaintiffs thus failed to prove that
the decision to reduce the Chrysler franchise network
by rejecting franchise agreements in bankruptcy,
rather than terminating franchisees under various
state laws, was imposed on Chrysler by the government through coercion.
D. Plaintiffs Failed to Establish by a Preponderance of the Evidence that Their Franchise
Agreements Would Have Had Value in a “But
for World” Without Government Assistance
The court also finds for the reasons set forth
below that plaintiffs failed to establish by a preponderance of the evidence that their franchise agreements
would have had value in a “but for world” without
government assistance.
As discussed above, the Alley’s and Colonial plaintiffs used different experts to establish that their
franchise agreements would have had value in a “but
for world” without government assistance. The Alley’s
plaintiffs offered in addition to Mr. Berliner, Judge
Fitzgerald, and Ms. Keller the opinion testimony of
Ms. Murphy, and the Colonial plaintiffs relied on the
testimony of Mr. Stockton. Ms. Murphy and Mr.
Stockton’s opinions were based on different assumptions but neither of these expert opinions credibly
established that plaintiffs’ franchises had value in a
“but for world” without government assistance.
i. The Alley’s Plaintiffs Failed to Establish
That Their Franchise Agreements Had
Value in a “but for World.”
Although Ms. Murphy has extensive experience
valuing auto dealerships, because the assumptions

App.213a
she was given by counsel were not supported, the
valuations she prepared for each of the Alley’s plaintiffs
were likewise unsupported. Specifically, Ms. Murphy’s
valuation opinions rested on her contention that in a
“but for world” in which Chrysler went into bankruptcy
without government assistance, Chrysler would have
continued production of either all of its car and truck
lines or all of its truck lines with little or no interruption
and that plaintiffs would have continued to sell and
service Chrysler cars without interruption indefinitely.
Tr.1404:16-1410:3, Tr.1747:9-14, Tr.1748:24-1749:3.
She also opined based on the assumptions she was
given that Chrysler would have been sold in Chapter
11 and that any Section 363 purchaser would have
assumed all of Chrysler’s franchise agreements,
including plaintiffs’ agreements. See Tr.1408:151409:19. Relying on these assumptions, Ms. Murphy
projected the sales volume growth of plaintiffs’
franchises for a period of five years and with that
number she applied a discount rate to find a fair
market value for each franchise. Tr.1425:22-1426:5,
Tr.1427:23-1428:8, Tr.1428:11-18, Tr.1431:18-21. Ms.
Murphy admitted that her valuation included not
only an estimated discounted cash flow but also
included the value of all tangible assets of the
dealership including the equipment, parts, land and
other cash assets that would be part of any normal
sale of a dealership with a franchise agreement.
Tr.1542:2-22. She did not separately analyze how
these tangible assets contributed to the plaintiffs’
income stream profits, separate from the franchise
agreement allegedly taken.
Because the court has found that Ms. Murphy’s
assumptions regarding Chrysler’s fate in bankruptcy

App.214a
without government assistance were not supported
and indeed were contrary to the facts known at the
time in 2009, the court finds that Ms. Murphy’s opinion of economic value in a “but for world” without government assistance for each of the 7 representative
plaintiffs she analyzed must be rejected. As discussed
above, the plaintiffs failed to prove that without government assistance Chrysler could have continued to
manufacture cars or trucks. Rather, the outcome for
Chrysler in a world without government assistance
was liquidation under Chapter 7. Ms. Murphy did
not consider the value of plaintiffs’ franchise agreements in a Chrysler Chapter 7 bankruptcy.
The court therefore finds that, in a Chapter 7
bankruptcy, the plaintiffs’ franchise agreements would
have had zero fair market value.46
ii. The Colonial Plaintiffs Failed to Establish
That Their Franchise Agreements Had
Value in a “but for World.”
The court finds that the Colonial plaintiffs failed
to prove that the Guetterman and Finnin franchises
would have had value in a “but for world” without
government assistance. Mr. Stockton’s valuation
opinions were not based—as Ms. Murphy’s was—on
Chrysler’s survival as an ongoing business during a
46 There were numerous other problems with Ms. Murphy’s
opinion. She assumed a growth rate of 5% that was wholly
unsupported and a discount rate that was not supported by the
economic circumstances of the time at issue. Tr.1469:19-24. It is
not necessary to review all the other unsupported assumptions
and problems raised by her opinions, because her fundamental
assumption regarding Chrysler’s fate in a bankruptcy without
government assistance was not supported.

App.215a
bankruptcy without government assistance. Rather,
he valued the Finnin and Guetterman franchises
using the assumption that Chrysler would have
stopped manufacturing cars and trucks during a
bankruptcy wind-down. See Tr.2366:5-20. Mr. Stockton
nonetheless opined that Chrysler would not have had
any reason to reject Finnin and Guetterman’s franchise
agreements during a Chapter 11 bankruptcy winddown because Chrysler would have wanted the
franchisees to sell Chrysler’s existing inventory and
because he believed the government would have
funded Chrysler’s warranty work, which would have
provided plaintiffs with another income stream, along
with used cars and other service, depending upon
how many years it took to wind-down Chrysler.47
Tr. 2446:5-10.
As discussed above, the court finds, based on Mr.
MacKenzie’s testimony, that there is no support for
the assumption that the government would have
funded warranty work in a “but for world” without
government assistance. There was no evidence presented to show that the government paid for warranties
during any other auto bankruptcy. While it is true
that the government offered to pay for warranties on
new Chrysler cars in March through April 2009,
there was never a discussion of the government
offering to continue that program. Mr. Stockton’s

47 Mr. Stockton also posited a valuation scenario where Chrysler
went out of business but others licensed the Chrysler name,
and that under that scenario franchisees could have continued
on forever as “licensed Chrysler” dealers. That scenario, of
course, does not involve a franchise agreement with Chrysler
and is thus irrelevant.

App.216a
assumption regarding government payment of warranty work was based on pure speculation.
In addition, the court finds based on Mr. MacKenzie and Judge Gerber’s testimony that in a “but
for world” without government assistance, Chrysler
would have been forced into Chapter 7 and that a
trustee in bankruptcy would have rejected all franchise
agreements to protect the assets of the bankruptcy
estate. In a Chapter 7 liquidation scenario, not only
would Chrysler face continued liability for the warranty
work it had not paid to franchisees, but Chrysler
would have also faced liability under its franchise
agreements for the cost of repurchasing inventory
and parts. Thus, as Mr. MacKenzie and Judge Gerber
explained, there would have been every reason for
the bankruptcy trustee to immediately reject all
franchise agreements.
Finally, Mr. Stockton’s valuation opinions must
be rejected on the grounds that the opinions are
based on a lost profits model and not on fair market
value. The government is not liable in a taking of lost
profits unique to the owner but only for what the
property is worth in a fair market. See A&D Auto
Sales, 748 F.3d at 1157; see also Yancy v. United
States, 915 F.2d 1534, 1542 (Fed. Cir. 1990) (citing
United States v. General Motors, 323 U.S. 373, 380
(1945)). Here, Mr. Stockton conceded there was no
fair market for the franchise agreements. Tr. 2359:49, Tr.2454:20-23, Tr.2590:12-16.
Based on the foregoing, the court finds all the
representative plaintiffs failed to meet their burden
of proving that their franchise agreements would
have had economic value in a “but for world” without
government assistance by a preponderance of the

App.217a
evidence. For this reason, as well, the plaintiffs’
taking claims fail.
CONCLUSION
The taking claims of representative plaintiffs
Taylor & Sons, Inc., Cedric Theel, Inc., Whitey’s Inc.,
RFJS Company, Jim Marsh American Corp., Livonia
Chrysler Jeep, Inc., Barry Dodge, Inc., Guetterman
Motors, Inc., and Mike Finnin Motors, Inc. are hereby
DENIED. There being no just reason for delay, the
court directs the Clerk of the Court to enter judgment
for the Defendant regarding these claims pursuant to
Rule 54(b). The parties shall have until November 1,
2019 to file a status report proposing a schedule for
next steps to resolve the litigation of the remaining
rejected Chrysler and GM franchisees.
IT IS SO ORDERED.
/s/ Nancy B. Firestone
Senior Judge

App.218a
OPINION OF THE UNITED STATES COURT OF
APPEALS FOR THE FEDERAL CIRCUIT
(APRIL 7, 2014)
UNITED STATES COURT OF APPEALS
FOR THE FEDERAL CIRCUIT
________________________
A&D AUTO SALES, INC., ALLEY’S OF
KINGSPORT, INC., ARCHER CHRYSLER JEEP
WEST, INC., ARCHER CHRYSLER PLYMOUTH,
INC., ARCHER DODGE, INC., ARCHER
FINANCIAL HOLDINGS, INC., AXELROD
CHRYSLER DODGE JEEP, INC., AXELROD
CHRYSLER, INC., BARRY DODGE INC.,
BENNETT AUTOPLEX INC., BENSON MOTOR
INC., ARROW FORD, INC., BILL KAY SUZUKI,
INC., BOARDWALK AUTO CENTER, INC., BOB
LUEGERS MOTORS, INC., BOB ROHRMAN
MOTORS, INC., BOB TAYLOR JEEP, INC.,
BONDY’S FORD, INC., BROTHER’S MOTORS,
INC., BURKE AUTOMOTIVE GROUP, INC., BY
FISHEL’S JEEPS, INC., CARDENAS MOTORS,
INC., CARSON AUTOMOTIVE INC., CDOHY, INC.,
CARSON CJ, LLC, CENTURY DODGE, INC.,
CHILSON, INC., CLARKSTON MOTORS, INC.,
COLEMAN AUTO GROUP, INC., COLEMAN
CHRYSLER JEEP, INC., COUNTRY MOTORS,
INC., CRAIN CDJ, LLC, CUNNINGHAM
CHRYSLER JEEP, INC., CURFIN INVESTMENTS,
INC., DJ-MACK INC., DET AUTOMOTIVE GROUP,
INC., DAVE CROFT MOTORS, INC., BURKE
BROTHERS, INC., DODGE OF ENGLEWOOD,
INC., DON DRENNEN CHRYSLER JEEP, INC.,

App.219a
DON PHILLIPS & SON SR. ENTERPRISES, INC.,
DONATO & SON’S JEEP, INC., DOUGLAS
AUTOMOTIVE GROUP, INC., EJE, INC., EL
DORADO MOTORS, INC., ELHART DODGE, INC.,
ELHART PONTIAC-GMC TRUCK, INC., ERTLEY
CHRYSLER JEEP DODGE, LLC., FITZGERALD
AUTO MALLS, INC., FT AUTOMOTIVE II, LLC, FT
AUTOMOTIVE IV, LLC, FORT MORGANAUTO
CENTER, INC., FOX HILLS MOTOR SALES, INC.,
G.K. ALCOMBRACK, INC., GOLDEN MOTORS,
INC., GRAYSON PONTIAC, INC., GRESHAM
CHRYSLER JEEP, INC., GRUBBS NISSAN MIDCITIES LIMITED, HAHN MOTOR COMPANY,
HAMILTON CHRYSLER, INC., HARVEY M.
HARPER CO., HOOVER MOTORS HOLDING CO.,
INC., HOOVER DODGE, INC., I.M. JARRETT &
SON, INC., ISLAND JEEP, INC., JAMES W.
HALTERMAN, INC., JIM MARSH AMERICAN
CORPORATION, JOHN CULLEN DODGE, LLC,
JOHNSON COUNTY MOTORS, L.C., KINGSTON
DODGE, INC., KITAGAWA MOTORS, INC.,
KOVATCH FORD, INC., LFCJ, INC., LEE
PETERSON MOTORS, INC., LENIHAN JEEP,
INC., LIVONIA CHRYSLER JEEP, INC., LOU
BACHRODT CHEVROLET, INC., MANCARI’S OF
ORLAND HILLS, INC., MARKETPLACE SUZUKI,
INC., MARSTALLER MOTORS, INC.,
MELCHIORRE, INC., MILLER-CAMPBELL
COMPANY, MILLER MOTOR CAR
CORPORATION, MILNER O’QUINN CHRYSLER
DODGE JEEP, INC., MORONG BRUNSWICK,
NEIL HUFFMAN ENTERPRISES, INC., NEIL
HUFFMAN, INC., LUNT MOTOR COMPANY,
MANUEL DODGE, INC., MATT MONTGOMERY,
INC., MATTHEWS CHRYSLER, INC., MT.

App.220a
CLEMENS DODGE, INC., NEW CITY AUTO
SALES, INC., NORTHGLENN DODGE, INC., JEFF
HUNTER MOTORS, INC., JELMAC LLC, PAINTER
SALES AND LEASING, PAINTER’S SUN
COUNTRY CHRYSLER, INC., PEN MOTORS, INC.,
PLEASANT VALLEY MOTORS, INC., PRESTON
CHRYSLER JEEP, INC., PRIDE CHRYSLER JEEP,
INC., QUALITY JEEP-CHRYSLER, INC., RFJS
COMPANY, LLC, REUTHER DODGE LLC,
REUTHER’S INVESTMENT COMPANY, RHODEN
AUTO CENTER, INC., RICHARD CHRYSLER
JEEP, INC., RIVERSIDE AUTO SALES OF
MARQUETTE, INC., ROCK OF TEXAS
AUTOMOTIVE, INC., ROHR-ALPHA MOTORS,
INC., SCK, INC., SCOTIA MOTORS, INC., SCOTT
CHEVROLET, INC., SHOEMAKER AUTO GROUP,
INC., SIEMANS IMPORTS, INC., SOUTH SHORE
AUTO LINES, INC., SOUTHEAST AUTOMOTIVE,
INC., STAR CHRYSLER, INC., TAMAROFF 12
MILE MOTORS, INC., TARBOX CHRYSLER JEEP,
LLC, TARBOX MOTORS INC., TAYLOR & SONS,
INC., TED BRITT OF FREDERICKSBURG, INC.,
TENAFLY CHRYSLER JEEP, INC., TETON
MOTORS, INC., THOMAS SALES & SERVICE,
INC., TOMSIC MOTOR COMPANY, TRANSIT LLC,
TRI-STATE AUTOMOTIVE ASSOCIATES, INC.,
THE UNION SALES COMPANY, URKA AUTO
CENTER, INC., VALLEY DODGE, INC., VERONA
MOTOR SALES, INC., VIC OSMAN LINCOLNMERCURY, INC., VILLAGE CHRYSLER JEEP,
INC., WACO DODGE SALES, INC., WALKER
MOTORS, INC., WALLACE CHRYSLER JEEP,
LLC, WESTMINSTER DODGE, INC., WESTSIDE
DODGE, INC., WHEATON MOTOR CITY, INC.,
WHEELER LEASING CO. II, INC., WHITEY’S,

App.221a
INC., WILLIAM T. PRITCHARD, INC., WRIGHT
DODGE, LLC, WYCKOFF CHRYSLER, INC.,
AND YOUNG VOLKSWAGEN, INC.,

Plaintiffs-Appellees,
v.
UNITED STATES,

Defendant-Appellant.
________________________
No. 2013-5019
Appeal from the United States Court of Federal
Claims in No. 11-CV-0100, Senior Judge
Robert H. Hodges, Jr.
________________________
COLONIAL CHEVROLET CO., INC.,
AND MIKE FINNIN MOTORS, INC.

Plaintiffs-Appellees,
v.
UNITED STATES,

Defendant-Appellant.
________________________
No. 2013-5020
On Appeal from the United States Court of
Federal Claims in No. 10-CV-0647,
Senior Judge Robert H. Hodges, Jr.

App.222a
Before: DYK, TARANTO,
and STOLL, Circuit Judges.
DYK, Circuit Judge.
These appeals arise from two takings suits related
to the 2009 bankruptcies of General Motors Corporation (“GM”) and Chrysler LLC (“Chrysler”). The plaintiffs are former dealers of those companies whose
franchises were terminated in the bankruptcies. The
plaintiffs allege that these terminations constituted
a taking because the government required them as a
condition of its providing financial assistance to GM
and Chrysler and/or to the companies that succeeded
them in the bankruptcies. The government moved to
dismiss the suits for failure to state a claim. The
United States Court of Federal Claims (“Claims
Court”) denied dismissal, and the government brought
these interlocutory appeals.
Because we lack the benefit of a fully developed
factual record, we do not at this stage address every
issue the government raises. As to the issues we do
address, we reject the government’s arguments for
dismissal. While we hold that the complaints are deficient because they do not sufficiently allege that the
economic value of the plaintiffs’ franchises was reduced
or eliminated as a result of the government’s actions,
we nonetheless affirm the Claims Court’s decision to
deny dismissal at this point in the proceedings. The
proper remedy is to grant the plaintiffs leave to amend
their complaints to include the necessary allegations,
and on remand the Claims Court shall do so.

App.223a
BACKGROUND
At this stage in the proceedings, we accept the
dealers’ well-pleaded factual allegations as true.
Ashcroft v. Iqbal, 556 U.S. 662, 678 (2009). While we
primarily consider the allegations in the complaint,
we may also look to “matters incorporated by reference
or integral to the claim, items subject to judicial
notice, [and] matters of public record.” 5B Charles
Alan Wright & Arthur R. Miller, Federal Practice
and Procedure § 1357 (3d ed. 2004).
I
The bankruptcies of GM and Chrysler took place
in the historic recession and credit crisis of 2008–09.
GM and Chrysler were in serious financial difficulty,
as loans to automobile dealers and consumers had
come to an “abrupt halt” and sales “plummeted.” A&D
J.A. 78.1 Automobile sales were down more than
37% from the previous year, falling to their lowest
level in 26 years. In a major public speech, President
Bush expressed fears that “[i]f we were to allow the
free market to take its course now, it would almost
certainly lead to disorderly bankruptcy and liquidation
for the automakers.” President George W. Bush,
President Bush Discusses Administration’s Plan to
Assist Automakers (Dec. 19, 2008) (transcript available
at http://georgewbush-whitehouse.archives.gov/news/
1 This opinion refers to the joint appendix in No. 2013-5019,

A&D Auto Sales, Inc. v. United States, as the “A&D J.A.” The
joint appendix in No. 2013-5020, Colonial Chevrolet Co. v. United
States, is referred to as the “Colonial J.A.” The government’s
briefs are referred to as “Gov’t’s A&D Br.” And “Gov’t’s Colonial
Br.”

App.224a
releases/2008/12/20081219.html). In late 2008, the chief
executives of GM and Chrysler appeared before
Congress to ask for emergency financial assistance in
the form of loans and lines of credit. Shortly thereafter,
Treasury Secretary Henry Paulson created the Automotive Industry Financing Program, through which the
Department of Treasury (“Treasury”) would make loans
and other investments in the automakers using government funds. As the plaintiffs agree, the stated
goal of the program was to avoid “disorderly bankruptcy and liquidation,” which would entirely eliminate
them as ongoing entities. Id. The program was created
as a part of the wider Troubled Asset Relief Program
(“TARP”), which made similar investments in a number
of financial institutions. TARP had been established
by Congress two months earlier, in the Emergency
Economic Stabilization Act of 2008, Pub. L. 110-343,
122 Stat. 3765.
The government’s first assistance to the automakers consisted of stopgap loans ($13.4 billion to
GM, $4 billion to Chrysler) intended to keep the
companies from having to cease operations pending
talks over more comprehensive assistance. In connection with these loans, the government and the automakers entered formal agreements setting forth the
conditions of the government’s assistance. One condition was that the companies would submit viability
plans demonstrating that they could achieve
financial stability with the help of the government
funds. GM and Chrysler submitted their viability
plans in February 2009 as required.
The government rejected GM and Chrysler’s initial
viability plans and called for the submission of revised
proposals. Executive branch officials in charge of

App.225a
overseeing the financial assistance suggested that the
companies adopt various changes to improve their
long-term viability, such as focusing on lighter, more
fuel-efficient vehicles and (in GM’s case) more quickly
reducing the number of brands. The government specifically suggested that the automakers should significantly reduce the number of dealers within their
franchise networks to improve their viability. Although the automakers were already reducing their
dealer ranks over time and GM’s initial viability plan
had included additional dealer terminations, the government determined that the current and proposed
pace of terminations was too slow, and that the
companies’ large dealer networks were an obstacle to
viability. The government advised the companies they
should expand their terminations and that they might
accomplish the terminations expeditiously by opting to
reject the franchise agreements in bankruptcy proceedings.2 Outside bankruptcy, the dealer franchises
had protections against termination under various
state and federal franchise laws. The complaints
allege that the government’s proposals concerning
franchise terminations were mandatory—that is, that
the government required the automakers to include
them or else forgo any further financial assistance.
At this stage, we accept the plaintiffs’ allegations as
true, and proceed on the assumption that the govern2 Two provisions of the Bankruptcy Code are central to the
bankruptcies at issue. 11 U.S.C. § 363 authorizes certain sales
of a debtor’s assets. And 11 U.S.C. § 365 provides that a bankruptcy trustee “may assume or reject any executory contract or
unexpired lease of the debtor.” Debtors-in-possession in chapter
11 bankruptcies, like GM and Chrysler, generally have a trustee’s
powers. 11 U.S.C. § 1107.

App.226a
ment required these terms as a condition of financial
assistance.
The companies eventually adopted the government’s suggestions for a bankruptcy filing, reduction
of their dealer networks, and other changes. Each
filed for Chapter 11 reorganization, and the government made available an additional $38 billion in
financing ($30 billion in loans and equity investments to
GM, $8 billion in loans to Chrysler) for restructuring
the companies. After approval by the bankruptcy
court under 11 U.S.C. § 363, the old GM and Chrysler
entities sold most of their operating assets to newly
created entities commonly called “New GM” and
“New Chrysler”—in which the federal government,
and other entities, acquired specified ownership
interests. As a result of the sale, the government
acquired a 60.8% ownership stake in New GM’s
common stock, as well as a portion of its preferred
stock. The dealer franchises that were not terminated
were transferred to the new entities along with other
assets. The termination of the remaining franchises
was handled differently by each company. In Chrysler’s
case, the franchises were eventually terminated by
the bankruptcy estate. In GM’s case, either the
franchises were terminated by the bankruptcy estate
or the dealers signed “Deferred Termination Agreements” providing for a transition to termination. To
the extent the franchises were terminated by action
of the bankruptcy estate, the affected dealers received
unsecured claims against the estates, see 11 U.S.C.
§ 365(g); In re Old Carco LLC, 406 B.R. 180, 190
(Bankr. S.D.N.Y. 2009), but it is unclear whether they
have received anything for those claims. It is unclear

App.227a
as well whether the dealers who signed termination
agreements received any compensation.
II
The first of these two suits was filed in September
2010 by several terminated GM and Chrysler dealers.
Suing on behalf of themselves and a putative class of
others similarly situated, the plaintiffs alleged that
the government had effected a taking of their dealer
franchises (including rights conferred by state law)
by “coerci[ng]” the automakers—that is, by requiring
dealer terminations as a condition of financial assistance. Colonial J.A. 29; see also A&D J.A. 20. The
plaintiffs alleged that this constituted a regulatory
taking. They did not allege a physical taking.3

3 In addition to the plaintiffs’ franchise agreements, the Colonial
complaint identified a handful of “distinct investment-backed
expectation assets” including “real property,” “enhancements to
real property,” “buildings,” “fixtures,” “specialized tools,” “signage,”
and inventory of parts and vehicles. Colonial J.A. 32. It also
identified intangible assets such as “debt collateralization and/or
other specialized floor plan financing,” “blue sky,” and “good
will.” Colonial J.A. 32. The complaint did not allege a taking of
those assets, however. It simply identified them as evidence of
the plaintiffs’ “distinct investment-backed expectation[s]” in
their dealership franchises. Colonial J.A. 32.
The complaint also identified two government actions (aside
from the alleged requirement of dealer terminations in exchange
for financing) that were alleged to be takings: (1) the actions of
the bankruptcy court that approved the terminations, and (2) a
federal law that allowed terminated dealers to seek reinstatement through arbitration. Each government action was alleged
to be a taking independent of the others. However, the plaintiffs
later dismissed these claims.

App.228a
In February 2011, a separate group of former
Chrysler dealers brought a second suit in the Claims
Court. The two complaints were largely identical in
substance.
Both cases were assigned to the same judge of
the Claims Court. Shortly after amended complaints
were filed, the government moved pursuant to Claims
Court Rule 12(b)(6) to dismiss each complaint for
failure to state a claim.4 The Claims Court denied
both motions, issuing an identical order in each case.
The Claims Court concluded that the plaintiffs’ allegations were sufficient to make out a prima facie
takings claim. The court noted that it was “not aware
of a takings theory that resembles the legal and
factual theories offered so far” and that the plaintiffs’
“unusual allegations” did “not fit neatly into a normal
takings framework.” Colonial J.A. 4; A&D J.A. 4.
Nonetheless, the court found that the “[p]laintiffs
should have the opportunity to develop [their] case[s].”
Colonial J.A. 6; A&D J.A. 6. The court reasoned that
the possibility that the plaintiffs could prevail
“demand[ed] rejection of [the government’s] motion
to dismiss on the pleadings as premature.” Colonial
J.A. 6; A&D J.A. 6.
After the Claims Court denied dismissal, the
government moved the court to certify an interlocutory
appeal under 28 U.S.C. § 1292(d)(2). The government
asked the Claims Court to certify two questions:
whether the complaints failed to state a claim upon
4 The government also moved to dismiss for lack of subject
matter jurisdiction. It is not clear that the government presses
that issue on appeal. In any event, we see no lack of subject
matter jurisdiction in the Claims Court.

App.229a
which relief could be granted, and whether bankruptcy
court findings precluded the suit. The Claims Court
certified the first question only. The government
then filed petitions for interlocutory appeal with this
court. We granted the petitions, agreeing “that the
criteria for interlocutory appeal . . . are met and that
these petitions should be granted and heard on the
merits by this court.” Order Granting Petitions for
Interlocutory Appeal 6, November 30, 2012, ECF No.
2-3. We review the denial of the government’s motions
to dismiss de novo. See, e.g., First Med. Health Plan,
Inc. v. Vega-Ramos, 479 F.3d 46, 50–51 (1st Cir. 2007)
(on interlocutory appeal, denial of motion to dismiss
is reviewed de novo).
DISCUSSION
I
We address initially the scope of our review in this
case. Our appellate jurisdiction is ordinarily limited
to the Claims Court’s final decisions. See 28 U.S.C.
§ 1295(a)(3). But our jurisdiction extends to certain
interlocutory orders as well pursuant to § 1292(d)(2).
In interlocutory appeals, the scope of the issues is
“limited to the order appealed from, but not to the
specific stated question” articulated by the Claims
Court. 16 Charles Alan Wright, Arthur R. Miller, &
Edward H. Cooper, Federal Practice and Procedure
§ 3929, at 454 (3d ed. 2012). We may consider “any
question reasonably bound up with the certified
order, whether it is antecedent to, broader or narrower
than, or different from the question specified by the
[Claims Court].” Id. at 457; see Sky Techs. LLC v.
SAP AG, 576 F.3d 1374, 1378–79 (Fed. Cir. 2009);
United States v. Connolly, 716 F.2d 882, 884–85

App.230a
(Fed. Cir. 1983). But we are not obligated to decide
all questions presented by the order. See Wright,
Miller, & Cooper, supra, at 448 (noting that courts of
appeals have discretion to vacate an initial grant of
permission to appeal). That is particularly so in cases
where “an underdeveloped record may lead to illinformed decision of an important question.” Id. at
450–51.
The facts of this case are unique and raise issues
that have not been decided before, and the record at
this stage consists of little more than the plaintiffs’
allegations. As discussed below, we decline to address
some questions asked at this preliminary stage without
the benefit of a full factual record. But we conclude
that other issues are ripe for decision.
II
The Takings Clause of the Fifth Amendment
guarantees just compensation whenever private
property is “taken” for public use. U.S. Const. amend.
V. The plaintiffs do not allege, and their complaints
do not assert facts supporting an allegation of, a
“direct government appropriation or physical invasion
of [their] private property.” Lingle v. Chevron U.S.A.
Inc., 544 U.S. 528, 537 (2005); see, e.g., United States
v. Pewee Coal Co., 341 U.S. 114 (1951) (seizure and
operation of private coal mine); United States v. Gen.
Motors Corp., 323 U.S. 373 (1945) (occupation of
private warehouse). Nor do they allege, or support an
allegation, that the government stepped into the

App.231a
shoes of the dealers by assuming their contractual
rights or transferring them to a third party.5
Government action that does not directly appropriate or invade, physically destroy, or oust an owner
from property but is overly burdensome may be a
regulatory taking. “The general rule at least is that
while property may be regulated to a certain extent,
if regulation goes too far it will be recognized as a
taking.” Penn. Coal Co. v. Mahon, 260 U.S. 393, 415
(1922); see also Lingle, 544 U.S. at 537 (regulation is a
taking if it is “so onerous that its effect is tantamount
to a direct appropriation or ouster”). The plaintiffs
have alleged only regulatory takings.
The Supreme Court has treated certain regulatory
actions as “categorical” takings. A categorical taking
occurs where regulations “compel the property owner
to suffer a physical invasion of his property” or
“prohibit all economically beneficial or productive
use.” Lucas v. S.C. Coastal Council, 505 U.S. 1003,
1015 (1992) (internal quotation marks omitted). Beyond
those categories, the Supreme Court has “generally
eschewed any set formula, instead preferring to engage
in essentially ad hoc, factual inquiries.” Id. (internal
quotation marks omitted). But three factors have
“particular significance” in the analysis: (1) “the
character of the governmental action,” (2) “the extent
to which the [action] has interfered with distinct
investment-backed expectations,” and (3) “[t]he economic
5 In that sense, this case is distinguishable from Armstrong v.
United States, 364 U.S. 40, 46–49 (1960) and International
Paper Co. v. United States, 284 U.S. 399, 408 (1931). To the
extent the Colonial plaintiffs suggest otherwise, there is no support for such a contention.

App.232a
impact of the regulation on the claimant.” Penn.
Cent. Transp. Co. v. City of New York, 438 U.S. 104,
124 (1978). And of course, “the existence of a valid
property interest is necessary in all takings claims.”
Wyatt v. United States, 271 F.3d 1090, 1097 (Fed.
Cir. 2001).
The Supreme Court has mainly applied the
categorical test to regulatory takings of real property.
See Lucas, 505 U.S. at 1015–19. As the Claims Court
recognized, other circuits view the Lucas test as
applying only to land. Hawkeye Commodity Promotions, Inc. v. Vilsack, 486 F.3d 430, 441 (8th Cir.
2007) (“[I]t appears that Lucas protects real property
only.”); Unity Real Estate Co. v. Hudson, 178 F.3d
649, 674 (3d Cir. 1999) (“[T]he categorical approach
has only been used in real property cases.”); see also
Lucas, 505 U.S. at 1027–28 (“[I]n the case of personal
property, by reason of the State’s traditionally high
degree of control over commercial dealings, [the
owner] ought to be aware of the possibility that new
regulation might even render his property economically
worthless. . . . ”). We have applied the categorical test
to personal property on occasion. E.g., Rose Acre
Farms, Inc. v. United States, 373 F.3d 1177, 1196–98
(Fed. Cir. 2004); Maritrans, Inc. v. United States,
342 F.3d 1344, 1353–55 (Fed. Cir. 2003). But those
cases involved only tangible property. Rose Acre
Farms, 373 F.3d at 1196 (chickens); Maritrans, 342
F.3d at 1354 (barges); see also Brown v. Legal
Found. of Wash., 538 U.S. 216, 220 (2003). We have
not had occasion to address whether the categorical
takings test applies to takings of intangible property
such as contract rights. We decline to decide the issue

App.233a
at this stage of the litigation since the issue has not
been briefed by the parties.
A
We begin our analysis in this case with the
alleged property interest, an issue equally relevant
to alleged categorical takings and to takings governed
by the Penn Central analysis. There is no dispute
that the plaintiffs’ franchise agreements are property
for purposes of the Takings Clause. In general,
“[v]alid contracts are property, whether the obligor
be a private individual, a municipality, a state, or the
United States.” Lynch v. United States, 292 U.S. 571,
579 (1934); see also U.S. Trust Co. of N.Y. v. New
Jersey, 431 U.S. 1, 19 n.16 (1977) (“Contract rights
are a form of property and as such may be taken for
a public purpose provided that just compensation is
paid.”). Franchise agreements are no exception to
this general rule.
The government argues that the plaintiffs nonetheless lack a compensable property interest. As the
government points out, during the lifetime of the
agreements, the law of bankruptcy has always allowed
a trustee or debtor-in-possession to reject executory
contracts as GM and Chrysler did here. See generally
11 U.S.C. § 365(a). The government argues that this
principle of bankruptcy law “inhere[d]” in the franchise
agreements, and that termination of the agreements
therefore did not concern a compensable property
interest of the plaintiffs. Gov’t’s Colonial Br. 13; Gov’t’s
A&D Br. 13.
We reject this argument. It is true that “background principles” of law may “inhere” in a plaintiff’s
title to his property and thereby limit his ability to

App.234a
recover for a taking. Lucas, 505 U.S. at 1029; see also
Bair v. United States, 515 F.3d 1323, 1327–28 (Fed.
Cir. 2008); M & J Coal Co. v. United States, 47 F.3d
1148, 1154 (Fed. Cir. 1995). For example, the common
law of nuisance limits uses of real property that
interfere with neighbors’ rights of enjoyment. See
Lucas, 505 U.S. at 1029–30. Thus a landowner may
not recover for a taking when the government forbids
a use that is a nuisance at common law. Id. The law
of nuisance inheres in the landowner’s title, so there
is no taking if a use restriction falls within the scope
of nuisance law. Id.; see also Calero-Toledo v. Pearson
Yacht Leasing Co., 416 U.S. 663, 680–90 (1974) (no
taking when innocent owner’s property is subject to
forfeiture due to criminal acts of lessee); Commonwealth Edison Co. v. United States, 271 F.3d 1327,
1352–53 (Fed. Cir. 2001) (en banc).
If a challenged restriction was enacted before
the property interest was acquired, the restriction
may be said to inhere in the title.6 If a challenged
restriction was enacted after the plaintiff’s property
interest was acquired, it cannot be said to “inhere” in
the plaintiff’s title. For example, in Bair v. United
States, we held that a law giving priority to federal
government liens inhered in the title of liens owned
by other parties and created after the priority statute
was enacted. 515 F.3d at 1331. The exercise of the
government’s lien did not effect a taking because the
priority law predated the plaintiffs’ liens and therefore
inhered in their title. Id. Other circuits have similarly
held that a law allowing bankrupt debtors to avoid
6 This is not always true with respect to land use restrictions.
See Palazzolo v. Rhode Island, 533 U.S. 606, 626–30 (2001).

App.235a
certain liens inhered in the title of subsequently created
liens. See, e.g., In re Weinstein, 164 F.3d 677, 686
(1st Cir. 1999); In re Thompson, 867 F.2d 416, 422
(7th Cir. 1989). But though prospective application of
such laws does not give rise to takings liability,
retroactive application to existing property interests
would raise “difficult and sensitive questions” of a
taking. United States v. Sec. Indus. Bank, 459 U.S.
70, 82 (1982).
Here, the plaintiffs do not dispute that the bankruptcy law allowing trustees or debtors-in-possession
to reject executory contracts predated the creation of
their franchise agreements. Thus the plaintiffs could
have no compensable property interest if the government action were limited to the bankruptcy court’s
approval of the terminations. The government’s
problem is the alleged government action here is not
the bankruptcy court’s approval of the franchise
terminations (a theory that the plaintiffs have abandoned). The plaintiffs allege that the government
action was requiring dealer terminations as a condition
of financial assistance to the automakers. The challenged government action did not predate the acquisition of the plaintiffs’ interests. The plaintiffs’ franchise
agreements are valid and compensable property
interests.
B
We turn next to whether there has been government action sufficient to invoke a takings analysis
either under Lucas or Penn Central. The question
here is whether the government is liable for a taking
where it offers financing to a third party as a way of
inducing or requiring action that affects or eliminates

App.236a
the property rights of the plaintiff. We conclude that
such actions may give rise to takings liability depending on the circumstances. There is no per se rule either
precluding or imposing liability when the government
instigates action by a third party. But two broad
principles drawn from the cases may guide the analysis.
First, in some circumstances, government action
directed to a third party does not give rise to a taking
if its effects on the plaintiff are merely unintended or
collateral. See generally Omnia Comm. Co. v. United
States, 261 U.S. 502, 510–11 (1923). In Omnia, for
example, the government requisitioned a steel producer’s entire output for the war effort, thereby
preventing the plaintiff from exercising purchase
rights it had obtained through a contract with the
producer. Id. at 507. The Supreme Court concluded
that the plaintiff’s loss was merely “consequential
loss or injury” resulting from the requisition, and
that no compensation was due the plaintiff. Id. at
510. Similarly, in T.O.F.C., Inc. v. United States, the
government appropriated real property of a bankrupt
railroad, terminating the plaintiff’s contractual right
to operate a particular rail facility and receive the
profits. 231 Ct. Cl. 182, 183 (1982). Our predecessor
court held that the plaintiff’s loss was merely a
“consequential injur[y] which result[ed] from the exercise of lawful power.” Id. at 192. A number of our
cases have found no taking where the challenged
government action was of general application and
the plaintiff was but one member of an affected class
of persons. See, e.g., Palmyra Pac. Seafoods, LLC v.
United States, 561 F.3d 1361, 1365–66 (Fed. Cir.
2009); Huntleigh USA Corp. v. United States, 525 F.3d

App.237a
1370, 1379–80 (Fed. Cir. 2008); Air Pegasus of D.C.,
Inc. v. United States, 424 F.3d 1206, 1216 (Fed. Cir.
2005). As the Supreme Court has explained, “A member of the class which is regulated may suffer economic
losses not shared by others. His property may lose
utility and depreciate in value as a consequence of
regulation. But that has never been a barrier to the
exercise of the police power.” Bowles v. Willingham,
321 U.S. 503, 518 (1944).
In summary, in the cases relied on by the government, the effect of the government action upon the
plaintiff was merely collateral or unintended or the
action affected a general class. Here, the complaints
allege that the effect of the government action on
the plaintiffs’ property was neither collateral nor
unintended and the action affected only Chrysler and
GM dealers. The complaints allege that dealer
terminations were the direct and intended result of
the government’s actions directed to Chrysler and
GM dealers because the financing was expressly conditioned on the terminations. This case is therefore
different from the cases on which the government
relies.
A second principle applies where the government’s
action was direct and intended. In such circumstances,
the government may be liable if the third party is
acting as the government’s agent or the government’s
influence over the third party was coercive rather
than merely persuasive. See Tex. State Bank v.
United States, 423 F.3d 1370, 1376–77 (Fed. Cir. 2005);
Lion Raisins, Inc. v. United States, 416 F.3d 1356,
1362–63 (Fed. Cir. 2005); Casa de Cambio Comdiv
S.A., de C.V. v. United States, 291 F.3d 1356, 1361–
62 (Fed. Cir. 2002); B & G Enters. v. United States,

App.238a
220 F.3d 1318, 1323–25 (Fed. Cir. 2000); Langenegger
v. United States, 756 F.2d 1565, 1572 (Fed. Cir.
1985). An agency relationship may exist where the
third party is hired or granted legal authority to
carry out the government’s business. See, e.g., Yearsley
v. W.A. Ross Constr. Co., 309 U.S. 18, 21–23 (1940)
(construction company hired to build river dikes);
Lion Raisins, 416 F.3d at 1363–64 (quasi-public crop
marketing committee authorized to set price floors
for crops); Hendler v. United States, 952 F.2d 1364,
1378–79 (Fed. Cir. 1991) (state officials authorized to
perform environmental tests on the plaintiffs’ land).
Here, GM and Chrysler were not acting as agents of the
government in terminating the franchise agreements.
The question of coercion is more complex. While
the complaints here allege that the government coerced
GM and Chrysler into terminating the franchise
agreements, they do not allege that the government
either by statute, regulation, or direct order required
the terminations.7 Rather, the complaints allege that
the government required the terminations as a condition of financial assistance, and that that action
was coercive because the automakers could not survive
without the financing. The line between coercion
(which may create takings liability) and persuasion
7 To the extent the A&D plaintiffs suggest in their brief that
the government “command[ed]” the terminations apart from the
financing arrangement, A&D Br. 33 (internal quotations marks
omitted), that suggestion is unsupported by the complaint and
identifies no mechanism of such “command.” For example, the
plaintiffs have not made allegations based on the government’s
ownership interests in New GM and New Chrysler, which chose
the particular franchise agreements to include in their acquisitions under 11 U.S.C. § 363, leaving the rest with Old GM and
Old Chrysler.

App.239a
(which does not create takings liability) is highly
fact-specific and hardly simple to determine.
Our predecessor court found coercion in Turney
v. United States, where the government induced the
Philippines to forbid exportation of certain military
equipment within its borders that the United States
had unwittingly sold to the plaintiffs in a surplus
auction after World War II. 126 Ct. Cl. 202, 207–08
(1953). The court found that the government had
exerted unusual influence over the Philippine government’s decision: “Our armed forces had just
liberated the Philippines from the Japanese. Our
Government had given one hundred million dollars
worth of surplus property to the Philippines. . . . When
we requested that Government to place an embargo
upon the exportation of any of the property, it,
naturally, readily complied.” Id. at 214. Thus, when
the embargo placed “irresistible pressure” on the
plaintiffs to turn the property over to the United
States, it created a taking. Id.
In Langenegger v. United States, by contrast,
this court concluded that the government’s influence
over an expropriation by the El Salvadoran government
was not coercion but “friendly persuasion.” 756 F.2d
at 1572 (internal quotation marks omitted). Distinguishing Turney, we explained that
the United States cannot be held responsible
merely because its activity is that of “friendly”
persuasion regarding general policy, common
among allies, or when the sole benefit to the
United States is the political stability of its
neighbors. Diplomatic persuasion among allies
is a common occurrence, and as a matter of
law, cannot be deemed sufficiently irresistible

App.240a
to warrant a finding of [coercion], however
difficult refusal may be as a practical matter.

Id. at 1572.
The plaintiffs have not alleged coercion flowing
from an existing relationship between the government
and a third party that gave the government the ability
to exercise general control over the third party’s action.
Rather they allege monetary inducement designed to
compel specific actions. The only appellate takings
precedent cited to us involving monetary inducement
of third party action is B & G Enterprises v. United
States, 220 F.3d at 1318. In that case, Congress
offered monetary grants to the states on the condition that they adopt laws prohibiting cigarette sales
to minors. Id. at 1321. California fulfilled the condition by enacting a law banning cigarette vending
machines in establishments open to minors, which
resulted in the loss of valuable contracts to the plaintiff, a vending machine operator. Id. at 1322. We held
that the federal government was not liable for a
taking. Id. at 1323. We concluded that “it was
California’s decision to create restrictions on the
placement of tobacco vending machines, not the federal government’s. Congress may have provided the
bait, but California decided to bite.” Id. at 1325. In
other words, coercion was not established.
The question here is whether the automakers
were coerced by the government’s offer of financial
assistance.8 Unfortunately there is a paucity of information as to the relevant circumstances of the gov8 For present purposes we do not distinguish the Old and New
companies. If that distinction is significant, it may be explored
on remand.

App.241a
ernment’s financial assistance to the automakers.
The circumstances relevant to the issue of coercion
include but are not limited to whether the government
insisted on the terminations, whether the terminations
would have occurred in any event absent government
action, whether the government financing was essential
to the companies, whether the government had any
role in creating the economic circumstances alleged
to give rise to coercion, and whether the government
targeted the dealers for termination. Under these circumstances, we think it is premature at this stage in
the case to address the issue of coercion and whether,
if coercion existed, takings liability follows. In this
context coercion is a necessary—but not sufficient
feature to establish takings liability.
In declining to decide the coercion issue on the
present record, we can and do reject two arguments
made by the government related to the issue of coercion.
First, the bankruptcy court’s findings do not estop
the plaintiffs from arguing that the government coerced
the automakers into action. Collateral estoppel only
applies if “the issue [in the instant action] is identical
to one decided in the first action.” In re Freeman, 30
F.3d 1459, 1465 (Fed. Cir. 1994) (emphasis added).
The issue here is whether the government coerced
GM and Chrysler through a coercive offer of financial
assistance. The issue before the bankruptcy court
was whether New GM and New Chrysler purchased
the assets of Old GM and Old Chrysler “in good
faith.” 11 U.S.C. § 363(m); see In re Chrysler, LLC,
405 B.R. 84, 108 (Bankr. S.D.N.Y. 2009); In re Gen.
Motors Corp., 407 B.R. 463, 494 (Bankr. S.D.N.Y.
2009). Whatever the bankruptcy court found is imma-

App.242a
terial. Its findings on good faith are not collateral
estoppel on the issue of coercion.
Second, the government action in this case was
not undertaken in a simply proprietary role. Proprietary
government action typically involves bargaining with
private actors for the provision or procurement of
goods and services; the action is deemed proprietary
even though the government may enter into the contractual relationship in pursuit of a larger governmental objective. See, e.g., St. Christopher Assocs.,
L.P. v. United States, 511 F.3d 1376, 1385–86 (Fed.
Cir. 2008) (mortgage); Alaska Airlines, Inc. v. Johnson,
8 F.3d 791, 792–93, 798 (Fed. Cir. 1993) (airfare); Sun
Oil Co. v. United States, 215 Ct. Cl. 716, 724 (1978)
(oil and gas lease). In those cases, the government is
usually subject to contractual remedies that make
takings liability redundant. See Hughes Commc’ns
Galaxy, Inc. v. United States, 271 F.3d 1060, 1070
(Fed. Cir. 2002); Sun Oil, 215 Ct. Cl. at 770 (“[W]hen
[the government] ‘comes down from its position of
sovereignty and enters the domain of commerce, it
submits itself to the same laws that govern individuals there.’” (quoting Cooke v. United States, 91 U.S.
389, 398 (1875))). Here, the government did not
bargain or contract with the plaintiffs, and the plaintiffs have no ordinary commercial remedy against the
government. While the proprietary action doctrine
might well bar a takings claim by GM and Chrysler,
which signed loan agreements defining the rights
between themselves and the government, that doctrine
does not appear directly relevant to a takings claim
by the plaintiffs.
Yet the government’s purpose in requiring the
dealer terminations may still be relevant to both the

App.243a
categorical takings and Penn Central analyses, as
bearing on whether the government’s actions were
regulatory in nature or were designed to protect the
government’s financial interest in repayment. The
government argues that in requiring a viability plan
that included dealer terminations, it acted like a
commercial lender, which would have ensured likely
repayment of the assistance. See Gov’t’s Colonial Br.
25 (asserting that the government’s conditions were
“the sort of arrangement that a private party might
demand in similar circumstances”); Gov’t’s A&D Br.
23 (same). Concerns about securing repayment of
government loans exist even in loan programs having
a predominantly public purpose. See, e.g., United
States v. Kimbell Foods, Inc., 440 U.S. 715, 737 (1979).
To the extent the dealer terminations were designed
to protect the government’s investment by assuring
the viability of New GM and New Chrysler and the
repayment of the loans and other assistance, that
purpose could be viewed as non-regulatory. But that
issue has not been fully developed at this stage, and
so we defer its consideration in the first instance to
the Claims Court.
C
We turn next to the alleged economic impact of
the government action. In order to establish a regulatory taking, a plaintiff must show that his property
suffered a diminution in value or a deprivation of
economically beneficial use. This is equally true
under the categorical test of Lucas v. South Carolina
Coastal Council and the Penn Central test. Lucas,
505 U.S. at 1015 (plaintiff must show loss of “all
economically beneficial or productive use”); Penn Cent.,
438 U.S. at 124 (court weighs “economic impact of the

App.244a
regulation on the claimant”); see also Brown, 538
U.S. at 240 n.11 (“[J]ust compensation for a net loss
of zero is zero.”). We have measured the diminution in
value of the plaintiff’s property by “‘the change, if
any, in the fair market value caused by the regulatory
imposition,” where the alleged taking is permanent
rather than temporary. Forest Props., Inc. v. United
States, 177 F.3d 1360, 1367 (Fed. Cir. 1999) (quoting
Fla. Rock Indus., Inc. v. United States, 18 F.3d 1560,
1567 (Fed. Cir. 1994)). “[I]f the regulatory action is
not shown to have had a negative economic impact
on the [plaintiff’s] property, there is no regulatory
taking.” Hendler v. United States, 175 F.3d 1374,
1385 (Fed. Cir. 1999).
Thus, by necessity, proving economic loss requires
a plaintiff to show what use or value its property
would have but for the government action. We have
often rejected takings claims where plaintiffs failed
to make such a showing. In Forest Properties, for
example, we rejected a takings claim because the
plaintiff “failed to introduce convincing evidence to
show the amount, if any, by which the value of the
relevant property . . . was reduced.” 177 F.3d at 1367.
The plaintiff had acquired 62 acres of land, 9.4 acres
of which were protected wetlands that the plaintiff
was denied a permit to develop. Id. at 1362–63. In its
takings suit, the plaintiff introduced evidence that it
had lost significant profits as a result of the permit
denial. Id. at 1367. But the plaintiff failed to produce
evidence that showed “the amount by which the fair
market value of the 62 acres was reduced by the
denial of the permit,” and so we concluded there was
insufficient evidence of a taking. Id. Similarly, in Seiber
v. United States, we found no temporary taking where

App.245a
the plaintiffs failed to show the economic impact of a
delay in approval of a logging permit. 364 F.3d 1356,
1371–72 (Fed. Cir. 2004). Thus, a showing of but-for
economic use or value is a necessary element of a
regulatory takings claim.
Since there can be no regulatory taking without
a showing of but-for decline in value, a takings plaintiff must also allege sufficient facts in its complaint to
show what use or value its property would have had.
The Claims Court rules require “a short and plain
statement of the claim showing that the pleader is
entitled to relief.” R. Ct. Fed. Cl. 8(a)(2). This means
the complaint must contain “sufficient factual matter,
accepted as true, to ‘state a claim to relief that is
plausible on its face.’” Iqbal, 556 U.S. at 678 (quoting
Bell Atl. Corp. v. Twombly, 550 U.S. 544, 570 (2007)).
A claim is facially plausible “when the plaintiff
pleads factual content that allows the court to draw
the reasonable inference that the defendant is liable.”
Id. If the plaintiff fails to include such allegations in
his complaint, it is deficient.
In an analogous case, the Supreme Court found
a securities fraud complaint deficient because it only
alleged that the plaintiffs paid “artificially inflated
purchase prices” for the defendant’s stock. See Dura
Pharm., Inc. v. Broudo, 544 U.S. 336, 347 (2005)
(internal quotation marks omitted). As a matter of
securities law, the Court concluded that inflated
purchase prices were not per se economic losses. Id.
at 342. The Court, applying general requirements for
pleading, held that the complaint was deficient—it
only stated that the plaintiffs purchased stock at an
inflated price, not that a later price drop caused
them economic loss. Id. at 346–48. The Court drew a

App.246a
direct link between the substantive law and the sufficiency of the complaint: “Our holding about plaintiffs’ need to prove proximate causation and economic
loss leads us also to conclude that the plaintiffs’ complaint here failed adequately to allege these requirements.” Id. at 346 (emphasis in original).
In this case, the government argues that the
plaintiffs have failed to sufficiently plead economic
loss, and that in reality the franchise agreements
were worthless absent the government’s financial
assistance to the automakers. We agree that the
plaintiff’s allegations are insufficient. The complaints
contain no allegations regarding the but-for economic
loss of value of the plaintiffs’ franchises from which
to establish an economic loss. Absent an allegation
that GM and Chrysler would have avoided bankruptcy
but for the government’s intervention and that the
franchises would have had value in that scenario, or
that such bankruptcies would have preserved some
value for the plaintiffs’ franchises, the terminations
actually had no net negative economic impact on the
plaintiffs because their franchises would have lost all
value regardless of the government action. Having
failed to include such allegations, the dealers fail to
satisfy the pleading standards necessary to survive a
motion to dismiss.
However, we must disagree with the government
that the proper remedy is to dismiss the complaints.
The proper remedy is rather to grant the plaintiffs
leave to amend their complaints. The Claims Court
rules liberally provide for amendments of the complaint
after the filing of the defendant’s answer. See R. Ct.
Fed. Cl. 15(a)(2) (“[A] party may amend its pleadings
[before trial] only with the opposing party’s written

App.247a
consent or the court’s leave. The court should freely
grant leave when justice so requires.”). Interpreting
an analogous provision of the Federal Rules of Civil
Procedure, the Supreme Court explained that this
mechanism should be liberally allowed:
In the absence of any apparent or declared
reason—such as undue delay, bad faith or
dilatory motive on the part of the movant,
repeated failure to cure deficiencies by amendments previously allowed, undue prejudice
to the opposing party by virtue of allowance
of the amendment, futility of amendment,
etc.—the leave sought should, as the rules
require, be “freely given.”

Foman v. Davis, 371 U.S. 178, 182 (1962) (quoting
Fed. R. Civ. P. 15(a)).
We think those principles support a grant of
leave to amend in this case. The plaintiffs have failed
to properly allege economic loss, but at oral argument
in this court they disputed the government’s assertion
that the franchises were valueless and made clear
that they intended to establish loss of value. In this
situation the appropriate remedy is to grant leave to
amend to include specific allegations establishing
loss of value. Of course it would not be sufficient to
include conclusory loss of value allegations. See Iqbal,
556 U.S. at 678 (“A pleading that offers ‘labels and
conclusions’ or ‘a formulaic recitation of the elements
of a cause of action will not do.’” (quoting Twombly,
550 U.S. at 555)).

App.248a
D
Finally, the “distinct investment-backed expectations” of the plaintiffs are a factor of the Penn Central
analysis that the parties have not addressed. See 438
U.S. at 124. Subsequent cases have clarified that “to
support a claim for a regulatory taking, an investmentbacked expectation must be reasonable.” Cienega
Gardens v. United States, 331 F.3d 1319, 1346 (Fed.
Cir. 2003) (internal quotation marks omitted); see
Ruckelshaus v. Monsanto Co., 467 U.S. 986, 1005
(1984) (stating that “reasonable investment-backed
expectations” are one factor in the takings analysis).
Assessing the reasonableness of a plaintiff’s expectations “is an objective, but fact-specific inquiry into
what, under all the circumstances, the [plaintiff]
should have anticipated.” Cienega Gardens, 331 F.3d
at 1346; see id. at 1348–53 (engaging in extensive
analysis of whether “a reasonable developer in the
[plaintiff’s] circumstances” would have held the same
expectations).
While the parties do not address this factor in
this appeal, it will necessarily be a feature of the Claims
Court’s analysis under Penn Central. The Claims
Court should engage in “an objective, but fact-specific
inquiry,” id. at 1346, into the reasonableness of the
plaintiffs’ expectation that their franchise agreements
would be continued absent government action. We
express no opinion on the proper analysis of this
factor. It will be up to the Claims Court to weigh the
reasonableness of the plaintiffs’ expectations in the
first instance.

App.249a
CONCLUSION
We conclude that the Claims Court properly
declined to dismiss the plaintiffs’ complaints at this
preliminary stage. While the plaintiffs’ allegations of
economic loss are deficient in their present form, the
deficiencies may be cured, and the Claims Court is
instructed to grant the plaintiffs leave to make such
curative amendments as may be necessary. Further
proceedings must be consistent with this opinion.
REMANDED
COSTS
No costs.

App.250a

App.251a
ORDER OF THE UNITED STATES
COURT OF APPEALS FOR THE FEDERAL
CIRCUIT DENYING PETITIONS
FOR REHEARING EN BANC
(MARCH 17, 2021)
UNITED STATES COURT OF APPEALS
FOR THE FEDERAL CIRCUIT
________________________
TAYLOR & SONS, INC., CEDRIC THEEL, INC.,
WHITEY’S, INC., RFJS COMPANY, LLC,
JIM MARSH AMERICAN CORPORATION,
LIVONIA CHRYSLER JEEP, INC.,
BARRY DODGE INC.,

Plaintiffs-Appellants,
ALLEY’S OF KINGSPORT, INC., ET AL.,

Plaintiffs,
v.
UNITED STATES,

Defendant-Appellee.
________________________
MIKE FINNIN MOTORS, INC.,
GUETTERMAN MOTORS, INC.,

Plaintiffs-Appellants,
ALLEY’S OF KINGSPORT, INC., ET AL.,

Plaintiffs,

App.252a
v.
UNITED STATES,

Defendant-Appellee.
________________________
No. 2020-1185, 2020-1205
Appeal from the United States Court of
Federal Claims in Nos. 1:10-cv-00647-NBF,
1:11-cv-00100-NBF, 1:12-cv-00900-NBF,
Senior Judge Nancy B. Firestone.
Before: PROST, Chief Judge, NEWMAN, LOURIE,
DYK, MOORE, O’MALLEY, REYNA, WALLACH,
TARANTO, CHEN, and STOLL, Circuit Judges.
PER CURIAM.
Mike Finnin Motors, Inc. and Guetterman Motors,
Inc. filed a combined petition for panel rehearing and
rehearing en banc. Taylor & Sons, Inc., Cedric Theel,
Inc., Whitey’s, Inc., RFJS Company, LLC, Jim Marsh
American Corporation, Livonia Chrysler Jeep, Inc.,
and Barry Dodge, Inc. separately filed a combined
petition for panel rehearing and rehearing en banc.
The petitions were referred to the panel that heard
the appeal, and thereafter the petitions for rehearing
en banc were referred to the circuit judges who are in
regular active service.
Upon consideration thereof,
IT IS ORDERED THAT:
 Circuit Judge Hughes did not participate.

App.253a
The petitions for panel rehearing are denied.
The petitions for rehearing en banc are denied.
The mandate of the court will issue on March
24, 2021.
FOR THE COURT
/s/ Peter R. Marksteiner
Clerk of Court
Date: March 17, 2021

App.254a
FEDERAL CIRCUIT DISPOSITION OF
CFC TRIAL VERDICTS, 2001-20

App.255a

App.256a
FEDERAL CIRCUIT TAKINGS ANALYSIS:
AWARDS OF MONEY TO PROPERTY OWNERS WERE
AFFIRMED ONLY IN CAQUELIN (RTT) AND LOST TREE,
THE OTHER 79 BEING REVERSED OR REMANDED

74

App.257a

App.258a

App.259a

App.260a

App.261a

App.262a

App.263a

SELECT DOCUMENT EXCERPTS
Steven Rattner,
OVERHAUL: AN INSIDER’S ACCOUNT
OF THE OBAMA ADMINISTRATION’S
EMERGENCY RESCUE OF THE AUTO INDUSTRY
HMH Books: Kindle Ed. (2010)
“We had only five frenzied weeks to prepare for this
moment.” p. 2.
“I worried about . . . putting the automakers into
‘controlled bankruptcy’, a radical approach that defined
conventional wisdom.” p. 2.
“From our perspective, with bankruptcy came the silver
lining that, under court protection, the company
would have the right to tear up whatever franchise
agreements it needed to.” p. 195.
“In the fine print of the $33.3 billion of debtor-inpossession financing that we'd extended to the
company, they set a deadline of July 10. At the end of
that time—a scant forty days! — either the Treasury
would have to extend its financing or GM would be
forced to liquidate. This was the financial equivalent
of putting a gun to the heads of the bankruptcy
judge, GM's stakeholders, and of course Team Auto
itself.” p. 251.
“Harry [Wilson] had marshaled other . . . evidence, such
as an analysis suggesting that Chrysler's disappearance need not completely destroy its dealers. Most of
the jobs and profits in a dealership come not from
sales of new cars but from service and used cars.
Both would be needed if Chrysler liquidated.” p. 165.

App.264a

Office of the Speical Inspector General
for the Troubled Asset Relief Program (SIGTARP)

Factors Affecting the Decisions of General Motors
and Chrysler to Reduce their Dealership Networks,
SIGTARP-10-008 (JULY 19, 2010)
“none of the Auto Team leaders or personnel had any
experience or expertise in the auto industry.” p. 2.
“ . . . at a time when the country was experiencing the
worst economic downturn in generations and the
Government was asking its taxpayers to support a
$787 billion stimulus package designed primarily to
preserve jobs, Treasury made a series of decisions that
may have substantially contributed to the accelerated
shuttering of thousands of small businesses and
thereby potentially adding tens of thousands of workers
to the already lengthy unemployment rolls — all
based on a theory and without sufficient consideration
of the decisions’ broader economic impact. That the
automakers have offered reinstatement to hundreds
of terminated dealerships in response to Congressional
action without any apparent sacrifice to their ongoing
viability further demonstrates the possibility that such
dramatic and accelerated dealership closings may
not have been necessary . . . ” p. 31.
“When asked explicitly whether the Auto Team could
have left the dealerships out of the restructurings,
Mr. Bloom, the current head of the Auto Team,
confirmed that the Auto Team “could have left any
one component [of the restructuring plan] alone,” but
that doing so would have been inconsistent with the
President’s mandate for “shared sacrifice.” p. 33.

App.265a
“Mr. Bloom referred to this as “taking the pain and
getting past it.” p. 13.
“The Auto Team felt the companies’ best chance of
success required ‘utilizing the bankruptcy code in a
quick and surgical way’ and noted it would have been a
‘waste of taxpayer resources’ for the auto manufacturers to exit bankruptcy when they knew the networks
would still have to be reduced.” p. 28.
“In an internal memo, Auto Team officials reiterated
that their goal was to take advantage of the bankruptcy
code to reject dealership franchise agreements without
significant up-front costs.” p. 13.
“GM expected that normal attrition would eventually
lead to an ‘ideal’ network of approximately 3,00 dealerships.” p. 16.
“Key members of the Auto Team — including Messrs.
Rattner and Bloom — stated that they did not
consider cost savings to be a factor in determining
the need for dealership closures.” p. 25

App.266a
Dealers Second Amended Complaint
US Court of Federal Claims

COLONIAL CHEVROLET CO., INC. ET AL. V. USA
1:10-CV-00647-NBF, ECF 101, ¶ 97
“97. The Government assumed, and appropriated to
itself as a direct Taking, the intangible rights the
Plaintiffs owned under the franchise agreements. As
majority shareholder of GM and controlling shareholder of Chrysler, the Government had a substantial
interest in acquiring the underlying rights that gave
franchises their value, such as the exclusive right to sell
and service specified brands of vehicles in designated
areas. While the franchise agreements were terminated, those valuable rights were neither destroyed
nor abandoned. To the contrary, those rights (most
importantly the right to sell the manufacturers’
autos in the designated territories) were retained by
the Government or retransferred to others.”
Government’s Answer to Complaint
US Court of Federal Claims

COLONIAL CHEVROLET CO., INC. ET AL. V. USA
1:10-CV-00647-NBF, ECF 133, ¶ 97
“Admits the allegations contained in the second sentence of paragraph 97 that the United States was
(but is no longer) the majority shareholder in new GM
and the controlling shareholder in Chrysler; otherwise
denies the allegations contained in the second sentence
of paragraph 97.”

App.267a
INDICATIVE SUMMARY OF TERMS FOR
SECURED TERM LOAN FACILITY
(DECEMBER 19, 2008)

Based upon the preliminary information provided
to the United States Department of the Treasury (the
“UST”) regarding the proposed Facility, the following
Summary of Terms outlines (for discussion purposes
only) the key terms and conditions of a potential
transaction. This Summary of Terms is not intended
to be a comprehensive list of all relevant terms and
conditions of the transactions contemplated herein.
Further, these terms are subject to completion of due
diligence, legal and other internal review and receipt
of related approvals satisfactory to UST and any
other approval procedures customary for a transaction
of this nature. Final terms will be included in definitive
documentation based on this Summary of Terms and
executed by the applicable parties. This Summary of
Terms is intended for the sole benefit of the Company
identified on Appendix A and certain of its affiliates
and shall not be relied upon by any other person.
Facility:
A term loan that is full recourse to Borrower(s)
(except as provided on Appendix A), secured by a first
or junior lien, as applicable, on all of Borrower(s)’
assets, and is subject to the terms and conditions
contained herein and in the definitive Facility documentation.
Borrower(s):
As set forth on Appendix A.

App.268a
Lender:
UST, on a committed basis.
Guarantor(s):
As set forth on Appendix A. The Borrower(s) and
the Guarantor(s) shall hereinafter each be referred to
as a “Loan Party,” and collectively, as “Loan Parties.”
Closing Date:
As set forth on Appendix A.
Loan:
Lender will make available to Borrower(s) a loan
in an aggregate amount up to the amount set forth
on Appendix A (the “Loan Amount”) in predetermined
draw amounts, as further specified on Appendix A.
Availability:
On the dates specified in Appendix A, Borrower(s)
may request Lender to fund a draw up to an amount
set forth on Appendix A for such date (each such
funding, an “Advance”). At the time of each funding
of an Advance by the Lender (each, an “Advance
Date”), Borrower(s) shall be in compliance with all of
the covenants, representations and warranties of
this Facility.
Unless otherwise agreed by the UST, Borrower(s)
must provide the UST with its request at least two (2)
business days’ prior to the date on which an Advance
will be funded by Lender. For the avoidance of doubt,
notice received by the UST after 5:00 pm Washington,
DC time on any business day shall be deemed to be
received on the following business day.

App.269a
Use of Funds:
The Borrower(s) shall utilize the proceeds from
the Advances as set forth on Appendix A.
Currencies:
All Advances, prepayments and payments of fees
and indemnities and any other payments under the
Facility shall be made in United States Dollars.
Collateral:
As set forth on Appendix A. As security for Borrower(s)’ performance of all of their obligations under
the Facility and Guarantor(s)’ performance of their
obligations under the Guaranties, the applicable
Loan Parties will grant to Lender a security interest
in and to the Collateral (with the applicable lien
priority specified with respect thereto on Appendix
A).
Maturity Date:
The Facility will terminate and the aggregate
outstanding Advances, together with interest thereon
at the applicable Interest Rate and all fees, expenses,
indemnities and other amounts owing to Lender, will
be due and fully payable on the earliest of (i) the
Expiration Date (as set forth on Appendix A), (ii) the
occurrence of a Termination Event, or (iii) the
occurrence of an Event of Default, at the option of the
Lender.
Interest Rate:
Each Advance shall accrue interest at a rate per
annum equal to (i) the sum of (x) the greater of (A)

App.270a
three-month LIBOR and (B) the LIBOR Floor, plus (y)
the Spread Amount, multiplied by (ii) the outstanding
principal balance of such Advance. The Interest Rate
shall be determined on the Closing Date and reset on
each Interest Payment Date and shall be calculated
on a 360-day year basis for the actual number of
days elapsed (including the first day but excluding
the last day) occurring in the related Interest Period.
Interest on the Advances shall be payable in arrears on
each Interest Payment Date in respect of the previous
Interest Period, and together with all outstanding
principal and other amounts owing, on the Maturity
Date.
Interest Period:
For each Advance, (i) initially, the period commencing on the related Advance Date and ending on the
calendar day prior to the next succeeding Interest
Payment Date, and (ii) thereafter, each period commencing on an Interest Payment Date and ending on
the calendar day prior to next succeeding Interest
Payment Date. Notwithstanding the foregoing, no
Interest Period may end after the Maturity Date.
Interest Payment Date:
Set forth on Appendix A.
LIBOR Floor:
Set forth on Appendix A.
Spread Amount:
Set forth on Appendix A.

App.271a
Mandatory Prepayments:
Subject to any mandatory prepayments from the
following amounts required under existing secured
credit agreements, Borrower(s) shall apply 100% of
the net cash proceeds of any of the following transactions
to prepay, on a pro rata basis, the aggregate outstanding
Advances: (i) sales, liquidations or other transfers of
any Collateral other than sales in the ordinary
course of business, (ii) the incurrence by any Borrower of any debt (other than permitted indebtedness
including the refinancing of prior indebtedness) or any
equity or other capital raises (other than contributions
of indemnity payments received by the Company and
required to be applied to satisfy obligations of its
subsidiaries), either public or private, whether in
connection with a primary securities offering, a business combination of any kind, or otherwise, (iii) to
the extent unencumbered, non-ordinary course asset
sales (including aircraft divestments); provided that,
with respect to clause (ii), in no event will any of the
Collateral or Lender’s security interest therein be
released to the applicable Loan Party until the aggregate outstanding Advances, together with interest
thereon at the applicable Interest Rate and all fees,
expenses, indemnities and other amounts owing to
Lender shall have been paid in full. Notwithstanding
anything to the contrary contained herein, any
amounts advanced and repaid cannot be reborrowed.
Optional Prepayments:
Upon written notice to the Lender at least two
business days in advance, Borrower(s) may prepay
all or a portion of the outstanding Advances, without
penalty; provided that in no event will any of the

App.272a
Collateral be released to the applicable Loan Party
until the aggregate outstanding Advances, together
with interest thereon at the applicable Interest Rate
and all fees, expenses, indemnities and other amounts
owing to Lender shall have been paid in full. Notwithstanding anything to the contrary contained herein,
any amounts advanced and repaid cannot be reborrowed.
Executive Privileges and Compensation:
Until such time as the Facility is repaid in full
and the UST ceases to own any equity securities of
the Company acquired pursuant to this Facility
(including any Warrants and underlying Equity
Interests acquired by the UST upon exercise thereof)
(the “Relevant Period”), the following restrictions on
executive privileges and compensation shall apply to
the “Relevant Companies,” as defined on Annex A:
1.

The Relevant Companies shall be subject to
the executive compensation and corporate
governance requirements of Section 111(b)
of the EESA and the UST’s guidelines that
carry out the provisions of such subsection for
systemically significant failing institutions
as set forth in Notice 2008-PSSFI;

2.

The Relevant Companies and their respective SEOs (as defined below) shall modify or
terminate all benefit plans, arrangements
and agreements (including golden parachute
agreements) to the extent necessary to be in
compliance with Section 111(b) of the EESA
and the guidelines set forth in Notice 2008PSSFI;

App.273a
3.

The Relevant Companies shall comply in all
respects with the limits on annual executive
compensation deductibles imposed by Section
162(m)(5) of Internal Revenue Code of 1986,
as amended, as applicable;

4.

None of the Relevant Companies shall pay
or accrue any bonus or incentive compensation
to the 25 most highly compensated employees
(including the SEOs) (collectively, the “Senior
Employees”) except as approved by the President’s Designee;

5.

None of the Relevant Companies shall adopt
or maintain any compensation plan that
would encourage manipulation of their
reported earnings to enhance the compensation of any of its employees; and

6.

The Relevant Companies shall maintain all
suspensions and other restrictions of contributions to Benefit Plans that are in place or
initiated as of the Closing Date.

At any time during the Relevant Period, the
Lender shall have the right to require any Relevant
Company to claw back any bonuses or other compensation, including golden parachutes, paid to any
Senior Employees in violation of any of the foregoing.
Within 120 days of the Closing Date, the principal executive officer (or person acting in a similar
capacity) of each Relevant Company shall certify in
writing, under penalty of perjury, to the Lender’s
Chief Compliance Officer that such Relevant Company’s compensation committee has reviewed the compensation arrangements of the SEOs with its senior
risk officers and determined that the compensation

App.274a
arrangements do not encourage the SEOs to take
unnecessary and excessive risks that threaten the
value of such Relevant Company. Each Relevant Company shall preserve appropriate documentation and
records to substantiate such certification in an easily
accessible place for a period not less than three (3)
years following the Maturity Date.
“President’s Designee” means one or more officers from the Executive Branch designated by the
President. “SEOs” means the Loan Parties’ “senior
executive officers” as defined in subsection 111(b)(3)
of the EESA and regulations issued thereunder,
including the rules set forth in 31 C.F.R. Part 30, or
as otherwise may be defined by the UST. “Benefit
Plan” means, collectively, any compensation, bonus,
incentive and other benefit plans (including supplemental executive retirement plans), arrangements
and agreements (including golden parachute, severance
and employment agreements).
Asset Divestment:
With respect to any private passenger aircraft or
interest in such aircraft that is owned or held by any
Loan Party or any subsidiary immediately prior to
the Closing Date, such party shall demonstrate to
the satisfaction of the President’s Designee that it is
taking all reasonable steps to divest itself of such
aircraft or interest. Further, no Loan Party shall
acquire or lease any such aircraft or interest in such
aircraft.
Material Transactions:
The Loan Parties shall provide prompt notice to
the President’s Designee of any asset sale, investment,

App.275a
contract, commitment, or other transaction not in the
ordinary course of business proposed to be entered into
with a value in excess of $100 million (a “Material
Transaction”). The President’s Designee shall have
the right to review and prohibit any such Material
Transaction if the President’s Designee determines
that it would be inconsistent with or detrimental to
the long¬term viability of such Loan Party.
Restrictions on Expenses:
During the Relevant Period, the Company shall
maintain and implement its comprehensive written
policy on corporate expenses (“Expense Policy”) and
distribute the Expense Policy to all employees of the
Company and its subsidiaries covered under the policy.
Any material amendments to the Expense Policy shall
require the prior written consent of the President’s
Designee, and any material deviations from the
Expense Policy, whether in contravention thereof or
pursuant to waivers provided for thereunder, shall
promptly be reported to the President’s Designee.
The Expense Policy shall, at a minimum: (i)
require compliance with all applicable law, (ii) apply
to the Company and all of its subsidiaries, (iii)
govern (a) the hosting, sponsorship or other payment
for conferences and events, (b) travel accommodations
and expenditures, (c) consulting arrangements with
outside service providers, (d) any new lease or acquisition of real estate, (e) expenses relating to office or
facility renovations or relocations, and (f) expenses
relating to entertainment or holiday parties; and (iv)
provide for (a) internal reporting and oversight, and (b)
mechanisms for addressing non-compliance with the
policy.

App.276a
Restructuring Plan:
By no later than February 17, 2009, the Company
shall submit to the President’s Designee a plan to
achieve and sustain the long-term viability, international competitiveness and energy efficiency of the
Company and its subsidiaries (the “Restructuring
Plan”), which Restructuring Plan shall include specific actions intended to result in the following:
1.

Repayment of the Loan Amount and any
other financing extended by the Government under all applicable terms and conditions;

2.

Ability of the Company and its subsidiaries
to (x) comply with applicable Federal fuel
efficiency and emissions requirements, and
(y) commence domestic manufacturing of
advanced technology vehicles, as described
in section 136 of the Energy Independence
and Security Act of 2007 (Public Law 110140; 42 U.S.C. 17013);

3.

Achievement by the Company and its subsidiaries of a positive net present value, using
reasonable assumptions and taking into
account all existing and projected future costs,
including repayment of the Loan Amount
and any other financing extended by the
Government;

4.

Rationalization of costs, capitalization, and
capacity with respect to the manufacturing
workforce, suppliers and dealerships of the
Company and its subsidiaries; and

App.277a
5.

A product mix and cost structure that is
competitive in the United States marketplace.

The Restructuring Plan shall extend through 2010
monthly and annually through 2014 and shall include
detailed historical and projected financial statements
with supporting schedules and additional information as may be requested by the President’s Designee.
Restructuring Targets:
In addition to the Restructuring Plan, the Company and its subsidiaries shall use their best efforts
to achieve the following targets:
1.

Reduction of their outstanding unsecured
public indebtedness (other than with respect
to pension and employee benefits obligations)
by not less than two-thirds through conversion of existing public debt into equity or
debt (a “Bond Exchange”) and other appropriate means;

2.

Reduction of the total amount of compensation, including wages and benefits, paid to
their U.S. employees so that, by no later than
December 31, 2009, the average of such
total amount, per hour and per person, is an
amount that is equal to the average total
amount of such compensation, as certified by
the Secretary of Labor, paid per hour and per
person to employees of with Nissan Motor
Company, Toyota Motor Corporation, or
American Honda Motor Company whose
site of employment is in the United States
(the “Compensation Reductions”);

App.278a
3.

Elimination of the payment of any compensation or benefits to U.S. employees of the
Company or any subsidiary who have been
fired, laid-off, furloughed, or idled, other than
customary severance pay (the “Severance
Rationalization”).

4.

Application of the work rules to their U.S.
employees, beginning not later than December
31, 2009, in a manner that is competitive
with Nissan Motor Company, Toyota Motor
Corporation, or American Honda Motor Company whose site of employment is in the
United States (the “Work Rule Modifications”
and, together with the Compensation Reductions and Severance Rationalization, the
“Labor Modifications”); and

5.

Provision that not less than one-half of the
value of each future payment or contribution
made by them to the account of the voluntary
employees beneficiary association (or similar
account) (“VEBA”) of a labor organization
representing the employees of the Company
and its subsidiaries shall be made in the
form of the stock of the Company or one of
its subsidiaries (the “VEBA Modifications”),
and the total value of any such payment or
contribution shall not exceed the amount of
any such payment or contribution that was
required for such time period under the
collective bargaining agreement that applied
as of the day before the Closing Date.

App.279a
Term Sheet Requirements:
By no later than February 17, 2009, the Company shall submit to the President’s Designee:
1.

A term sheet signed on behalf of the Company
and the leadership of each major U.S. labor
organization that represents the employees
of the Company and its subsidiaries (collectively, the “Unions”) providing for the Labor
Modifications; and

2.

A term sheet signed on behalf of the Company and representatives of the VEBA providing for the VEBA Modifications; and

3.

A term sheet signed on behalf of the Company and representatives of holders of the
Company’s public debt providing for the
Bond Exchange.

Restructuring Plan Report:
On or before March 31, 2009, the Company shall
submit to the President’s Designee a written certification and report detailing the progress made by the
Company and its subsidiaries in implementing the
Restructuring Plan. The report shall identify any
deviations from the Restructuring Targets and explain
the rationale for these deviations, including an explanation of why such deviations do not jeopardize the
Borrower’s long-term viability. The report shall also
include evidence satisfactory to the President’s
Designee that the following events have occurred:
1.

Approval of the Labor Modifications by the
members of the Unions:

App.280a
2.

Receipt of all necessary approvals of the
VEBA Modifications other than regulatory
and judicial approvals, provided that the
Company must have filed and be diligently
prosecuting applications for any necessary
regulatory and judicial approvals; and

3.

The commencement of an exchange offer to
implement the Bond Exchange.

President’s Designee Review/Certification:
The President’s Designee will review the Restructuring Plan Report and other materials submitted by
the Company to determine whether the Company
and its subsidiaries have taken all steps necessary to
achieve and sustain the long-term viability, international competitiveness and energy efficiency of the
Company and its subsidiaries in accordance with its
Restructuring Plan. If the President’s Designee determines that these standards have been met, he will so
certify (the “Plan Completion Certification”).
Termination Event:
If the President’s Designee has not issued the
Plan Completion Certification by March 31, 2009 or
such later date (not to exceed 30 days after March
31, 2009) as the President’s Designee may specify
(the “Certification Deadline”), the maturity of the Loan
shall be automatically accelerated and any portion of
the Loan Amount not invested in or loaned to the
Borrower’s principal financial subsidiaries shall become
due and payable on the 30th day after the Certification Deadline, without any further action on the part
of the Lender.

App.281a
Reporting Requirements:
In addition to the foregoing, the Loan Parties
shall deliver to Lender the following periodic reports
and certifications:
1.

Weekly status report, commencing with the
week of December 15, 2008, detailing the
13-week rolling cash forecast for the Company and its subsidiaries (on a consolidated
and consolidating basis);

2.

Bi-weekly liquidity status report, commencing
with the second week following the Closing
Date, detailing, with respect to the Company and its subsidiaries (on a consolidated
and consolidating basis): (i) the current
liquidity profile; (ii) expected liquidity needs;
(iii) any material changes in their business
since the date of the last status report; (iv)
any transfer, sale, pledge or other disposition of any material asset since the date of
the last status report; and (v) any changes
to their capital structure.

3.

Monthly certification that (i) the Expense
Policy conforms to the requirements set forth
herein; (ii) the Company and its subsidiaries
are in compliance with the Expense Policy;
and (iii) there have been no material amendments thereto or deviations therefrom other
than those that have been disclosed to and
approved by Lender.

4.

Monthly certification that all Benefit Plans
with respect to Senior Executive Officers
are in compliance with Section 111(b) of the
EESA; and

App.282a
5.

Certified copies of all publicly filed financial
reports and auditors opinions.

Access to Information and Right to Audit:
At all times while the Facility is in effect, the
Borrower(s) and each of their direct and indirect
subsidiaries shall permit the Lender and its agents,
consultants, contractors and advisors, and the Special
Inspector General of the Troubled Assets Relief Program, access to personnel and any books, papers,
records or other data that may be relevant to the
financial assistance, including compliance with the
financing terms and conditions.
Representations and Warranties:
As of each day the Facility is in place, the Loan
Parties shall be deemed to make customary corporate
and asset-level representations and warranties to
Lender.
In addition, with respect to Warrants currently
issued to the UST and to be issued to the UST under
the Facility as provided below, the Borrower(s) will
represent and warrant to the UST that, as of the
date of this Indicative Summary of Terms and each
date any Warrants are delivered, (i) the Warrants
have been duly authorized and constitute a valid and
legally binding obligation of the Company enforceable
against it in accordance with its terms; (ii) the shares
of common stock issuable upon exercise of the Warrants
(the “Warrant Shares”) have been duly authorized
and reserved for issuance upon exercise of the
Warrants, and when so issued in accordance with the
terms of the Warrants will be validly issued, fully
paid, and non-assessable; (iii) Loan Parties have the

App.283a
corporate power to enter into this Facility, to execute
and deliver the related Facility documentation and
the Warrants and to carry out its obligations hereunder
and thereunder (which includes the issuance of the
Warrants and Warrant Shares); (iv) the execution,
delivery, and performance by Loan Parties of the
Facility documents and the Warrants, and the
consummation of the transactions contemplated hereby and thereby, have been duly authorized by all
necessary corporate action on their respective parts,
and no further approval or authorization is required
on their respective parts; (v) each Facility document,
when executed and delivered by the applicable Loan
Parties and Lender, is a valid, binding and enforceable
obligation of each such Loan Party.
Conditions Precedent to Closing:
Closing of the Facility and the funding of the first
Advance will be subject to, the satisfaction of customary
conditions precedent, including but not limited to:
1.

Execution of mutually satisfactory Facility
documentation and completion of all conditions to funding contained therein;

2.

Receipt of customary legal opinions from inhouse, domestic and local foreign counsel to
the Loan Parties acceptable to Lender including, but not limited to, security interest
perfection, PTO filings and analogous foreign
law opinions, general corporate matters and
enforceability, and an Investment Company
Act opinion;

3.

Receipt of officer’s certificates and standard
closing documents and certificates with

App.284a
respect to each Loan Party, each in a form
acceptable to Lender;
4.

The Lender’s interests in the Collateral shall
be perfected in accordance with applicable
law (except to the extent the interests will
be perfected on a post-closing basis, as may
be agreed to by the Lender) and all necessary waivers, amendments, approvals and
consents to the pledge of such Collateral
shall have been obtained;

5.

With respect to Collateral on which Lender
will have a first priority lien, evidence that
all then-existing liens thereon have been
released or will be released simultaneously
with the funding of the first Advance;

6.

With respect to Collateral on which Lender
will have a lien of junior priority, an intercreditor agreement duly executed by the
other lienholders, in form and substance
acceptable to Lender in its sole discretion;

7.

With respect to any equity investments that
constitute Collateral, receipt of approvals
duly executed by the Loan Parties’ applicable
creditors consenting to the pledge of such
equity investments, to the extent required;

8.

With respect to any real property that constitutes Collateral, receipt of an environmental
indemnity from the applicable Loan Party;

9.

Receipt of approvals duly executed by the
Guarantor(s)’ applicable creditors consenting
to the guaranty, to the extent required;

App.285a
10. A waiver shall have been duly executed by the
Loan Parties and each SEO and delivered to
the UST releasing the UST from any claims
that the Loan Parties and/or the SEOs may
otherwise have as a result of any modification
of the terms of any benefit plans, arrangements and agreements to eliminate any
provisions that would not be in compliance
with the executive compensation and corporate governance requirements of Section 111
of the EESA and the guidelines set forth in
Notice 2008-PSSFI;
11. A waiver shall have been duly executed by
each SEO and delivered to the Loan Parties
(with a copy to the UST) releasing the Loan
Parties from any claims the SEOs may otherwise have as a result of any modification of
the terms of any benefit plans, arrangements
and agreements to eliminate any provisions
that would not be in compliance with the
executive compensation and corporate governance requirements of Section 111 of the
EESA and the guidelines set forth in Notice
2008-PSSFI;
12. A waiver shall have been duly executed by
the Loan Parties and each Senior Employee
and delivered to the UST releasing the UST
from any claims that the Loan Parties and
such Senior Employees may otherwise have
as a result of the Loan Parties’ failure to
pay or accrue any bonus or incentive compensation as a result of the foregoing;
13. A waiver shall have been duly executed by
each Senior Employee and delivered to the

App.286a
Loan Parties (with a copy to the UST)
releasing the Loan Parties any claims that
the SEOs may otherwise have as a result of
the Loan Parties’ failure to pay or accrue
any bonus or incentive compensation as a
result of the foregoing;
14. No material pending or threatened litigation not otherwise disclosed to and approved
by Lender;
15. Payment of all fees and expenses due at the
Closing Date;
16. Satisfaction of the additional conditions precedent set forth on Appendix A; and
17. Delivery or performance (to the satisfaction
of the Lender) of all other conditions to
closing and due diligence items that may be
requested by the Lender.
Conditions Precedent to each Advance:
The obligation of Lender to make each Advance
(including the initial Advance) will be subject to the
satisfaction of the following conditions precedent:
1.

No unmatured Event of Default or Event of
Default shall have occurred and be continuing; and

2.

Other customary conditions precedent.

Covenants
Unless waived by Lender, the Loan Parties shall
be subject to customary covenants for this type of
transaction (with certain exceptions to be mutually
agreed), including, but not limited to the following

App.287a
negative covenants: (i) prohibition on redemption or
buyback of any capital stock of the Company (other
than pursuant to contracts existing as of December 2,
2008), (ii) restriction on transfer of assets, (iii) restriction on issuance of stock that would dilute the
Warrants, (iv) negative pledge, (v) no fundamental
change, (vi) limitation on transactions with affiliates,
(vii) prohibitions on any dividends and distributions
(or the economic equivalent) other than what is owed
to unaffiliated entities pursuant to contract or law as
of December 2, 2008, (viii) prompt notice of material
adverse change with respect to any Loan Party, (ix)
prohibition on creation of any new U.S. pension obligations until all U.S. pension plans maintained by
the Company or any of its subsidiaries have been
fully funded, and (x) such other covenants as may be
deemed appropriate by Lender.
Financial Covenants:
At all times, the Company must satisfy each of
the financial covenants set forth on Appendix A.
Events of Default:
Will include, but not be limited to each of the
following events (as the same relates to each Loan
Party):
1.

Breach of representations, warranties or
covenants or other terms and conditions of
the Facility;

2.

Default on any payment obligation under
the Facility;

3.

Bankruptcy/insolvency of any Borrower;

App.288a
4.

Going concern qualification with respect to
any Borrower or any Guarantor in any correspondence from its accountants;

5.

Change in control of any Borrower or any
Guarantor;

6.

Any Borrower’s or any Guarantor’s default
under any other debt or prepayment obligations the outstanding principal balance of
which equals or exceeds $10 million;

7.

Lender ceases to have a perfected first or
junior (as applicable) security interest or
ownership interest in any material portion
of the Collateral;

8.

Cross default to any other facility or arrangement between any Borrower or any Guarantor or any of their affiliates and Lender.

Upon the occurrence of any of the foregoing,
Lender shall have the option to declare that an Event
of Default has occurred, at which time the Facility
will terminate and all amounts owing with respect to
the Facility will be immediately due and payable
without presentment, demand, protest or notice of
any kind, all of which shall be waived by the Loan
Parties; provided, however, it is understood and
agreed that a bankruptcy or insolvency of any Loan
Party shall be immediately deemed an automatic
Event of Default without the need for Lender to
declare it as such. Lender shall be entitled to any
and all remedies pursuant to the Facility documents
and applicable law, each of which shall be cumulative
and in addition to every other remedy available to
the Lender.

App.289a
DIP Loan Conversion:
Upon the filing of a voluntary or involuntary
bankruptcy petition by or in respect of any Loan
Party, Lender shall have the exclusive right, exercisable
at its option, to convert this Facility into a debtor-inpossession facility in form and substance acceptable
to Lender.
Joint and Several Liability:
In the event of multiple Borrowers or Guarantors, such parties will be jointly and severally liable to
Lender for all representations, warranties, covenants,
obligations and liabilities of each of the Borrowers or
Guarantors, as applicable, under the Facility. An
unmatured Event of Default or an Event of Default
of one party will be considered an unmatured Event
of Default or an Event of Default by each party, and
Lender shall have no obligation to proceed against
one party before proceeding against the other party.
Such parties shall waive any defense to their obligations under the Facility based upon or arising out of
the disability or other defense or cessation of liability
of one party versus the other. A party’s subrogation
claim arising from payments to Lender shall constitute
a capital investment in another party subordinated
to any claims of Lender, and equal to a ratable share
of the equity interests in such party.
Summary of Warrant Terms
Warrant:
Under the terms of the commitment, the UST
will receive warrants to purchase common shares of
the Company.

App.290a
Exercise Price Per Share:
The 15 day trailing average price determined as
of December 2, 2008. The exercise price per share
shall be subject to anti-dilution adjustments.
Amount:
The total number of warrants will be equal to
20% of the Maximum Loan amount divided by the
Exercise Price per Share, provided that the number
of Warrants will be capped at 20% of the issued and
outstanding common equity interests of the company, before giving effect to the exercise of the
Warrants (“The Warrant Limit”).
Additional Notes:
In the event that the Warrant Limit reduces the
number of Warrants issuable to the UST, the UST
will receive Additional Notes in an amount equal to
6.67% of the Maximum Loan Amount less a sum
equal to one-third of the number of Warrants actually granted to the UST times the Exercise Price Per
Share.
Term:
Perpetual
Exercisability:
Immediately exercisable, in whole or in part, at
100% of its issue price plus all accrued and unpaid
dividends.

App.291a
Transferability:
The Warrants will not be subject to any contractual restrictions on transfer. The Company will file
a shelf registration statement covering the Warrants
and the Equity Interests underlying the Warrants as
promptly as practicable after the date of the investment
and, if necessary, shall take all action required to
cause such shelf registration statement to be declared
effective as soon as possible; provided, however, that
if the Company is not subject to the periodic reporting
requirements of Section 13 or 15(d) of the Exchange
Act, it need not file a shelf registration statement
unless and until it becomes subject to such requirements. The Company will also grant to the UST
piggyback registration rights for the Warrants and
the Warrant Shares and will take such other steps as
may be reasonably requested to facilitate the transfer
of the Warrants and the Warrant Shares. The Company will apply for the listing of the Warrant Shares
on the national exchange, if applicable, on which its
Equity Interests are traded and will take such other
steps as may be reasonably requested to facilitate
the transfer of the Warrants or the Warrant Shares.
Voting:
Prior to the occurrence of a Termination Event
or an Event of Default, the UST will agree not to
exercise voting power with respect to any shares of
Equity Interests of the Company issued to it upon
exercise of the Warrants.
Consent:
In the event that the Company does not have sufficient available authorized shares of Equity Interests

App.292a
to reserve for issuance upon exercise of the Warrants
and/or equity holder approval is required for such
issuance under applicable stock exchange rules, the
Company will call a meeting of its equity holders as
soon as practicable after the date of this investment
to increase the number of authorized shares of Equity
Interests and/or comply with such exchange rules,
and to take any other measures deemed by the UST
to be necessary to allow the exercise of Warrants into
Equity Interests.
Substitution:
In the event that the Company is not listed or
traded at any time on a national securities exchange
or securities association, or the consent of the Company’s stockholders described above has not been
received within 6 months after the issuance date of
the Warrants, the Warrants will be exchangeable, at
the option of the UST, for senior term debt or another
economic instrument or security of the Company
such that the UST is appropriately compensated for
the value of the Warrants, as determined by the
UST.
Optional Warrant Redemption:
At any time after the aggregate outstanding
Advances, with interest thereon at the applicable
Interest Rate, fees, expenses, indemnities and other
amounts due to Lender shall have been paid in full,
the Company shall have the right to repurchase any
equity security of the Company held by the UST at
fair market value or, if no recognized market for such
securities exists at the time of prepayment, at the value

App.293a
attributed to such securities by an independent third
party appraiser reasonably acceptable to Lender.
Private Companies:
If the Company is privately held, in lieu of warrants, the UST will receive additional notes (“Additional
Notes”) with the same priority and general terms as
the facility, in an amount equal to 6.67% of the Maximum Loan Amount.
Other Terms
Fees and Expenses:
The Loan Parties shall be responsible for any
and all legal fees, due diligence and other out-of-pocket
expenses incurred by or on behalf of the Lender in
connection with this Facility, whether or not the
Facility closes or funds.
Governing Law:
Applicable Federal law (including conflicts of law
rules), and in the absence of applicable Federal law,
the law of the State of New York, without regard to
conflict of laws doctrine applied in such state (other
than Section 5-1401 of the New York General Obligations Law).
Not a Commitment:
This term sheet is a summary of indicative terms
and conditions purely for discussion purposes, does
not constitute a commitment on the part of Lender
and is not binding on Lender. All terms described
herein are subject to due diligence satisfactory to
Lender, receipt of all appropriate credit and other

App.294a
required internal and external approvals, final documentation satisfactory in form and substance to
Lender and its legal counsel.
The undersigned hereby confirm that they have
reached an agreement in principle consistent with the
annexed Indicative Summary of Terms for Secured
Term Bridge Loan Facility.
United States Department of the Treasury
/s/ Neel Kashkari
Interim Assistant Secretary
For Financial Stability
Dated: December 19, 2009
The undersigned hereby confirm that they have
reached an agreement in principle consistent with
the annexed Indicative Summary of Terms for Secured
Term Bridge Loan Facility.
Chrysler Holding LLC
Signature not legible
Dated: December 19, 2009
The undersigned hereby confirm that they have
reached an agreement in principle consistent with
the annexed Indicative Summary of Terms for

App.295a
Secured Term Bridge Loan Facility.
United States Department of the Treasury
/s/ Neel Kashkari
Interim Assitant Secretary
For Financial Stability
Dated: December 19, 2009
The undersigned hereby confirm that they have
reached an agreement in principle consistent with
the annexed indicative Summary of Terms for
Secured Term Bridge Loan Facility.
Chrysler Holding LLC
Signature not legible
Dated: December 19, 2009

App.296a

APPENDIX A TO SECURED TERM LOAN FACILITY
APPENDIX A TO SECURED BRIDGE LOAN FACILITY
CHRYSLER
Additional Terms
Company:
Chrysler Holding LLC
Borrower(s):
The Company and any successor entities thereto.
Guarantor(s):
CarCo Intermediate HoldCo I and all of its
direct and indirect domestic subsidiaries, on a joint
and several basis.
To the extent permissible under existing agreements, FinCo Intermediate HoldCo LC and Daimler
Chrysler Financial Services Americas LLC (the
“Finance Companies”) shall guarantee the Loan
Amount up to $2.0 billion. Any portion of the $2.0
billion amount that cannot be guaranteed by Finance
Companies shall be paid from distributions received
by the Borrower from the Finance Companies.
Closing Date:
December 29, 2008
Loan Amount:
Up to $4.0 billion, available on the Closing Date.

App.297a
Use of Funds:
The Borrower shall contribute the proceeds to
Chrysler LLC simultaneously with the funding of
Advances with respect thereto, to be used for general
business purposes.
Expiration Date:
December 29, 2011 at 5:00 pm Washington, DC
time.
Payment Date:
The last business day of each calendar quarter,
commencing with the first calendar quarter in 2009.
LIBOR Floor:
2.00%
Spread Amount:
300 basis points; provided that upon the occurrence
and during the continuance of an Event of Default,
the Spread Amount shall be equal to 800 basis
points.
Financial Covenants:
TBD
Additional Conditions Precedent:
The requisite majority of the holders of the
Chrysler LLC first lien indebtedness and second lien
indebtedness (under the Chrysler LLC First Lien
Credit Agreement and Second Lien Credit Agreement) shall have consented in writing to the pledge

App.298a
to the Lender of the MOPAR Parts Inventory and the
real estate collateral not mortgaged to such holders.
Due Diligence Items and Closing Checklist:
TBD
Collateral:
To the extent legally and contractually permissible, the applicable Loan Parties shall grant to Lender
first-priority liens on all unencumbered assets, and
junior liens on all encumbered assets. Notwithstanding anything herein to the contrary, the Loan Parties
shall use their best efforts to obtain all necessary
waivers, amendments, approvals, or consents, as the
case may be, to enable the Loan Parties to grant any
such lien to the Lender as security for their respective
obligations under the Facility.
Relevant Companies:
Chrysler Holding LLC and Chrysler LLC

